<html>
<title> - EXAMINING THE FISCAL YEAR 2016 BUDGET REQUESTS FOR THE U.S. DEPARTMENT OF COMMERCE AND THE U.S. DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 114-144]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-144

                 EXAMINING THE FISCAL YEAR 2016 BUDGET
                  REQUESTS FOR THE U.S. DEPARTMENT OF
                  COMMERCE AND THE U.S. DEPARTMENT OF
                             TRANSPORTATION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


      
                         U.S. GOVERNMENT PUBLISHING OFFICE
98-212 PDF                      WASHINGTON : 2016                         
                                    
________________________________________________________________________________________    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4522352a05263036312d2029356b262a286b">[email&#160;protected]</a>  
    
    
      
      
      
      
      
      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 3, 2015....................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Cantwell....................................     2
    Prepared statement...........................................     2
Statement of Senator Fischer.....................................    19
Statement of Senator Schatz......................................    21
Statement of Senator Moran.......................................    22
Statement of Senator Wicker......................................    24
Statement of Senator Blumenthal..................................    26
Statement of Senator Manchin.....................................    27
Statement of Senator Markey......................................    31
Statement of Senator Udall.......................................    32
Statement of Senator Gardner.....................................    34
Statement of Senator Sullivan....................................    36
Statement of Senator Peters......................................    39
Statement of Senator Daines......................................    41

                               Witnesses

Hon. Penny Pritzker, Secretary, U.S. Department of Commerce......     4
    Prepared statement...........................................     5
Hon. Anthony R. Foxx, Secretary, U.S. Department of 
  Transportation.................................................     9
    Prepared statement...........................................    10

                                Appendix

Response to written questions submitted to Hon. Penny Pritzker 
  by:
    Hon. John Thune..............................................    43
    Hon. Marco Rubio.............................................    48
    Hon. Kelly Ayotte............................................    53
    Hon. Jerry Moran.............................................    53
    Hon. Bill Nelson.............................................    61
    Hon. Amy Klobuchar...........................................    68
    Hon. Richard Blumenthal......................................    69
    Hon. Edward Markey...........................................    71
    Hon. Cory Booker.............................................    73
    Hon. Tom Udall...............................................    74
Response to written questions submitted to Hon. Anthony R. Foxx 
  by:
    Hon. John Thune..............................................    80
    Hon. Jerry Moran.............................................    92
    Hon. Bill Nelson.............................................    99
    Hon. Amy Klobuchar...........................................   102
    Hon. Maria Cantwell..........................................   103
    Hon. Cory Booker.............................................   104
    Hon. Richard Blumenthal......................................   108
    Hon. Tom Udall...............................................   110
    Hon. Gary Peters.............................................   117

 
EXAMINING THE FISCAL YEAR 2016 BUDGET REQUESTS FOR THE U.S. DEPARTMENT 
         OF COMMERCE AND THE U.S. DEPARTMENT OF TRANSPORTATION

                              ----------                              


                         TUESDAY, MARCH 3, 2015

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:01 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Ayotte, 
Fischer, Sullivan, Moran, Johnson, Gardner, Daines, Cantwell, 
Klobuchar, Blumenthal, Schatz, Markey, Booker, Udall, Manchin, 
and Peters.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning. This hearing will come to 
order.
    We are here today to examine the administration's budget 
request for the Departments of Commerce and Transportation, the 
two leading Departments under this committee's jurisdiction.
    I am sorry to report that Ranking Member Nelson is fighting 
the flu and will not be joining us today. So Senator Cantwell 
is here to very ably serve as Ranking Member.
    And I know my colleagues will all be pleased to hear that 
we are not going to do opening statements up here today because 
in the interest of time, we are going to get right to our 
cabinet Secretaries and allow them to make their comments.
    I just want to note that we are pleased to welcome 
Secretaries Pritzker and Foxx back to the Committee. Secretary 
Pritzker was last here in November 2013, encouraging us to move 
legislation on manufacturing, which we finally did late last 
year. And for his part, Secretary Foxx is back to continue the 
conversation on reauthorization of the surface transportation 
law, which was the subject of his May 2014 appearance before 
the Committee. No doubt this will not be our last discussion of 
that subject.
    So, indeed, tomorrow Senator Fischer's subcommittee is 
going to begin a series of hearings on the reauthorization with 
the first focusing on the Federal Motor Carrier Safety 
Administration.
    And you all are very fortunate as well that we have a short 
timeline today. You will not get the full monty from the 
Committee here I guess, so to speak, in terms of the questions. 
But we do have something we have to get over to the Capitol 
for, as I think you all, know later. So we will try and be as 
efficient here as possible today.
    And I want to turn now to Senator Cantwell, if she would 
like to make an opening statement.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Mr. Chairman, I thought we were going to 
skip those this morning. So I will put mine in the record.
    [The prepared statement of Senator Cantwell follows:]

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington
    Thank you, Mr. Chairman.
    The foundation of our country's success was built by great 
Americans with big ideas. Whether it was the way our country 
revolutionized the manufacturing of cars or constructed the 
transcontinental railroad--these big transportation ideas helped our 
country become a global leader.
    We see the legacy of these ideas in our country's ports, bridges, 
airports, highways, and rails today. Every corner of the country, every 
state, and every city continues to rely on visionary investments of 
past generations.
    But today, our country is hitting pothole after pothole. Where we 
once planned for the future growth of our country, we now scramble just 
to maintain what we have. And we struggle to even meet that challenge.
    It's time that we do more. And I believe that we must begin this 
process now.
    That's why I am so pleased to see our distinguished panel here 
today.
    Secretary Foxx, in the Department's budget and thirty year plan, 
the Administration is looking at how to meet the long-term challenges 
our country is facing.
    And let's be honest, those challenges are numerous.
    They range from underinvestment in our transportation 
infrastructure to important, long-delayed rulemakings on the movement 
of crude-by-rail.
    Which is a topic I will be discussing more in my questions.
    But if we don't rise to the broader infrastructure challenge, then 
our economy, global competitiveness, and the safety of the traveling 
public will suffer.
    In fact, we are suffering already. Projects that are ready-to-go 
get pushed further and further down the road, because there aren't 
resources to support them.
    That includes a dedicated source of revenue for freight mobility 
projects, something else I care deeply about and hope to improve in our 
next surface bill.
    I'm pleased that the Department proposed $18 billion over six years 
for a new, national freight program.
    We need to get the policy right, and then we need to get funding 
behind it. That's what the National Freight Advisory Committee told us 
in recommendations last July. And that's what I'm working on as we 
speak.
    Furthermore, the Department's budget recognizes the need to 
prioritize the safety of the driving public by proposing a significant 
increase in funding for the National Highway Traffic Safety 
Administration (NHTSA).
    The recent debacles involving General Motors and Takata airbags 
have once again highlighted the need to provide the National Highway 
Traffic Safety Administration (NHTSA) with more resources and employees 
so that it can quickly identify, investigate and address safety defects 
in vehicles.
    The National Highway Traffic Safety Administration's (NHTSA) safety 
budget has long been flat-lined for over a decade, and it's time we end 
this trend.
    As we gear up for reauthorization on the aviation front, we need to 
continue efforts to modernize our air traffic control system through 
``NextGen,'' which will enable the Federal Aviation Administration 
(FAA) to lay the groundwork for future technologies that will improve 
the safety, efficiency, and capacity of air travel here in the United 
States.
    Other areas of safety must also remain a critical focus of the 
Federal Aviation Administration (FAA). While I was encouraged to see 
the proposed rule on small unmanned aircraft systems (UAS) released a 
few weeks back, I believe that much work remains to protect the public 
both in the air and on the ground.
    The proposed rule would create an important framework for 
businesses to use small unmanned aircraft systems (UAS) for engaging in 
dangerous or difficult jobs, creating new opportunities for small 
businesses and making hard work safer.
    Unfortunately, I am concerned that the current framework does not 
do enough to stem the dangerous trend of reckless unmanned aircraft 
system (UAS) operation near aircraft, airports, and other sensitive 
areas.
    In fact, just last month, we saw how easy it was for an unmanned 
aircraft system (UAS) to penetrate the grounds of the White House. 
These are safety and security concerns that we must continue to 
address, whether through geo-fencing technology or other common-sense, 
targeted regulation.
    I also want to make sure that UAS operators which are not covered 
by the new rule are allowed to safely test and develop their 
technologies in the United States. Many American companies, Mr. 
Secretary, have been forced to move their testing to countries such as 
Australia, Canada, The United Kingdom, and Israel. I think this is a 
deeply troubling trend, and I hope that we will redouble our efforts to 
find a way to allow this important work to continue in the United 
States in a safe and efficient manner.
    I hope I have your commitment, Mr. Secretary, to work on this and 
other safety concerns going forward.
Commerce
    Secretary Pritzker, there aren't many national priorities that the 
Commerce Department doesn't touch. From manufacturing to weather 
forecasting--your Department directly impacts the daily lives of 
Americans.
    I look forward to bringing you to Washington state, because we have 
got it all: technological innovators, large-scale manufacturing, world-
class fisheries, and coastal hazards.
    Last year, the Commerce Committee led the Senate's legislative 
efforts to promote advance manufacturing in the United States, and I am 
pleased that the President's budget builds off of this work.
    The Committee favorably reported and Congress eventually passed the 
Revitalize American Manufacturing and Innovation Act, introduced by 
Senators Brown and Blunt, which authorized the establishment of 
advanced manufacturing institutes. The President's budget proposes to 
expand these manufacturing institutes all across America.
    I am also very supportive of the Administration's proposal to 
increase funding for cybersecurity initiatives. Last year, the National 
Institute of Standard and Technology (NIST) released its Framework for 
Improving Critical Infrastructure Cybersecurity, which has been the 
recipient of universal praise.
    The Administration's budget builds off of the Framework and devotes 
increased resources to government efforts to protect our networks from 
cyberattacks. The dangers posed to the American public by cyberattacks 
cannot be overstated--as a nation, we must make this issue a top 
priority.
    Though, we have significant investments to make when it comes to 
oil spill research--which in part is conducted by the National Oceanic 
and Atmospheric Administration.
    Twenty-six years ago this month, the Exxon-Valdez oil tanker ran 
aground in Prince William Sound, Alaska, spilling 10.8 MILLION GALLONS 
of oil into the ocean. While much of the oil has been cleaned up, there 
are lasting impacts. The Pacific Herring population there has not 
rebounded.
    Next month will mark five years since the Deepwater Horizon oil rig 
exploded in the Gulf of Mexico. I look forward to hearing more about 
spill science, natural resource damage assessment and habitat 
restoration. Because unfortunately, Exxon-Valdez was not the first--and 
Deepwater Horizon was not the last--oil spill that we will face.
    The budget also requests investment to construct a new NOAA ocean 
survey vessel. This ship will have a flexible platform from which NOAA 
can study fisheries, research marine mammals, and maintain our nations 
DART buoys which alert us to incoming tsunami.
    I am concerned about cuts to salmon programs, fishery observer 
coverage and other restoration lines. Our fisheries fuel our vibrant 
maritime economy in Washington state and support ONE MILLION fishing 
jobs across the Nation. I look forward to hearing more about those 
issues during the NOAA Budget hearing later this year.
    I also want to take a moment to commend the work done by the 
National Telecommunications and Information Administration (NTIA) in 
planning and preparing for the recent spectrum auction held by the 
Federal Communications Commission (FCC). I think it is fair to say that 
the whole world has noticed the success of that auction--and a great 
deal of the credit for that goes to the hard work done by the National 
Telecommunications and Information Administration (NTIA) in overseeing 
and coordinating the efforts by other Federal agencies and stakeholders 
to come up with a reasonable and effective plan for transitioning 
Federal spectrum to commercial use. My hope is that this effort becomes 
a model for how everyone works to make additional, scarce spectrum 
available to commercial users while preserving essential Federal 
operations.
    I look forward to working with you, Mr. Chairman, on all of these 
issues.

    The Chairman. I just wanted to make sure I gave you that 
opportunity. Thank you, Senator Cantwell.
    We will turn now to our witnesses. Secretary Pritzker, the 
Commerce Department was established about 50 years before the 
Department of Transportation, and NOAA traces its history back 
to the first decade after the Revolution, believe it or not. So 
you go first, Secretary Pritzker.

         STATEMENT OF HON. PENNY PRITZKER, SECRETARY, 
                  U.S. DEPARTMENT OF COMMERCE

    Secretary Pritzker. Thank you very much. Chairman Thune, 
Senator Cantwell, and members of the Committee, thank you for 
this opportunity to lay out the priorities of President Obama's 
Fiscal Year 2016 budget request for the Department of Commerce.
    This budget advances the core tenets of our Department's 
mission to develop and implement policies that support economic 
growth, enhance our country's competitiveness and global 
leadership, as well as strengthen America's businesses both at 
home and abroad.
    To support this mission, the Fiscal Year 2016 budget 
provides $9.8 billion in discretionary funding to reinforce the 
priorities of the Department's strategy, our ``open for 
business'' agenda, by promoting U.S. exports, trade, and 
investment, by spurring high-tech manufacturing and innovation, 
by unleashing more data for economic benefit, by gathering and 
acting on environmental intelligence, and by making our 
agencies' operations more efficient and effective.
    Today I want to highlight some key initiatives supported by 
this budget.
    First, the Census Bureau creates data products used by 
businesses, policymakers, and the public. And this budget 
reflects the fact that this is a critical year for the 
preparation of the 2020 Census as we test the use of 
administrative records, re-engineered field operations, and 
Internet data collection, create new systems to improve the 
quality of the Census, and develop plans for the fiscal years 
2017 and 2018 integrity test of the entire process, all leading 
to a potential savings of $5 billion to taxpayers. To achieve 
these savings, we must invest today.
    Another part of our agenda is to help communities and 
businesses prosper in a changing environment. NOAA's budget 
will enhance our ability to meet this goal through two 
investments. First, the budget proposes $2.4 billion to fully 
fund the next generation of weather and environmental 
satellites. Funding the development and launch of future 
satellites is absolutely critical to reduce the risk of a 
potential gap in weather data in 2017 and beyond. Second, the 
budget requests $147 million to develop a high-endurance, long-
range ocean survey vessel. Immediate action is necessary to 
maintain our critical ocean observing capabilities. Making this 
investment this year will enable NOAA to take advantage of the 
Navy's design work and project management team which will save 
taxpayers millions of dollars in acquisition and design costs.
    For generations, manufacturing has been a key to U.S. 
innovation, a source of middle class jobs, and a pillar of our 
global leadership. Over the last 5 years, America's 
manufacturers have added 870,000 jobs, growing for the first 
time in decades. Recognizing the importance of manufacturing to 
our competitiveness, Congress passed the Revitalize American 
Manufacturing and Innovation Act, which calls for the expansion 
of the National Network for Manufacturing and Innovation. This 
initiative brings together industry, university researchers, 
community colleges, NGOs, and government to accelerate the 
development of cutting-edge manufacturing technologies. Our 
Fiscal Year 2016 budget requests funding, first, to support and 
coordinate current and future NNMI institutes and, second, to 
support two institutes led by the Commerce Department which 
will focus on manufacturing technologies that industry 
determines have the most potential.
    This budget will also provide the International Trade 
Administration with the resources needed to advance President 
Obama's robust trade agenda and to help U.S. businesses expand 
their exports and reach the 95 percent of customers who live 
outside of the United States.
    Finally, our budget requests $24 million for the renovation 
of our Department's headquarters to enable us to make better 
use of our space and ultimately to reduce the amount of funds 
required to house our employees.
    These priorities only scratch the surface of our 
Department's work to support U.S. businesses, communities, and 
our economy.
    I look forward to answering your questions today and to 
partnering with this committee to keep America open for 
business. Thank you.
    [The prepared statement of Secretary Pritzker follows:]

         Prepared Statement of Hon. Penny Pritzker, Secretary, 
                      U.S. Department of Commerce
    Chairman Thune, Ranking Member Nelson, and members of the 
Committee, thank you for this opportunity to discuss with you President 
Obama's Fiscal Year 2016 (FY16) Budget Request for the U.S. Department 
of Commerce. The investments included in the FY16 Budget request build 
upon the important investments you enacted in FY15 and I am grateful 
for your support.
    The Department plays a critical role in promoting U.S. economic 
growth and providing vital scientific and environmental information. To 
support this mission across its diverse bureaus, the Budget provides 
$9.8 billion in discretionary funding for Commerce. This funding level 
will enable key investments in areas such as promotion of exports and 
foreign investment; development of weather satellites; wireless and 
broadband access; and research and development to support long-term 
economic growth. At the same time, efficiency gains, such as 
streamlining operations in the Census Bureau and reductions in lower-
priority activities enable Commerce to reduce costs and operate more 
efficiently.
    The FY16 Budget request reflects and advances the priorities of the 
Department's ``Open for Business'' Agenda. It maintains our role as the 
voice of business in the Obama Administration by making critical 
investments in areas that will grow our economy and create good 
American jobs. This Budget prioritizes promoting U.S. trade and 
investment, spurring high-tech manufacturing and innovation, unleashing 
more of our data, and gathering and acting on environmental 
intelligence, while also streamlining operations to help businesses 
grow. We are committed to working with Congress to achieve these goals 
so we can continue to build on our economic momentum and keep America 
more competitive in the global economy.
    The FY16 Department of Commerce Budget includes key investments in 
the following areas:
Strengthening U.S. Trade and Investment:
    Increasing trade and investment is critical to growing our economy. 
Exports have driven nearly one-third of economic growth since 2009 and 
support 11.3 million jobs. 96 percent of companies that export are 
Small and Medium Enterprises (SMEs). Today, 95 percent of potential 
customers are outside our borders and growing the number of export-
related jobs, which pay up to 18 percent more on average, will require 
expanding our ability to reach these foreign markets.
    The Budget includes $497 million for the International Trade 
Administration (ITA) to strengthen the competitiveness of U.S. 
industry, promote job-creating trade and investment, and ensure fair 
trade through the rigorous enforcement of our trade laws and 
agreements. Funding for ITA includes $15 million to accelerate 
operations of the Interagency Trade Enforcement Center (ITEC), a multi-
agency effort to address unfair trade practices and barriers that 
impede U.S. exports.
    The Budget also provides $20 million within ITA to further 
strengthen SelectUSA, which is the government-wide effort to promote 
and facilitate business investment into the United States. From a vast 
domestic market, to a transparent legal system, to the most innovative 
companies in the world, America is the place for business. Building 
upon the successes of the inaugural SelectUSA Summit in 2013, the 
Department will host its second SelectUSA Investment Summit in March 
2015. Other funds will support ITA's efforts to make it easier for U.S. 
companies of all sizes to reach consumers who live beyond our borders, 
including program and policy improvements to provide exporters more 
tailored assistance and to strengthen partnerships at the state and 
local level that support export promotion and foreign direct investment 
attraction strategies.
    The President's FY16 Budget requests $115 million for the Bureau of 
Industry and Security (BIS). Following the successful realignment of 
significant license application responsibilities from the Department of 
State to BIS, our capacity-building now focuses on fully funding export 
administration while enhancing export enforcement. Approximately 43,000 
of the license applications that the State Department has processed 
annually are becoming the responsibility of the Commerce Department's 
BIS, either as Commerce licenses, license exceptions, or other 
authorizations. This is almost a doubling of the 24,782 license 
applications that BIS processed in FY13, prior to any of the transfers 
from the State Department.
    The requested level of funding will allow us to increase the number 
of enforcement agents within BIS to ensure enforcement of export 
controls and compliance-related activities to ensure that exporters and 
re-exporters are following our export control regulations.
    If we are to ensure that we can export U.S. goods more quickly, 
while also ensuring that sensitive technologies do not end up in the 
wrong hands, we must be able to educate exporters and re-exporters 
about our regulations and their responsibilities, and we must put 
sufficient teeth into our enforcement efforts. Strong enforcement 
levels the playing field for U.S. exporters, while lax enforcement 
threatens our national security and permits violators to flourish at 
the expense of the compliant.
    To continue supporting the national growth of minority-owned U.S. 
businesses, the Budget includes $30 million for the Minority Business 
Development Agency. Minority owned firms make a significant and 
valuable contribution to our economy and export at a higher rate 
compared to all U.S. firms. This investment will promote further growth 
and global competitiveness of our Nation's minority-owned businesses.
Spurring Innovation, Growth and Competitiveness:
    Strengthening U.S. Manufacturing: As global competition continues 
to increase, the United States must find ways to foster the innovation 
that produces economic growth and creates well-paying middle-class 
jobs. A national effort to create institutes focused on advanced 
manufacturing innovation will accelerate development and adoption of 
cutting-edge manufacturing technologies for new products that can 
compete in international markets. The National Network for 
Manufacturing Innovation (NNMI) provides an advanced manufacturing 
research infrastructure where U.S. industry and academia collaborate to 
solve industry-relevant problems. To date, five institutes, funded by 
the Department of Defense and the Department of Energy, have been 
launched, involving more than 300 companies and universities and 
attracting $480 million in private funding in the institutes. NNMI will 
keep America on the front-lines of discovery, which will result in our 
businesses, our manufacturers, and the American economy becoming more 
competitive in the 21st century global economy.
    The Budget supports the President's vision of creating a full 
national network, expanding NNMI with up to 45 manufacturing innovation 
institutes across the Nation during the next ten years. In total, the 
Budget includes discretionary funding for seven new institutes in FY16, 
including $140 million for the first two Commerce-led institutes. The 
Budget includes an additional $10 million for the National Institute of 
Standards and Technology (NIST) to coordinate the activities of the 
current and future institutes, leveraging the authorities in the 
bipartisan Revitalize American Manufacturing and Innovation Act (RAMI), 
enacted as part of the Consolidated and Further Continuing 
Appropriations Act, 2015, thanks to your support.
    The Budget also provides $141 million for NIST's Hollings 
Manufacturing Extension Partnership (MEP), which will continue to focus 
on expanding technology and supply chain capabilities to support 
cutting edge technology adoption by smaller manufacturers to improve 
their global competitiveness.
    Manufacturing is a key sector of the U.S. economy and is important 
for boosting exports. Small and medium sized manufacturers contribute 
significantly to America's exports. Twenty-three percent of 
manufacturing firms are exporters, and the most recent data shows that 
97 percent of manufacturing exporters are small and medium size 
companies. The investments proposed in the Department's budget to 
support manufacturing growth will help more U.S. firms achieve success 
at home and abroad.
    Supporting 21st Century Economic Development: Economic Development 
helps create the conditions for economic growth and improved quality of 
life by expanding the capacity of individuals, firms, and communities 
to maximize the use of their talents and skills to support innovation, 
lower transaction costs, and responsibly produce and trade valuable 
goods and services. The Budget invests $273 million in the Economic 
Development Administration (EDA) to support innovative community 
planning, regional capacity building, and capital projects. Within this 
amount, $25 million is included for the Regional Innovation Strategies 
Program to promote economic development projects that spur 
entrepreneurship and innovation at the regional level. The EDA Budget 
also includes $39 million for Partnership Planning to support local 
organizations with their long-term economic development planning 
efforts and outreach. Additionally, $53 million is provided for 
Economic Adjustment Assistance for critical investments such as 
economic diversification planning, and implementation, technical 
assistance, and access to business start-up facilities and equipment. 
Further, the budget request includes $85 million for public works 
investments.
    Supporting the Digital Economy: The FY16 Budget request 
demonstrates the Administration's continued commitment to broadband 
telecommunications as a driver of economic development, job creation, 
technological innovation, and enhanced public safety. The investment of 
$49.2 million will allow the National Telecommunications and 
Information Administration to develop, implement, and advocate policies 
to help meet challenges related to the digital economy, Internet 
openness, privacy, and security. The President's broadband vision of 
freeing up 500 MHz of Federal spectrum, promoting broadband competition 
in communities throughout the country, and connecting over 99 percent 
of schools to high-speed broadband connections through the ConnectED 
initiative will create thousands of quality jobs and ensure that 
students have access to the best educational tools available.
    The Budget supports implementation of telecommunications provisions 
enacted in the Middle Class Tax Relief and Job Creation Act of 2012, 
which are expected to reduce the deficit by more than $40 billion over 
the next 10 years through spectrum auctions. These auctions will 
increase commercial access to wireless broadband spectrum while fully 
funding an interoperable public safety and first responder broadband 
network.
    Beyond our efforts to promote innovation, the Budget highlights the 
Administration's commitment to cybersecurity by supporting NIST's 
efforts to work with industry on implementing the Cybersecurity 
Framework of standards and best practices, as well as sustaining 
initiatives associated with cybersecurity automation, cybersecurity 
information, and the National Strategy for Trusted Identities in 
Cyberspace (NSTIC).
    Spurring Innovation for American Businesses: Through implementation 
of the America Invents Act, the U.S. Patent and Trademark Office 
(USPTO) continues to make it easier for American entrepreneurs and 
businesses to bring their inventions to the marketplace sooner, 
converting ideas into new products and new jobs. The Budget supports a 
program level of $3.5 billion for USPTO, a level that would allow USPTO 
to fund operations and to further implement administrative actions 
proposed by the President's Patent Task Force.
    Fueling a Data-Driven Economy: Data is the fuel that powers the 
21st century economy, and Commerce Department data touches every 
American and informs business decisions every day. The Budget will 
support data-related efforts ranging from our preparations for the 2020 
Census to unleashing more NOAA data through public-private 
partnerships.
    Improving Federal Statistical Measures: The Budget provides $1.5 
billion to provide critical support for the U.S. Census Bureau to 
research, test, and implement innovative design decisions made at the 
end of 2015. Funding in FY16 supports the rapid system and operational 
development necessary to achieve the goal of conducting a Census at a 
lower cost per household than in the 2010 Census, potentially saving up 
to $5 billion compared to the costs of repeating the 2010 Census design 
in 2020. We have to invest in research and testing now to ensure the 
2020 Census model works to produce a quality and cost effective census 
when it is implemented. The Budget also includes a planned cyclical 
increase for the Economic Census. The Budget includes $10 million in 
additional funding for the Census Bureau to lay the ground for 
acquiring and processing administrative data sets in an administrative 
records clearinghouse that will benefit program evaluation and 
statistical work across the government as well as amongst private 
researchers. The Bureau will accomplish this by building on its 
existing strengths to develop a more comprehensive infrastructure for 
linking, sharing, and analyzing key datasets.
    Gathering and Acting on Environmental Intelligence: The 
Department's environment agenda aims to help communities and businesses 
prepare for and prosper in a changing environment through the models, 
assessments, forecasts, and tools generated based on data from our 
network of satellites, ships, and world-wide sensors.
    The Budget provides $6.0 billion to advance the National Oceanic 
and Atmospheric Administration's (NOAA) ability to understand and 
anticipate changes in the Earth's environment, improve society's 
ability to make scientifically informed decisions, deliver vital 
services to the economy and public safety, and conserve and manage 
ocean and coastal ecosystems and resources. The Budget invests in 
NOAA's observational infrastructure, including $2.4 billion to fully 
fund NOAA's weather and space weather satellite programs. This includes 
$380 million for the Polar Follow-On satellite program which minimizes 
the risk of a gap after JPSS 2, allowing for a launch schedule that is 
necessary to improve the robustness of the satellite systems that 
provide critical weather data.
    The Department continues its commitment to support a Weather-Ready 
Nation, and evolve the National Weather Service to become a more agile 
decision support organization capable of providing more accurate and 
more timely weather forecasts. The United States has the greatest 
number and greatest variety of severe weather events of any country on 
the planet. The Budget invests $1.1 billion for the National Weather 
Service, including funding increases for critical infrastructure.
    The President's Budget makes investments to fill information needs 
in observations, surveys, and fisheries management, including $147 
million for a new ocean survey vessel. The Budget also provides $50 
million for an expanded Regional Coastal Resilience Grant Program, 
which will help reduce the risks and impacts associated with extreme 
weather events and changing ocean conditions and uses, along with $30 
million for ocean acidification research to improve understanding of 
its impacts and support tool development and adaptive strategies for 
affected industries and stakeholders. Additionally, the Budget requests 
an increase of $19 million for expanded Endangered Species and 
Magnuson-Stevens Act consultation capacity that will reduce permitting 
timeframes.
    Streamlining Operations: To further the President's goals of 
improving customer service and enhancing the efficiency of government, 
the Budget includes $6 million to support a Commerce Digital Services 
team to adopt private sector best practices and recruit talent to 
improve Commerce's information technology systems. This team will be 
responsible for driving the efficiency and effectiveness of the 
Agency's highest impact, client focused information technology systems. 
In addition, the Budget includes $3 million to support the development 
of an ``Idea Lab,'' which will house a team dedicated to incubating and 
investing in innovative approaches to more efficiently and effectively 
meet Agency strategic goals and objectives through greater employee 
engagement.
    Securing the Department's Systems and Infrastructure: Cybersecurity 
is a very high priority for the Department. Our strategic plan's 
Operational Excellence goal calls for an improvement in the 
Department's cybersecurity enterprise architecture, and the 
Department's FY 2016 budget request enhances network security, incident 
response, and other activities in support of this plan. We are 
currently in the process of deploying a Department-wide system for 
continuous monitoring of several key security controls. This is the 
first operational cybersecurity capability to be deployed Department-
wide at Commerce.
Conclusion
    With the FY16 Budget, the Department seeks to advance the core 
tenets of its mission: to create the conditions for economic growth; 
help U.S. businesses expand; and to ensure that America stays 
competitive, stays ahead, and continues to lead the global economy in 
the 21st century. The smart investments proposed in President's FY16 
Budget will support a globally competitive economy by promoting trade 
and investment, spurring innovation, fueling a data-driven economy, and 
gathering and acting on environmental intelligence. With this budget, I 
am confident that we will keep America ``Open for Business.'' I look 
forward to working with the Committee to achieve these important goals.

    The Chairman. Thank you, Secretary Pritzker.
    Secretary Foxx?

         STATEMENT OF HON. ANTHONY R. FOXX, SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Secretary Foxx. Thank you, Mr. Chairman and Ranking 
Member--today--Senator Cantwell. Thank you so much. It is great 
to be with you, as well as with all the members of the 
Committee.
    I am very glad to be joined today by my colleague, 
Secretary Pritzker, of the Commerce Department and appreciate 
her great work.
    Mr. Chairman, a tidal wave is coming. It is a tidal wave of 
people and of passengers and goods. In just 30 years' time, we 
are going to have to squeeze into this country a population 
larger than New York, Texas, and Florida all combined. Seventy 
million more people will call America home in 30 years. Air 
traffic will shoot up by 50 percent. Demand for inter-city 
passenger rail will also rise significantly, and for every 10 
trucks now on the road, there will be four more in the year 
2045. And they will be carrying a large part of the additional 
29 billion tons of freight we will have to move every year. 
That is a weight so big that if it came through America's 
ports, it would take all 360 of them more than a decade to 
move.
    A tidal wave is coming for us, Mr. Chairman, and the 
question is--are we going to choke on our own growth or are we 
going to build for it?
    Well, last spring, this administration sent Congress the 
GROW AMERICA Act to help answer this question. Instead, what 
our transportation system received last year was no growth in 
funding at all. In fact, we received flat funding with no 
meaningful policy reforms for just 10 months.
    What happened next was predictable. States like Delaware, 
Arkansas, and Tennessee looked at the short-term measure and 
mothballed $1 billion worth of projects because of how much 
uncertainty it created in the system. Thousands of potential 
jobs were lost and so were 10 months that we could have spent 
preparing for the next generation.
    In the weeks and months to come, we will see more states 
make the same difficult choices and potentially destructive 
choices as we get closer to the expiration of our spending 
authority. And all this is why the administration will be 
coming back again in the next few weeks and sending Congress a 
new and improved GROW AMERICA Act, a 6-year, $478 billion bill. 
The new GROW AMERICA would not just give states the long-term 
funding they need to build, nor would it just give the system 
the 50 percent bump in funding it needs, it would also save 
people's lives because a growing population is not just a 
capacity issue, it is also a safety issue. When 70 million more 
people are crowding the system, the room for error is much 
smaller, and GROW AMERICA would make the chance for error as 
small as it has ever been.
    It would allow us, for example, to step up our prosecution 
of unsafe bus companies. It would beef up the National Highway 
Traffic Safety Administration, doubling the number of 
investigators who are tasked with uncovering car defects. It 
would provide dedicated funding from our Transportation Trust 
Fund to make investments in a first-class rail network that 
will alleviate highway congestion and allow for the smoother 
and more efficient movement of freight on our highways and 
railways. It would also include needed funding for rail safety, 
including funding for grade crossings which have been a hot 
topic of discussions after the recent incidents in New York and 
California.
    In the end, Mr. Chairman, when more traffic hits our roads, 
the roads will not expand by themselves to relieve congestion, 
nor will cars automatically get safer to navigate, and when 
more passengers show up at our airports, more flights will not 
be safely added by default.
    All of that requires leadership from all of us, and that is 
why I look forward to working with you and with all of Congress 
on surface reauthorization now and aviation legislation in the 
coming months.
    With that, thank you, Mr. Chairman.
    [The prepared statement of Secretary Foxx follows:]

        Prepared Statement of Hon. Anthony R. Foxx, Secretary, 
                   U.S. Department of Transportation
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you for the opportunity to appear before you to talk 
about the President's $94.7 billion Fiscal Year (FY) 2016 Budget 
Request for our transportation programs and the importance of these 
programs to our economy and job creation. This is a critical area for 
our Nation, and it is critically important that we work together to 
enact the priorities reflected in this budget that make much-needed 
investments in our Nation's infrastructure, provide long-term funding 
certainty to States and local governments, and implement policies that 
modernize the Federal programs to meet our current challenges.
    Over the last year, I traveled across the country--to engage with 
local officials, business leaders, and everyday people about the state 
of our transportation system. In the Spring last year, I spent a week 
traveling by bus from Ohio to Texas stopping in cities and one-
stoplight towns along the way. Just two weeks ago I took a similar 
trip, starting in Florida and stopping in cities on our way back to 
Washington D.C. What we saw on all of these trips--and what we heard 
from people around the country and in State Departments of 
Transportation--demonstrated to me that people outside the Beltway 
desperately want us to find a way to work together in Washington and 
fix the serious transportation problems we have in the United States.
    Transportation is a critical engine of the Nation's economy. 
Investments in our transportation network over the country's history 
have been instrumental in developing our Nation into the world's 
largest economy and most mobile society. Over time, however, our level 
of investment as a percentage of the gross domestic product has dropped 
significantly, as it fails to keep pace with our growing economy and 
population. The costs of inadequate infrastructure investment are 
exhibited all around us. It is estimated that Americans spend 5.5 
billion hours in traffic each year, costing families more than $120 
billion in extra fuel and lost time. American businesses pay $27 
billion a year in extra freight transportation costs, increasing 
shipping delays and raising prices on everyday products. Also, 65 
percent of our Nation's roads are in less than good condition; one in 
four bridges require significant repair or can't handle current traffic 
demands and 45 percent of Americans lack access to basic transit 
services.
    Underinvestment impacts safety too. There were over 32,000 highway 
traffic fatalities in 2013, and roadway conditions are a significant 
factor in approximately one-third of them. Such fatalities occur 
disproportionately in rural America, in part because of inadequate road 
conditions. For a Nation that is expected to have 70 million more 
citizens by 2050 and an increase in the volume of freight traveling on 
our highways, railroads, and aviation systems, the current investments 
we put into our transportation system will not be sufficient to address 
these competing but urgent needs.
    Worse still, in recent years, the transportation enterprise--and 
the millions of jobs that come with it--has been thrown into a 
continuing period of uncertainty due to the numerous short-term 
spending ``patches'' that we use to fund our Federal transportation 
programs. The inability to pass a long term surface transportation 
funding bill creates uncertainty for local project sponsors and 
inhibits their ability to plan effectively. Since 2009, our surface 
transportation programs have operated under 11 short term extensions, 
including a two day lapse in March 2010. In addition there have been 21 
continuing resolutions, forcing all transportation programs to operate 
under a CR for 39 of the last 77 months, not to mention a 2\1/2\ week 
stretch where the government was shutdown. Governors, mayors, city and 
county councils, and tribal leaders can't commit to needed projects 
because they don't know whether the Federal program and payments will 
be suspended--again--in just a few months' time.
    Increasingly, we are seeing State and local officials abandon 
planning on the more ambitious and expensive projects that will move 
our economy forward. Instead, these officials are targeting available 
dollars on smaller preventative maintenance and repaving projects that 
while important for maintaining infrastructure availability in the near 
term, do not address the longer term needs for additional investment in 
transportation infrastructure capacity and quality. State and local 
officials are rightly concerned about whether Congress will allow 
spending authority from the Highway Trust Fund to expire three months 
from now--precisely when the construction season should be heading into 
full swing. Just recently, the Commissioner of Tennessee's DOT 
announced he was delaying $400 million in highway projects because of 
the funding uncertainty in Washington, saying ``this piecemeal funding 
of projects and programs is having a significant impact on how and when 
State DOTs and municipal planning organizations deliver much needed 
investment in our transportation networks.'' Similarly, the Director of 
the Arkansas State Highway and Transportation Department decided to 
delay $100 million in highway construction projects because of 
uncertainty over the Highway Trust Fund and the Delaware state 
transportation commissioner to delay $600 million in transportation 
construction projects until greater certainty can be provided. We may 
not see it directly, but failure to act on a long-term bill is actually 
making investments in critical infrastructure more expensive--and more 
difficult, for all of our State DOTs.
    Inadequate and inconsistent funding is not our only problem. The 
Federal programs that govern how we deliver projects must be 
modernized. Too often, projects undergo unnecessarily lengthy reviews, 
and we need to be able to make the types of reforms that will expedite 
high priority projects and identify best practices to guide future 
efforts without undermining bedrock environmental and labor laws or 
public engagement. We also need to reward States and local communities 
that coordinate their decision making with their neighbors and 
prioritize funding for freight projects that will benefit the Nation's 
economy. Finally, we need to reform our Federal programs so that they 
focus our resources on achieving priorities of national importance. For 
example, we need to prioritize our investments on projects that benefit 
the movement of goods in this country to maintain our long-term 
economic competitiveness and support job creation.
    For these reasons, I hope that the Administration, this Committee, 
and the many other Committees in Congress who must be heard from, will 
agree that we must bring this period of short-term patches to a close.
    Last year as part of the Budget, the Administration submitted to 
Congress the Generating Renewal, Opportunity, and Work with Accelerated 
Mobility, Efficiency, and Rebuilding of Infrastructure and Communities 
throughout America--or GROW AMERICA--Act. This proposal was a 
comprehensive four-year, $302 billion reauthorization proposal which 
called for substantial funding increases as well as dozens of critical 
policy reforms. What America received instead was yet another short-
term extension, with status-quo policies and flat funding. The 
President's 2016 Budget adds additional certainty by requesting a 6-
year, $478 billion multimodal proposal that includes essential program 
improvements so we can improve safety, support critical infrastructure 
projects, and create jobs while improving America's roads, bridges, 
transit systems and railways in our cities, fast-growing metropolitan 
areas, small towns and rural communities across the country.
    Our proposal is fully paid for through an important element of the 
President's plan for a reformed business tax system, which will 
encourage firms to create U.S. jobs instead of shifting jobs and 
profits overseas. Specifically, the Administration's proposal would 
impose a one-time 14 percent transition tax on the untaxed foreign 
earnings that U.S. companies have accumulated overseas. Unlike a 
voluntary repatriation holiday, which the President opposes and which 
would lose revenue, this transition tax would mean that companies have 
to pay U.S. tax right now on the $2 trillion they already have 
overseas, rather than being able to delay paying any U.S. tax 
indefinitely. And it would be coupled with reforms to eliminate the 
incentive to shift profits and jobs to tax havens in the future. 
Revenue from the transition tax--along with projected fuel tax 
receipts--will fully pay for the GROW AMERICA Act.
    Our six-year proposal will provide the funding growth and long-term 
certainty so desperately needed by our states and local communities so 
they can make real progress on addressing our infrastructure deficit. 
The GROW AMERICA Act will also build ladders of opportunity to help 
Americans get to the middle class by providing transportation options 
in rural, suburban and urban areas that are more affordable and 
reliable and by improving their quality of life through greater access 
to education and new job opportunities. Most importantly, the GROW 
AMERICA Act will put into place a program structure and funding stream 
focused on the transportation needs of the future.
    Reauthorization of the Federal Aviation Administration is also 
approaching in 2015. The FAA is developing its goals and objectives to 
improve the safety and efficiency of the national airspace system. The 
FAA is currently in the middle of a multi-year, multi-billion dollar 
modernization known as NextGen. This overhaul will take advantage of 
satellite-based navigation technology to create a safer, more efficient 
system. NextGen's new technology and procedures will also help to 
enable the integration of new entrants, such as unmanned aerial 
systems, into the national airspace.
    As part of our effort to focus on the future of transportation, the 
beginning of February, I released the Department's 30-year vision for 
the future of transportation in America--entitled ``Beyond Traffic.'' 
It is intended to start a meaningful national dialogue on the choices 
we must make as a nation if we are to avoid a painfully congested 
future where our transportation system serves as a crippling drag on 
our economy rather than a catalyst for growth. I would encourage all 
Committee members to review the document and participate in this 
dialogue. One thing our report makes clear is that technology will have 
to play an essential role in helping us get maximum capacity out of our 
existing infrastructure as well as all the new roadways, transit 
systems, and railways we are going to need to build to accommodate the 
70 million additional citizens that will join our Nation by 2050.
    The Fiscal Year 2016 Budget Request and the GROW AMERICA Act aim to 
tackle this challenge head on by modernizing the U.S. Transportation 
system through technology and process innovation. The bill also 
advances our shared priorities of protecting the safety of the 
traveling public while closing the Nation's infrastructure deficit.
    Protecting the safety of the traveling public: In 2013, vehicle 
crashes killed approximately 32,000 Americans and injured more than 2.3 
million, making motor vehicle crashes one of the leading causes of 
death in the U.S. Every life is precious, and one life lost on our 
roads is one too many. The GROW AMERICA Act addresses safety 
vulnerabilities across our transportation network, both through 
increased investment in safety programs, and through policy changes 
that strengthen oversight and increase accountability. It includes:

  <bullet> Allows Criminal Prosecution for Unscrupulous Carriers. The 
        GROW AMERICA Act will take stronger steps to prevent 
        unscrupulous motor carriers from skirting Federal Motor Carrier 
        Safety Administration (FMCSA) enforcement actions by allowing 
        for criminal prosecution of a person who knowingly and 
        willfully violates an imminent hazard out-of-service order 
        issued to prevent the death or serious physical harm to the 
        public.

  <bullet> Improving safety on railroads. The proposal will assist 
        commuter railroads implement positive train control (PTC) by 
        providing $3 billion over six years, including $825 million in 
        FY 2016. The proposal will also help reduce the impact and 
        improve the safety of rail transportation in communities using 
        $250 million in FY 2016 for rail line relocation projects, 
        highway-rail grade crossing enhancement, and investments in 
        short line railroad infrastructure.

  <bullet> Increasing the National Highway Traffic Safety 
        Administration's capabilities by providing $6 billion over six 
        years, including $908 million in FY 2016. This will ensure that 
        vehicles on the road meet the highest safety standards and that 
        the agency has the personnel and tools to identify vehicle 
        defects early and respond quickly. This includes a request in 
        FY 2016 to hire 57 new people within the Office of Defects 
        Investigation to meet the challenge of rapidly evolving 
        technology within the average car.

  <bullet> Continuing focus on the Safe Transport of Energy Products. 
        The FY 2016 Budget makes approximately $34 million in targeted 
        investments across the Department to continue and further our 
        focus on the safe movement of energy products throughout our 
        transportation system by supporting enhanced inspection levels, 
        investigative efforts, research and data analysis, and testing 
        in the highest risk areas.

  <bullet> Streamline and consolidate FMCSA's commercial motor vehicle 
        safety grant programs. The FY 2016 Budget will streamline and 
        consolidate FMCSA's commercial motor vehicle safety grant 
        program--a change that will reduce redundant grant application 
        submissions, reviews, awards approvals, vouchering and 
        oversight time, and thus increase dramatically efficiencies not 
        only for FMCSA but for its State partners.

    Closing the Nation's surface transportation deficit: The FY 2016 
Budget Request and the GROW AMERICA Act propose important policy 
improvements and make critical investments to close this Nation's 
infrastructure deficit, including:

  <bullet> Strengthening policies and providing $317 billion, including 
        $51.3 billion in FY 2016, to invest in our Nation's highway 
        system: The proposal will increase the amount of highway funds 
        by an average of nearly 29 percent above FY 2015, emphasizing 
        ``Fix-it-First'' policies and reforms that prioritize 
        investments for much needed repairs and improvements to roads, 
        with particular attention to investments in rural and tribal 
        areas.

  <bullet> A dedicated grant program for projects that benefit the 
        Nation's commerce: The U.S. transportation system moves more 
        than 52 million tons of freight worth nearly $46 billion each 
        day, or almost 40 tons of freight per person per year, and 
        freight tonnage is expected to increase 62 percent by 2040. The 
        Budget proposes $18 billion over 6 years, including $1 billion 
        in FY 2016, for a new multimodal freight program that will 
        relieve specific bottlenecks in the system, strengthen 
        America's exports and trade, and give freight stakeholders a 
        meaningful seat at the table in selecting funded projects. The 
        new initiative encourages better coordination of planning among 
        the Federal Government, states, ports, and local communities to 
        improve decision-making.

  <bullet> Strengthening policies and providing nearly $115 billion 
        over six years, including $18.4 billion in FY 2016, for transit 
        systems to expand transportation options: The proposal 
        increases average transit spending by nearly 76 percent above 
        FY 2015 enacted levels, which will enable the expansion of new 
        projects that improve connectivity, such as light rail, street 
        cars, and bus rapid transit, in suburbs, fast-growing cities, 
        small towns, and rural communities, while still maintaining 
        existing transit systems. These transit investments will play a 
        critical role in supporting communities around the country--for 
        example, providing transportation options in rural communities 
        that have growing numbers of seniors.

  <bullet> Strengthening policies and providing nearly $29 billion over 
        six years, including $5 billion in FY 2016, for the Nation's 
        intercity passenger and freight rail network: Highways, 
        transit, aviation, inland waterways, and ports all have 
        dedicated trust funds. Rail does not have a dedicated source of 
        Federal revenue. The GROW AMERICA Act will provide predictable, 
        dedicated funding for rail, which will provide states, 
        localities, and railroads with the certainty they need to 
        effectively plan and implement their projects--primarily to 
        improve and expand passenger rail service. This funding will 
        allow our Nation to better address the growing backlog of state 
        of good repair needs on our rail system and deliver the 
        improvements required to accommodate growing passenger and 
        freight rail demand.

  <bullet> Expanding access to markets and strengthening rural 
        communities: America's rural communities are the critical 
        linkage in the Nation's multimodal transportation network. From 
        manufacturing to farming, freight logistics to energy 
        production and more, rural America is home to many of the 
        Nation's most critical infrastructure assets including 444,000 
        bridges, 2.98 million miles of roadways, 30,500 miles of 
        interstate highways. Specifically, the GROW AMERICA Act will 
        encourage safety on high-risk rural corridors, provide 
        workforce development in rural areas, make badly needed freight 
        investments, increase deployment of broadband use in rural 
        areas, and improve the Federal Lands Transportation Program to 
        achieve a strategic, high-use transportation system on roads 
        that directly access Federal lands.

  <bullet> Expanding and strengthening of DOT credit programs to spur 
        innovative financing and increase overall infrastructure 
        investment: The GROW AMERICA Act expands financing options 
        under the Transportation Infrastructure Finance and Innovation 
        Act (TIFIA), which leverages Federal dollars by facilitating 
        private participation in transportation projects and 
        encouraging innovative financing mechanisms that help advance 
        projects more quickly. The Act will provide $6 billion over 6 
        years, which could result in $60 billion of TIFIA credit 
        assistance, including direct loans and loan guarantees. In 
        addition, the Act increases the accessibility of the Railroad 
        Rehabilitation and Improvement Financing Program by reducing 
        the cost of obtaining a loan for short line railroads and 
        increases the availability of Private Activity Bonds by raising 
        the existing $15 billion cap to $19 billion.

  <bullet> Strengthening domestic manufacturing: The GROW AMERICA Act 
        will strengthen existing ``Buy America'' requirements to ensure 
        that taxpayer investments for public transportation translate 
        into American jobs and opportunities for innovation. The Act 
        allows for an orderly phase in by transit suppliers by raising 
        the current sixty percent threshold to 100 percent over 
        multiple years to bring the ``Buy America'' requirements for 
        transit in line with the requirements in other modes.

    Modernizing the U.S. Transportation System through technology and 
process innovation: Technological changes and innovation have the 
potential to transform vehicles and infrastructure, logistics, and 
delivery of transportation services to promote efficiency and safety. 
Federally inspired safety reforms, such as seat belt and drunk-driving 
laws, have saved thousands of American lives and avoided billions in 
property losses. Likewise, process innovation has the potential to 
improve the way that the government operates in the service of the 
American people. To that end, the FY 2016 Budget Request and the GROW 
AMERICA Act are focused on:

  <bullet> Encouraging innovative solutions through competition: The 
        Act more than doubles the size of the highly successfully 
        Transportation Investment Generating Economic Recovery (TIGER) 
        competitive grant program and cements it in authorizing 
        statute, which will encourage states and localities to bring 
        more innovative, cross-modal proposals to the table and give 
        the Department more resources to see that the most meritorious 
        projects ultimately are constructed. In addition, the Act would 
        dedicate $6 billion over 6 years, including $1.25 billion in FY 
        2016, to establishing the Fixing and Accelerating Surface 
        Transportation (FAST) program, designed to create incentives 
        for State and local partners to adopt critical reforms in a 
        variety of areas, including safety and peak traffic demand 
        management. These kinds of Federally inspired safety reforms, 
        such as seat belt and drunk-driving laws, have saved thousands 
        of American lives and avoided billions in property losses.

  <bullet> Improving project delivery and the Federal permitting 
        process: The GROW AMERICA Act will help projects break ground 
        faster by expanding on successful Administration efforts to 
        modernize the permitting process while protecting communities 
        and the environment. The Budget requests $4 million in FY 2016 
        to create an Interagency Infrastructure Permitting Improvement 
        Center that will institutionalize capacity within DOT to 
        improve interagency coordination and implement best practices, 
        such as advancing concurrent, rather than sequential, project 
        review, and using the online permitting dashboard to improve 
        transparency and coordination and track project schedules. The 
        Act will also increase flexibility for recipients to use 
        Federal transportation funds to support environmental reviews, 
        and help to integrate overlapping requirements and eliminate 
        unnecessary duplication.

  <bullet> Supporting NextGen: The FY 2016 Budget Request includes $956 
        million for to advance the modernization of our air traffic 
        control system which will make aviation safer and more 
        efficient. Although NextGen is a long-term and complex 
        undertaking, we are already witnessing benefits from it--giving 
        pilots and controllers more flexibility at certain airports, 
        reducing wake-based separation standards at others, and 
        reducing congestion in some busy metro areas. This budget will 
        support stakeholder identified priorities as well as invest in 
        core FAA information technology infrastructure necessary to 
        deliver additional benefits.

    At the end of 2013, policymakers came together on a bipartisan 
basis to partially reverse sequestration and to pay for higher 
discretionary funding levels with long-term reforms. We have seen the 
positive consequences of that bipartisan agreement on our ability to 
invest in areas ranging from research and manufacturing to 
strengthening our military. The President's Budget builds on this 
progress by reversing sequestration, paid for with a balanced mix of 
commonsense spending cuts and tax loophole closers, while also 
proposing additional deficit reduction that would put debt on a 
downward path as a share of the economy.
    This Committee will play a key role in evaluating the provisions 
contained in our budget request and the GROW AMERICA Act, due to its 
jurisdiction on the Department's overall transportation policy as well 
as its emphasis on freight and safety. Thank you and I look forward to 
your questions.

    The Chairman. Thank you, Mr. Secretary.
    We have a number of members who are here who I think want 
to ask questions. We will use 5-minute rounds and try and get 
as much in as we can before we have to leave in about an hour 
and a half.
    Secretary Foxx, yesterday Ranking Member Nelson and I sent 
a letter to the FAA regarding a troubling GAO report that 
described vulnerabilities in critical FAA information systems. 
We asked for a full accounting of the FAA's actions to 
implement GAO's recommendations and secure mission-critical 
systems.
    Can we count on a quick reply from the FAA and your 
personal engagement as we address this issue and others in 
preparation for reauthorization of the FAA later this year?
    Secretary Foxx. Mr. Chairman, yes. And I know that the FAA 
is actively addressing the recommendations in the GAO report, 
and I look forward to giving you as quick a response as 
possible, sir.
    The Chairman. Thank you.
    Secretary Pritzker, your testimony underscored that the 
administration's budget prioritizes promoting U.S. trade. And 
as you noted, exports have been a driving force for economic 
growth. We need to expand our ability to reach foreign markets 
if we are going to keep growing the number of export-related 
jobs. At the same time, you were recently quoted as saying that 
getting trade promotion legislation passed is a hard task 
because it, quote, takes a lot of explanation as to what it is. 
End quote.
    Can you take this opportunity to explain the importance of 
passing TPA?
    Secretary Pritzker. Thank you, Senator. Yes. Trade 
promotion authority or trade promotion legislation is an 
opportunity for Congress to express itself as to what it wants 
to see in our trade agreements, as well as ultimately creating 
the right if agreements meet those standards to get an up or 
down vote from Congress. And I have spent a significant amount 
of time trying to support the idea of getting trade promotion 
legislation because I think it is extremely important that we 
expand our trade agreements around the world. It is a time when 
America needs to lead in terms of setting the standards for 
trade in the 21st century, and that is at risk.
    The Chairman. As you may know, there has been some 
discussion of late around here of making it easier for Congress 
to turn off TPA when considering a trade agreement that the 
President submitted. And I am wondering if you share the 
concern that was voiced last week by Agricultural Secretary 
Vilsack that adding a new element of uncertainty to TPA 
procedures would make it harder for the U.S. to get good 
outcomes in our negotiations with our foreign trading partners.
    Secretary Pritzker. Senator, I think it is very important 
that we give our U.S. Trade Representative as much backing and 
support as possible, and that means creating greater certainty 
so that as he is out negotiating these agreements, which are 
very difficult to do, as you can imagine, with 12 countries at 
the table. So I think it is very important that we get trade 
promotion legislation particularly at this time because 
getting, I think, the Trans-Pacific Partnership Agreement done 
really requires us to have trade promotion authority in place.
    The Chairman. Again, without all the additional conditions 
that are being discussed and talked about up here.
    Secretary Pritzker. Yes.
    The Chairman. Thank you.
    And by the way, I would encourage you, Madam Secretary, as 
much as you can, and members of the administration to really 
weigh into this up here. It is going to be a big debate. We 
need to get it done.
    Secretary Pritzker. Senator, as I explained to Senator 
Cantwell just before we started, I think I was on the phone 
with eight or nine Members of Congress, both the Senate and the 
House, yesterday and I have been out around the country. I was 
all over the West Coast 2 weeks ago. I will be in Texas next 
week. This is a very high priority for me and my team to get 
done. I think it is extremely important for this country.
    The Chairman. Good. I am glad to hear that, and I hope you 
will continue those efforts.
    Secretary Pritzker. Yes, I will.
    The Chairman. I direct this to either or both of you. Our 
ports are an absolutely vital link in our nation's supply 
chain. The current labor issues on the West Coast, I think, 
have highlighted the major nationwide disruption of commerce, 
including for shippers in my home state of South Dakota, that 
can arise from such self-imposed problems in our transportation 
network.
    The extent of the slowdown led many to ask if there is a 
better way to handle labor issues at our ports instead of 
relying on the National Labor Relations Act. Some have even 
suggested using the Railway Labor Act, which protects other 
vital transportation workers in the railroad and airline 
industries, by providing robust contract mediation procedures 
while also providing our Nation's supply chain with additional 
protections from unnecessary slowdowns and work stoppages.
    Given the importance of ports and port workers to our 
nation's transportation network, do you think port workers 
should be covered by the Railway Labor Act like railroad and 
airline workers?
    Secretary Foxx. Mr. Chairman, we have taken great pains as 
the administration, including having our colleague, Secretary 
Perez, engage directly with the parties on this question. My 
feeling about this--and I do not speak for Secretary Pritzker 
on this--is that we have to maintain a balance here between the 
interests of labor and the interests of the business community. 
And in this instance, we were able to avert a larger crisis by 
the engagement of the administration, and going forward, I am 
certain there will be a conversation about the long-term 
impacts of this, but I do not believe at this point that I can 
say that I would support those types of changes.
    Secretary Pritzker. Senator, there is great cost to our 
country with the slowdown in the ports. I was out in San 
Francisco with Secretary Perez for part of the week that he was 
out there. And I also spoke with the CEOs of many of the 
companies involved in running the ports, as well as with Mayor 
Garcetti. And a slowdown in our ports not only is an economic 
cost to the country, there is a real reputational issue at risk 
here as to whether our ports are reliable. It is extremely 
important that they are functioning.
    The other thing that I learned that I think is of great 
interest and something that we ought to contemplate, now that 
this dispute is behind us, is the fact that most of the owners 
who are operating in our ports told me that our ports are 10 to 
15 years behind global competitiveness and that in fact it is 
American innovation and American technology that is running 
most of the ports around the world. But our ports do not have 
the benefit of that.
    And we need to really look into how we make sure that our 
ports are globally competitive because we are also working, on 
the other hand, as you said, to promote trade. I mean, exports 
are at record highs, $2.35 trillion last year. My Department 
works very hard to help small and medium-sized businesses take 
advantage of the global marketplace. But that means like your 
state and the folks in your state, we need our ports to be 
functioning, and it is extremely important that we do all that 
we can to keep the ports open and operating.
    The Chairman. And by the way, that did not sneak up on us. 
That thing has been hanging around out there for nine months. 
So, yes, we have got to have a better way of making sure that 
we do not end up with the kind of logjam that we had here this 
last year.
    Very quickly. Secretary Foxx, there are five, I think, 
Acting Administrators out of the nine modal administrations, 
including one at FMCSA, who will no longer be able to serve in 
that capacity by the end of the month. So we have only gotten 
one nomination for any of those positions, and that is at FTA. 
So we cannot even begin the confirmation process for the rest 
of these important agencies. And I just want to convey to you 
the importance of getting those up here. It seems like it is 
awfully important, and I think that the sooner we can get those 
leadership posts filled, the better off we are going to be.
    Secretary Foxx. Yes.
    The Chairman. Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman. I could probably 
have enough questions to go 5 minutes on just one of our 
Secretaries, let alone two. And I do not know whether we are 
going to get to a second round given today's scheduling event.
    So I want to say a couple things. First of all, thank you 
for what I call ``digital weather'' efforts by the agency. I 
think this is critically important, critically, critically, 
critically important. We should not depend on the Europeans for 
the best data about what the effects of a storm are, and if we 
need supercomputing time and more digital analysis, let us get 
that. To me this is critically important.
    Thank you both for your focus on freight and the movement 
of freight. The $18 billion over the next 6 years to implement 
what I think is a new freight strategy for our country so we 
can be more competitive at our ports is critically important 
given the amount of consumer growth around the world, and being 
able to move our products effectively is going to be very 
important.
    And, Secretary Pritzker, I would love to talk to you about 
the cuts in the salmon recovery fund because I am very anxious 
about what that is going to do to treaty rights at risk and our 
salmon recovery efforts.
    I want to ask you a question about recapitalization of the 
rest of NOAA's fleet. There is some money in here, but we 
obviously want NOAA to recapitalize.
    So I may not get to get a response to you on that. So I 
will submit those for the record.
    And on spectrum allocation, now that we have gotten that 
done, what do we need to do to clear the clearing part so that 
we can actually get the allocations done. These are very 
important economic issues to the Pacific Northwest.
    Secretary Foxx, I need to focus on something that is of 
utmost importance to the people of the Northwest, and that is 
the issue of our enormous increase in volume of oil trains and 
what we are doing on safety. This boils down, for me, to two 
issues: the thickness of the hulls and when we are going to 
phaseout the less safe cars.
    Now, I think that you are moving through a rule process, if 
I am correct, but that rule process today leaves many options 
on the table, including a thickness that is not as good, not as 
durable. I know my colleague from West Virginia will probably 
have some interest in this, given what just happened then. Are 
we expected to see a final rule in May of this year? And what 
will be the phase-out time for these railcars to be moved over 
to the new standard? And will there be a definite commitment to 
the thickness that we need, at least this nine-sixteenths with 
a thermal jacket?
    Secretary Foxx. First of all, Senator, I want to thank you 
for your leadership and focus on this effort. There have been a 
number of Members of Congress who have expressed concern, as 
well as Governors and local officials in parts of the country 
on this issue.
    It is an issue that we take very seriously at the 
Department of the Transportation, and that is why we think that 
a comprehensive approach is important, an approach that takes 
into account prevention, mitigation, as well as emergency 
response. And that was reflected in the notice of proposed 
rulemaking that was issued last year.
    We are in the process of working with the OMB and the 
Administration on moving that rule into a final rule. I would 
be getting ahead of myself and probably OMB by putting a tight 
deadline on it, but I can tell you that there is a high level 
of urgency on it. And the issues of tank cars and standards and 
things like that are being worked through. I would also add 
that we are working with our Canadian counterparts to ensure 
that there is a good level of harmony between the two rules.
    Senator Cantwell. Well, I explained to my staff that I 
thought you would be a talented public servant to be able to 
get around this particular question.
    So I just want to be clear on the record. I will be 
introducing legislation to support a thicker hull and a quicker 
phase-out than what is currently proposed in this rule. We are 
not moving fast enough, and I think the uncertainty in the 
marketplace over the last decade has not kept pace with the 
volume of traffic that we are seeing now. So I look forward to 
seeing your rule, but we are going to come out for tougher 
standards than are currently--I see loopholes in this current 
policy. If one of the three options is adopted, basically we 
are going to have the same cars that are relevant to what we 
have on the tracks today, and that is unacceptable.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell. That is a really 
important issue and one that I think there is a lot of focus 
on. And I want to make sure, Mr. Secretary, too that--can we 
get your assurance that you will closely examine with an eye 
toward realistic implementation deadlines and also as you work 
through this process and making this transition possible, 
unintended consequences that could also create congestion and 
other safety issues?
    Secretary Foxx. Yes, sir. That is definitely part of what 
we are looking through.
    The Chairman. Senator Fischer?

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Madam Secretary, Mr. Secretary, thank you for being here 
today.
    Secretary Foxx, I enjoyed our conversation yesterday. We 
touched on long-term funding for the Highway Trust Fund. We 
discussed a couple ideas there.
    Senator Fischer. With regards to repatriation, do you 
support that, and do you think it would be a long-term source 
of funding for the many needs that we have with our roads and 
bridges?
    Secretary Foxx. Thank you for the question.
    Repatriation, no. But business tax reform, yes. And let me 
explain the administration's approach here.
    We believe that a comprehensive business tax reform 
approach is warranted. One part of our business tax approach 
would help pay for the GROW AMERICA Act that I described 
before. The way that works is that we would impose a one-time 
toll, so to speak, a 14 percent levy on existing overseas 
untaxed corporate earnings. They are estimated to be up to $2 
trillion. That one-time levy would provide us with the 
resources necessary to pay for our entire bill. There are other 
components of the administration's approach that deal with 
future generated revenues overseas, but that is how we pay for 
our bill.
    Now, the reason why that is not repatriation is because in 
the classic sense of the word, that is usually considered to be 
something like a holiday, a voluntary type of bringing back of 
proceeds. Our proposal would essentially clean the deck for all 
companies that have overseas earnings, allow them to bring them 
back or not bring them back, but there would be a one-time 
charge.
    Senator Fischer. So with that one-time charge, again we 
face the issue of how are we going to fund the trust fund going 
into the future. You and I both know that you have to have a 
steady source of revenue in order to build infrastructure. It 
takes long-term planning. It is a long process. It takes years 
to go through regulations and environmental impact statements. 
So how would you suggest long-term we look at it? Are we going 
to step away from user fees that have been really the basis for 
funding for infrastructure, for highways and bridges in the 
past?
    Secretary Foxx. It is a good question, and let me frame it 
this way. For the last several years, we have not been a 
completely user fee-dependent system. We have been actually 
moving money from different places to cover the shortfall of 
gas tax revenues. And we are at a point where we have had so 
many short-term measures--32 over the last six years--that at 
the state and local level, the planning process is basically 
grinding to a halt. So a 6-year bump of 50 percent stable 
funding and good new policy would actually put the system in a 
dramatically different place. We would actually start seeing 
planning happening again on big projects.
    Longer-term I think you point out that there is a 
discussion that needs to happen in this country about what we 
do long-term, and we do not shrink from that. If there is a 
willingness to engage on those longer-term questions, even the 
President has said that we would be willing to listen to what 
Congress wants to work through there. But I think that we 
really need to understand that we are so far away from having 
had a 6-year bill--more than a decade since the last one--that 
getting a 6-year bill with stable funding that gives a 50 
percent bump and good new policy would be a sea change from 
where we are today.
    Senator Fischer. I look forward to working with you on 
those issues. As you know, they are near and dear to my heart, 
and they should be a priority for this country as well.
    Let us shift gears here a minute and talk about the FMCSA. 
As we look at the challenges that that agency is facing with 
regard to regulatory efforts with hours of service, rulemaking, 
the CSA program, I guess how do you look forward to seeing 
reform take place at the regulatory level?
    Secretary Foxx. Well, first of all, trucking is one of the 
backbones of our country's commerce. There is no question about 
it. And I, in fact, have members of my family who drive trucks. 
So I am very interested in making sure the world is good for 
folks that are truck drivers.
    On the other hand, the trucking industry is one where we 
still have a little more risk than we want to see in terms of 
safety, particularly when it comes to fatigue. So we have been 
asked and actually directed by Congress to do a study on the 
hours-of-service rule. We will undertake that study as well as 
we possibly can, using all of the available ways to stress test 
our work and to come back to Congress with what we find.
    But overall, I think that as a country we have to continue 
supporting not only the industry by good infrastructure and by 
providing opportunities, but we also need to make sure that we 
are as safe as possible because, as I say, by 2045, we are 
going to see 60 percent more trucks on the road, and we want to 
make sure those trucks are moving safely.
    Senator Fischer. We had a Subcommittee hearing, as you 
know, on this, and I was fortunate to have one of our big 
trucking companies in Nebraska come. The gentleman who 
represented that company on the panel at the hearing I know has 
met with a number of Senators and is having these discussions 
at a stakeholder level. So I hope that you will take into 
consideration some of the ideas and the facts and the 
information that those companies are able to provide as well.
    Secretary Foxx. Absolutely.
    Senator Fischer. OK. Thank you, sir.
    The Chairman. Thank you, Senator Fischer.
    I have in this order Senator Schatz, Moran, Wicker, Booker. 
Senator Schatz?

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Chairman Thune.
    Secretary Pritzker, the U.S. tsunami program consists of 
three main activities: forecast, research, and preparedness. 
For the past 2 years, however, the Administration has proposed 
$6 million in cuts to the preparedness side, known as the 
National Tsunami Hazard Mitigation Program. I believe this 
program is extremely important to coastal states. And the 
Commerce Committee has agreed, and in fact, Senator Cantwell 
has led and Chairman Thune has supported with my participation 
our own version of legislation to authorize the tsunami 
program.
    Do I have your commitment to work with the Committee to 
make sure that we have sufficient resources to run this program 
right?
    Secretary Pritzker. Senator Schatz, you have my commitment. 
The tsunami program is the highest priority for us to warn and 
advise the American public. And we think that we do have 
sufficient funding to do our warning and to make sure that we 
do community education. I am happy to have my team work with 
yours.
    Senator Schatz. Thank you.
    Last year, the Administration created the largest marine-
protected area in the world by expanding the Pacific Remote 
Island Marine National Monument. And we worked with your 
Department and the White House on this. But I am concerned 
about financial resources to manage the monument resources. 
Because there is so much Pacific Ocean to take care of, we need 
resources.
    So to that end, in Fiscal Year 2016, the Administration 
requested funding for a new NOAA vessel, which is good news, 
but the budget also cuts NOAA's sanctuaries in the NERRS 
program. Likewise, can we work together to make sure that this 
is sufficiently resourced and not just a paper monument?
    Secretary Pritzker. Absolutely. Happy to work with you, and 
I believe our office is already working with yours on 
additional requested information on that.
    Senator Schatz. Thank you.
    Secretary Foxx, I wrote to FAA Administrator Huerta twice 
about the possibility of issuing emergency rules for drones to 
address safety issues that have recently come up in the news. 
FAA finally got back to me months later with a letter that said 
the agency was working on it and it expected it to take about 
16 months to finalize rules once the comment period closed.
    My question is I am uncomfortable with taking 16 months 
before rules are issued. Are you comfortable with that 
timeframe or do you think it is necessary to entertain 
something before a year and a half from now to take care of 
these safety issues related to drones?
    Secretary Foxx. Senator, I am never comfortable if you are 
uncomfortable.
    [Laughter.]
    Secretary Foxx. And so I will tell you that----
    Senator Schatz. Well, I appreciate that, but to be clear, 
this is a question of a threat assessment not my political 
judgment.
    Secretary Foxx. I understand.
    And I should say that what the FAA is trying to accomplish 
is a comprehensive approach of which the small UAS rule is one 
piece, but it is only a single piece of the overall approach. 
We have the most complicated airspace in the entire world, and 
integrating these unmanned aircraft systems into a very complex 
airspace is a very challenging thing because you want to make 
sure you are doing it as safely as possible.
    I would like to go back to the FAA and to see if we can 
turn around a better answer to you, and we will see what we can 
do.
    Senator Schatz. Thank you.
    And my final question--and it is really a thank you for 
announcing and working on safer people, safer streets. I think 
the agency has done really good work in improving safety and 
attempting to mitigate the growing number of fatalities among 
pedestrians and bicyclists. Certainly in the state of Hawaii, 
we have one of the, unfortunately, highest rates of pedestrian 
fatalities especially among the elderly. And so I am hoping 
that we as a committee on the authorizing side and then on the 
appropriations side can integrate these best practices to keep 
our seniors safe without spending any additional money.
    Secretary Foxx. Thank you. I think it is a very important 
issue, sir, as you point out.
    Senator Schatz. Thank you. Thank you, both.
    The Chairman. Thank you, Senator Schatz.
    Senator Moran?

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Chairman Thune, thank you very much for this 
hearing.
    Secretaries, welcome.
    Let me start with the Secretary of Transportation. 
Secretary, you would know that bridges in this country--one out 
of nine are structurally deficient. It is a serious problem in 
a state like mine, I would guess no different probably than 49 
other states. But the City of Topeka, the County of Shawnee 
where Topeka, the capital city, is located brought to my 
attention within the last month or so a bridge called the 
Willard Bridge. And it connects two highways running to the 
north and south. At this point the bridge over the Kansas River 
is no longer structurally sound enough for school buses to ride 
over that bridge. It is a significant disruption of commerce 
and agriculture, not to mention public safety.
    In days gone by, I would have been talking to you about 
MAP-21. That program, as I understand it, no longer exists.
    My question to you is twofold. One, is there any 
opportunity within the Department of Transportation for help 
for a county that is struggling to afford the significant 
millions of dollars that it costs to replace this bridge? And I 
am hoping the answer to that question is yes. And then how does 
your proposal or the GROW AMERICA Act address bridges?
    Secretary Foxx. Well, Senator, first of all, unfortunately, 
I am not proud to say that this is a problem that I have seen 
in many, many parts of the country. I was in Mississippi 
actually a few months ago, and the same problem. School buses 
were not allowed to pass over some of the bridges because of 
the deteriorated state of them, and it created longer travel 
times for school kids.
    Regarding your question specifically, in our program we 
have a $70 billion budget, plus or minus, and about $40 billion 
of it goes directly to states by way of formula. The formula 
program is really the bread and butter of the road and bridge 
program. I think what other choices is the state DOT making.
    Aside from that, we do have a program like TIGER that is a 
discretionary program that is highly competitive but we were 
able in Mississippi, for instance, to provide funding for three 
counties that join together to get 18 bridges done. That may be 
a potential source for this work.
    Our GROW AMERICA Act puts a significant amount of money 
into critical repair of bridges, including what I believe is 
$29 billion over 6 years that are specifically focused on 
improving bridges in our system, one of four of which is in a 
state of deficient condition. That is how we would try to 
address the bridges specifically within our bill.
    Senator Moran. Mr. Secretary, thank you. I look forward to 
working with my colleagues and you at the Department of 
Transportation to see that we have a long-term transportation 
plan.
    Let me ask both Secretaries. I want to raise a topic that 
has troubled me for a number of years, and it has to do with 
manufacturing, Madam Secretary, and it has to do with 
transportation, Mr. Secretary.
    Wichita, Kansas is considered the air capital of the world. 
We manufacture general aviation aircraft. In fact, 40 percent 
of all general aviation aircraft are manufactured in Wichita. I 
would invite both of you. Secretary Foxx, your predecessor was 
in Wichita at one point in time to visit. I would encourage 
both of you, and if I can help make the arrangements for you to 
see a highly important manufacturing sector for our country's 
economy, I would love to do that.
    My concern and a message that I would like for you to 
deliver to your boss, the President, too often the general 
aviation sector is highlighted as something that is just for 
the wealthy. The President and others within the administration 
have continually made the issue of accelerated depreciation a 
provision of our tax code for more than 25 years. This topic of 
how we are going to get to the wealthy--we manufacture 
airplanes. The ability to buy an airplane is so important. This 
is not an issue of wealth. This is an issue of 32,000 jobs in 
Kansas related to the manufacturing of planes. And every time 
the President or others within the administration talk about 
trying to get to the wealthy by changing the tax code, it 
creates not only a psychological but an economic consequence in 
our state. And I would love for both of you to come see the 
manufacturing sector, and I would love for this topic to be a 
lot less rhetorical or political. I understand the point of 
being able to make a political--score a point. But this has 
consequences to the economy to lots of people who depend upon 
this industry for their livelihoods.
    And I know that we are a place that manufactures airplanes. 
And so often the way that I am perceived as somebody trying to 
take care of that industry but I represent a very rural state. 
That is how we are able to keep a manufacturing business in a 
small town is access to getting customers' parts and supplies 
in and out of those small towns. And this is an important issue 
for a rural state like Kansas, but also one that manufactures 
planes.
    Mr. Chairman, thank you very much. I appreciate Secretary 
Foxx nodding his head. I will see you in Kansas is what I take 
from that nod.
    Secretary Foxx. See you in Kansas. Yes, sir.
    The Chairman. Thank you, Senator Moran.
    Senator Wicker?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Yes. May the record reflect that Secretary 
Foxx nodded his head.
    [Laughter.]
    Senator Wicker. And, Secretary Foxx, let me just pick up on 
the remarks that Senator Moran made with regard to roads and 
bridges to the critical need for addressing these 
infrastructure deficiencies. And I am also interested in 
working with you to make Grow America a program that we can all 
be proud of.
    Let me just say it is my understanding that later this 
morning more than 250 Chamber of Commerce executives will send 
to Congress a letter requesting action, number one, to fund the 
Nation's transportation system and, second, to empower local 
communities--I know as a former mayor, you were very interested 
in empowering local communities--with more authority over both 
Federal funding and decisionmaking.
    And let me say that Senator Booker has had to leave, but 
last year I was pleased to coauthor with Senator Booker the 
Innovation in Surface Transportation Act, known as Wicker-
Booker, to provide local governments of all sizes access and 
opportunity to participate in the Federal transportation 
program.
    I can tell you, Mr. Secretary, that when county governments 
come to see me, when city officials come to see me, they are 
excited about this concept of a program to dedicate a portion 
of Federal funding, that formula money that goes to states--a 
portion of that to create a small pool of competitive grant 
funds to be awarded on a merit basis available to mayors, 
county officials, and local leaders.
    These Chamber of Commerce executives who will release this 
letter today--they represent all 50 states, both large and 
small communities throughout this country.
    So I would say to you and I would say to the members of 
this committee that I certainly hope you will work with us. I 
think the inclusion of this Innovation in Surface 
Transportation Act as an amendment to the GROW AMERICA concept 
will enhance the chances for enactment of this. It will cause a 
great deal of support at the local grassroots level for a 
program that could actually get some money there to address the 
needs such as the one that Senator Moran was discussing.
    So do you have any comment about the Wicker-Booker proposal 
or something like it to dedicate a small portion of funds for 
local governments?
    Secretary Foxx. It sounds very similar to a provision in 
the GROW AMERICA Act to provide more funding at the local 
level, and it is something that I think we should absolutely 
take a close look at, and I hope Congress will seriously 
consider it.
    I think a critical component of it is raising the growth 
levels in the investment we are making in the overall system 
because otherwise if it becomes a food fight between the states 
and the local governments, I think it becomes a win-lose 
situation as opposed to a win-win which it should be.
    Senator Wicker. I have to say that I agree with you on 
that. We have an infrastructure problem in this country, Mr. 
Secretary, and everybody in this room knows it. And it is going 
to take a larger pot of money to address those needs. So I hope 
to work with you on that, and I hope we will all 'fess up in 
Congress as adults that if you are going to build some 
infrastructure, you got to pay for it. We have to find a 
legitimate way to do so.
    Let me just ask you briefly if you can tell us how we are 
coming on tire safety. As part of the 2007 Energy Independence 
and Security Act, the Department was to finalize a rule 2 years 
from now, 2017, to establish a tire fuel efficiency consumer 
information. Are you familiar with this requirement, and can 
you tell the Committee how we are doing on a timeline for 
action to complete this rulemaking?
    Secretary Foxx. Yes, I am familiar with it, Senator, and we 
do have it in our plan of work and our goal is to get it 
accomplished by the year 2017.
    Senator Wicker. Thank you very much. So we are on time on 
that.
    Secretary Foxx. We are on time with that.
    Senator Wicker. Let me just say this, Secretary Pritzker, I 
appreciate everything you have said about Trade Promotion 
Authority and the importance of trade agreements to create jobs 
in America and to expand our exports. I have to say this, 
though. There is a feeling among many people in this city that 
actually the administration is not speaking with one clear 
voice on this. We frankly hear determination and resolve from 
some parts of the administration, and we get signals from other 
parts of the administration that so many things need to be 
added that are absolutely unrealistic and cannot be passed by 
this Congress. There are people who doubt the administration 
seriousness of getting something done in this current term of 
Congress.
    Now, I am willing to wait till 2017, if we have to, to get 
TPA done right, but I would hope that a strong signal could be 
sent from this Obama administration that, indeed, we are 
serious about getting something done that actually works and 
that the President is going to put the full force of his 
administration behind this with members of his party to 
actually get it done. I would just toss that out for your 
information.
    Secretary Pritzker. Senator, I can assure you that the 
administration is unambiguously committed to Trade Promotion 
Authority and getting this done in this administration. We have 
a full court press on in this administration, time, energy, and 
it starts at the top. So we are happy to address any kind of 
confusion or appearance of lack of speaking with one voice 
because we do speak with one voice. Thank you.
    Senator Wicker. I hope it works out that way. Thank you, 
Ma'am.
    Secretary Pritzker. You and me both.
    The Chairman. Senator Blumenthal followed by Senator 
Manchin.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to thank you both for your very dedicated work, and 
I appreciate the opportunity to work with both of you and your 
responsiveness, both of you and your teams, to the questions 
that many of us ask you day to day.
    I have a whole bunch of questions for the Secretary of 
Transportation, and I am going to try to cover as many as 
possible. But if I miss some, I am going to submit a number in 
writing particularly concerning the study that MAP-21 required 
on weights and sizes of trucks and the limits on fines that can 
be imposed in cases like the failure to provide information by 
GM where I have submitted legislation. The President has and 
you have as well. But I think to bring them together is 
important.
    Let me focus for the moment on the Federal Highway 
Administration and the guardrail end terminals. The Federal 
Highway Administration disbursed about $40 billion to states 
for projects to build, improve, and maintain the nation's 
highways and bridges, including steel guardrails, signposts, 
and highway guardrail end terminals. As you know now, problems 
were found as early as 2012, but the Federal Highway 
Administration did nothing, in fact, continues to provide 
inadequate action even after October 2014 when a Federal jury 
in Texas returned a $525 million verdict against the 
manufacturer of these devices.
    Senator Schumer and I wrote to the head of that agency in 
January. We received a response yesterday that I consider still 
to be lacking. I do not want to be too harsh, but it is 
inadequate. And therefore, a group of us are writing today to 
the GAO to ask for an investigation of the structure of 
oversight and scrutiny protecting safety on our roads. There 
are thousands of guardrail devices on our roads today, 
including in Connecticut, that are simply unsafe, and the 
testing being done by the Federal Highway Administration is 
inadequate.
    In our letter, we detail why we consider this GAO 
investigation necessary to be done, but I would like a 
commitment from you, Mr. Secretary, that you will work with us 
on eliminating the all-too-cozy relationship, frankly, that 
exists right now between the Federal Highway Administration and 
this manufacturer and others who may be involved in imperiling 
safety on the roads.
    Secretary Foxx. Senator, I appreciate your focus on this 
issue and many other safety issues, and I want our Department 
to always be asking as hard questions or harder questions than 
even those who are watching us.
    Let me say this. Number one, we are not done. The testing 
that has been done to this point is still being researched and 
reviewed, and if we find that it is insufficient, we have the 
goal of taking another step to do some of our own research if 
we need to. So I would not take what has happened to this point 
as being a final answer in terms of where the agency is.
    Senator Blumenthal. I know the testing is underway, but 
part of our criticism is that the guardrails that have been 
used for testing are unrepresentative of the ones actually out 
there on our roads and highways, and the methodology used for 
testing has been inadequate. So I hope that you will take a 
close look at some of these issues.
    Secretary Foxx. Sure.
    I would also point out one other thing here, which is that 
what has not been as carefully reported on this is that the 
standards that you are referencing are standards that are 
established by AASHTO, and the Department's certification 
process is actually a matter of basically a practical 
convenience to the states. If a product meets the AASHTO 
standard, the Department has had a practice of certifying those 
products for other states so the states do not have to do 50 
different tests. But that is something that I think, as you and 
I look at this issue going forward, is something that we also 
should be looking at.
    Senator Blumenthal. Thank you.
    And let me just mention in closing that after the tragic 
accident/crash in Valhalla causing six deaths--still under 
investigation--Senator Schumer and I have submitted the Highway 
Rail Grade Crossing Safety Act of 2015. As you well know, these 
collisions on tracks at rail grade crossings happen actually 
once every 3 hours, believe it or not, 2,000 every year across 
the country, causing more than 700 injuries and more than 230 
deaths. These are not just accidents waiting to happen. They 
are accidents happening throughout the country. And may I have 
your commitment that you will work with us on this legislation?
    I want to say I respect your personal commitment to safety 
and reliability. I should have said that at the very beginning. 
And I really appreciate your cooperation and your focus on 
these issues.
    Secretary Foxx. Always happy to help, sir.
    Senator Blumenthal. Thank you.
    The Chairman. Thank you, Senator Blumenthal.
    Senators Manchin, Markey, and Udall up next.

                STATEMENT OF HON. JOE MANCHIN, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman.
    Thanks to both of you all for being here.
    And Ms. Pritzker, if I may ask you concerning the TPA. The 
Obama administration has operated trade agreements without a 
TPA since they have been in office. Why is it imperative to 
have a TPA just to pass TPP? Why can we not go under the same 
review that we have had--input that we have had before?
    Secretary Pritzker. Senator, I think TPA is critical for a 
number of reasons. First of all----
    Senator Manchin. It was not critical for the other trade 
agreements. We have never had a TPA.
    Secretary Pritzker. I think at this time TPA is really 
important to, one, bring the parties together so that there is 
a clarity as to what is important to Congress to be in the 
trade agreements. And second, it is extremely important to 
actually getting TPP over the finish line because there are 
governments around the world that are looking to us and 
wondering if we can actually pass these agreements, and they 
are unwilling to put forward their most troublesome, for them 
domestically in their own political environment, reforms.
    Senator Manchin. Very quickly, let me because I only have 
so much time.
    Secretary Pritzker. Sure.
    Senator Manchin. We were able to do other trade agreements 
without a TPA. All of a sudden, if we do not have a TPA, we 
cannot even do a TPP. That does not make sense.
    Secretary Pritzker. Well, I think that we are also trying 
to do an agreement here that is a regional agreement that 
involves 12 countries. It is extremely complicated, and----
    Senator Manchin. We should not be involved or have any 
input. That is why you need a TPA.
    Secretary Pritzker. No. The opportunity in TPA is to 
express what are the important standards that are in our trade 
agreements. That is an important function that TPA provides.
    Senator Manchin. Maybe we can talk more on this.
    Secretary Pritzker. I would be happy to talk to you.
    Senator Manchin. I would love to have you up there.
    Secretary Pritzker. I would love that.
    Senator Manchin. And, Secretary Foxx, how are you?
    Let me just say that in West Virginia we just had a 
horrific train accident, and it could have been absolutely 
devastating to a community. If it happened a mile down the 
track, it would have wiped out a whole town. And now there are 
predictions, I think, of 10 more derailments because of all the 
transportation on the rails with crude. And with that I think 
Senator Cantwell asked you about the new rules on the new cars. 
We have been looking into that braking system, a little bit of 
everything, and we are hoping that that can come to fruition 
pretty soon.
    But anyway, infrastructure. I do not think we need to speak 
about how important infrastructure is. I got to throw something 
at you.
    The Keystone Pipeline. For those of us--it is one of the 
few things we have been able to pass bipartisan. And we are 
very much committed to that, those of us who believe very 
strongly that it is a safer way to transport. The product is 
going to be produced, as we know. If we put that into a truly 
all-encompassing infrastructure bill, what do you think our 
chances are?
    Secretary Foxx. Well, Senator, let me start by saying that 
the thoughts of our Department have been with the folks in West 
Virginia who have----
    Senator Manchin. We dodged a bullet.
    Secretary Foxx.--suffered as a result of the train 
derailment there. And you have my commitment, as I said earlier 
to Senator Cantwell, that I will push as hard and as fast and 
as well to get us a comprehensive approach to the safe movement 
of energy products.
    Senator Manchin. Let me throw the infrastructure right now. 
What is your recommendation for funding the Highway Trust Fund?
    Secretary Foxx. Pro-growth business tax reform. We need 
something big.
    Senator Manchin. So you are talking about pro-growth 
business tax being planned, but then a certain amount of 
targeted revenue for infrastructure?
    Secretary Foxx. Yes, sir.
    Senator Manchin. So the gasoline tax is not one that----
    Secretary Foxx. It will still spin off about $238 billion, 
but we need more money in the system or else it is going to 
fall apart.
    Senator Manchin. And then finally on the new rulemaking, in 
2004 I believe on hair sampling in lieu of your urinalysis 
test----
    Secretary Foxx. I am sorry. Can you repeat?
    Senator Manchin. You started in 2004 a standard for a hair 
test to allow employees to use hair drug tests in place of 
urinalysis tests. It has been going on for more than 10 years. 
There is no clarity. So it might be something I am throwing at 
you new because it is a concern to certain segments in my 
state. What test? They know they have to have a urinalysis 
test. Sometimes they are made to comply with both. They want to 
know which one the Federal Government is going to back and what 
they have to adhere to.
    Secretary Foxx. Can I send you something on the record----
    Senator Manchin. If you could on that, I would appreciate 
it.
    [The information requested follows:]

    Secretary Foxx. DOT is required by the Omnibus Transportation 
Employee Testing Act of 1991 to limit transportation employee drug 
testing to Department of Health and Human Services (HHS) scientific 
protocols at HHS-certified laboratories. Currently, those HHS 
laboratory protocols authorize only the testing of urine specimens. In 
2004, HHS issued a Notice in the Federal Register that proposed to 
certify laboratories for hair, sweat, and oral fluid (aka, alternative 
testing methodologies) drug testing of Federal employees. Due to 
scientific issues weighing against these methodologies, HHS withdrew 
that Notice.
    Since the withdrawal of the 2004 Notice, HHS, working with its Drug 
Testing Advisory Board, has developed a proposal that would allow oral 
fluid testing as an alternative to urinalysis testing. That proposal is 
currently under Executive Review. Once that review is completed, the 
public will also have an opportunity to review and provide comment. In 
addition, HHS, through its Drug Testing Advisory Board, continues to 
consider whether hair testing may also be a viable alternative to 
urinalysis testing, as there remain concerns about the science, 
integrity, and forensic defensibility of hair testing. Thus, to date, 
the only method of drug testing that is approved for use by HHS, and 
thus, by DOT, is urinalysis. We continue to work with HHS and our 
industry stakeholders to address and resolve these issues related to 
oral fluid and hair testing so that a viable alternative to urinalysis 
may be adopted.
    DOT has no legal basis to authorize alternative testing 
methodologies in the transportation industries. DOT-regulated employers 
must conduct urine testing currently, and there is no Federal 
requirement for a DOT-regulated company to conduct a hair test. As 
mentioned above, HHS is about to engage in rulemaking regarding oral 
fluid testing as an alternate methodology. In addition, HHS has 
recently indicated a williness to look at hair testing through the HHS 
Federal Drug Testing Advisory Board.

    Senator Manchin. There is one other one I had real quick, 
if I may, on the Contract Tower Program. The Contract Tower 
Program basically has been very effective and very safe. We 
have three towers in West Virginia that are being targeted to 
close. And I was wondering how much funding does the President 
propose to continue for operations of the Contract Tower 
Program in 2016.
    Secretary Foxx. Our proposal would continue the program.
    Senator Manchin. So you all are committed to the Contract 
Tower. You all see the safety records versus the Federal----
    Secretary Foxx. We continue the program. But let me say 
this too, that we also believe that sequestration should be 
reversed and that we should not be pushed into a corner as we 
were a few years ago to having to make some tough choices about 
some of these important programs.
    Senator Manchin. Sequestration would be reversed if we got 
a budget, and if we get a budget, then we will be able to do 
infrastructure and take care of sequestration and have a 
country that can operate.
    Secretary Foxx. Absolutely. Yes, sir. I am with you.
    Senator Manchin. Thank you.
    The Chairman. Thank you, Senator Manchin.
    And by the way, I think, unless I am wrong, since the time 
I have been here, all the trade agreements have been negotiated 
under TPA procedures, including Panama, Colombia, and South 
Korea.
    Senator Manchin. You might be able to clarify that. I just 
know that we did not have a TPA--we have not had a TPA under 
this administration specifically.
    The Chairman. Correct.
    Senator Manchin. We were involved. We were able to 
participate as Congress. This one here will take us out of that 
participation.
    The Chairman. Yes. The last TPA expired in 2007. All the 
agreements that we have enacted since that time were subject to 
that agreement and, when they went to the Congress, covered 
under TPA procedures. So it has been used.
    I think the problem, obviously, with bringing them up here 
without an agreement like that is we open it up to amendment on 
the floor of the House and the Senate, and that has always been 
the concern, that it weakens our negotiators hands going into 
those agreements if they think that they are going to be 
subject to 535 Members of Congress amending when they get here.
    Senator Manchin. I am open to learning as much as I 
possibly can about it, but I can tell that we might have just a 
little bit maybe of----
    The Chairman. I think the Senator from West Virginia is 
going to be very passionate on the issue, I can tell.
    Senator Markey is up next, then Senator Udall.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    Secretary Pritzker, on Friday the White House and the 
Department of Commerce released draft privacy legislation. The 
proposal rightly focuses attention on the need to strengthen 
the privacy rights of Americans. But I think that we are going 
to have to have a discussion about how strong those rules are 
in order to ensure that there are adequate privacy protections 
on the books.
    So that is why tomorrow Senator Blumenthal and Senator 
Whitehouse and I are going to introduce legislation that will 
allow consumers to access and correct personal information that 
is held by data brokers. The bill provides consumers with the 
right to stop data brokers from using, sharing, or selling 
their personal information for marketing purposes without the 
permission of the individual.
    So I would like you, if you could, to talk about three 
issues. The first is whether or not consumers should have a 
right to access personal information that is held by data 
brokers. Two, whether consumers should have a right to correct 
personal information that may be wrong. And three, whether or 
not consumers should have the right to say no to monetizing 
their personal information for advertising or marketing 
purposes.
    Secretary Pritzker. Well, Senator, first of all, I look 
forward to reading the legislation that you and Senator 
Blumenthal and others are proposing. And your work on privacy 
is something that is something I have great admiration for.
    In terms of consumer access to information, I think it is a 
good idea. I think your ability to correct is very important. 
It is applicable in other businesses that I have been in. I 
think the right to monetize is one you want to figure out 
exactly what are the rules of the road.
    What we did in the consumer legislation that we put out 
about a week ago is really to put out something that is meant 
to be for discussion. It is a draft with the idea we need to 
address consumer privacy in this country, and we have not done 
so adequately. And it is an opportunity for the private sector, 
for government, for civil society, and other interested parties 
to come together to comment so that we can get something 
accomplished.
    Senator Markey. Well, I would like to work with you. 
Senator Blumenthal, Senator Whitehouse, I think many members 
want to talk about how we can provide more privacy for 
Americans in this incredible era of intrusiveness with every 
device that every child, every adult in America now has and 
putting on information that they would have no idea would ever 
be used.
    Secretary Pritzker. Senator, this is a very important 
issue, and we would be happy to work with you and Senator 
Blumenthal and Senator Whitehouse and others.
    Senator Markey. Madam Secretary, over the last 8 months, 
the United States' gasoline prices have decreased by 45 
percent. And this gas price slide is acting like a massive 
stimulus for middle class families and small businesses.
    For 40 years, the United States has had a statutory ban on 
exporting oil produced in the United States in order to protect 
consumers and our national security. Last year, the Commerce 
Department ruled that oil companies could export a type of 
crude oil known as condensate.
    Before the Commerce Department issued its private ruling on 
condensate or completed the industry-wide guidance that it 
issued in December which Federal agencies would then implement, 
did the Commerce Department consider the impacts of these 
decisions on U.S. consumers or prices, meaning by the 
exportation of this oil, was there a calculus put together as 
to how much that would then put pressure on raising prices 
rather than lowering them?
    Secretary Pritzker. Well, Senator, first of all, what we 
did last year we do not view as a change in policy. What we did 
was try to clarify what has been the policy to help explain to 
exporters of petroleum products how they could comply. And that 
is what led us to publish guidelines. We took into account how 
to make it clearer as to what is a petroleum product versus 
crude oil.
    Senator Markey. Well, you know, we still import 5 million 
barrels of oil a day in the United States. We are the largest 
importer of any country in the world. We surpass China or 
anyone else bringing in oil. To be exporting crude oil at this 
time does not make much sense to me.
    So my next question would be, are you considering further 
expanding any other additional exports of condensate or other 
crude oil that could affect that balance between exports and 
imports in the United States?
    Secretary Pritzker. Senator, at this time, we have no plans 
for a change of policy, and we are following the law of the 
land, which is crude oil is not exportable. Petroleum products 
are. And what we tried to do is simply clarify what the 
difference was in a day and age where technology has changed 
dramatically over the last 5 years.
    Senator Markey. And as you know, I disagree with that 
interpretation. I think condensate falls squarely within the 
crude oil family.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Udall, then Senator Gardner.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Thune.
    And thank you both, Secretary Foxx and Secretary Pritzker, 
for being here and for the hard work you do for our country.
    Secretary Foxx, I enjoyed having you in New Mexico recently 
and visiting about infrastructure, and several of my questions 
today are going to follow up on some of the things we talked 
about then.
    Capitalizing on the growth of freight rail infrastructure 
in New Mexico is an issue I have been working on for some time. 
Recently Union Pacific opened a $400 million Union Pacific 
transloading facility at the Santa Teresa port of entry. And 
BNSF has broken ground on a $5 million transloading facility in 
Belen, south of Albuquerque. These private investments are 
helping connect New Mexico's businesses with the world and 
creating a transportation hub in my home state.
    The Department recognized this opportunity and recently 
awarded a $400,000 TIGER grant to develop a strategic 
transportation plan for Santa Teresa. And I support the 
President's request for $7.5 billion over 6 years to more than 
double the size of the TIGER grant program because I think 
investments like this are critical.
    A couple of questions around this. What other resources in 
the President's request can help local communities capitalize 
on rail growth? Are there other sources of funding or support 
that you believe can help local communities who are 
experiencing growth update their infrastructure? And how can 
growing communities get help in the short term?
    Secretary Foxx. So in terms of your question on freight 
growth, the President's proposal contains a $29.4 billion 
allocation to the National Freight Plan. Senator Cantwell has 
been just an incredible voice on pushing for a National Freight 
Plan. It is important to get that plan funded so that the local 
projects can happen. Our proposal would put a very substantial 
amount of money in place.
    Now, how that would work is states, local communities, even 
groups of states could apply to the Department for that money. 
It would be awarded on a competitive basis. But the idea is to 
get scale out of investments that are specifically designed to 
connect us to the 21st century economy.
    In terms of what can be done in the short term, we do have 
another round of TIGER that will be announced shortly. Sometime 
in the spring, there will be a notice of funding availability 
for that program. It is a $500 million program this year. As 
you point out, we would like to see that program much bigger 
because we can get a lot more done and get many more good 
projects happening around the country.
    Senator Udall. Great. Thank you.
    As usual, Senator Cantwell is always out in front on an 
important issue like this.
    Secretary Pritzker, I supported legislation championed by 
Senator Blunt and Senator Brown to establish a network for 
manufacturing innovation. Today the University of New Mexico is 
part of a consortium that is a finalist for one of the 
manufacturing institutes focused on advanced photonics. Could 
you expand on your testimony about how the Commerce Department 
intends to help coordinate activities between the various new 
national network of advanced manufacturing institutes?
    Secretary Pritzker. Well, Senator, we are very excited 
about the fact that the Revitalize American Manufacturing bill 
passed toward the end of last year. The bill calls for NIST, 
the National Institute of Standards and Technology, to act as 
the network provider, if you will. And so in our budget, we 
call for $10 million to provide the glue between the various 
institutes, in other words, if you think that we will probably, 
by the end of this calendar year, have roughly nine institutes 
up and operating I believe, the point being there is an 
opportunity for them to learn from one another and we would run 
that effort.
    The second proposal in our budget is for two institutes to 
be created by the Department of Commerce, and those would be 
the result of a competition where the private sector would 
determine the technology that would be the focus of those 
institutes. The previous institutes--the technologies have been 
determined by either the Department of Energy or the Department 
of Defense. And we think that is an important differentiation 
that some of our manufacturing institutes ought to have.
    Senator Udall. Thank you both for your testimony.
    I have a question also on the Economic Development 
Administration that I will submit for the record. There is some 
really important work you are doing in Albuquerque. But I have 
run out of time.
    Secretary Pritzker. Thank you.
    Senator Udall. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    Senator Gardner, then Senator Sullivan and Senator Peters.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman
    And thank you to the witnesses, the Secretaries, for being 
here today. Secretary Foxx, thank you, and Secretary Pritzker, 
thank you very much for being here. I particularly thank you 
for your outreach efforts to the newly elected Members of the 
Senate, both the Republicans and Democrats. Thank you for the 
opportunity to meet with you and discuss issues that are 
important to our state. So I appreciate the efforts that you 
have made.
    I wanted to follow up on some of the comments that Chairman 
Thune had made regarding the West Coast port situation. 
Secretary Pritzker, the West Coast port slowdown had a 
tremendous effect on our economy. It is reported $2.1 billion a 
day. Particularly in Colorado, it depended on West Coast ports 
imports and exports and even including some ski equipment that 
was caught up in issues over the World Ski Championships in 
Vail.
    I wanted to just ask you this. The East Coast and West 
Coast ports will be up for renegotiation when?
    Secretary Pritzker. I do not know the exact--the West Coast 
ports is just being resolved now, and so it would be 5 years 
from now would be the next contract expiration.
    Senator Gardner. And so you are looking at the possibility 
of both East Coast and West Coast port renegotiations happening 
at the same time.
    What actions are you taking to ensure that this kind of 
slowdown/shutdown does not happen again?
    Secretary Pritzker. The ports do not actually fall under 
Department of Commerce. The engagement that I have had now is 
talking with some of the port owners about what I learned 
during this process about trying to bring the ports into the 
21st century in terms of their technology. But in terms of the 
labor negotiations, we are not directly involved in those 
negotiations, but happy to be of help if we can be.
    Senator Gardner. Would you be willing to put together a 
report from the Department of Commerce that showed the 
cumulative economic impacts of congestion at the West Coast 
ports, including lost economic activities, wages, and jobs?
    Secretary Pritzker. I would be happy to work with my team. 
It may require other parts of the government also to really 
give you a fulsome picture.
    Senator Gardner. That would be fantastic. Thank you, 
Secretary.
    Secretary Foxx, I wanted to talk a little bit more about 
highway reauthorization, the National Freight Program in 
particular. In northern Colorado, I-25, Interstate 25, we have 
seen over a 425 percent increase in population in the last 20 
years. There is a tremendous increase in traffic, as well as 
freight. And I wanted to talk about the regional coordination 
that you are working on.
    What kinds of efforts are you doing regionally to help 
coordinate the movement of freight across this country?
    Secretary Foxx. Through our TIGER program, for instance, we 
were given some planning dollars last year which enabled us to 
do projects like Senator Udall was talking about where a 
community has a need to actually vision how these pieces tie 
together and to create a plan that can be executed later.
    I frankly think that one of the big dangers we are facing 
because of the 32 short-term measures in the last six years is 
that the planning process is really grinding to a halt. That is 
the seed corn for our transportation system. If we are not 
planning, we are not getting things done.
    The last thing I would say is that I think that it cannot 
be understated that the need for a long-term bill would help 
just open things up and get us back into an action mode again. 
I am a Secretary, not a magician. I cannot make stuff happen 
without the resources to do it.
    Senator Gardner. And we also, in MAP-21, talked about 
projects of regional and national significance. And so at some 
point, I wanted to follow up with you on what the ultimate 
outcome of designation of a national significant highway is 
particularly when it comes to freight.
    But I wanted to go on to a question--I am running out of 
time here--dealing with a particular issue in Colorado. At Aims 
Community College, we have a control tower training program. It 
has been about 20 years that they have been working through the 
Collegiate Training Initiative, several universities and 
community colleges nationwide working on this program.
    Last year, the FAA advised that they would no longer accept 
the recommendations of or give preference to graduates of the 
Collegiate Training Initiative program. The FAA has, instead, 
opted to employ a general public announcement seeking to 
recruit U.S. citizens with no aviation or no air traffic 
control education or experience to fulfill future personnel 
requirements at air traffic control facilities. Moreover, CTI 
graduates that already have an AT-SAT or Air Traffic Standard 
Aptitude Test score will be require to retake the exam at a 
cost of about $500 per test paid for by the U.S. taxpayer.
    I was wondering if you could explain why this decision was 
made, what metrics or decision points were used when coming to 
this conclusion, and why the partnership should end, and why 
this decision will make our skies any safer than they 
previously were.
    Secretary Foxx. So I also would like to provide a more 
complete answer for the record on this.
    [The information referred to follows:]

    The FAA continues to recruit qualified individuals for air traffic 
control specialist positions and will conduct a two track announcement 
process for Calendar Year 2015.
    The first track vacancy announcement was advertised in January 
2015, targeted applicants who have at least 52 weeks of certified air 
traffic control experience in either a civilian or military air traffic 
control facility.

  <bullet> Applicants for this round of hiring will not take the 
        biographical assessment or the Air Traffic Standardized 
        Aptitude Test (AT-SAT).

  <bullet> Instead, they must furnish documentation of their experience 
        and previous air traffic certifications in order to be 
        considered. Those selected applicants will fill immediate needs 
        at various air traffic facilities.

    The second track announcement was advertised in March 2015 for all 
U.S. citizens and will target candidates without ATCS experience.

  <bullet> These candidates must meet age and minimum qualification 
        requirements, and will be required to take the biographical 
        assessment and the At-SAT.

  <bullet> Additional announcements will be conducted as needed to 
        fulfill FAA hiring needs.

    CTI graduates with 52 weeks of certified air traffic controller 
experience were eligible to apply under the experienced track 
announcement. CTI graduates without 52 weeks of certified air traffic 
controller experience were eligible to apply under the general 
experience track announcement.

    Secretary Foxx. But the upshot of it is that what the FAA 
is attempting to do here is to create a diagnostic at the very 
beginning of the input process so that we know that the pool of 
folks that come into the air traffic system have the basic 
competencies that are needed. This is not a substantive 
knowledge test. It is simply a test of whether how someone 
handles pressure, for instance, because there are very highly 
pressurized situations that air traffic controllers deal with. 
From there, the FAA would bring the pool together and then go 
through a subjective part of the process and then bring them 
into a training process. And it takes fully 2 years within the 
FAA to train people up.
    Our experience, based on last year, was that folks that 
went through the training programs that you are describing 
actually did pretty well. Now, not 100 percent for sure, but in 
terms relative to the rest of the population, they actually did 
very well.
    Senator Gardner. We will follow up more with that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner.
    If we move quickly, we have got Senator Sullivan, Senator 
Peters, and Senator Klobuchar, and we have no more than about 
12 minutes to do this. So Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    And I want to thank Secretary Foxx, Secretary Pritzker for 
your testimony, for your service to our country.
    I want to echo Senator Gardner on the outreach that you 
have made with regard to some of the freshmen Senators on the 
Committee here.
    You know, Secretary Pritzker, one of the things--when you 
look at our country and our economy, we have tremendous areas 
of strength, whether it is our universities, whether it is our 
high-tech sector, whether it is this great new area where we 
are becoming the world's energy superpower again. And yet, one 
of the big failures I think of this administration is when you 
look at where we are on economic growth, broad-based economic 
growth if you compare it to previous decades, whether Reagan 
era, whether Clinton era, whether first term of the Bush 
administration where we were growing 3 and a half, 4, 4 and a 
half, 5 percent GDP growth.
    Right now, one of the things that we see we are growing at 
1, 1 and a half, 2 percent consistently. And you know, one of 
the things that I am most troubled by in Washington, that is 
being called the ``new normal.'' This is what we should now 
expect, 2 percent GDP growth for this country. I think that 
would be a disaster if we start looking at that as the new 
normal.
    I know we could go on. Just very quickly, you have a lot of 
experience in the private sector. Why are we growing so slowly? 
I think it is going to impact so many things in our country. 
How can we get back to traditional levels of American growth, 4 
percent, 4 and a half, 5 percent GDP growth?
    Secretary Pritzker. Well, Senator, we at the Department of 
Commerce have been working to--we are never satisfied with the 
growth in America, and our job is to try and help America grow 
faster, whether that is expanding the opportunity for our 
companies to sell our goods not just in the United States, but 
around the world. So we have a national export initiative we 
are working on. I think the National Network of Manufacturing 
Innovation is extremely important. We need to stay on the 
cutting edge of innovation. Fully a third of our growth and our 
job growth since 2009 has come from innovation and innovative 
sectors----
    Senator Sullivan. But do you agree that 2 percent GDP 
growth is unacceptable for the United States?
    Secretary Pritzker. Senator, I would agree that whatever 
our growth is, it needs to be more, and that is my job is to 
guide our Department to try and enhance that.
    Senator Sullivan. Secretary Foxx, one of the things that I 
think has been a problem in terms of growth is the over-
regulation of our economy. And in terms of the delivery of 
highway projects, it is now on average 14 years from start to 
finish. Environmental reviews for major transportation projects 
have increased to 8 years on average, just to review them, from 
3 years, 3 and a half years ago in 2000. EIS, Environmental 
Impact Statements, have begun at, you know, 22-30 pages to now 
on average over 1,000 pages. The EPA is coming out with a new 
reg, the water of the U.S. I think it will be a disaster. I am 
certainly going to fight that reg. I do not think they have the 
authority to do it.
    Do you agree that these numbers are unacceptable, 8 years 
to permit a bridge in America?
    Secretary Foxx. Senator, I am from local government, so I 
am naturally impatient. I want to see projects happen as soon 
as they can possibly happen.
    The first title of last year's GROW AMERICA Act was a 
series of project delivery reforms that we think can be done 
without jeopardizing the environment and accelerating projects.
    Senator Sullivan. I do not think anyone wants to jeopardize 
the environment, but 8 years to permit a bridge in America--I 
do not think anyone wants that, Democrats, Republicans.
    I would welcome your commitment. We are going to work on 
legislation, based on some of the things that you are 
proposing, to make that permitting system more efficient, 
timely, and certain so we can get Americans back to work. I 
would welcome the opportunity to work with your agency on that.
    Secretary Pritzker, I want to turn to fisheries. As you 
know, that is a hugely important industry for Alaska. We are 
the superpower of America's fisheries. We harvest well over 50 
percent of America's fisheries. I was a little disappointed to 
see that your testimony only gave one sentence to fisheries.
    Just two questions. How are you looking to work with the 
state of Alaska and other fishing communities to enhance our 
opportunities? And more specifically, there have been concerns 
in Kodiak about the closure of the National Weather Service 
station there. That is a hugely important asset. You know, we 
have very tough weather out there in Kodiak. And we want to 
work with you on enhancing our opportunities in fisheries, but 
shutting down stations like that is not a good sign. And I 
would like your thoughts on how we can work with you on 
ensuring great opportunities in that big export element of our 
economy.
    Secretary Pritzker. Senator, both the fisheries and the 
Weather Service are an important part of what we do. And I was 
up in Alaska and did actually meet with the Weather Service 
there. I am not familiar with the Kodiak situation. I would 
have to look into that particularly. But our goal at the 
Weather Service is to run the Weather Service more effectively 
and efficiently which sometimes requires consolidation of some 
efforts because of technology. It is easier to run different 
parts of our organization with more regional technology 
centers. I do not know if that is the situation in Kodiak. So I 
have to look into it.
    In terms of the fisheries, I am well aware of how important 
the fisheries are not just to Alaska but to all of our coastal 
communities. And we are working closely. NOAA is very focused 
on fish stock assessment and making sure that we are working 
with our local stakeholders to understand the quality of that 
stock assessment. That is one of the reasons that it is very 
important that we ultimately begin the renewal of our fleet 
because we need to be able not only to do a stock assessment 
but also charting and mapping and things like that that are 
also very important to our fishermen, as well as all that use 
our navigable waterways.
    So this is an ongoing partnership, and the way we think 
about our relationship with our fishermen is it is a 
partnership and one that we take very seriously around our 
coastlines.
    Thank you.
    The Chairman. Thank you, Senator Sullivan.
    Senator Peters?

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    And it is great to have two great Secretaries here. Thank 
you for your service to our country. I appreciate your 
testimony here today.
    Secretary Pritzker, I want to actually pick up on something 
that Senator Udall mentioned, which is the Network for 
Manufacturing Innovation, something that I am very passionate 
about coming from Michigan, the Detroit area.
    I am happy to say that in January, the American Lightweight 
Materials Manufacturing Innovation Institute opened its doors 
in Detroit--we are very excited about that--which is part of 
the broader network around the country. But this institute has 
got a focus on lightweight materials, a research lab for the 
production for materials like aluminum, magnesium, titanium, 
advanced high-strength steel alloys. The center will also train 
workers who will use these new processes in factories and 
maintenance facilities across the country.
    And I want to take an opportunity to express publicly my 
support for these institutes to keep moving forward. But as you 
know, the President has requested an additional $1.9 billion in 
funding to reach the goal of ultimately creating about 45 of 
these institutes.
    Why do we need to be doing 45 institutes? What sort of 
things are we expecting? Certainly we are expecting big things 
out of Detroit, but if you could talk as to the importance of 
this funding to the future competitiveness of this country.
    Secretary Pritzker. Senator, first of all, I share your 
passion for these institutes.
    The reason that the President is aggressively pursuing this 
is for several reasons.
    First of all, we did a benchmarking study to look at how 
many different technologies there are that are viable that we 
ought to be pursuing. I think there were over 100.
    Second is the President set a goal for 45 institutes over a 
10-year period, and we have, I think, five that are announced 
and several more on the way. But we have a long way to go.
    And if you look at our competitive situation globally, if 
you take a country like Germany whose economy is about a 
quarter the size of ours, they have 60 such institutes. And the 
thing you know from having seen the institute in Detroit--and I 
have gone to visit the one in Chicago--is they are unique 
places that would not happen without the Federal catalyst.
    And so the President is pushing this at this time because 
he recognizes that so much of our economic future depends upon 
our continued innovation, and manufacturing is at the root of 
our innovation. Fully 30 percent of the world's patents come 
from the United States and 70-plus percent of those roughly are 
from manufacturing. And so it is an extremely important part of 
our economy, and we need to invest. And that is why the 
President is pushing so hard.
    Senator Peters. Well, I appreciate those comments.
    I also want to say I am also a big proponent of the 
Manufacturing Extension Program as well that you head up which, 
over the last 2 decades, has helped provide advice and support 
particularly for the small and medium-sized manufacturers where 
you have got an awful lot of that innovation and job creation.
    Just recently it was announced that NIST awarded over $4 
million to the Michigan Manufacturing Technology Center. And I 
was certainly encouraged by NIST's decision to reopen that 
process, to recompete some of these centers to bring more 
centers online. This is certainly going to allow more 
innovation to new manufacturers in Michigan, as well as across 
the country, to get into this space, which I think is very 
important.
    So if you could address a little bit about the 
recompetition process and also just generally why it is so 
important we continue to fund these manufacturing extension 
programs.
    Secretary Pritzker. Well, the Manufacturing Extension 
Partnerships are vital to small-and medium-sized manufacturers 
because it is an opportunity for these manufacturers to get 
access to world-class processes and technologies. And 
otherwise, they would not be able to afford to do so.
    And frankly, you know, I have been 27 years in the private 
sector, and if you told me the Federal Government was going to 
play this kind of critical role with small and medium-sized 
manufacturers, I would have seriously questioned it until I saw 
it myself. I have actually met with manufacturers. I met with 
the MEP providers. And I really got to see hands-on the kind of 
difference they can make for companies that are employing 50, 
100, 300 people. They can make an extraordinary difference.
    The reason for the recompetition is we had not done so in 
over a decade. So this is about keeping people fresh and sharp. 
Also, one of the things that we learned is the funding match 
was 1 to 2, and that was precluding some small manufacturers 
from participating. So we changed the funding to be a 1 to 1 
match based upon the feedback that we had gotten from 
customers, and that has been very well received. And we think, 
therefore, we can help more small businesses.
    Senator Peters. Well, I appreciate your efforts and look 
forward to supporting you in your efforts. Thank you.
    Secretary Pritzker. Thank you, Senator Peters.
    The Chairman. Thank you, Senator Peters.
    Senator Klobuchar was going to be next. She is going to 
submit her questions for the record in the interest of time 
since we have the Prime Minister's speech coming up.
    Senators Booker, Johnson, and Ayotte are also here and will 
submit questions for the record.
    I am going to let Senator Daines take us out.
    But I want to thank you, Madam Secretary, Mr. Secretary, 
for being here, for answering questions.
    The hearing record will remain open for 2 weeks, during 
which time Senators are asked to submit questions for the 
record. Upon receipt, the witnesses are requested to submit 
their written answers to the Committee as soon as possible. 
And, Secretary Foxx, since you did not get your testimony up 
here on time, maybe you can get your questions up here in a 
really timely way--the responses to the questions.
    We are going to let Senator Daines take us out, and then we 
will close out the hearing.
    Thank you all very much.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    Secretary Pritzker, I am grateful that we have 27 years of 
private sector experience for the Secretary of Commerce with 
your resume. That is a good thing.
    In your testimony, you mentioned the President's budget 
prioritizes creating good American jobs, spurring high-tech 
manufacturing innovation, and that the Fiscal Year 2016 budget 
request demonstrates the administration's continued commitment 
to broadband telecommunications as a driver of economic 
development, job creation, and technological innovation.
    I completely agree. And I can tell you in my hometown of 
Bozeman, Montana, we created 1,000 good, high paying tech jobs 
in a cloud computing company that we started up, and we could 
create even more. And it is thanks to the Internet, and it was 
thanks to this laboratory of economic freedom that the Internet 
provides. It is unconstrained innovation.
    However, I think many of us were concerned when we heard 
that the Obama administration, the FCC, decided to step in and 
take over Internet regulatory control. And so it is really 
reconciling justifying how we can spur high-tech job creation 
and innovation while turning a blind eye to what is happening 
with the FCC that I believe will negate this effort. I have had 
e-mails from respected, well-known CIOs in our country playing 
right in the middle of cloud computing, some of whom are almost 
despondent over what was announced last week with the FCC.
    How do you reconcile the words of the budget versus I think 
the reality of what the FCC is planning to do?
    Secretary Pritzker. Senator Daines, you know, the 
Administration is committed to broadband access for the entire 
country, and so this is something that we take very seriously. 
The President's position and the FCC's work on net neutrality 
is something that they take the lead on. I do think that the 
policy of supporting no blocking, no throttling, no paid 
prioritization, and increased transparency--I think those are 
important. Exactly how one gets there, that is up to the FCC to 
discuss with them.
    What we at the National Telecommunications and Information 
Agency--what we are focused on, though, also is your question 
about how do we get broadband to as many communities as 
possible. And we did have BTOP grants out of earlier 
legislation where we laid 113,000 miles of broadband networks 
and accessed 25,000 schools and libraries, et cetera. Today we 
do not have that kind of grant money, but what we are doing is 
using some of the talent that we developed in doing that to 
work with communities on local broadband----
    Senator Daines. My concern--you know, certainly broadband 
access is important especially for rural states like Montana. I 
am just concerned that the FCC stepping in to regulate 
something that it does not understand fully and number two, 
cannot keep up with the rapid change in the Internet and so 
forth--perhaps good intentions. But I am very, very concerned 
about the consequences.
    Secretary Pritzker. I understand.
    Senator Daines. Secretary Foxx, there are five major 
operating agencies in the Department of Transportation, 
including the Pipeline and Hazardous Materials Safety 
Administration, that are currently led by acting 
administrators. And to my knowledge, for four of those five, it 
does not appear that the White House has nominated a 
replacement.
    In Montana, energy infrastructure is an important issue. In 
fact, the border crossing location for the Keystone XL Pipeline 
is in Montana. How are we supposed to be proactive and working 
with these agencies when they are without appropriate 
leadership?
    Secretary Foxx. Well, first of all, there is an awful lot 
of work underway to move forward on some of these roles, and 
that is information that I will have to let the White House 
move forward with at an appropriate time. But I do believe 
there is some imminent work on those.
    We have good leaders in place, even if they are acting. The 
expectation is that there is no drop-off in our ability to 
focus.
    Senator Daines. What is the barrier there? Just I am 
curious. Again, I spent, probably similar to Secretary 
Pritzker, 28 years in the private sector. What is the barrier 
to filling these roles?
    Secretary Foxx. We do want to make sure we get the right 
fit for these jobs, and it is more than just trying to find 
somebody off the street. It is trying to make sure we have good 
people that are being placed in these roles, and I do believe 
both with the folks that we have in acting roles, as well as 
those that may or may not be moving through the process right 
now, that we will keep our standards very high.
    Senator Daines. On the Pipeline and Hazardous Materials 
Safety Administration, any sense of when you think you might 
have the position filled?
    Secretary Foxx. I am not going to get ahead of the White 
House on that, sir.
    Senator Daines. All right. Thank you for the questions.
    Senator Cantwell [presiding]. Well, I want to thank both 
our Secretaries.
    And this hearing is adjourned.
    [Whereupon, at 10:40 a.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. Penny Pritzker
Oversight and Investigation
    Question 1. In the annual financial statements audit for Fiscal 
Year (FY) 2014, external auditors identified some significant 
deficiencies, including information technology access, configuration 
management, and segregation of duties, controls, and accounting for 
Economic Development Administration (EDA) accrued grants. What specific 
actions have you taken to ensure that the Department addresses these 
significant deficiencies properly and swiftly?
    Answer. The Department of Commerce (Department) takes its fiduciary 
responsibilities to this Nation and its taxpayers very seriously. Even 
before the external auditors issued the final report, the Department 
had already started developing and implementing corrective actions. The 
Office of Financial Management (OFM) reviews each bureau's corrective 
action plans, making sure those actions properly and promptly addresses 
each deficiency. The plans are then sent to the Office of Inspector 
General for their official acceptance of the plans. The OFM then 
monitors the bureau's progress towards implementing the corrective 
action on a monthly basis, or more frequently if required, and randomly 
tests a sample of the completed actions to ensure that they are indeed 
complete. Additionally, the external auditors will retest areas found 
to be deficient as a means of validating the effectiveness of the 
corrective actions.
    Rest assured that the highest levels of management are committed to 
ensuring the accuracy and integrity of the Department's financial 
statements.

    Question 2. The Department of Commerce Office of Inspector General 
(OIG) has repeatedly identified significant flaws in security measures 
at the Department. Will you commit to working with the OIG and this 
Committee to address these outstanding deficiencies?
    Answer. Cybersecurity is a very high priority for the 
Administration and the Department. I personally review our Department's 
progress on cybersecurity with my senior team monthly. The Department's 
Strategic Plan calls for an improvement in the Department's 
cybersecurity enterprise architecture, and the Department's Fiscal Year 
2016 budget request supports activities that will bolster cybersecurity 
at the Department. We are currently in the process of deploying a 
Department-wide system for continuous monitoring of several key 
security controls, which will provide operational cybersecurity 
capability throughout the Department. Further, we have overhauled our 
cybersecurity risk management framework and have significantly enhanced 
policies relating to cybersecurity, including increasing authority of 
bureau Chief Information Officers over security for systems they don't 
directly manage and mandating professional certifications for IT 
professionals in certain security-related roles. As we continue to 
pursue opportunities to improve our security posture, we fully commit 
to working with OIG and this Committee to address security issues.

    Question 3. In his written testimony at a February 25, 2015 hearing 
before the House Appropriations Committee, Subcommittee on Commerce, 
Justice, Science, and Related Agencies, Inspector General Todd J. 
Zinser mentioned a number of recent issues concerning OIG access and 
independence. Will you commit to providing the OIG with complete and 
timely access to all Department information and materials?
    Answer. I take compliance and oversight very seriously, and deeply 
appreciate the critical role Inspector General offices play in 
improving management and preventing waste and abuse in the government. 
I am fully committed to working cooperatively with the Department's 
Inspector General on his oversight work and, as the Inspector General 
Act requires, providing full and open access to information the 
Inspector General needs to do his job.

    Question 4. The OIG has identified ``Providing Stronger Controls 
over Finances, Contracts, and Grants'' as an area of concern for the 
upcoming year. What steps is the Department taking to eliminate sole-
source contracting when there is inadequate justification for it and to 
bolster recordkeeping to ensure transparency and accountability?
    Answer. The Department considers competition to be the cornerstone 
of an effective business strategy and promotes its use to the maximum 
extent practicable. The Deputy Senior Procurement Executive is 
designated as the Department Competition Advocate responsible for 
promoting full and open competition as well as challenging barriers to 
the acquisition of commercial items and full and open competition. In 
addition, each of the Department's Operating Units with authority to 
operate a contracting office has a designated Competition Advocate 
responsible for promoting competition at the Operating Unit level.
    In Fiscal Year 2014, the Department demonstrated a continued 
commitment by achieving competition on 77 percent of its available 
competition base dollars. This is in part a result of several actions 
taken to achieve full and open competition in contracting operations, 
such as:

  <bullet> Required review of sole source justifications for proposed 
        actions up to $650,000 by the Operating Unit Competition 
        Advocate and by the Department's Competition Advocate for 
        actions over $650,000;

  <bullet> Partnered with stakeholders in Industry Day events and pre-
        proposal conferences to increase emphasis on market research 
        and competition;

  <bullet> Briefed program directors and staff on the benefits of 
        competition;

  <bullet> Provided training to acquisition and program staff on 
        effective market research and maximizing competition;

  <bullet> Conducted acquisition reviews to evaluate the acquisition 
        strategy of proposed contracts and promote the use of 
        competition;

  <bullet> Increased emphasis on improved acquisition planning and 
        increased competition at all working levels;

  <bullet> Established competition achievement goals and track 
        performance on a monthly basis through the Department's 
        Acquisition Council. The competition achievement metrics are 
        also available real-time on the Secretarial Dashboard.

    Question 5. How will you go about implementing a culture of 
accountability at the Department?
    Answer. The Department takes its fiduciary responsibilities to this 
Nation and its taxpayers very seriously and maintains a culture of 
accountability to ensure that we meet these fiduciary responsibilities. 
The Department's culture of accountability cascades from the top 
leadership of the Department to individual employees. Our culture of 
accountability starts at the top of the agency with the Executive 
Management Team (EMT) led by the Secretary and composed of the heads of 
the Department's bureaus. This group ensures that the Department is 
closely monitoring its program and policy commitments and that bureaus 
are collaborating to optimize return on investment in the Department's 
programs.
    The oversight provided by the EMT is supplemented by the same group 
sitting once a month as a review group to examine progress on specific 
Department Strategic Goals. Further, the Deputy Secretary meets monthly 
with the Goal Leads individually and as a group to discuss how plans 
and strategies should be evolving based on current developments.
    One level down from the EMT is the Departmental Management Council 
(DMC). The DMC is led by the Deputy Secretary and composed of the 
Associate Director, Chief Operating Officer or equivalent career senior 
executive from each of the Department's bureaus, who are responsible 
for the day-to-day bureau operations and have an understanding of the 
management and budget resources that support bureau activities. The DMC 
focuses on increasing the efficiency and quality of mission support 
processes.
    At a functional level, the Department has councils that provide 
oversight and accountability for the various functions, including the 
Chief Financial Officers Council, Chief Information Officers Council, 
Acquisitions Council, Grants Council, Enterprise Risk Management 
Council, the Performance Excellence Council and Human Resource Council. 
These councils review multi-bureau performance data related to their 
functional areas to facilitate preemptive action if processes depart 
from standards and/or targets. Risk management is supported by written 
policies and procedures that are facilitated by dedicated staff 
professionals.
    Accountability for follow-up on Inspector General and Government 
Accountability Office findings is supported by a Department-wide 
tracking system used to monitor that timely action is taken on 
recommendations. At the functional level there are councils and groups 
responsible for ensuring accountability such as the internal controls 
Senior Assessment Team, which monitors corrective actions for internal 
and external financial management findings.
    At the employee level, accountability is written into individual 
performance plans; for instance, employees responsible for the 
safeguarding of property have critical elements in their performance 
plans that address these duties. This accountability structure is 
mirrored at the bureau level.
Federal Records Act
    The Federal Records Act (FRA) requires Federal employees to 
preserve all records, including e-mails, documenting official 
government business. The National Archives and Records Administration 
(NARA) further clarified this requirement in 1995 by adopting 
regulations specifically requiring the preservation of official e-mails 
created on non-official accounts. The cornerstone of transparency, this 
clear and unambiguous requirement ensures that complete and accurate 
documentation of the business of Federal departments and agencies is 
available for congressional inquiries, Freedom of Information Act 
(FOIA) requests, litigation, and historical research. Given reports 
about deficiencies in FRA compliance at several departments and 
agencies, please answer the following questions:

    Question 6. Do you use an official government e-mail account for 
official business?
    Answer. Yes. Pursuant to Department policy, the Secretary uses an 
official government e-mail account for official business.

    Question 7. Do you or any other senior Department officials use an 
alternate, alias, or other official account (apart from your primary 
official account) for official business? If so, is the Department's 
Chief FOIA Officer aware of this practice? Have you ever used a non-
official e-mail account for official business? If yes, please explain 
your purpose and justification for this practice.
    Answer. As previously noted, the Secretary uses an official 
government e-mail account to conduct official business. As a general 
matter, senior Department officials use a single official e-mail 
account for official business. Because of the volume of e-mails she 
receives, the Secretary, with the knowledge of the Department's FOIA 
Officer, maintains both an official e-mail account published on the 
Department's website and administered by the Executive Secretariat for 
inquiries from the general public, as well as two additional official 
e-mail accounts for other official communications.
    For the same reason, the Office of the Deputy Secretary, the Office 
of the General Counsel, and certain other Department bureaus and 
operating units maintain official accounts managed by administrative 
staff for inquiries from the general public, and these accounts are 
distinct from the official Department e-mail accounts that the 
associated senior officials use for their day-to-day communications.
    In addition, for security reasons, certain senior officials 
traveling overseas may use mobile devices configured with travel 
accounts that are deliberately segregated from their primary e-mail 
accounts. Finally, certain senior officials maintain secondary official 
e-mail accounts that were created when their primary official accounts 
reached their storage capacity. Department officials' primary and 
alternate official e-mail accounts are equally subject to FOIA.

    Question 8. Are you aware of any other Department or Administration 
officials who use or have used non-official e-mail accounts for 
official business?
    Answer. As a matter of practice and consistent with Department 
policy, the Secretary and other Department officials use official 
government e-mail accounts to conduct official business. In answering 
this and other questions, we consulted with the Offices of the Chief 
Information Officers for the Department and its bureaus, generally 
addressing the time-frame from the Secretary's swearing-in through 
present. Based on this inquiry, we believe any use of non-official e-
mail by Department officials, including during emergencies or otherwise 
unusual circumstances, is minimal--and we are unaware of any 
widespread, ongoing use of non-official e-mail by officials to conduct 
official business.
    Separately, for a limited time following their September 2012 
appointment, certain non-federal board members of the First Responder 
Network Authority (``FirstNet'')--who were full-time employees of 
private and public-sector entities or otherwise engaged in non-federal 
activities, had limited access to Federal communications devices, and 
worked only intermittently on FirstNet business--sent some 
communications from their non-federal e-mail accounts. Personnel at the 
National Telecommunications and Information Administration, within 
which FirstNet is housed, as a matter of practice copied those board 
members' official government accounts when corresponding with them 
during this limited period of time. At present, board members generally 
communicate using official Federal e-mail accounts, consistent with the 
practices described in the paragraph above.

    Question 9. What steps have you taken to ensure the preservation of 
all Federal records, including e-mails, at the Department in accordance 
with the FRA? Has the Department adopted the Capstone approach to 
managing e-mail, outlined in the September 14, 2014 memorandum to the 
heads of Federal departments and agencies from the Office of Management 
and Budget and NARA? Have any Department employees using non-official 
e-mail accounts to conduct official business forwarded the e-mails to 
their official accounts within 20 days as required by law?
    Answer. Various Department policies require the preservation of 
Federal records, including e-mails, in accordance with the FRA and with 
NARA-approved general records schedules. The Department also maintains 
a comprehensive access and use policy prohibiting the use of personal 
e-mail for official business. The Department publishes these policies 
on its intranet and conducts periodic records training for employees.
    Like other Federal agencies, the Department is working to implement 
recent Office of Management and Budget electronic records directives 
that agencies electronically manage e-mail records by December 31, 
2016--and electronically manage all records by December 31, 2019. In 
connection with these directives, the Department is working to 
implement a Capstone approach to e-mail records management.
    Question 10. What policies and procedures does the Department have 
in place to ensure that all employees comply with their FRA 
obligations? When was the most recent FRA training session offered to 
Department employees, including Senate-confirmed individuals?
    Answer. As previously noted, the Department maintains various 
policies that require the preservation of Federal records. They include 
comprehensive, Department-wide policies setting forth employees' 
obligations to preserve records, as well as an access and use policy 
prohibiting the use of personal e-mail for official business. The 
Department publishes these policies on its intranet and conducts 
periodic records training for employees; for example, training on the 
access and use policy was conducted in early April 2015.
    The Department's records training is handled at the bureau and 
operating unit level, with additional briefing on recordkeeping 
obligations occurring periodically at the Department Management Council 
level. Senate-confirmed employees receive records training on an 
individualized basis. Going forward, the Department intends to move 
toward a virtual and uniform records training based on the Federal 
Government-wide, NARA-sanctioned model that the Federal Records Officer 
Network is developing.

    Question 11. Is any senior Department employee aware of any 
unlawful or accidental removal, alteration, or destruction of 
electronic Federal records in the Department's custody or control, 
including e-mails? If so, has the Department reported these incidents 
to NARA? Please provide details of any such incidents, including the 
dates, number and type of records, and custodians involved, as well as 
any reports, including dates, made to NARA.
    Answer. Based on the consultation described in response to question 
three, we are unaware of the unlawful or accidental removal, 
alteration, or destruction of electronic Federal records in the 
Department's custody or control.

    Question 12. Are you or any Department official aware of any 
Department employee's use of a private or independent e-mail server to 
conduct official business? If yes, who approved its use? What was the 
rationale or justification for its use?
    Answer. Based on the consultation described in response to question 
three, the Department is not aware of any Department employee's use of 
a private or independent e-mail server to conduct official business. As 
noted, Department policy requires employees to use official e-mail 
accounts to conduct official business.

    Question 13. Has the Department received any inquiries from 
employees about the permissibility of using a private or independent e-
mail server to conduct official business? If yes, who made the inquiry 
and what was the response?
    Answer. Based on the same consultation described above, the 
Department is likewise unaware of any inquiries from employees 
regarding the permissibility of using a private or independent e-mail 
server to conduct official business.
Bureau of Economic Analysis
    Question 14. BEA Relocation to Suitland Federal Center: The 
President's budget seeks a $14 million increase in FY 2016 for the 
Bureau of Economic Analysis (BEA), the agency best known for producing 
the Nation's quarterly gross domestic product (GDP) numbers. Among the 
requests for additional funding for this agency is $4.3 million for 
relocating the agency to the Suitland Federal Center. Will this 
relocation result in long term savings for the taxpayer?
    Answer. Yes, we project the accumulated renovation and rent savings 
over a ten year period to be greater than $65 million. The Bureau of 
Economic Analysis (BEA) is currently under a short-term lease extension 
at 1441 L Street NW, Washington, D.C. that expires in June, 2016. As 
part of establishing a new long-term lease, the General Services 
Administration (GSA) looked at options to (1) build out and relocate to 
a new facility or (2) reconfigure its current facility to a smaller 
footprint. The GSA estimated these costs at approximately $16 million. 
BEA requested $8 million in FY 2015 to partially pay for this one-time 
required build-out, and planned to request the remaining $8 million in 
FY 2016. The Department, in conjunction with the Office of Management 
and Budget (OMB) and the General Services Administration (GSA), has 
decided to move BEA to Suitland, MD and co-locate them with the Census 
Bureau. Operationally, this makes sense. The Census Bureau provides 66 
percent of the data that BEA uses to generate GDP. We know that our 
customers want, and will benefit from, data that is more timely and in 
greater detail regarding region and industry. Bringing these two 
operating units closer together will help us better deliver our 
important mission through greater collaboration. Financially, this 
relocation will result in long term tax savings. BEA will reduce the 
one time renovation costs by approximately $8 million and its rent will 
be cut by $2.5 million a year. Additionally, Census annual rent will be 
reduced by $3.5 million based on the rent paid by BEA.

    Question 15. BEA Energy Satellite Account: As previously noted, the 
President's budget requests a $14 million increase in FY 2016 for the 
BEA. Among the requests for additional funding for the BEA is $2 
million to develop what's referred to as an ``Energy Satellite 
Account'' that will focus on national and regional energy production in 
the U.S., the use of energy goods and services by consumers and 
businesses in the U.S., and energy prices, among other things. Doesn't 
this initiative duplicate what the Energy Information Administration is 
already doing? How is this proposed expenditure not a duplication of 
the efforts of the Energy Information Administration?
    Answer. No, it does not duplicate existing efforts at the Energy 
Information Administration (EIA); it complements and builds upon those 
efforts. Energy statistics produced by the EIA are not intended to 
provide the full macroeconomic picture for the sector, such as the 
sector's contribution to U.S. economic growth, productivity, and jobs 
and wages. Moreover, the EIA data do not provide for the ability to 
compare and contrast important sectors in the economy--for example, the 
energy sector's economic performance in relation to the manufacturing 
sector or to the financial sector. EIA's very detailed energy data is 
important for understanding specific changes in energy production and 
consumption, such as changes in barrels of crude or refined petroleum, 
or spot prices for oil. These detailed energy data are important for 
forecasting certain things like future energy consumption, production, 
or world oil prices.
    In contrast, BEA's proposed energy satellite account will pull 
together estimates on the economic performance of the energy sector and 
its supply chain, including the energy sector's contribution to the 
change in Gross Domestic Product (GDP). The satellite account will 
bring together existing and new sources of data into a coherent 
estimation framework and presentation, consistent with GDP, that will 
shed new light on the performance of the sector--from oil and gas 
extraction, to specialized manufacturing that provides the capital 
equipment necessary to produce energy, to refining, to the delivery of 
energy goods and services to businesses and people.

    Question 16. Proposal for a BEA Broadband Satellite Account: With 
the Federal Communications Commission recently voting to encumber the 
Internet with Depression-era Title II regulation, I'm concerned that 
that, over time, we will observe a noticeable diminishment of 
investment by Internet service providers to improve upon and innovate 
within their networks. I recognize there is disagreement on this issue. 
That is why I think it's particularly important for the BEA to measure 
the impact of broadband investment on GDP over the next several years. 
Would you support establishing a broadband satellite account at BEA to 
measure the impact of broadband investment on GDP?
    Answer. We would be happy to explore this idea with you, and also 
provide a brief description of the currently available information from 
BEA that may be helpful.
    BEA's fixed asset accounts provide information on capital 
investment for the ``broadcasting and telecommunications'' industry, 
which includes broadband activity. The fixed asset accounts provide 
estimates of capital investment, net stock of assets, depreciation, and 
average ages of the stock of assets for types of equipment, structures, 
and intellectual property assets of the broadcasting and 
telecommunications industry. These estimates can be used to track 
changes in investment over time for this industry.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Hon. Penny Pritzker
    Question 1. The world is going wireless, which is leading to 
incredible benefits for our economy and consumers. I plan to 
reintroduce the Wireless Innovation Act this Congress and work to pass 
it, but in the meantime, can you tell me what you are doing to ensure 
this valuable public resource is being put to its best and most 
efficient use on behalf of the taxpayer?
    Answer. The Department and the National Telecommunications and 
Information Administration (NTIA) continue to play a leading role 
towards meeting the President's directive to identify 500 megahertz of 
new spectrum for wireless broadband use by 2020. The recent AWS-3 
auction of spectrum that was freed up through the joint efforts of 
NTIA, the Federal agencies and the Federal Communications Commission 
(FCC) is an important milestone in the Administration's efforts to meet 
this goal. The success of the AWS-3 auction, which raised more than $40 
billion, was made possible in part by an unprecedented level of 
collaboration between NTIA, affected Federal agencies, wireless 
industry representatives, the FCC, and Congress.
    As part of the Administration's efforts to make more spectrum 
available for wireless broadband, the Department has been working to 
identify other Federal bands that could be designated for commercial 
use. We are collaborating with the FCC on making 100 megahertz of 
spectrum available for small cell mobile broadband use in the 3.5 GHz 
band on a shared basis with military radar systems. Meanwhile we also 
are evaluating the feasibility of increased sharing for unlicensed 
devices in the 5 GHz band while protecting incumbent Federal Government 
systems. NTIA is also working with Federal agencies to quantify their 
use of 960 megahertz of spectrum, spanning several key bands. The 
results of this quantification assessment are one factor that will be 
used to prioritize bands for more detailed study focused on expanding 
shared access. We are also beginning a dialogue with Federal agencies 
on best approaches to begin enabling expanded bi-directional Federal 
access to non-federal bands.
    We are also working to improve the efficient management of Federal 
spectrum through increased transparency of Federal operations, 
collaboration with industry, and incentives for Federal users to update 
their systems to improve sharing spectrum with the private sector.

    Question 2. The Commerce Department has a long history in the 
identification and reallocation of under-utilized Federal spectrum. In 
fact, the Commerce Department's report pursuant to the Omnibus Budget 
Reconciliation Act of 1993 led to the reallocation of spectrum occupied 
by Federal agencies that facilitated the migration of mobile services 
in the United States from 1G to 2G. Do you believe that the Commerce 
Department should continue to play a central role in the evaluation of 
what under-utilized Federal spectrum can be reallocated for commercial 
use?
    Answer. Yes. As described above, the Department plays an integral 
role in working with Federal agencies to maximize spectrum efficiency. 
NTIA is working towards meeting the President's directive to identify 
500 megahertz of new spectrum for wireless broadband use by 2020. The 
recent AWS-3 auction of spectrum that was freed up through the joint 
efforts of NTIA, the Federal agencies and the FCC is an important 
milestone in the Administration's efforts to meet this goal. The 
success of the AWS-3 auction, which raised more than $40 billion, was 
made possible in part by an unprecedented level of collaboration 
between NTIA, affected Federal agencies, wireless industry 
representatives, the FCC, and Congress.
    The auction also represents a paradigm shift in our approach to 
making spectrum available for commercial wireless providers. In many 
instances, the bands that were auctioned will require the clearing of 
incumbent Federal users from these bands; while in other instances, 
non-federal entrants will be required to share spectrum with incumbent 
Federal agencies indefinitely. As NTIA continues to review spectrum 
bands for reallocation, spectrum sharing is becoming the new reality. 
Out of necessity where it is cost prohibitive, takes too long to 
relocate incumbent users, or where spectrum offering comparable 
operational capability is not available to ensure continuity of 
critical Federal Government functions, we must move beyond the 
traditional approach of clearing Federal users from spectrum in order 
to auction it to the private sector for its exclusive use.
    We continue to work to identify other Federal bands that could be 
designated for commercial use. In the near term, we are evaluating the 
feasibility of increased sharing for unlicensed devices in the 5 GHz 
band. We have also worked with the FCC and Federal agencies to enable 
innovative spectrum sharing approaches in the 3.5 GHz band, and just 
recently the FCC adopted new rules for the 3.5 GHz band creating a 
three-tiered sharing scheme that authorizes advanced spectrum sharing 
among commercial and Federal operators. Looking ahead, NTIA is also 
working with Federal agencies to quantify their use of 960 megahertz of 
spectrum, spanning several key bands.
    We are also working to improve the efficient management of Federal 
spectrum by increasing transparency of Federal operations, 
collaboration with industry, and incentives for Federal users to update 
their systems to improve sharing spectrum with the private sector.

    Question 3. The AWS-3 auction demonstrated that there is strong 
commercial demand for spectrum. What efforts will the Commerce 
Department take to evaluate whether there are other Federal bands that 
are being under-utilized and can be reallocated for commercial mobile 
use?
    Answer. Identifying additional spectrum to keep up with 
unprecedented demand for both Federal and non-federal uses is a top 
priority for NTIA, which manages Federal spectrum usage. NTIA is 
collaborating with the FCC on making 100 megahertz of spectrum 
available for shared small cell use in the 3.5 GHz band currently used 
primarily for military radar systems. The 3.5 GHz band is well suited 
to exploring the next generation of shared spectrum technologies, 
driving greater productivity and efficiency in spectrum use and could 
be an important pivot point toward a new sharing paradigm. Recently, 
the FCC adopted new rules for the 3.5 GHz band creating a three-tiered 
sharing scheme that authorizes advanced spectrum sharing among 
commercial and Federal operators. We are also evaluating the 
feasibility of increased sharing with unlicensed devices in the 5 GHz 
band. NTIA is also working with Federal agencies to quantify their use 
of 960 megahertz of spectrum, spanning several key bands.
    NTIA recognizes that spectrum is the lifeblood of the mobile 
broadband revolution. We are committed to ensuring the industry has the 
bandwidth it needs to continue to innovate and thrive. But we face an 
important balancing act since Federal agencies also rely on this 
precious and finite resource to perform all sorts of mission-critical 
functions--from communicating with weather satellites (National Oceanic 
and Atmospheric Administration) to navigating passenger planes (Federal 
Aviation Administration) to operating weapons systems (Defense 
Department).
    To achieve the President's goal of identifying 500 MHz of spectrum 
for commercial use by 2020, we need to move beyond the traditional 
approach of clearing government-held spectrum of Federal users in order 
to auction it off to the private sector for exclusive use. Too often, 
relocating incumbent operations is too costly, too time-consuming and 
too disruptive to Federal missions. The future lies in sharing 
spectrum--across government agencies and commercial services, and 
across time, geography and other dimensions.
    To support these efforts, NTIA is seeking to increase transparency 
into existing Federal spectrum use. Last year, NTIA unveiled 
Spectrum.gov, a new online tool that provides band-by-band descriptions 
of Federal spectrum uses between 225 MHz and 5 GHz, including a summary 
of frequency assignments authorized by NTIA. We will continue to 
improve that tool to make it more easily searchable and user-friendly, 
and to provide as much helpful data as we can without disclosing 
sensitive information.
    If spectrum sharing is to become reality, though, we need to build 
trust on multiple levels. First, we need to build trust in dynamic 
sharing technology, including spectrum databases and smart radios that 
can track which frequencies are available for use. Our new Center for 
Advanced Communications in Boulder, a partnership with the National 
Institute of Standards and Technology (NIST), will conduct vital 
research and testing to drive development of dynamic sharing 
technology.
    Second, we must build trust between the public and private sectors 
so that we can partner to identify more sharing opportunities and 
collaborate to make sharing work. With the help of our Commerce 
Spectrum Management Advisory Committee, NTIA will increase industry 
engagement to enhance this trust moving forward.
    Finally, we need to build trust in policies and processes to ensure 
that everyone--public and private sector alike--plays by the rules. Our 
proposed model city initiative, a collaboration with the FCC which will 
serve as a test bed to evaluate spectrum-sharing technology in a real-
world environment, will provide a good opportunity to develop these 
policies and processes.
    The Department shares your commitment to maximizing the efficiency 
of Federal spectrum use and is working at all levels to ensure that we 
achieve this outcome.

    Question 4. On March 13, 2015, Florida, Alabama, Louisiana, 
Mississippi and Texas announced a state-based Gulf red snapper 
management agreement that would transfer authority away from the Gulf 
of Mexico Fishery Management Council. What are the Department's views 
of this agreement and management structure?
    Answer. The Department supports regional management in concept as a 
way to resolve the current challenges created by inconsistent state 
jurisdictions and regulations, stabilize management of the recreational 
sector, and better manage the expectations of for-hire fishermen and 
private anglers.
    It is difficult to judge the merits of the states' red snapper 
management agreement because it lacks sufficient detail regarding what 
we believe to be the hallmark elements of a successful regional 
management strategy. These include: fair and equitable allocations 
among all of the states and user groups; sound, science-based decision-
making that accounts for all sources of fishing mortality; coordinated 
data collection systems, which provide consistent, reliable data; and, 
catch accountability, including mechanisms to prevent and respond to 
quota overages.
    The Department is concerned the states' agreement proposes to 
regionalize management of the commercial red snapper sector after an 
initial three year grace period. The individual fishing quota program 
implemented in 2007 addressed many long-standing challenges faced by 
the commercial sector by better aligning fleet capacity with the 
commercial catch limit, mitigating short fishing seasons, improving 
safety at sea, and increasing economic profitability. The Department 
believes strongly that any management program adopted for red snapper 
should recognize and continue those hard-earned achievements.
    While the Department appreciates the states coming together on this 
difficult issue, the Department continues to believe the best way to 
develop an effective regional management strategy is through the 
regional fishery management council process. The Magnuson-Stevens Act 
established that process to ensure fishery management decisions are 
developed from the bottom up and are stakeholder-based, transparent, 
and consistent with all applicable law. Although sometimes cumbersome, 
it is a good process for working through the types of difficult 
decisions that regional management requires. Gulf of Mexico fishermen 
and fishing communities sacrificed a great deal to get here. It is 
critical that all involved remain engaged and work together to find a 
way forward in the cooperative spirit that the regional fishery 
management council process promotes.
    The Gulf of Mexico Fishery Management Council continues to actively 
develop a regional management proposal and the Department will continue 
to support the state representatives on the Council in reaching 
agreement on a regional management strategy that works for all. Such a 
program could be finalized before the end of 2015 for implementation in 
the 2016 fishing season.

    Question 5. Please provide details on how much the Department plans 
to spend for stock assessments and data collection for the red snapper 
fisheries in the Gulf of Mexico and South Atlantic Ocean.
    Answer. The Southeast Fisheries Science Center expects to provide 
new assessments for both the South Atlantic and Gulf of Mexico red 
snapper stocks this year. However, the data collection that supports 
red snapper stock assessments is not conducted just for red snapper, 
but includes a broad range of species.
    Our fish surveys are designed to sample all species that occur in a 
given habitat in a way that reflects their relative densities within 
that habitat. Trawl surveys collect data on shrimp and juvenile fish of 
the several species that inhabit muddy bottom habitat. Our video trap 
surveys collect data on reef-associated species that include multiple 
snapper and grouper species plus amberjack and gray triggerfish.
    Similarly, our sampling of catches from commercial and recreational 
vessels is not carried out by species. For example, commercial port 
samplers collect data from commercial vessels across the wide variety 
of species harvested.
    As a result of this blending of data collection efforts, it is not 
possible to provide an estimate of how much is spent to assess any one 
species.

    Question 6. NOAA recently announced a recovery plan for the elkhorn 
and staghorn corals and listed them as threatened under the Endangered 
Species Act. How will the designation impact research and development 
of U.S. coastline, waterways and ports?
    Answer. The final recovery plan for elkhorn and staghorn corals 
provides a blueprint for recovering these species. It identifies 
recovery criteria, strategies and actions that are needed for recovery. 
It doesn't change any of the regulations governing the take of corals 
or modify any of the regulatory requirements of an Endangered Species 
Act (ESA) listing. In 2008, the National Marine Fisheries Service 
(NMFS) issued a protective regulation for these corals under section 
4(d) of the ESA. That regulation did not prohibit take associated with 
scientific research provided other necessary permits were issued to the 
researcher (such as those from the State of Florida or the National 
Marine Sanctuary). The recovery plan will not affect research 
activities in terms of permit requirements, but we do hope that it will 
spur additional research on these species as identified in the recovery 
plan. Likewise, the recovery plan will not affect development of the 
U.S. coastline, waterways or ports.

    Question 7. In your testimony, you state that the President's NOAA 
budget calls for $2.4 billion to fund the next generation of weather 
satellites ``to reduce the risk of a potential gap in weather data in 
2017 and beyond.'' The current satellite, Suomi NPP, is estimated to 
reach the end of its lifespan in 2016. For Floridians, this potential 
gap could mean delayed weather reporting or even worse, loss of data 
during the afternoon orbit, resulting in catastrophic circumstances. 
What are the Department's estimates for the actual life span of Suomi 
NPP?
    Answer. The Suomi National Polar-orbiting Partnership (Suomi NPP) 
satellite is functioning well with observations and data availability 
meeting or exceeding expectations. The satellite is not showing any 
signs of degradation or anomalies indicating life limits. The satellite 
has a design life of five years; however current predictions indicate 
sufficient propellant for operations to the mid-2020s.

    Question 8. How did the Department come to this estimate?
    Answer. These lifetime probability estimates are updated annually. 
The 2014 Polar Constellation Weather Data Reliability Report provides a 
detailed explanation of the process of reliability modelling. The 2014 
Suomi NPP satellite probability of success model is based on a 
specialized model to determine failure rates called ``Military 
Handbook, Reliability Prediction of Electronic Equipment'', MIL-HDBK-
217. This model was applied at the system level (e.g., spacecraft and 
instruments) and modelled degradation of system components.
    The model output suggests that around the year 2020, the 
Probability of Success for the system components that are required to 
produce key data products to be below 60 percent with continued 
degradation until the satellite has to be de-orbited due to propellant 
depletion, which is currently predicted to be no later than 2026.
    NOAA assumes a satellite will not be available if its predicted 
reliability is below 50-60 percent. These analyses are repeated 
annually as part of our continuous process to understand and manage our 
overall program risk.

    Question 9. Does NOAA currently have a contingency plan should the 
monies not be appropriated? If so, what is that plan?
    Answer. NOAA has submitted a balanced FY 2016 budget request to 
support NOAA's satellite portfolio, including sufficient funds to 
achieve a robust Joint Polar Satellite System (JPSS) system 
architecture that will continue operations of Suomi NPP, continue 
development of the JPSS-1 and JPSS-2 satellites, complete the block 2 
upgrades for the JPSS ground system, and develop two additional 
satellites beyond JPSS-2 in the proposed Polar Follow On (PFO). NOAA's 
polar-orbiting weather satellites are aging and must be replaced in 
order to maintain weather forecast accuracy and reliability. Federal, 
state and local governments, U.S. citizens and businesses are reliant 
on timely and accurate weather forecasts to protect life, property and 
economic competitiveness. A loss of coverage by NOAA's polar satellites 
would severely degrade the National Weather Service's early detection 
and forecast prediction ability, setting them back years in terms of 
weather forecasting improvements. Diminishing this capability will 
negatively impact millions of people and cost U.S. business billions of 
dollars in revenue.
    NOAA has developed an extensive mitigation plan to reduce the 
impact of a gap, in the event one occurs; however, mitigation 
activities cannot replace the performance of the JPSS system. If NOAA 
is not appropriated funds at the requested level for the JPSS program 
in FY 2016, NOAA's ability to operate the Suomi NPP satellite and 
maintain development of the JPSS-1 and JPSS-2 missions will be 
impacted--resulting in a gap in observations in the late 2020s in the 
afternoon polar-orbit.
    If NOAA is not appropriated funds at the requested level for the 
PFO in FY 2016, the risk of a gap in polar observations following the 
launch of JPSS-2 will be increased. The follow on satellites, PFO/JPSS-
3 and PFO/JPSS-4, ensure NOAA's ability to provide accurate and timely 
weather forecasts and warnings through 2038. Full funding of the 
request allows NOAA to achieve polar weather constellation robustness 
as early as FY 2023.

    Question 10. Within the President's requested budget, how much do 
you estimate NOAA to expend on weather forecasting research? What, if 
any, projects are currently being studied, or are planned? How much do 
you estimate to expend on seal level research?
    Answer.
NOAA Weather Forecasting Research
    In FY 2016 NOAA requests a total of $102.7 million across the 
Office of Oceanic Research, the National Weather Service, and National 
Environmental Satellite, Data and Information Service for weather 
forecasting research and development. In fiscal 2016, weather 
forecasting research efforts are detailed as follows:
Office of Oceanic and Atmospheric Research (OAR)
    OAR requests $78.6 million for weather forecasting research and 
development. Under its Weather and Air Chemistry Research sub-program, 
OAR will support:

  <bullet> Research and development that provides the Nation with 
        accurate and timely warnings and forecasts of high-impact 
        weather events and their broader impact on issues of societal 
        concern such as weather and air quality;

  <bullet> Research that provides the scientific basis for informed 
        management decisions about weather, water, and air quality; and

  <bullet> An increase in the pace, scope, and efficiency of 
        exploration and research through the development of new, 
        innovative and emerging technologies.
National Weather Service (NWS)
    NWS requests $22.1 million for weather forecasting research and 
development. The research efforts are focused on improving tsunami 
warnings, air quality forecasting, and science enhancement for Next 
Generation Aviation forecast services. Major development efforts 
include the development for the next generation global and hurricane 
weather prediction model, and demonstration of centralized water 
forecasting.
National Environmental Satellite, Data and Information Service (NESDIS)
    NESDIS requests $2.0 million for weather forecasting research under 
its Joint Center for Satellite Data Assimilation and Satellite 
Altimetry Laboratory.
NOAA Sea Level Research
    NOAA conducts sea level-related research through OAR's Climate 
Program Office and the National Ocean Service. OAR's Climate Program 
Office manages research to incorporate ice sheet dynamics, ocean-ice 
shelf and ocean-iceberg interactions, ice shelf cavity circulations and 
processes driving regional variations in sea level rise and inundation 
into NOAA's Earth System Models. Model development goals will include 
routine global ocean data assimilation capabilities linked to Global 
Ocean Observing System observations and innovative approaches to 
achieving high resolution in regions of interest including coasts, 
shelves and marginal seas, shelves, coasts and estuaries. OAR will 
spend approximately $4.7 million on sea level rise related research and 
development in FY 2016. This total includes high performance computing 
related to regional sea level rise work.
    The National Ocean Service has operational water level programs 
that support sea level research and applied research programs that 
focus on sea level-related issues (such as risks and vulnerabilities 
related to changes in sea level, associated impacts to the coastal 
built and natural environment, and the development of tools, resources, 
and methodologies to inform adaptation and planning decisions), but no 
programs specific to sea level research.

    Question 11. The Trade Promotion Authority (TPA) is imperative to 
passing meaningful trade agreements that will in turn expand our 
exports and create jobs in America. Realizing there are some in the 
President's party who are serving as roadblocks in the Administration's 
efforts to garner an up or down vote on this critical measure, it is my 
hope the Senate can resolve the discord. What is the Department 
currently doing to ease the concerns of members opposed to TPA?
    Answer. Congress has enacted Trade Promotion Authority laws to 
guide both Democratic and Republican Administrations in pursuing trade 
agreements that eliminate barriers in foreign markets, establish rules 
to stop unfair trade, and thereby create and support jobs in the United 
States. That is why, at the President's direction, there is a whole-of-
Administration effort to have conversations about trade all over the 
country and make sure the American people have the full facts about the 
benefits of our trade agreements.
    Senior officials from the Department have played a key role in 
delivering this message, meeting with businesses and workers to make 
clear that trade agreements help open new markets and level the playing 
field for our goods and services; advance American values and 
strengthen the competitiveness of U.S. companies; and reinforce the 
United States as a global leader setting fair rules of the road for a 
next generation of U.S. jobs and economic growth. The Department, 
through its trained professionals in U.S. Export Assistance Centers and 
the implementation of the National Export Initiative/NEXT strategy, is 
also pursuing a number of initiatives specifically designed to better 
help our businesses know about and take advantage of opportunities 
available under our trade agreements. Successes associated with helping 
U.S. firms enter new markets, grow their bottom lines, and develop 
local workforces reinforce the value of trade agreements for all 
stakeholders.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Kelly Ayotte to 
                          Hon. Penny Pritzker
    Question. As you know, the New England Groundfish Fishery has faced 
significant hardship in recent years. Fishing is a historic and 
honorable trade that has been in many New Hampshire families for 
generations and sustains the livelihood of fishing communities across 
New England. The fishery in my home state of New Hampshire has been 
forced to near extinction.
    Recently, I have heard concerns from fishermen regarding NOAA's At-
Sea-Monitoring Program. NOAA officials have told fishermen in New 
Hampshire that due to budget constraints, in this fishing year, 
fishermen will be forced to pay for part or all of the monitoring 
costs. Has NOAA budgeted the correct amount of funding to cover the 
required observer under its At-Sea-Monitoring Program?
    Answer. Amendment 16 for New England Groundfish that established 
the sector program envisioned that the industry would pay for at-sea 
monitors after an initial transition period. In the interim, the 
Administration requested and Congress appropriated observer funds 
including at-sea monitors in four specific budget lines and the 
Department has been funding this program. However, in response to a 
ruling of the U.S. Court of Appeals, NMFS has worked with the New 
England and Mid-Atlantic Fishery Management Councils to adopt and 
approve a revised Standardized Bycatch Reporting Methodology Omnibus 
Amendment, which will greatly limit our discretion in funding the at 
sea monitoring program.
    Our proposed rule implementing this Amendment would require 
observer funds from these specific budget lines to be used first to 
meet the requirements of the Standardized Bycatch Reporting Methodology 
for the purposes of monitoring bycatch before allocating such resources 
for additional observer needs including at-sea monitors in the New 
England ground fishery.
    Because we anticipate that appropriated observer funds will be 
insufficient to meet the requirements of the Standardized Bycatch 
Reporting Methodology, we do not anticipate having sufficient funds to 
continue to cover all of the at-sea costs associated with the At-Sea 
Monitoring Program for the entire 2015 fishing year. Therefore, the 
fishing industry would be required to pay for at-sea monitoring 
coverage beginning partway through the 2015 fishing year, which begins 
on May 1, 2015, and ends on April 30, 2016.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                          Hon. Penny Pritzker
    Question 1. How has Regional Innovation Program housed at the 
Economic Development Administration helped regional economies?
    Answer. The Economic Development Administration (EDA) is committed 
to fostering connected, innovation-centric economic sectors which 
support commercialization and entrepreneurship as described in the 
America COMPETES Reauthorization Act of 2010. Working with regions 
across the country to develop regional innovation strategies, including 
regional innovation clusters, is also a goal of the DOC's FY 2014-2018 
Strategic Plan and a keystone of the Secretary's commitment to building 
globally competitive regions.
    As part of this strategy, the Regional Innovation Strategies 
Program (RIS Program) supports capacity-building activities that 
include: (1) Proof of Concept Centers and Commercialization Centers as 
well as scaling of existing commercialization programs and centers; (2) 
feasibility studies for the creation and expansion of facilities such 
as science and research parks; and (3) supporting opportunities to 
close the funding gap for early-stage companies. To that end, EDA's 
existing and highly successful i6 Challenge is being joined by Cluster 
Grants for Seed Capital Funds, and Science and Research Park 
Development Grants to create the RIS Program.
    According to preliminary studies of the i6 program conducted by the 
University of North Carolina and SRI International, evidence from the 
client/participant survey of i6 grantees indicates that over 90 percent 
of respondents attributed direct positive impacts on their capacity to 
the services or support that they received through the i6 program; most 
reported results across multiple categories, advancing technology and 
developing network contacts being the most significant.
    Examples of short-term and long-term impacts included increased 
innovation and entrepreneurship capacity and knowledge, increased 
competitiveness, growth and expansion, and new opportunities. The 
preliminary findings also indicate that the impacts can occur at both 
the firm/organizational level and at the regional level.
    For example, the Digital Sandbox KC in Kansas City, Missouri, 
offers a central connection point for large businesses, emerging 
enterprises, and entrepreneurs to evaluate and develop new products and 
services. Established in 2012, this facility is a hub for proof-of-
concept work, mentorship, technical assistance, and early-stage 
investments and new jobs. By mid-2014, the Digital Sandbox had assisted 
local entrepreneurs with more than 200 business concepts, resulting in 
funding for 37 proof-of-concept projects. Furthermore, 26 of these grew 
into businesses that received more than $10.2 million in follow-on 
funding, creating 154 jobs for the local Kansas City economy.

    Question 2. What outcomes have you seen for those economies and 
grant recipients?
    Answer. The Digital Sandbox KC is not alone in such success. 
Another example is the University of Virginia, which joined forces with 
Virginia Tech and SRI International in 2012 to create a statewide 
innovation network, the Virginia Innovation Partnership (VIP). VIP's 
goal is to accelerate innovation and economic growth by breaking down 
silos and establishing better connections among the state's research 
and entrepreneurial assets. By October 2014, this partnership resulted 
in 36 research projects receiving initial funding--12 of which grew 
into new businesses with over $3.5 million in follow-on funding--17 
patents, two statewide venture conferences, and one very robust 
entrepreneurship mentor network.

    Question 3. How do you measure success of these programs?
    Answer. EDA, partnered with the University of North Carolina at 
Chapel Hill and SRI International to develop performance and outcome 
metrics for EDA-funded projects and to incorporate these metrics into a 
comprehensive and user-friendly evaluation system. The multi-year 
collaboration produced a logic model to guide future EDA initiatives 
and both partners offered a set of recommendations to enhance project/
program evaluation. An improved EDA evaluation system will enable 
policymakers to better target their investments and to measure their 
potential impact on economic activity. The partners reviewed data 
sources and developed metrics to enhance the quality of information 
collected from EDA grantees. These metrics can measure economic 
development activities in new ways and allow policymakers to get a more 
complete picture of the impact of EDA-funded projects on a local or 
regional economy. A comprehensive evaluation of EDA-funded projects can 
lead to increased evidence-based decision making and allow EDA to lead 
the Federal economic development agenda by promoting and measuring 
innovation and competitiveness.
    This framework was used as a baseline from which EDA, along with 
Department's Economics and Statistics Administration (ESA), created 
standard metrics for each respective program under the RIS Program. 
Each award recipient agrees to collect and report on the metrics 
relevant to that recipient's program. EDA collects and analyzes the 
reported metrics.
    These outputs drive local economies forward via outcomes such as 
increases in jobs, improvements in human capital, and growth in 
investment into the community. These outcomes are measured by new jobs 
created, new skill development, venture capital invested, and other 
respective metrics.
    Additionally, Section 27 of the Stevenson-Wydler Technology 
Innovation Act of 1980 (15 U.S.C. Sec. 3722) as amended by the 
Revitalize American Manufacturing and Innovation Act of 2014 (Title VII 
of 113 H.R. 83) [hereinafter RAMI] mandates an independent third-party 
evaluation of the RIS Program no later than three years after RAMI's 
enactment. (Sec. 3722(e) (1)) ``The evaluation shall include--(A) 
whether the program is achieving its goals; (B) any recommendations for 
how the program may be improved; and (C) a recommendation as to whether 
the program should be continued or terminated.'' (Sec. 3722(e) (2)) The 
aforementioned outputs and outcomes that are measured throughout the 
program will be used as part of this evaluation. In order to allow 
programs using these consistent set of metrics to have time to generate 
measurable outcomes, it is anticipated this evaluation will be 
initiated toward the end of the mandated three year period stated 
above.

    Question 4. I recently reintroduced the Startup Act. One portion of 
this legislation seeks to improve how Federal research is commercialize 
for the purpose of new businesses and job growth. What programs at the 
Department of Commerce assist companies and universities in 
commercializing Federal research?
    Answer. Thank you for the opportunity to provide information 
related to the leading role of the Department in supporting innovation, 
such as the activities that relate to the Startup Act. The Department 
provides both a leadership role in coordinating these activities across 
agencies, as well as firsthand experience in operating Federal 
laboratories at the National Institute of Standards and Technology 
(NIST), the National Oceanic and Atmospheric Administration (NOAA), and 
the National Telecommunications and Information Administration (NTIA). 
In addition, the Department works with and promotes the 
commercialization of Federal research through partner organizations 
such as the Federal Laboratory Consortium (FLC) and efforts such as the 
Lab to Market Cross Agency Priority (CAP) goal, and through the 
administration of grants through the Economic Development 
Administration (EDA).
    The government-wide coordination of policy issues, including the 
regulatory authority for rules on how to deal with intellectual 
property resulting from government funded research are performed by 
NIST. In addition, NIST has specific responsibilities for coordinating 
public-private collaboration efforts by Federal laboratories and 
serving as the host agency for the Federal Laboratory Consortium for 
Technology Transfer.
    EDA's Office of Innovation and Entrepreneurship leads the 
Department's Regional Innovation Strategies Program. The objective of 
this program is to make funding available for capacity-building 
activities that include Proof of Concept Centers and Commercialization 
Centers as well as scaling of existing commercialization programs and 
centers; feasibility studies for the creation and expansion of 
facilities such as science and research parks; and supporting 
opportunities to close the funding gap for early-stage companies. In 
September 2014, EDA announced three separate funding opportunities 
under this program, including: the i6 Challenge, Science and Research 
Park Development Grants, and Cluster Grants to support the development 
of Seed Capital Funds.
    EDA announced $8 million in funding to 17 grantees of the 2014 i6 
Challenge on March 30, 2015. The i6 Challenge, in its fourth iteration, 
is a leading national initiative designed to support the creation of 
centers for innovation and entrepreneurship that increase the 
commercialization of innovations, ideas, intellectual property and 
research into viable companies.
    EDA's Office of Innovation and Entrepreneurship also runs the 
National Advisory Council on Innovation and Entrepreneurship (NACIE), 
an external advisory council which the Secretary of Commerce chairs. 
The current council was established in October of 2014 and is made up 
of 27 accomplished individuals from academia, industry, and non-
profits. It is charged with advising the Department on various matters 
that include the commercialization of research and is currently 
considering various projects around this topic. The former NACIE, 
seated from 2010--2012, created a report titled ``The Innovative and 
Entrepreneurial University: Higher Education, Innovation, and 
Entrepreneurship'' that includes best practices in technology 
commercialization from universities. The current NACIE is working with 
the White House Lab-to-Market inter-agency working group to determine 
if there is an opportunity to do the same kind of report for 
commercialization of research from Federal labs.
    In addition, both NIST and NOAA participate in the Small Business 
Innovation Research (SBIR) program, which provides funding grants for 
entrepreneurial research. These grants can be focused on the 
development of Federal technology as well as external technologies. 
NOAA plans to expand its SBIR program in 2015 to include at least one 
SBIR technology transfer subtopic, which will enable private sector 
firms to take a NOAA-developed technology from the lab to 
commercialization with the help of SBIR funds.
    The Technology Partnerships Offices at NIST and NOAA focus on 
commercialization and the needs of small businesses, start-ups and 
entrepreneurs, and have implemented licensing options to aid these 
innovators and to lower the risk for other potential partners in 
obtaining and using their technologies. In addition to traditional 
commercialization licenses and licenses through the SBIR program, NIST 
and NOAA offer a no-cost, exploratory license to advance the 
development of their technologies for eventual commercialization. NIST 
also offers a low-cost one-year license for NIST technology not 
licensed within five years of the patent issue date, and a small 
business license agreement to help attract investors to develop early 
stage technologies.
    When it comes to collaborations with the private sector, the 
Department is a leader across Federal laboratories and agencies, making 
extensive use of the authority to enter into Cooperative Research and 
Development Agreements or CRADAs. NIST alone accounts for approximately 
one third of the government's active CRADAs annually, while NOAA has 
been greatly expanding its use of this powerful tool in the last three 
years. NOAA has been gradually rebuilding its technology transfer 
program over the past three years and has now begun work to baseline 
the effectiveness of its CRADAs from the past decade.
    The Department also has focused on technology outreach efforts to 
both industry and academia. For example, NIST is currently working with 
the Secretary of Technology for the state of Virginia to produce 
showcase events for the small business sector highlighting licensable 
NIST technologies. In 2014, NIST and NOAA conducted a joint technology 
showcase on the campus of their Boulder, Colorado, laboratories, which 
was marketed to local industry and academic groups. NOAA is also 
working closely with the technology transfer offices at its Cooperative 
Institutes to ensure jointly developed technologies are most 
effectively moved to commercialization.
    Through the Lab to Market effort, NIST is also coordinating with a 
number of university groups, including the Council on Government 
Relations, the Association of University Technology Managers, and the 
Association of American Universities, to solicit feedback on current 
grant and partnership procedures. Under the Lab to Market and Open Data 
initiatives, NOAA is working to make more of its data publicly 
available through a strategic engagement with private sector partners. 
NOAA is also exploring establishing an Entrepreneur-in-Residence 
program at one or more of its labs in the United States. The United 
States Patent and Trademark Office (USPTO) is also evaluating patent 
entity status for inventions that develop from a university-government 
research partnership.

    Question 5. Has there been any research on the effectiveness of 
these commercialization programs?
    Answer. Yes, NIST and other Federal agencies have historically 
conducted economic analysis research on the effectiveness of technology 
transfer. One of the five strategic areas of the Lab to Market effort 
is metrics. NIST coordinated the development of improved tech transfer 
metrics, which were first required to be reported by agencies in their 
FY13 Federal Tech Transfer Reports. NIST has been collecting data from 
each research agency and will release an interagency summary report to 
the President and Congress this summer. NIST is also expanding metrics 
analysis to include not only reports of (substantial) numbers of 
Federal technology transactions such as licenses executed and patents 
filed, but also the long term economic impact analysis of these 
transactions through published literature. Internally, NIST is 
developing a list of start-ups and NIST-assisted young technology 
companies, and will gather data to track supported companies over time 
in order to develop metrics that gauge the effectiveness of NIST's 
support of these companies.

    Question 6. Are there other strategies that can help improve how 
Federal research makes its way to the marketplace?
    Answer. There are many potential strategies to improve how Federal 
research leads to economic growth. The Department's leadership in the 
Lab to Market initiative includes a focus on open data for Federal 
intellectual property and Federal research facilities. We are 
considering the various components of this strategy, including human 
factors, public-private collaborations, improved access to Federal 
technologies and facilities, and working with state and local economic 
development organizations. New tools, such as the Federal Laboratory 
Consortium for Technology Transfer (FLC) Business tool and Available 
Technologies tool, have simplified the ability of potential partners to 
search across the Federal labs. The Department and other agencies 
regularly work with state and local economic development groups to hold 
Federal technology showcases, place Entrepreneurs in Residence within 
tech transfer offices to evaluate Federal technologies, and facilitate 
partnerships with businesses and universities. Additionally, as noted 
above, the Department has reactivated NACIE to make recommendations in 
using Federal technologies to advance the economy, develop the U.S. 
workforce, and encourage entrepreneurship. The USPTO also has a host of 
initiatives to improve the patent experience for inventors and patent 
quality to protect both inventors and the public. The NIST 
Manufacturing Extension Partnership Program actively assists the 
transition of technologies from our Federal labs to U.S. manufacturers. 
The Department continues to explore many alternatives to bring together 
all of our assets to focus on growth.
Federal I.T. Reform
    Question 7. Describe the role of your department's Chief 
Information Officer (CIO) in the development and oversight of the IT 
budget for your department. How is the CIO involved in the decision to 
make an IT investment, determine its scope, oversee its contract, and 
oversee continued operation and maintenance?
    Answer. The Department's Chief Information Officer (CIO) 
participates directly in the budget development via three related 
processes. All major Information Technology (IT) initiatives that are 
proposed for the agency budget request to the President are first 
reviewed and approved by the Commerce IT Review Board (CITRB) which is 
chaired by the CIO. The CITRB rates the investments on a 1 to 5 scale 
across five major assessment areas: Program/Project Management, Shared 
Services, IT and Cyber Security, Approach and Subject Matter Expertise, 
and overall Health and Wellness. This assessment allows the board to 
identify areas of concern relating to specific aspects of the IT 
investment. If the areas of concern are not addressed and the overall 
rating stays low, it is highly unlikely that this investment will get 
approval to be included in the Department's budget request to the 
Office of Management and Budget (OMB). In addition, the CIO 
participates in the Deputy Secretary's review of the agency budget 
request each year and incorporates his/her thoughts concerning such 
investment proposals. Besides the annual budget process, the CIO is the 
chair and/or participating member of the CITRB, the Acquisition Review 
Board (ARB), and the Milestone Review Board all of which review major 
investments. A major IT acquisition ($25M +) requires the Department's 
CIO to issue IT investment authority in order for the acquisition to 
proceed. Once a major IT initiative is under development or in 
operations, it is monitored monthly by the CIO. During the operation 
and maintenance phase, the CIO will continue to review and monitor 
investments via the CITRB and/or convene a Tiger Team if targeted 
investigation or analysis is required.

    Question 8. Describe the existing authorities, organizational 
structure, and reporting relationship of the Chief Information Officer. 
Note and explain any variance from that prescribed in the newly-enacted 
Federal Information Technology and Acquisition Reform Act of 2014 
(FITARA, PL 113-291) for the above.
    Answer. In addition to the statutory responsibilities through the 
Clinger-Cohen Act and related laws, the Department of Commerce has 
implemented a set of CIO responsibilities that are fully responsive to 
OMB Memorandum M-11-29, Chief Information Officer Authorities. These 
responsibilities are conferred on the CIO through the Acting 
Secretary's June 21, 2012, Memorandum Department IT Portfolio 
Management Strategy. These responsibilities focus on the areas of 
Governance, Commodity IT, Program Management, and Information Security. 
We believe that these responsibilities are in line with those 
prescribed by FITARA, and we will await guidance from OMB in regards to 
any implementation requirements.

    Question 9. What formal or informal mechanisms exist in your 
department to ensure coordination and alignment within the CXO 
community (i.e., the Chief Information Officer, the Chief Acquisition 
Officer, the Chief Finance Officer, the Chief Human Capital Officer, 
and so on)?
    Answer. The Department's CXO's meet informally and formally on a 
regular basis to discuss issues, concerns and immediate and urgent 
initiatives. Each CXO manages a Council to discuss and address their 
specific constituent needs and requirements. Each Council includes 
cross-member CXO participation on a routine basis either as a standing 
member or by briefing specific subject matter issues and concerns. For 
example, the CIO routinely briefs the Chief Financial Officer (CFO) 
Council during the Department's budget formulation process. 
Additionally, the CIO is a standing member on the CFO Council, the ARB 
and the Acquisition Council just to name a few. Additionally, the 
CITRB, chaired by the CIO and co-chaired by the CFO, includes 
membership of the Chief Acquisition Officer, Budget Director, 
Department's Risk Management Officer, Commerce Bureau CIOs, etc. 
Therefore, there are many opportunities across department councils, 
working groups and review boards for departmental CXOs to discuss 
issues and concerns and provide timely and critical feedback and 
updates.

    Question 10. According to the Office of Personnel Management, 46 
percent of the more than 80,000 Federal IT workers are 50 years of age 
or older, and more than 10 percent are 60 or older. Just four percent 
of the Federal IT workforce is under 30 years of age. Does your 
department have such demographic imbalances? How is it addressing them?
    Answer. The Department's IT Workforce numbers are similar to 
overall Federal IT Workforce demographics--50 percent are 50 years of 
age or older, 11 percent are 60 or older and only 3 percent of our IT 
workforce is 30 years of age or younger.

------------------------------------------------------------------------
          Age              DOC IT  Workforce      Federal IT  Workforce
------------------------------------------------------------------------
30 and below                                 3%                       4%
>=50                                        50%                      46%
>=60                                        11%                      10%
------------------------------------------------------------------------

    For current and future vacancies, the Office of the Chief 
Information Officer is developing a recruitment strategy to attract IT 
workers that includes partnering with the Department's Office of Human 
Resources Management to utilize existing hiring programs to recruit 
current college students and recent graduates in entry level positions.

    Question 11. How much of the department's budget goes to 
Demonstration, Modernization, and Enhancement of IT systems as opposed 
to supporting existing and ongoing programs and infrastructure? How has 
this changed in the last five years?
    Answer. Of the Department's current IT funding, 35 percent is for 
Development, Modernization and Enhancement (DME) as defined by OMB. In 
2010, the Department's percentage IT funding allocated to DME was 48 
percent. However, this was heavily skewed by the almost $1 billion 
spent for the 2010 Decennial Census. Excluding this anomaly, the 
percent of DME funding for the department would have been approximately 
23 percent.

    Question 12. What are the 10 highest priority IT investment 
projects that are under development in your department? Of these, which 
ones are being developed using an ``agile'' or incremental approach, 
such as delivering working functionality in smaller increments and 
completing initial deployment to end-users in short, six-month time 
frames?
    Answer. The Commerce mission is supported by many strategic and 
critical IT investments ranging from weather prediction and reporting 
systems, enumeration and economic reporting/tracking systems, to patent 
and trademark systems, all supporting a critical mission to the 
citizens of the United States. The ten highest priority IT investments 
under development across the Department include:

  <bullet> DOC--Business Application Solutions (BAS)

  <bullet> DOC--Enterprise Security Operations Center (ESOC)

  <bullet> DOC--Commerce BusinessUSA

  <bullet> NOAA--Weather Wire Service (NWWS)

  <bullet> NOAA--NCEP Advanced Weather Interactive Processing System--
        Agile

  <bullet> Census--2020 Decennial

  <bullet> Census--Enterprise Data Collection and Processing (CEDCaP) 
        program

  <bullet> USPTO--Trademark Next Generation (TM NG)

  <bullet> NIST--Website Redesign and Realignment

  <bullet> ITA--Salesforce Customer Relationship Management (CRM)

    Question 13. To ensure that steady state investments continue to 
meet agency needs, OMB has a longstanding policy for agencies to 
annually review, evaluate, and report on their legacy IT infrastructure 
through Operational Assessments. What Operational Assessments have you 
conducted and what were the results?
    Answer. The Department employs several interconnected processes for 
monitoring legacy IT infrastructure. Per official Department policy, 
all operational investments including IT infrastructure are required to 
conduct annual operational analyses. In addition, the Department's IT 
infrastructure investments are required to come before the Department's 
CITRB every year to discuss their current and proposed strategy and 
performance. In addition to yearly reviews, all IT infrastructure 
systems are required to send in progress reports and updated 
performance metrics to the OCIO monthly, in order to get even more 
timely information and greater transparency on the performance of IT 
infrastructure operations.

    Question 14. What are the 10 oldest IT systems or infrastructures 
in your department? How old are they? Would it be cost-effective to 
replace them with newer IT investments?
    Answer. The oldest IT systems currently used across the Department 
include:

----------------------------------------------------------------------------------------------------------------
                                                                                             Cost Effective
   Bureau                IT  System/Infrastructure                System Age (Yrs.)      Replacement  Possible?
----------------------------------------------------------------------------------------------------------------
NIST                          e-Travel Manager System (ETS)                       6.5                       Yes
----------------------------------------------------------------------------------------------------------------
NIST             Grant Management Information System (GMIS)                        14                       Yes
----------------------------------------------------------------------------------------------------------------
DOC                                                        Commerce Business System11CBS)                   Yes
----------------------------------------------------------------------------------------------------------------
NOAA              Automated Surface Observing System (ASOS)                       10+                       Yes
----------------------------------------------------------------------------------------------------------------
NOAA            National Weather Telecommunications Gateway                       10+                       Yes
                                                    (NWSTG)
----------------------------------------------------------------------------------------------------------------
NOAA             Advanced Weather Processing System (AWIPS)                        8+                       Yes
----------------------------------------------------------------------------------------------------------------
Census                                       Decennial 2010                        5+                       Yes
----------------------------------------------------------------------------------------------------------------
NTIA             Frequency Management Records System (FMRS)                       25+                       Yes
----------------------------------------------------------------------------------------------------------------
NTIA                                     Spectrum 21 (SXXI)                        15                       Yes
----------------------------------------------------------------------------------------------------------------
NTIA                                         FreqNet Portal                        15                       Yes
----------------------------------------------------------------------------------------------------------------
ITA                                             Lotus Notes                       15+                       Yes
----------------------------------------------------------------------------------------------------------------
ITA                                                 Oracle Content Management Syst15+(CMS)                  Yes
----------------------------------------------------------------------------------------------------------------


    Question 15. How does your department's IT governance process allow 
for your department to terminate or ``off ramp'' IT investments that 
are critically over budget, over schedule, or failing to meet 
performance goals? Similarly, how does your department's IT governance 
process allow for your department to replace or ``on-ramp'' new 
solutions after terminating a failing IT investment?
    Answer. The CITRB reviews IT projects, programs, and portfolios on 
a routine basis. The CITRB acts as a board of directors that advises 
the Secretary and Deputy Secretary on critical IT matters. Projects 
that are consistently rated ``red'' on the OMB IT Dashboard are 
reviewed by the Board.
    Depending on the severity of issues, problems or escalating risk 
impacting the project, the CITRB may recommend termination, or halting 
of the project.
    In addition to termination or halting the project, the CITRB 
ensures that proposed investments contribute to the Secretary's 
strategic vision and mission requirements, employ sound IT investment 
program management methodologies, comply with Departmental systems 
architectures, employ sound security measures, and provide the highest 
return on the investment or acceptable project risk. The CITRB provides 
for coordinated risk management, review, and advice to the Secretary 
and Deputy Secretary regarding IT investments. This advice includes 
recommendations for approval or disapproval of funding for new or base 
investments as well as recommendations for continuation or termination 
of projects under development at key milestones or when they fail to 
meet performance, cost, or schedule criteria. The Board also recommends 
approval or disapproval of requests for IT investment authority. 
Disapproval means they are not approved to enter into a contract to 
proceed to the next phase--this decision may result in overall 
termination or halting the investment until certain key actions have 
been completed.

    Question 16. What IT projects has your department decommissioned in 
the last year? What are your department's plans to decommission IT 
projects this year?
    Answer.

----------------------------------------------------------------------------------------------------------------
                                             Decommissioned Projects
-----------------------------------------------------------------------------------------------------------------
                Bureau                          IT Projects/Systems                        Comments
----------------------------------------------------------------------------------------------------------------
BEA                                     1000+ Legacy Programs/Applications        Incorporated into centralized
                                                                                                      databases
----------------------------------------------------------------------------------------------------------------
Census                                   IBM Lotus Domino web-based e-mail    Migration to cloud-based solution
                                                       and calendar system
----------------------------------------------------------------------------------------------------------------
ITA                                      Microsoft Exchange Infrastructure    Migration to cloud-based solution
----------------------------------------------------------------------------------------------------------------



----------------------------------------------------------------------------------------------------------------
                                    Projects Planned For 2015 Decommissioning
-----------------------------------------------------------------------------------------------------------------
                Bureau                          IT Projects/Systems                        Comments
----------------------------------------------------------------------------------------------------------------
ITA                                                  On-premise SharePoint    Migration to cloud-based solution
----------------------------------------------------------------------------------------------------------------
ITA                                         On-premise data center servers    Migration to cloud-based solution
----------------------------------------------------------------------------------------------------------------
ITA                                                 ITA Government Network   Transition to network as a service
----------------------------------------------------------------------------------------------------------------


    Question 17. The newly-enacted Federal Information Technology and 
Acquisition Reform Act of 2014 (FITARA, PL 113-291) directs CIOs to 
conduct annual reviews of their department's IT portfolio. Please 
describe your department's efforts to identify and reduce wasteful, 
low-value or duplicative information technology (IT) investments as 
part of these portfolio reviews.
    Answer. In order to monitor and promote optimal investment 
strategies and project management practices, the Office of the CIO 
charters the CITRB. Typically, the CITRB reviews two to three 
investments every month to review their performance and strategy. 
Following each review, comments and questions are sent to the managers 
and sponsors of that investment. This has led to many efforts within 
Commerce operating units and across the Department to consolidate 
similar efforts and contracts. For example, the Department is currently 
in the process of moving to a single cloud e-mail system and towards a 
single financial and business management system. On a local level the 
number of networks, help desks and data centers throughout the 
Department continue to be steadily reduced. In parallel, and to 
facilitate such streamlining and consolidation, the Department has 
provided contract vehicles available to all operating units.

    Question 18. In 2011, the Office of Management and Budget (OMB) 
issued a ``Cloud First'' policy that required agency Chief Information 
Officers to implement a cloud-based service whenever there was a 
secure, reliable, and cost-effective option. How many of the 
department's IT investments are cloud-based services (Infrastructure as 
a Service, Platform as a Service, Software as a Service, etc.)? What 
percentage of the department's overall IT investments are cloud-based 
services? How has this changed since 2011?
    Answer. The Department implemented OMB's ``Cloud First'' policy and 
includes this as a requirement during annual Budget Formulation 
reviews. All new IT investments are required to investigate and if 
possible leverage cloud strategies and technologies during alternative 
analysis processes. Below is a consolidate list of cloud solutions 
across the Department:

------------------------------------------------------------------------
                                                        Type of Service
                                     Cloud Service     (Infrastructure,
  Bureau      IT Service Name        Provider Name         Software,
                                                        Platform, Etc.)
------------------------------------------------------------------------
BEA        Office 365             Microsoft           Platform
------------------------------------------------------------------------
BEA        SharePoint             Microsoft           Software
------------------------------------------------------------------------
BEA        Help Desk Ticketing    TBD                 Software
            Application
------------------------------------------------------------------------
NIST       Cloud Computing        Amazon              Infrastructure
            Services
------------------------------------------------------------------------
NIST       IT Service Management  ServiceNow          Software
------------------------------------------------------------------------
NIST       Cloud E-mail and       Microsoft           Platform
            Collaboration
------------------------------------------------------------------------
NIST       Enterprise Mobile      MaaS 360            Platform
            Device Management
------------------------------------------------------------------------
NTIA       E-mail                                     Platform
------------------------------------------------------------------------
NTIA       Infrastructure         Various providers   Infrastructure
            Services
------------------------------------------------------------------------
NOAA       IT Infrastructure      Various providers   Infrastructure
------------------------------------------------------------------------
Census     Akamai Content         Akamai              Infrastructure
            Delivery
------------------------------------------------------------------------
Census     GovDelivery E-mail     GovDelivery         Software
            and Blogging
           Services
------------------------------------------------------------------------
Census     Microsoft Office 365   Microsoft           Software
------------------------------------------------------------------------
Census     Cloud Testing For      Noblis              Infrastructure
            Centurion/Community
            TIGER/Real-Time Non-
            ID
------------------------------------------------------------------------
Census     Salesforce.com         Salesforce          Software
            Integrated Partner
           Contact Database
------------------------------------------------------------------------
Census     SunFlower (Property    SunFlower           Software
            Mgt)
------------------------------------------------------------------------
Census     Adobe Site Catalyst    Adobe               Software
------------------------------------------------------------------------
Census     MaaS 360 Mobile        Fiberlink           Software
            Device Management
            (MDM)
------------------------------------------------------------------------
ITA        SalesForce.com         Sales Force         Software
------------------------------------------------------------------------
ITA        E-mail,                Microsoft           Platform
            Collaboration, VTC,
            and Storage
------------------------------------------------------------------------
ITA        Infrastructure         Amazon              Infrastructure
------------------------------------------------------------------------
ITA        IT Service Management  ServiceNow          Software
------------------------------------------------------------------------


    Question 19. Provide short summaries of three recent IT program 
successes--projects that were delivered on time, within budget, and 
delivered the promised functionality and benefits to the end user. How 
does your department define ``success'' in IT program management? What 
``best practices'' have emerged and been adopted from these recent IT 
program successes? What have proven to be the most significant barriers 
encountered to more common or frequent IT program successes?
    Answer. The Department defines an IT program/project as successful 
when, in addition to delivering within cost, schedule and budget, the 
program/project delivers the planned and measureable levels of benefit 
and addresses the specific requirements as originally defined, while 
staying in alignment with the mission and goals of the Department. 
Program/project success is being able to effectively integrate the 
various components of the program, at every level to ensure the people, 
process, and technology function successfully together. Barriers within 
Commerce include the ability to aggressively work across the 
organization on shared initiatives given the diverse mission areas and 
the federated culture. Program/project management teams must ensure 
that they conduct integration activities to ensure that the elements of 
the program are compatible and function together to satisfy business 
needs, while meeting cost and schedule constraints, and optimizing 
effectiveness. Several successful projects implemented across the 
Department include:

  <bullet> BEA Data Flow Improvement Project

    Within the Bureau of Economics and Analysis (BEA), the bureau 
        implemented a project to enable more efficient data flows of 
        the huge amounts of data processed and analyzed. BEA enhanced 
        its centralized IT framework by achieving cross-program 
        consensus on a design, developing, and releasing a BEA data hub 
        which standardizes secure transmission of data across BEA's 
        four major program areas.

  <bullet> NIST PIV Enablement Project

    The National Institute of Standards and Technology (NIST) 
        implemented the PIV Enablement Project which was implemented to 
        meet OMB, Department of Homeland Security, and the Department's 
        policies requiring the use of HSPD-12 credentials (PIV cards) 
        for network access. The project successfully enabled more than 
        90 percent of NIST Information System users to use their 
        assigned PIV cards to authenticate to PIV enabled information 
        systems as the normal mode of authentication with Windows 
        computers. The project improved IT security by providing the 
        capability to require two-factor authentication using the PIV 
        card.

  <bullet> Census Enterprise Systems Development Lifecycle Initiative

    In 2014, the Census Bureau implemented the Enterprise Systems 
        Development Lifecycle (eSDLC) initiative. The eSDLC leveraged 
        best practices and processes from internal stakeholders, 
        Federal agencies, and private industry to develop a full set of 
        processes and templates. Having all IT projects follow the 
        eSDLC has increased the control of schedule, costs, and risks.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Hon. Penny Pritzker
    Question 1. The recent AWS-3 spectrum auction was a success in part 
because of the work done by the National Telecommunications and 
Information Administration to oversee the collaborative efforts the 
government users and the private sector to develop an effective 
transition plan. That plan preserved essential Federal spectrum 
operations, while opening up additional commercial spectrum 
opportunities. Do you think the AWS-3 auction set a model for future 
efforts to make additional Federal spectrum available for commercial 
use?
    Answer. Yes. Drawing more than $40 billion in net bids for 65 
megahertz of spectrum, the AWS-3 auction was clearly a ringing 
financial success, but it also is an important milestone in the Obama 
Administration's efforts to meet the President's goal of making 
available 500 megahertz of spectrum for wireless broadband by 2020.
    The auction proceeds will help fund the Nation's first nationwide 
public safety broadband network being established by the First 
Responder Network Authority (FirstNet), as well as pay for deficit 
reduction, relocation costs Federal agencies will incur to vacate or 
share bands for commercial use and other priorities.
    The success of the auction was made possible in part by an 
unprecedented level of collaboration between the National 
Telecommunications and Information Administration (NTIA), affected 
Federal agencies, wireless industry representatives, the Federal 
Communications Commission (FCC), and Congress.
    The auction also represents a paradigm shift in our approach to 
making spectrum available for commercial wireless providers. In many 
instances, the bands that were auctioned will require the clearing of 
incumbent Federal users from these bands; while in other instances, 
non-federal entrants will be required to share spectrum with incumbent 
Federal agencies indefinitely. As NTIA continues to review spectrum 
bands for reallocation, spectrum sharing is becoming the new reality. 
Out of necessity, where it is cost prohibitive, takes too long to 
relocate incumbent users, or where spectrum offering comparable 
operational capability is not available to ensure continuity of 
critical Federal Government functions, we must move beyond the 
traditional approach of clearing Federal users from spectrum in order 
to auction it to the private sector for its exclusive use.
    As part of the Administration's efforts to make more spectrum 
available for wireless broadband, NTIA has been working to identify 
Federal bands that could be repurposed for commercial use. In our March 
2012 report, NTIA concluded that while it was possible to clear all 
Federal users from the 1755-1780 MHz band as a step in making this 
spectrum available for commercial use, it would take far too much time 
and money to relocate all the Federal systems operating in the band 
and, instead, proposed sharing as an option. This view was echoed by 
the President's Council of Advisors on Science and Technology in a 
groundbreaking report released later that year, which made 
recommendations on how to realize the full potential of government-held 
spectrum by facilitating spectrum sharing.
    NTIA was assisted in its work on the AWS-3 bands by the Commerce 
Spectrum Management Advisory Committee (CSMAC), a diverse group of 
private sector spectrum experts who advise NTIA. CSMAC, in 
collaboration with the Federal agencies, did groundbreaking work to 
explore viable spectrum sharing arrangements between Federal agencies 
and private industry in both the 1695-1710 MHz and 1755-1780 MHz bands, 
which are two of the three bands that were part of the AWS-3 auction.
    NTIA also worked with Federal agencies to develop transition plans 
that include detailed actions they will take to either share or 
relocate from the affected frequencies in the AWS-3 bands. Information 
from these transition plans, along with more granular information on 
how Department of Defense systems may impact certain bands and 
locations over time, provided an unprecedented level of detail to 
better inform potential bidders.
    The AWS-3 auction represents an important pivot point as we embrace 
spectrum sharing as part of a new approach to increased spectrum access 
for both public and private sector users while continuing to support 
critical Federal operations. With a sustained level of cooperation 
between Federal agencies and industry, this approach will produce 
benefits for both.

    Question 2. How can Congress help facilitate this sort of 
cooperative dialog between Federal Government spectrum users and 
commercial users?
    Answer. Congress played an important role in the successful AWS-3 
auction in several respects. It passed the Middle Class Tax Relief and 
Job Creation Act of 2012 that authorized the auction of AWS-3 spectrum 
and updated the way in which Federal users receive compensation for 
relocation and sharing. Congress also worked closely with NTIA, the 
FCC, and Federal agencies to ensure timely and efficient transition 
planning in preparation for the auction. This leadership helped all 
parties work as collaboratively as possible towards a successful 
outcome that expanded broadband opportunities and reduced the deficit. 
As a result, NTIA is building on the lessons learned from these AWS-3 
efforts to establish a repeatable and sustainable collaboration 
framework between NTIA, FCC, Federal agencies, industry, and Congress 
to maximize the value and use of this important resource.
    We welcome efforts to look at additional reforms that would further 
expedite and expand these collaborative efforts and maximize the 
benefits of spectrum access for both government and commercial users. 
One area for consideration is enhancing the flexibility to utilize the 
Spectrum Relocation Fund (SRF) for up-front studies and research and 
development (R&D) activities that are not specifically tied to an 
eligible frequency band. These enhancements would be in addition to the 
existing statutory requirements the SRF fulfills. The FY 2016 
President's Budget included a proposal to increase flexibility in the 
use of the SRF and highlighted that targeted investments can return 
more than they cost in the form of enhanced auction value or sharing 
arrangements. We welcome continued dialogue on all innovative ideas to 
improve upon the already successful collaboration between Federal and 
commercial entities.

    Question 3. I regard the threat of cyberattacks to be one of the 
greatest dangers to the American public. It has been a year since NIST 
released its highly acclaimed Framework, but more needs to be done in 
order to adequately address this national security priority. The 
Administration's budget as proposed a $7 million increase for NIST's 
cybersecurity program. Can you tell the Committee what NIST will do 
with this increased funding?
    Answer. Cybersecurity is indeed one of the greatest challenges 
facing the American public and the American economy. The National 
Institute of Standards and Technology (NIST) Cybersecurity Framework 
called for in the President's Executive Order 13636 on ``Improving 
Critical Infrastructure Cybersecurity'' is one tool that can help 
industry across all sectors to better understand their cybersecurity 
postures in order to target areas for improvement. We continue to be 
informed about examples of industry adopting the Framework. For 
example, Apple has reported that it is incorporating the framework as 
part of its broader security protocols across its corporate networks. 
U.S. Bank and Pacific Gas and Electric have indicated their commitment 
to use the Framework. AIG is starting to incorporate the Framework into 
its business processes when underwriting cyber insurance for large, 
medium, and small businesses. As part of our ongoing cybersecurity 
efforts, NIST will continue to conduct extensive outreach to businesses 
to help raise awareness of the Framework and its use.
    But, as you are aware, NIST is also engaged in cybersecurity 
efforts that extend beyond the Framework, and the additional funds 
requested in FY 2016 will help expand and strengthen these efforts. 
NIST's FY 2016 budget requests a $7 million increase for its 
cybersecurity program. This request will strengthen NIST's independent 
cryptography and privacy-enhancing capabilities. We want to ensure that 
we can continue to provide strong and independently verified 
cryptography solutions and to begin work on building the quantum 
resistant public-key architectures and systems that will take 15+ years 
to fully develop and deploy. With the requested funding, we plan to 
expand the NIST cryptographic team to strengthen our capacity to 
identify, design, develop and standardize effective crypto algorithms, 
modes, key-management and protocols. We will identify and analyze 
quantum resistant security technologies and develop and promulgate 
standards, guidelines, tests, and measurements to support a post 
quantum security market. The very specialized nature of cryptography 
significantly limits the availability of skilled technical experts. In 
the past, we looked to expertise available outside of NIST, including 
at the National Security Agency, to complement the limited expertise 
that we had within NIST. With expanded in-house skills and capabilities 
we anticipate not being solely reliant on these external resources. We 
also anticipate greater cooperation with the private sector and 
specifically increased access to top academic talent in this space. 
This funding will also help NIST in developing and providing tools for 
privacy risk management. NIST will provide the fundamental tools that 
can lead to the development of privacy guidelines that reflect Fair 
Information Practices Principles.

    Question 4. Can you inform us what the rest of the Commerce 
Department is doing on cybersecurity?
    Answer. The Department of Commerce (Department) is committed to 
enhancing cybersecurity across U.S. industry, with all of the relevant 
bureaus contributing consistent with their mission. Since 2010, the 
Department has worked on these issues through the Department-wide 
Internet Policy Task Force (IPTF), which leverages the expertise of the 
entire Department to address key Internet policy challenges, including 
cybersecurity. The IPTF incorporates views across many bureaus, 
including those responsible for domestic and international information 
and communications technology policy, international trade, 
cybersecurity standards and best practices, intellectual property, 
business advocacy and export control. A few examples of recent 
engagements with industry are set out below.
    In March 2015, the IPTF issued a request for comment (RFC) seeking 
public input on potential topics addressing key cybersecurity issues 
facing the digital economy that could be best addressed by a consensus-
based multistakeholder process. The National Telecommunications and 
Information Administration (NTIA) will lead this initiative by 
facilitating stakeholder dialogues aimed at making concrete progress on 
important cybersecurity issues. The RFC asked for input on which topics 
would be most conducive to discussion by a wide range of stakeholders, 
including Internet service providers, software developers, security 
vendors, equipment manufacturers, mobile application developers, cloud 
and content providers, vulnerability researchers, civil liberties 
advocates, digital infrastructure owners, digital economy experts, and 
others.
    The United States Patent and Trademark Office (USPTO) has held 
several forums to support the industry on issues intersecting 
cybersecurity and intellectual property. Last November, the USPTO 
hosted its first Cybersecurity Partnership meeting to discuss topics 
relevant to their stakeholders. These topics included providing 
guidance for those seeking patent protection in the cybersecurity and 
network security sector; cybersecurity patent initiatives; key computer 
security patent application statistics; and updated examination 
guidelines. Also, in February, the USPTO worked with the Silicon Valley 
Leadership Group to host one of several events held in conjunction with 
the White House Summit on Cybersecurity and Consumer Protection at 
Stanford University. The event featured a roundtable discussion with 
Michael Daniel, Special Assistant to the President and Cybersecurity 
Coordinator, along with experts from the NIST and leaders from the 
venture capital and startup communities. In addition, the USPTO is an 
active participant in other cybersecurity events including the most 
recent NIST Cybersecurity Framework Workshop, and in April, the USPTO 
will participate in a roundtable discussion at this year's RSA 
conference. Finally, to help keep patent examiners abreast of new 
developments in cyber technology, the USPTO has been expanding 
technical training opportunities by inviting scientists and engineers 
to provide relevant training to their examiners on cybersecurity 
standards and emerging technology via their Patent Examiner Technical 
Training Program.
    The International Trade Administration (ITA) addresses 
international cybersecurity issues related to trade, seeking in 
particular to open foreign markets to U.S. goods and services. With 
additional FTE, the Office of Digital Services Industries (ODSI) 
anticipates playing a more substantive role ensuring that foreign 
governments' cybersecurity policies and regulations are necessary to 
achieve a legitimate public policy goal, non-discriminatory, and not 
disguised restrictions on trade. In addition, an increase in resources 
in ITA would allow ODSI the opportunity to better promote the exports 
of U.S. cybersecurity products and services through its worldwide 
network of offices. Given the importance of cybersecurity to the 
digital economy, Deputy Secretary of Commerce Bruce H. Andrews and 
Assistant Secretary for Industry and Analysis Marcus D. Jadotte will 
lead a Cyber Security Business Development Mission to Romania and 
Poland May 11-15, 2015. The mission will introduce U.S. cybersecurity 
and critical infrastructure protection firms to key players in Central 
and Eastern Europe's information and communications sector and assist 
them in finding business partners and identifying export opportunities. 
In addition, Deputy Secretary Andrews and Assistant Secretary Jadotte 
will engage with government representatives in the region to discuss 
the importance of cybersecurity, promote implementation the NIST 
framework, and highlight U.S. expertise in the field.

    Question 5. One of the largest investments in the budget request is 
to initiate the Polar-orbiting satellite follow-on mission. This 
includes the next two large polar-orbiting satellites and a new small 
satellite or ``nanosatellite.'' It is clear that NOAA is planning ahead 
to avoid the cost overruns, schedule delays, and potential data gaps 
that have plagued our satellite programs in the past. Can you speak 
about how this investment will ensure robust weather forecasting?
    Answer. The President's FY 2016 Budget request includes $380 
million for Polar Follow On (PFO) activities designed to achieve 
afternoon polar-orbit weather constellation robustness as early as FY 
2023. PFO implements a long-term strategy to build a robust 
architecture that ensures the National Oceanic and Atmospheric 
Administration's (NOAA) ability to provide accurate and timely weather 
forecasts and warnings through 2038.
    There are three activities funded within PFO:

  <bullet> initiate development of PFO/JPSS-3 to meet a launch 
        readiness date (LRD) in the second quarter of FY 2024, and PFO/
        JPSS-4 development to meet a LRD in the third quarter of FY 
        2026.

  <bullet> provide the option to accelerate PFO/JPSS-3 as a contingency 
        mission with critical sounders Advanced Technology Microwave 
        Sounder (ATMS) and Cross-track Infrared Sounder (CrIS) only.

  <bullet> invest in development of an advanced technology Earth 
        Observing Nanosatellite-Microwave (EON-MW).
    Authorizing PFO in FY 2016 will allow NOAA to take advantage of the 
ongoing JPSS-2 instrument and spacecraft bus development to reduce 
schedule, risk and life cycle costs for the follow on missions and 
implement a simultaneous instrument block buy for PFO/JPSS-3 and PFO/
JPSS-4 instruments for the most efficient acquisition strategy and 
production cadence.
Initiate development of PFO/JPSS-3 and PFO/JPSS-4
    PFO will extend NOAA's polar satellite system to ensure continuity 
of the data necessary for input to NOAA's numerical weather prediction 
models that support the development of accurate and timely weather 
forecasts and warnings. PFO will maintain continuity of polar 
observations beyond JPSS-2.
    The JPSS Program of Record supports development of JPSS-1 and JPSS-
2. PFO supports development of two additional polar satellites 
identical in capability to the JPSS-2 satellite, PFO/JPSS-3 and PFO/
JPSS-4. The full PFO/JPSS-3 and -4 missions are comprised of ATMS, 
CrIS, Visible Infrared Imaging Radiometer Suite (VIIRS), and the Ozone 
Mapping Profiler Suite-Nadir (OMPS-Nadir).
Option for an ATMS and CrIS only mission
    As part of the robust architecture for NOAA's afternoon polar-
orbiting satellite system, the PFO includes a contingency capability in 
the event of a mid-term (early 2020s) loss of polar-orbiting 
observations. This contingency mission would include only ATMS and CrIS 
instruments, and, if exercised, would replace the full JPSS-3 mission. 
If the contingency is not exercised, the full JPSS-3 mission (ATMS, 
CrIS, VIIRS, OMPS-Nadir) would continue as planned.
Investment in EON-MW
    As a further gap mitigation capability to address the possibility 
of a near term (prior to 2020) loss of polar-orbiting observations, PFO 
supports an investment to develop an advanced technology, EON-MW. While 
not a replacement, EON-MW will approximate some of the atmospheric 
profiling capabilities of the ATMS instrument and would provide a 
usable subset of comparable quality data in the event of a launch or 
instrument failure on JPSS-1. The ATMS instrument that flies on the 
JPSS series satellites collects microwave temperatures and moisture 
data to produce atmospheric profiles; these data have been identified 
as one of the most important inputs to National Weather Service 
numerical weather prediction models that produce weather forecasts 
three days and beyond.

    Question 6. NOAA maintains a fleet of ships and aircraft that are 
essential platforms for executing its missions. I actually went up in 
one of the P3 Orion Hurricane Hunter aircraft. And NOAA ships are like 
the satellites of our oceans in terms of their contribution to the NOAA 
mission. But the fleet is aging. What is the plan to recapitalize the 
NOAA fleet?
    Answer. NOAA is requesting $147.0 million in the FY 2016 
President's Budget for the construction of a new Ocean Survey Vessel 
(OSV). This request is based on a robust Requirements Validation 
Assessment and analysis process. NOAA also continues to work closely 
with the NOAA Fleet Advisory Committee, a group of external experts 
from other Federal agencies involved with the management of at-sea 
assets. Committee membership includes representation from the U.S. 
Navy, U.S. Coast Guard, National Science Foundation, Bureau of Ocean 
Energy Management, Environmental Protection Agency, and University-
National Oceanographic Laboratory Systems.
    Per the Federal Oceanographic Fleet Status Report, released May 
2013 by the National Ocean Council, the Federal oceanographic fleet 
will experience a 50 percent decline in the number of active vessels by 
2026 without further modernization. Without an investment, the NOAA 
fleet will decline by 50 percent from 16 to eight active ships between 
FY 2016 and FY 2028.

    Question 7. I'm glad to see that the budget proposes to leverage 
cost savings by investing in construction of a new Ocean Survey Vessel 
this year. As you know, during the Deepwater Horizon oil spill, the 
NOAA vessels were critical to monitoring where the oil was going and 
what the impact was to the fish and wildlife. Given our extensive 
coastline, it would be great to have a NOAA ship based in Florida. Can 
you talk about the potential uses for a new NOAA vessel?
    Answer. The homeport and specific missions for the requested Ocean 
Survey Vessel (OSV) have not yet been determined. However, the OSV will 
be a multi-mission capable vessel serving NOAA's primary mission areas 
throughout the U.S. Exclusive Economic Zone such as surveying marine 
mammal populations; collecting samples and observations to support 
ecosystem-based management activities; conducting oceanographic and 
climate research; mapping the ocean floor to update nautical charts; 
and servicing National Weather Service's buoys.

    Question 8. 2015 will be a big year for the RESTORE Council--five 
years after the Deepwater Horizon oil rig exploded--and three years 
after we passed the RESTORE Act by an overwhelming bipartisan majority. 
Maybe Judge Barbier will rule on the civil fines that BP will have to 
pay. But the Council has funds to invest in restoring the Gulf of 
Mexico from the settlement with Transocean--another responsible party.
    We established a voting structure that vested significant power in 
the Chair of the RESTORE Council. It is very important that the 
delicate balance of each of the streams of Gulf restoration funding be 
preserved. As Chair of the Council, how are you providing leadership to 
ensure that these Federal Clean Water Act fines are used in the way 
that we intended?
    Answer. I appreciate that the RESTORE Act is the result of a 
delicate, bipartisan compromise. As Chair of the Gulf Coast Ecosystem 
Restoration Council (Council), I am committed to implementing the Act 
as passed by Congress. While the Council has taken an integrated 
approach to Gulf restoration--recognizing that ecosystem restoration is 
inextricably linked to economic growth and development--we recognize 
that each component under the Council's purview has a unique set of 
eligible uses and criteria for funding.
    As Council Chair, Commerce is working with the Gulf Coast States 
and other entities to help ensure a coordinated and collaborative 
approach to restoration that will advance common goals, avoid 
duplication, and maximize the benefits to the Gulf Coast region.
    For the Council-Selected Restoration Component, the RESTORE Act 
directs the Council to use the best available science and give highest 
priority to projects or programs that meet one or more of the 
restoration priorities enumerated in the Act. Under Commerce's 
leadership, the Council has implemented a project selection and vetting 
process that incorporates an independent peer review evaluation to 
ensure projects are grounded in best available science, provides for 
coordination at a project level with other restoration efforts, and 
gives the highest priority to projects that meet one or more of the 
evaluation criteria enumerated in the law. Additionally, for the Oil 
Spill Impact Component, staying true to the way that the law was 
written, the Council is developing a draft regulation for notice and 
public comment.
    The Council recognizes this unique and unprecedented opportunity to 
implement a coordinated Gulf Coast region-wide restoration effort in a 
way that restores and protects the Gulf Coast environment, 
reinvigorates local economies, and creates jobs in the Gulf region. Our 
goal and commitment is not simply to address the damage caused by the 
spill--it is to enhance the long-term environmental health and economic 
prosperity of the Gulf Coast region for generations.

    Question 9. Can you provide an updated timeline as to when we can 
expect to see the first funded priorities list from the Council 
allocation?
    Answer. The Council is currently evaluating submissions for 
potential funding under the Council-Selected Restoration Component. 
Over the past two years, the Council has adopted an Initial 
Comprehensive Plan, adopted a science-based project evaluation process, 
released project submission guidelines, engaged the public in project 
selection, and state and Federal members have submitted project 
proposals.
    In November 2014, the Council received a total of 50 submissions 
totaling almost $800 million from its members for consideration in the 
first round of Council funding. Over the past four months, the 
proposals have been evaluated against requirements established in the 
RESTORE Act as well as for: (1) best available science; (2) 
environmental compliance readiness; and (3) whether they meet the 
commitments in the Comprehensive Plan. The Council has made the results 
of these evaluations publicly available through the Council's website. 
The Council is in the process of reviewing these evaluations and 
selecting projects and programs to be included in a draft funded 
priorities list.
    The Council expects to publish a draft funded priorities list later 
this year for public comment. After consideration of all comments, the 
Council will incorporate changes, as appropriate, and anticipates 
releasing a final funded priorities list by the end of the calendar 
year.

    Question 10. Florida has the most saltwater anglers; the most 
International Game Fish records; and the second largest commercial 
fishery in the Nation. Fishery resources form a pillar of our economy. 
But we don't invest enough in the science to understand our fisheries. 
I appreciate that the Administration has proposed a $5 million increase 
in fishery stock assessments, data collection, and surveys--and funding 
to construct a new Ocean Survey Vessel. Can you describe what it would 
take to adequately characterize and monitor the status of domestic fish 
stocks?
    Answer. The Administration has four requests that work together to 
provide strong science-based fisheries management and advance potential 
for more efficient monitoring practices. It includes a $2.8 million 
increase for Data Collection and Surveys for expanding annual stock 
assessments, a total of $10.6 million increase in Fisheries and 
Ecosystem Science Programs and Services for eco-system-based solutions 
for fisheries management ($5.0 million) and electronic monitoring and 
reporting ($5.6 million), and $1.5 million in Fisheries Management 
Programs and Services to support the regulatory integration of 
electronic technologies.
    The $2.8 million increase for expanding annual stock assessments is 
specifically directed towards implementing NOAA's next generation stock 
assessment framework and filling critical gaps identified during recent 
program reviews and evaluations. Stock assessments provide the 
scientific information needed to determine stock status for sustainable 
management of fisheries. Key focal areas for NOAA's stock assessment 
program include coordinated efforts to monitor fishery catch and 
bycatch; improved capacity to conduct surveys that collect data on 
trends in fish stock abundance, habitat, and other ecosystem data; and 
implementation of a new approach to prioritizing stock assessments and 
establishing stock-specific assessment goals.
    To characterize and monitor fish stocks, all assessments require 
information on total fishery catch and bycatch. This is achieved 
through coordinated programs for commercial catch monitoring, 
recreational catch monitoring, and at-sea observer programs; all with 
increasing use of electronic monitoring tools. (See below for a 
discussion of the budget request for additional electronic monitoring 
tools.) For most domestic fish stocks, total catch monitoring is 
adequate for assessment purposes, with notable exceptions for stocks in 
the Caribbean and western Pacific, and for stocks with a high 
percentage of the total catch coming from either recreational fishing, 
or from discarded bycatch. In addition to its use in a stock 
assessment, catch monitoring is also critical for monitoring sector 
specific catch against Annual Catch Limits.
    The second most valuable data source for assessments is surveys to 
monitor trends in abundance. Fortunately, surveys rarely need to be 
stock-specific so a small set of surveys in a region can provide 
coverage for many fished stocks. These surveys need to be re-visited at 
a regular pace, generally annually, in order to maintain the monitoring 
of stock trends amidst natural and fishery-caused fluctuations. 
Regional differences in surveys are due to historical investments, 
availability of suitable survey vessels, the nature of the fish in that 
region, and the nature of the habitats these fish live in; one size 
does not fit all.
    Finally, NMFS has developed a new stock assessment prioritization 
process, which describes an approach to setting stock-specific 
assessment goals and prioritizing assessment efforts to achieve those 
goals. NMFS is testing the implementation of this prioritization 
process in FY 2015 and expects full implementation to begin in FY 2016 
across all regions. The prioritization process recognizes that not all 
stocks need annual assessments and that not all stocks warrant 
assessments that require extensive data sets. Some managed stocks 
provide little value to the fishery, or are not currently being fished 
close to biological limits, or show little sign of natural fluctuations 
in status and hence have little need for intensive, frequent 
assessments. On the other hand, high profile stocks for which there is 
significant recreational or commercial fishery interest in obtaining 
maximum value, such as red snapper, scallops, cod, walleye pollock and 
many others do warrant large investments and frequent assessment 
updates. The prioritization process will allow us to develop a 
portfolio of assessments that makes the best use of available data and 
assessment capacity. Also, it will provide insights into the remaining 
challenges that limit NOAA from providing better and more stock 
assessments such as gaps in data, workforce, and infrastructure, 
including survey ships.
    Separately, the $5.0 million increase is the NMFS component of the 
cross-line office initiative with NOAA's National Ocean Service (NOS) 
to support ecosystem-based solutions for fisheries management and 
focuses on increasing support for habitat science. This request seeks 
to strengthen the science needed to understand the ecological 
connections between the inshore habitats and the offshore fisheries 
that are managed by NMFS and that support many coastal communities. 
Many stocks depend on these inshore habitats at some point in their 
life histories; however, they are vulnerable to habitat degradation and 
loss. Thus, the request has broad relevance to fisheries management, 
including relevance to stock assessments.
    The request of $5.6 million in Fisheries and Ecosystem Science 
Programs and Services for electronic monitoring and reporting, as well 
as the request of $1.5 million in Fisheries Management Programs and 
Services to support the regulatory integration of electronic 
technologies, are designed to support the development and 
implementation of electronic monitoring and reporting technologies 
across the country. These electronic solutions will improve the 
timeliness, quality, integration, and accessibility of fishery-
dependent data for fishery managers, stock assessment scientists, the 
fishing industry, and other key stakeholders. The goal is to deliver 
cost-effective and sustainable electronic data collection solutions 
that enhance monitoring of catch and bycatch in U.S. fisheries. 
Progress to date has been limited due to insufficient funding to 
address shortcomings identified in the pilot studies and to support 
implementation of electronic monitoring (EM) and electronic reporting 
(ER) programs beyond the pilot stage for both catch share and non-catch 
share fisheries.
    Understanding the ecosystem and environmental setting in which 
fisheries occur is increasingly recognized as a necessary component of 
an adequate monitoring and assessment program. While fish assessments 
zero in on the status of each stock, ecosystem assessments help explain 
why past stock changes occurred and help forecast future changes. They 
also identify cumulative impacts of fishing that may be missed by 
individual fish assessments. Together, the four requested increases 
will move NOAA toward improved stock assessment services.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Hon. Penny Pritzker
    Question 1. The President's Budget requests $115 million for the 
Bureau of Industry Security (BIS) in order to successfully transition 
the export licensing responsibilities from the State Department to the 
Commerce Department. I support these reforms to our export control 
system that will make it easier for businesses to get their goods to 
markets while also providing the necessary enforcements to make sure 
sensitive products don't make it into the wrong hands. Can you give an 
example of how the transition of more items from the State Department's 
Munitions List to the Commerce Control List has helped U.S. exporters?
    Answer. Before answering your questions, a correction is necessary. 
The Bureau of Industry and Security (BIS) is not seeking $115 million 
to transition items to its licensing responsibility from the Department 
of State. Most of the $115 million is to fund the minimum necessary 
basic operations of BIS. This includes the addition of funding to BIS' 
base for fewer than 20 licensing officers to process the new items (at 
a cost of less than $6 million), plus additional enforcement-related 
resources to handle enforcement of the new items and related 
activities. A fully funded BIS is able to process licenses and 
implement other authorizations for items for which it is now 
responsible, under regulations that impose far less regulatory burden 
than those of the State Department. For this relatively small 
investment, BIS has processed (as of February 2015) a total of 11,686 
additional license applications for items worth $19.2 billion. Nearly 
$2 billion of exports have been shipped to close friends and allies 
under license exceptions or situations where no license is required at 
all. The volume of license applications to the Department of State has 
decreased by more than 60 percent.
    As evidenced by this data, the primary benefit is that the BIS 
system has a significant number of license exceptions that allow for 
exports of controlled items to specific countries without the need to 
seek a license from the U.S. Government. In particular, License 
Exception Strategic Trade Authorization (STA) was created as part of 
the reform effort to allow for exports, to NATO and other close allies, 
of less sensitive military items, primarily parts and components, and 
many commercial items with potential military uses without the need for 
a specific license so long as certain conditions are met. Exceptions 
like these, which exist in Commerce regulations but not those of State, 
enhance our national security by allowing greater interoperability with 
close allies. They allow for quicker supply to allies of items in the 
military supply chain and greater opportunities for joint development 
and production with allied governments and companies in allied 
countries.
    In addition, controls under BIS's Export Administration Regulations 
(EAR) reduce the incentives that State's International Traffic in Arms 
Regulations (ITAR) create for non-US companies to ``design out'' or 
avoid U.S.-origin content. An ITAR item is always subject to U.S. law 
no matter how insignificant it is and even if it represents only a tiny 
percentage of a foreign-made end product. This requirement creates 
incentives for non-U.S. companies to avoid even small amounts of U.S.-
origin items or related services to avoid regulatory entanglements with 
U.S. law. It thus creates incentives to purchase non-U.S. origin items 
even if the U.S.-origin item is better in terms of performance or 
value. By contrast, the EAR do not control a foreign made end item so 
long as it has less than a de minimis amount (i.e., less than 25 
percent) of U.S.-origin content so long as a country subject to an 
embargo is not involved. Thus, coverage by the EAR instead of the ITAR 
reduces the incentives for non-U.S. companies to avoid U.S.-origin 
content.
    In addition, the authorizations issued by BIS are less complicated 
than those issued by the Department of State. BIS does not have 
regulatory burdens regarding the temporary import of items, the 
brokering of items, the provision of defense services, or the mere act 
of producing items overseas. Under the BIS regulations, one does not 
need to separately register with the U.S. Government or pay to 
register. Moreover, BIS does not charge fees to apply for a license; 
indeed, such fees are prohibited by statute. And, under the BIS system, 
one can apply for a license before having a purchase order or similar 
document in hand. This is not permitted under the State system. This 
allows exporters to know well before a potential export sale that they 
have the necessary authorization. The BIS approach also greatly reduces 
the total number of authorizations required for situations where the 
end use, end user, destination, and items are the same as in previous 
licenses.

    Question 2. The Commerce Department provides crucial up-to-date 
information about the social and economic needs of communities. 
However, most people aren't aware that business leaders heavily rely on 
this for demographic and socioeconomic data, using it as a tool for 
market evaluation and consumer segmentation. As the leading Senate 
Democrat on the Joint Economic Committee, I know just how important 
this data is to informing our policies. I have a few questions about 
important statistical programs in your Department and ways you can 
promote a data-driven economy. Would you be willing to work with me on 
creating a national data set on the importance of our outdoor economy 
in terms of jobs, retail, tourism, etc?
    Answer. The Department would be happy to work with you to explore 
potential options related to the development of a new satellite account 
focused on the impact of the outdoor economy. Currently, our Bureau of 
Economic Analysis is engaged in on-going conversations, led by the 
Council on Environmental Quality, on the feasibility and key issues 
regarding this very topic. We would be pleased to keep you apprised of 
these discussions, and as these conversations progress, we would 
welcome further dialogue with you.

    Question 3. Current statistics measuring service exports from the 
U.S. are estimated to be understated by as much as 4-5 percent. Would 
you be willing to work with me on streamlining the data used by Federal 
agencies to improve the measurement of service exports?
    Answer. The Department, and specifically the Economics & Statistics 
Administration (ESA), which encompasses the Census Bureau and Bureau of 
Economic Analysis (BEA), is committed to the highest levels of 
statistical accuracy, operational efficiency, and data privacy. Given 
the importance of trade in services to our economy (currently about 30 
percent of all of our exports and an area where the United States 
enjoys a trade surplus), and the role it plays in understanding the 
impact of trade legislation past, present and future, we need the best 
information possible on our trade in services.
    To that end, we strongly support improving our statistical products 
through better access to data currently collected by the Federal 
Government, including administrative records that are unavailable to 
the Federal statistical agencies charged with measuring our Nation's 
economy. With respect to BEA's measures of trade, we share your 
concerns that quantifiable undercounts occur as a direct result of this 
inability to share and synchronize Federal data. This affects not only 
trade data, but also other vital economic indicators like Gross 
Domestic Product (GDP). Improvements to these important measurements 
are being limited by outdated restrictions in 26 U.S.C. 6103(j) of the 
tax code, which governs access to Federal tax data by the statistical 
agencies.
    26 U.S.C. 6103(j) provides Census full access to Federal tax data 
while BEA is permitted access only to corporate tax data. For BEA, that 
has meant important data on sole proprietorships and partnerships, now 
the preponderance of business formations, is unavailable, leading to 
unresolvable discrepancies such as the trade in services example 
referenced in your question.
    In 2002, Congress passed the ``Confidential Information Protection 
and Statistical Efficiency Act'' (CIPSEA), which aimed to resolve this 
issue, but fell short of the needed adjustments to the tax code. CIPSEA 
authorized Census, the Bureau of Labor Statistics and BEA to share 
business information for statistical purposes, while imposing severe 
criminal and civil penalties for misuse of data. Unfortunately, CIPSEA 
did not amend section 26 U.S.C. 6103(j) to actually permit this data 
sharing to occur. We welcome the opportunity to work with you and your 
staff to amend a small, yet significant, provision in the tax code 
preventing decision makers in the public and private sectors from 
having better information to make better decisions.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Hon. Penny Pritzker
Issue: Forensic Science and Undue Prosecutorial Influence
    Question 1. In 2013, the Department of Justice (DOJ) and National 
Institute of Standards and Technology (NIST) established the National 
Commission on Forensic Science for the purpose of enhancing the 
practice and reliability of forensic science. In January, the only 
Federal judge on the Commission, Judge Jed S. Rakoff, resigned from the 
Commission temporarily to protest the decision from the DOJ co-chair on 
the Commission that pre-trial forensic discovery is beyond the scope of 
the Commission's work. In his resignation letter, he accused the DOJ of 
placing ``strategic advantage [for prosecutors] over a search for the 
truth.'' Forensic science plays a critical role in both the conviction 
of criminals and the exoneration of the innocent and it is paramount 
that law enforcement and prosecutors are not able to exercise undue 
influence. What more can NIST do to make it sure it serves as an 
effective check and balance on such undue influence through its role on 
the Commission?
    Answer. It is important to keep in mind that under the original 
charter of the National Commission on Forensic Science this group is a 
Federal Advisory Committee to the Department of Justice (DOJ) and thus 
provides recommendations and advice to the Attorney General. Under the 
DOJ-National Institute of Standards and Technology (NIST) Memorandum of 
Understanding that initially formed the Commission, responsibilities 
for co-chairing the Commission were provided to both DOJ and NIST 
because it was recognized that DOJ and NIST could bring complementary 
strengths to the Commission. Forensic science involves the intersection 
between science and the law and is a profession that attempts to apply 
scientific measurements in a legal setting to address issues brought 
before a court of law. NIST enjoys the respect of the community for its 
ability to strengthen the measurement science underlying evaluation of 
forensic evidence. NIST has played an active role in co-chairing the 
Commission with DOJ and jointly selecting balanced membership to 
represent a wide range of stakeholders. NIST is committed to continuing 
to work with DOJ to enable the Commission to provide scientifically 
sound advice to the Attorney General.

    Question 2. How can you make sure that NIST retains its unbiased 
oversight in setting forensic science best practices and standards?
    Answer. The development of both measurement and documentary 
standards, and the provision of the scientific underpinnings to support 
the development of voluntary consensus standards are core to our 
mission. It has been so since the establishment of the National Bureau 
of Standards (the predecessor of NIST) in 1901 . . . and will continue 
to be.
    NIST will maintain its leadership and independence with respect to 
the development and/critical evaluation of measurement methods, 
standards and best measurement practices to facilitate a greater level 
of transparency, rigor, and confidence in the forensic evidence used in 
the U.S. criminal justice system.
Issue: Support for Fishery Science Centers
    Question 3. NOAA's FY16 budget request highlights aquaculture as 
one of the agency's priorities, citing its economic impact and 
potential to increase consumption of domestic shellfish. NOAA's budget 
states that ``Of the total amount of seafood consumed in the United 
States, more than 90 percent (by value) is imported from foreign 
countries--and about half of that is produced by aquaculture. Creating 
an environment for a safe and environmentally sustainable aquaculture 
industry in the U.S.--and the jobs it creates--is important to this 
Administration and Department.''
    NOAA's justification for increased aquaculture funding also goes on 
to emphasize the benefits of having a coordinated system to provide 
critical mapping, habitat and water quality research, and best 
practices to ``maximize the sustainability and productivity of 
fisheries and marine ecosystems.''
    At the center of such a coordinated research effort are NOAA's 
Fisheries Science Centers, like the Northeast Fisheries Science Center 
in Milford, CT. These research facilities are instrumental in improving 
conditions for shellfish farming and for providing essential 
information to shellfishermen. The strength of the industry and NOAA's 
goal to increase aquaculture production rely on science centers like 
the Milford Lab. How big of a priority is aquaculture for the 
Administration?
    Answer. Developing sustainable marine aquaculture is a central part 
of the National Oceanic and Atmospheric Administration's (NOAA) mission 
and is crucial to both global food security and ocean sustainability. 
It is clear that marine aquaculture can and should play a larger role 
in United States fisheries and that NOAA has a central role to play. 
The increasing importance of aquaculture as an Administration priority 
is highlighted in the White House's fact sheet issued during the ``Our 
Ocean'' conference (June 2014) in which President Obama called for 
bolstering domestic shellfish production and implementing a National 
Strategic Plan for Federal Aquaculture Research among a short list of 
new actions to Protect and Preserve the Ocean.
    NOAA has already taken substantial steps to foster marine 
aquaculture development. For example, NOAA issued an Aquaculture Policy 
in 2011, which helped launch the National Shellfish Initiative which, 
in turn, spawned a successful shellfish initiative in Washington State. 
Now other states, including Connecticut, are following the lead and are 
at various stages of developing similar programs. Last year, NOAA 
Fisheries released a proposed rule to implement the first ever regional 
fishery management plan for environmentally sound and economically 
sustainable aquaculture (in the Gulf of Mexico); and helped to secure 
permits for the first ever commercial offshore aquaculture operations 
(one off of California, two off of Massachusetts). In these and other 
ways, NOAA is working to develop and streamline regulatory systems to 
increase access for aquaculture operations.
    NOAA's efforts have contributed to U.S. marine aquaculture growing 
at 8 percent annually over the past few years. While this is 
encouraging progress, production levels are still very low relative to 
aquaculture's potential. The industry struggles to establish and 
maintain a foothold, in part because of regulatory uncertainty. And as 
a consequence, advanced technology, feed, equipment, and other 
investments are exported to producers around the world. NOAA's goal is 
to start using more of this U.S.-developed technology and expertise to 
help pave the way for a more robust industry in the U.S., and stop 
exporting jobs to other countries that are more aquaculture friendly. 
NOAA is facilitating increased production in U.S. waters and increased 
public awareness of its importance to the U.S. sustainable seafood 
portfolio.

    Question 4. What role does your department see the NOAA science 
centers, like Milford, playing in the growth of the aquaculture 
industry?
    Answer. Science is essential to supporting aquaculture expansion in 
an intelligent and sustainable manner, and NOAA supports U.S. 
aquaculture development in part through world class research. It is 
clear from past experience both at home and abroad that poorly sited or 
managed marine aquaculture operations can have negative impacts to the 
marine environment. But with sound scientific advice and science-based 
tools, it is possible to avoid such potential impacts and allow for the 
industry to grow in environmentally and economically sustainable ways.
    NOAA's aquaculture science portfolio comprises complementary and 
coordinated efforts in three NOAA line offices. Together these efforts 
are critical to achieving the Administration's goal of supporting 
sustainable marine aquaculture. NOAA Fisheries focuses on developing 
science-based ``tools for rules'' to help inform permitting and other 
regulatory decisions, as well as working with industry partners on a 
range of topics such as hatchery techniques and disease management. The 
NOAA National Ocean Service develops coastal planning and management 
tools and services. The Sea Grant program at NOAA Oceanic and 
Atmospheric Research provides grants to external partners for industry 
development, as well as technology transfer and extension. These 
efforts and those of other Federal agencies (e.g., the U.S. Department 
of Agriculture) are coordinated under the 2014 Strategic Plan for 
Federal Aquaculture Research, published with NOAA's assistance and 
leadership by the White House's Office of Science and Technology 
Policy.
    Two laboratories house the bulk of NOAA Fisheries' aquaculture 
science portfolio--the Northeast Fisheries Science Center's Milford, CT 
lab; and the Northwest Fisheries Science Center's Manchester, WA lab. 
Milford has traditionally been a shellfish aquaculture lab (e.g., 
siting tools, disease management, and ecosystem services) and 
Manchester has been a finfish aquaculture lab (e.g., feeds development, 
finfish hatchery and growout methods). However, there is growing 
coordination and collaboration in certain areas such as some aspects of 
feeds research.
    NOAA's science, regulatory, and outreach activities have made a 
substantial and measureable impact on the sustainable development of 
marine aquaculture and related jobs, especially in the northeast. From 
Virginia to New England, aquaculture has grown significantly over the 
past several years, with booming production of shellfish leading the 
way. Aquaculture in the northeast has grown to be the third most 
valuable fishery in the region, behind only lobster and scallops and 
roughly three times the value of the groundfish fishery. All 
indications are that, with continued support, there will be additional 
growth, providing more domestic seafood and jobs.

    Question 5. What efforts are being made to provide more resources 
for these critical research facilities?
    Answer. The President's 2016 Budget request includes a $4.5 million 
increase for marine aquaculture. This increase includes $2.5 million at 
NOAA Oceanic and Atmospheric Research's National Sea Grant Office for 
competitive grants and aquaculture extension, and $2.0 million at NOAA 
Fisheries for both research and regulatory activities that support 
sustainable aquaculture development. The NOAA Fisheries funds would be 
allocated annually based on an internal competition, and NOAA Fisheries 
science centers, including the Milford Lab, would compete for these 
funds. In past competitions, over 90 percent of similar funds were 
directed toward NOAA Fisheries science center projects.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                          Hon. Penny Pritzker
    Question 1. Before the Commerce Department issued its private 
rulings on condensate exports or completed the industry-wide Frequently 
Asked Question guidance that it issued in December, did the Department 
consult with or meet with any Federal agencies with technical expertise 
in energy production or quasi-governmental organizations such as the 
National Academy of Engineering? If yes, please provide a complete list 
of the Federal agencies or quasi-governmental organizations that the 
Commerce Department met with or consulted prior to taking these 
actions, the dates of such meetings and the organizations present at 
each meeting.
    Answer. The Department of Commerce's Bureau of Industry and 
Security (BIS) meets or consults with a range of government 
stakeholders on issues related to controls on the export of crude oil 
and seeks out technical expertise when appropriate.

    Question 2. Prior to taking either of these actions--the private 
rulings on condensate exports or issuing industry-wide guidance in 
December--did the Commerce Department meet with or consult any energy 
companies or other non-governmental entities? If yes, please provide a 
complete list of all companies or non-governmental organizations that 
the Commerce Department met with or consulted prior to taking these 
actions, the dates of such meetings and the organizations present at 
each meeting.
    Answer. BIS routinely meets with the public, including companies 
and trade associations, to answer questions about the Export 
Administration Regulations' (EAR) licensing requirements and policies. 
BIS has met with numerous companies to answer questions about the EAR's 
crude oil provisions generally, as well as companies with specific 
questions about the EAR's definition of crude oil and the status of 
potential and pending commodity classification requests.

    Question 3. If there are any other entities not covered by 
questions one or two that were consulted or with whom Commerce 
Department staff met prior to taking either of these actions related to 
condensate exports, please provide a complete list of those entities 
and the dates that such meetings or consultations occurred.
    Answer. As noted above, BIS meets with the public and other 
government stakeholders on matters relating to controls on the export 
of crude oil.

    Question 4. Does the Commerce Department believe that companies are 
employing new techniques, technologies or processes to sufficiently 
process condensate to allow for export as described in section 4--
entitled ``What is required in order for liquid hydrocarbons to have 
been `processed through a crude oil distillation tower' ''--of the 
document entitled ``FAQs--Crude Oil and Petroleum Products'' issued by 
the Bureau of Industry and Security on December 30, 2014?
    If so, please describe in full detail the new techniques, 
technologies or processes that are being employed by industry, when 
they began to be employed, and how they differ from past industry 
practices.
    If the Department does not believe that the industry is employing 
new techniques, technologies or processes to process condensate, how 
does the Commerce Department justify the private rulings and industry-
wide guidance issued last year and why did the Department choose to 
make those rulings and issue new guidance at that time despite no new 
techniques, technologies or processes being employed by the industry
    Answer. Commodity classification requests typically contain 
technical information relevant to control criteria, which can include 
descriptions of techniques, technologies or processes. BIS determines 
the commodity classification of liquid hydrocarbons based on the EAR's 
definition of crude oil--liquid hydrocarbons that have not been 
processed through a crude oil distillation tower--taking into account 
the factors set forth in the December 2014 FAQs, and what is set forth 
in commodity classification requests filed with BIS. BIS does not have 
information on whether companies are employing ``new'' techniques, 
technologies, or processes.

    Question 5. Did the Commerce Department consider and reject 
conducting a formal rulemaking before issuing private rulings to two 
companies to allow for the export of condensate in 2014 or before 
issuing the industry wide guidance in December?
    Answer. BIS regularly considers whether revisions to its rules and 
regulations are warranted. In this instance, because BIS continues to 
apply its long-standing regulations when issuing commodity 
classifications, no formal rulemaking was necessary.

    Question 6. Please provide the full definition that the Commerce 
Department is using for ``condensate'' or ``lease condensate.''
    Answer. Although the EAR does not define ``condensate'' or ``lease 
condensate,'' lease condensate is identified in the definition of crude 
oil in section 754.2(a) of the EAR as being crude oil. Under the EAR's 
definition of crude oil, once crude oil, including lease condensate has 
been processed through a crude oil distillation tower, it is a 
petroleum product and no longer crude oil.

    Question 7. How much condensate, subject to the requirements 
outlined in the December 2014 BIS industry guidance entitled ``FAQs--
Crude Oil and Petroleum Products,'' is currently being exported from 
the United States? What are the maximum volumes of condensate that the 
Commerce Department believes could potentially be exported under the 
requirements outlined in the December 2014 BIS guidance?
    Answer. BIS does not track the exports of condensate subject to the 
requirements outlined in the December 2014 BIS industry guidance.

    Question 8. Does the Commerce Department believe that the industry-
wide guidance issued by BIS in December 2014 entitled ``FAQs--Crude Oil 
and Petroleum Products'' could cover or be applied to other types of 
crude oil other than condensate? If not, why not? If so, which other 
types of crude oil could potentially be covered by this guidance? 
Please provide the Department's rationale.
    Answer. As the EAR definition of crude oil applies to all crude 
oil, the December 2014 FAQs are not limited to condensate. As the FAQs 
note, ``[I]n order for liquid hydrocarbons to be classified as 
petroleum products, there must be a material processing through a crude 
oil distillation tower. If there is no processing in the distillation 
tower, or the processing is de minimis, the liquid hydrocarbons will 
not qualify as petroleum products.''

    Question 9. Since the fall of 2012 when the Commerce Department 
declared the northeast ground fishery a disaster, we have been working 
with the department, Congressional appropriators and the affected 
states to provide some financial relief for our cod fishermen, their 
crew and the shoreside economy that depends on the fishing industry. A 
grant was made to Massachusetts last month to fund their state-designed 
support programs. I am grateful that that money is finally getting to 
captains, crewmen and their communities. But I am concerned that it 
took from Massachusetts submitting their proposal on October 24 2014 
until February 5 for it to be approved by the Commerce department. Can 
you explain why it took this long and what additional resources you 
might need to speed up this process in the future?
    Answer. Resource disaster grant applications require review and 
clearances at various levels to ensure that the requested funding 
complies with the requirements of the authorizing legislation. We 
strive to expedite our review in whatever way we can. Given the urgency 
of this funding, we ensured that the Massachusetts Division of Marine 
Fisheries was kept aware of progress in awarding the grant throughout 
this period.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Cory Booker to 
                          Hon. Penny Pritzker
Spectrum
    Question. What is the Department doing to make available more radio 
spectrum to meet the Nation's rapidly-growing demand for commercial 
wireless broadband services?
    Answer. The Department and the National Telecommunications and 
Information Administration (NTIA) continue to play a leading role 
towards meeting the President's directive to identify 500 megahertz of 
Federal and non-federal spectrum for wireless broadband use by 2020. 
The recent AWS-3 auction, resulting from the joint efforts of NTIA, 
Federal agencies and the Federal Communications Commission (FCC), is an 
important milestone in the Administration's efforts to meet this goal. 
The success of the AWS-3 auction, which drew more than $40 billion in 
net winning bids, was made possible in part by an unprecedented level 
of collaboration between NTIA, affected Federal agencies, wireless 
industry representatives, the FCC, and Congress.
    As part of the Administration's efforts to make more spectrum 
available for wireless broadband, the Department has been working to 
identify other Federal bands that could be designated for commercial 
use. We are collaborating with the FCC on making 100 megahertz of 
spectrum available for small cell mobile broadband use in the 3.5 GHz 
band on a shared basis with military radar systems. Meanwhile we also 
are evaluating the feasibility of increased sharing for unlicensed 
devices in the 5 GHz band while protecting incumbent Federal Government 
systems. NTIA is also working with Federal agencies to quantify their 
use of nearly 960 megahertz of spectrum, spanning several key bands. 
The results of this quantification assessment are one factor that will 
be used to prioritize bands for more detailed study focused on 
expanding shared access. We are also beginning a dialogue with Federal 
agencies on best approaches to begin enabling expanded bi-directional 
Federal access to non-federal bands.
    We are also working to improve the efficient management of Federal 
spectrum by increasing transparency of Federal operations, 
collaboration with industry, and incentives for Federal users to update 
their systems to improve sharing spectrum with the private sector.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Hon. Penny Pritzker
    Question 1. Describe the role of your department's Chief 
Information Officer (CIO) in the development and oversight of the IT 
budget for your department. How is the CIO involved in the decision to 
make an IT investment, determine its scope, oversee its contract, and 
oversee continued operation and maintenance?
    Answer. The Department's Chief Information Officer (CIO) 
participates directly in the budget development via three related 
processes. All major Information Technology (IT) initiatives that are 
proposed for the agency budget request to the President are first 
reviewed and approved by the Commerce IT Review Board (CITRB) which is 
chaired by the CIO. The CITRB rates the investments on a 1 to 5 scale 
across five major assessment areas: Program/Project Management, Shared 
Services, IT and Cyber Security, Approach and Subject Matter Expertise, 
and overall Health and Wellness. This assessment allows the board to 
identify areas of concern relating to specific aspects of the IT 
investment. If the areas of concern are not addressed and the overall 
rating stays low, it is highly unlikely that this investment will get 
approval to be included in the Department's budget request to the 
Office of Management and Budget (OMB). In addition, the CIO 
participates in the Deputy Secretary's review of the agency budget 
request each year and incorporates his/her thoughts concerning such 
investment proposals. Besides the annual budget process, the CIO is the 
chair and/or participating member of the CITRB, the Acquisition Review 
Board (ARB), and the Milestone Review Board all of which review major 
investments. A major IT acquisition ($25M +) requires the Department's 
CIO to issue IT investment authority in order for the acquisition to 
proceed. Once a major IT initiative is under development or in 
operations, it is monitored monthly by the CIO. During the operation 
and maintenance phase, the CIO will continue to review and monitor 
investments via the CITRB and/or convene a Tiger Team if targeted 
investigation or analysis is required.

    Question 2. Describe the existing authorities, organizational 
structure, and reporting relationship of the Chief Information Officer. 
Note and explain any variance from that prescribed in the newly-enacted 
Federal Information Technology and Acquisition Reform Act of 2014 
(FITARA, PL 113-291) for the above.
    Answer. In addition to the statutory responsibilities through the 
Clinger-Cohen Act and related laws, the Department of Commerce has 
implemented a set of CIO responsibilities that are fully responsive to 
OMB Memorandum M-11-29, Chief Information Officer Authorities. These 
responsibilities are conferred on the CIO through the Acting 
Secretary's June 21, 2012, Memorandum Department IT Portfolio 
Management Strategy. These responsibilities focus on the areas of 
Governance, Commodity IT, Program Management, and Information Security. 
We believe that these responsibilities are in line with those 
prescribed by FITARA, and we will await guidance from OMB in regards to 
any implementation requirements.

    Question 3. What formal or informal mechanisms exist in your 
department to ensure coordination and alignment within the CXO 
community (i.e., the Chief Information Officer, the Chief Acquisition 
Officer, the Chief Finance Officer, the Chief Human Capital Officer, 
and so on)?
    Answer. The Department's CXOs meet informally and formally on a 
regular basis to discuss issues, concerns and immediate and urgent 
initiatives. Each CXO manages a Council to discuss and address their 
specific constituent needs and requirements. Each Council includes 
cross-member CXO participation on a routine basis either as a standing 
member or by briefing specific subject matter issues and concerns. For 
example, the CIO routinely briefs the Chief Financial Officer (CFO) 
Council during the Department's budget formulation process. 
Additionally, the CIO is a standing member on the CFO Council, the ARB 
and the Acquisition Council just to name a few. Additionally, the 
CITRB, chaired by the CIO and co-chaired by the CFO, includes 
membership of the Chief Acquisition Officer, Budget Director, 
Department's Risk Management Officer, Commerce Bureau CIOs, etc. 
Therefore, there are many opportunities across department councils, 
working groups and review boards for departmental CXOs to discuss 
issues and concerns and provide timely and critical feedback and 
updates.

    Question 4. According to the Office of Personnel Management, 46 
percent of the more than 80,000 Federal IT workers are 50 years of age 
or older, and more than 10 percent are 60 or older. Just four percent 
of the Federal IT workforce is under 30 years of age. Does your 
department have such demographic imbalances? How is it addressing them?
    Answer. The Department's IT Workforce numbers are similar to 
overall Federal IT Workforce demographics--50 percent are 50 years of 
age or older, 11 percent are 60 or older and only 3 percent of our IT 
workforce is 30 years of age or younger.

------------------------------------------------------------------------
          Age              DOC IT  Workforce      Federal IT  Workforce
------------------------------------------------------------------------
30 and below                                 3%                       4%
------------------------------------------------------------------------
>=50                                        50%                      46%
------------------------------------------------------------------------
>=60                                        11%                      10%
------------------------------------------------------------------------

    For current and future vacancies, the Office of the Chief 
Information Officer is developing a recruitment strategy to attract IT 
workers that includes partnering with the Department's Office of Human 
Resources Management to utilize existing hiring programs to recruit 
current college students and recent graduates in entry level positions.

    Question 5. How much of the department's budget goes to 
Demonstration, Modernization, and Enhancement of IT systems as opposed 
to supporting existing and ongoing programs and infrastructure? How has 
this changed in the last five years?
    Answer. Of the Department's current IT funding, 35 percent is for 
Development, Modernization and Enhancement (DME) as defined by OMB. In 
2010, the Department's percentage IT funding allocated to DME was 48 
percent. However, this was heavily skewed by the almost $1 billion 
spent for the 2010 Decennial Census. Excluding this anomaly, the 
percent of DME funding for the department would have been approximately 
23 percent.

    Question 6. What are the 10 highest priority IT investment projects 
that are under development in your department? Of these, which ones are 
being developed using an ``agile'' or incremental approach, such as 
delivering working functionality in smaller increments and completing 
initial deployment to end-users in short, six-month time frames?
    Answer. The Commerce mission is supported by many strategic and 
critical IT investments ranging from weather prediction and reporting 
systems, enumeration and economic reporting/tracking systems, to patent 
and trademark systems, all supporting a critical mission to the 
citizens of the United States. The ten highest priority IT investments 
under development across the Department include:

  <bullet> DOC--Business Application Solutions (BAS)

  <bullet> DOC--Enterprise Security Operations Center (ESOC)

  <bullet> DOC--Commerce BusinessUSA

  <bullet> NOAA--Weather Wire Service (NWWS)

  <bullet> NOAA--NCEP Advanced Weather Interactive Processing System--
        Agile

  <bullet> Census--2020 Decennial

  <bullet> Census--Enterprise Data Collection and Processing (CEDCaP) 
        program

  <bullet> USPTO--Trademark Next Generation (TM NG)

  <bullet> NIST--Website Redesign and Realignment

  <bullet> ITA--Salesforce Customer Relationship Management (CRM)

    Question 7. To ensure that steady state investments continue to 
meet agency needs, OMB has a longstanding policy for agencies to 
annually review, evaluate, and report on their legacy IT infrastructure 
through Operational Assessments. What Operational Assessments have you 
conducted and what were the results?
    Answer. The Department employs several interconnected processes for 
monitoring legacy IT infrastructure. Per official Department policy, 
all operational investments including IT infrastructure are required to 
conduct annual operational analyses. In addition, the Department's IT 
infrastructure investments are required to come before the Department's 
CITRB every year to discuss their current and proposed strategy and 
performance. In addition to yearly reviews, all IT infrastructure 
systems are required to send in progress reports and updated 
performance metrics to the OCIO monthly, in order to get even more 
timely information and greater transparency on the performance of IT 
infrastructure operations.

    Question 8. What are the 10 oldest IT systems or infrastructures in 
your department? How old are they? Would it be cost-effective to 
replace them with newer IT investments?
    Answer. The oldest IT systems currently used across the Department 
include:

------------------------------------------------------------------------
                IT System/         System  Age       Cost Effective
 Bureau       Infrastructure         (Yrs.)      Replacement  Possible?
------------------------------------------------------------------------
NIST     e-Travel Manager System          6.5                       Yes
          (ETS)
------------------------------------------------------------------------
NIST     Grant Management                  14                       Yes
          Information System
          (GMIS)
------------------------------------------------------------------------
DOC      Commerce Business                 11                       Yes
          System (CBS)
------------------------------------------------------------------------
NOAA     Automated Surface                10+                       Yes
          Observing System
          (ASOS)
------------------------------------------------------------------------
NOAA     National Weather                 10+                       Yes
          Telecommunications
          Gateway (NWSTG)
------------------------------------------------------------------------
NOAA     Advanced Weather                  8+                       Yes
          Processing System
          (AWIPS)
------------------------------------------------------------------------
Census   Decennial 2010                    5+                       Yes
------------------------------------------------------------------------
NTIA     Frequency Management             25+                       Yes
          Records System (FMRS)
------------------------------------------------------------------------
NTIA     Spectrum 21 (SXXI)                15                       Yes
------------------------------------------------------------------------
NTIA     FreqNet Portal                    15                       Yes
------------------------------------------------------------------------
ITA      Lotus Notes                      15+                       Yes
------------------------------------------------------------------------
ITA      Oracle Content                   15+                       Yes
          Management System
          (CMS)
------------------------------------------------------------------------


    Question 9. How does your department's IT governance process allow 
for your department to terminate or ``off ramp'' IT investments that 
are critically over budget, over schedule, or failing to meet 
performance goals? Similarly, how does your department's IT governance 
process allow for your department to replace or ``on-ramp'' new 
solutions after terminating a failing IT investment?
    Answer. The CITRB reviews IT projects, programs, and portfolios on 
a routine basis. The CITRB acts as a board of directors that advises 
the Secretary and Deputy Secretary on critical IT matters. Projects 
that are consistently rated ``red'' on the OMB IT Dashboard are 
reviewed by the Board. Depending on the severity of issues, problems or 
escalating risk impacting the project, the CITRB may recommend 
termination, or halting of the project.
    In addition to termination or halting the project, the CITRB 
ensures that proposed investments contribute to the Secretary's 
strategic vision and mission requirements, employ sound IT investment 
program management methodologies, comply with Departmental systems 
architectures, employ sound security measures, and provide the highest 
return on the investment or acceptable project risk. The CITRB provides 
for coordinated risk management, review, and advice to the Secretary 
and Deputy Secretary regarding IT investments. This advice includes 
recommendations for approval or disapproval of funding for new or base 
investments as well as recommendations for continuation or termination 
of projects under development at key milestones or when they fail to 
meet performance, cost, or schedule criteria. The Board also recommends 
approval or disapproval of requests for IT investment authority. 
Disapproval means they are not approved to enter into a contract to 
proceed to the next phase--this decision may result in overall 
termination or halting the investment until certain key actions have 
been completed.

    Question 10. What IT projects has your department decommissioned in 
the last year? What are your department's plans to decommission IT 
projects this year?
    Answer.

----------------------------------------------------------------------------------------------------------------
                                             Decommissioned Projects
-----------------------------------------------------------------------------------------------------------------
                Bureau                          IT Projects/Systems                        Comments
----------------------------------------------------------------------------------------------------------------
BEA                                     1000+ Legacy Programs/Applications        Incorporated into centralized
                                                                                                      databases
----------------------------------------------------------------------------------------------------------------
Census                                   IBM Lotus Domino web-based e-mail    Migration to cloud-based solution
                                                       and calendar system
----------------------------------------------------------------------------------------------------------------
ITA                                      Microsoft Exchange Infrastructure    Migration to cloud-based solution
----------------------------------------------------------------------------------------------------------------



----------------------------------------------------------------------------------------------------------------
                                    Projects Planned For 2015 Decommissioning
-----------------------------------------------------------------------------------------------------------------
                Bureau                          IT Projects/Systems                        Comments
----------------------------------------------------------------------------------------------------------------
ITA                                                  On-premise SharePoint    Migration to cloud-based solution
----------------------------------------------------------------------------------------------------------------
ITA                                         On-premise data center servers    Migration to cloud-based solution
----------------------------------------------------------------------------------------------------------------
ITA                                                 ITA Government Network   Transition to network as a service
----------------------------------------------------------------------------------------------------------------

    Question 11. The newly-enacted Federal Information Technology and 
Acquisition Reform Act of 2014 (FITARA, PL 113-291) directs CIOs to 
conduct annual reviews of their agency/department's IT portfolio. 
Please describe your department's efforts to identify and reduce 
wasteful, low-value or duplicative information technology (IT) 
investments as part of these portfolio reviews.
    Answer. In order to monitor and promote optimal investment 
strategies and project management practices, the Office of the CIO 
charters the CITRB. Typically, the CITRB reviews two to three 
investments every month to review their performance and strategy. 
Following each review, comments and questions are sent to the managers 
and sponsors of that investment. This has led to many efforts within 
Commerce operating units and across the Department to consolidate 
similar efforts and contracts. For example, the Department is currently 
in the process of moving to a single cloud e-mail system and towards a 
single financial and business management system. On a local level the 
number of networks, help desks and data centers throughout the 
Department continue to be steadily reduced. In parallel, and to 
facilitate such streamlining and consolidation, the Department has 
provided contract vehicles available to all operating units.

    Question 12. In 2011, the Office of Management and Budget (OMB) 
issued a ``Cloud First'' policy that required agency Chief Information 
Officers to implement a cloud-based service whenever there was a 
secure, reliable, and cost-effective option. How many of the 
department's IT investments are cloud-based services (Infrastructure as 
a Service, Platform as a Service, Software as a Service, etc.)? What 
percentage of the department's overall IT investments are cloud-based 
services? How has this changed since 2011?
    Answer. The Department implemented OMB's ``Cloud First'' policy and 
includes this as a requirement during annual Budget Formulation 
reviews. All new IT investments are required to investigate and if 
possible leverage cloud strategies and technologies during alternative 
analysis processes. Below is a consolidate list of cloud solutions 
across the Department:

------------------------------------------------------------------------
                                                        Type of Service
                                     Cloud Service     (Infrastructure,
  Bureau      IT Service Name        Provider Name         Software,
                                                        Platform, Etc.)
------------------------------------------------------------------------
BEA        Office 365             Microsoft           Platform
------------------------------------------------------------------------
BEA        SharePoint             Microsoft           Software
------------------------------------------------------------------------
BEA        Help Desk Ticketing    TBD                 Software
            Application
------------------------------------------------------------------------
NIST       Cloud Computing        Amazon              Infrastructure
            Services
------------------------------------------------------------------------
NIST       IT Service Management  ServiceNow          Software
------------------------------------------------------------------------
NIST       Cloud E-mail and       Microsoft           Platform
            Collaboration
------------------------------------------------------------------------
NIST       Enterprise Mobile      MaaS 360            Platform
            Device Management
------------------------------------------------------------------------
NTIA       E-mail                                     Platform
------------------------------------------------------------------------
NTIA       Infrastructure         Various providers   Infrastructure
            Services
------------------------------------------------------------------------
NOAA       IT Infrastructure      Various providers   Infrastructure
------------------------------------------------------------------------
Census     Akamai Content         Akamai              Infrastructure
            Delivery
------------------------------------------------------------------------
Census     GovDelivery E-mail     GovDelivery         Software
            and Blogging
           Services
------------------------------------------------------------------------
Census     Microsoft Office 365   Microsoft           Software
------------------------------------------------------------------------
Census     Cloud Testing For      Noblis              Infrastructure
            Centurion/Community
            TIGER/Real-Time Non-
            ID
------------------------------------------------------------------------
Census     Salesforce.com         Salesforce          Software
            Integrated Partner
           Contact Database
------------------------------------------------------------------------
Census     SunFlower (Property    SunFlower           Software
            Mgt)
------------------------------------------------------------------------
Census     Adobe Site Catalyst    Adobe               Software
------------------------------------------------------------------------
Census     MaaS 360 Mobile        Fiberlink           Software
            Device Management
            (MDM)
------------------------------------------------------------------------
ITA        SalesForce.com         Sales Force         Software
------------------------------------------------------------------------
ITA        E-mail,                Microsoft           Platform
            Collaboration, VTC,
            and Storage
------------------------------------------------------------------------
ITA        Infrastructure         Amazon              Infrastructure
------------------------------------------------------------------------
ITA        IT Service Management  ServiceNow          Software
------------------------------------------------------------------------


    Question 13. Provide short summaries of three recent IT program 
successes--projects that were delivered on time, within budget, and 
delivered the promised functionality and benefits to the end user. How 
does your department define ``success'' in IT program management? What 
``best practices'' have emerged and been adopted from these recent IT 
program successes? What have proven to be the most significant barriers 
encountered to more common or frequent IT program successes?
    Answer. The Department defines an IT program/project as successful 
when, in addition to delivering within cost, schedule and budget, the 
program/project delivers the planned and measureable levels of benefit 
and addresses the specific requirements as originally defined, while 
staying in alignment with the mission and goals of the Department. 
Program/project success is being able to effectively integrate the 
various components of the program, at every level to ensure the people, 
process, and technology function successfully together. Barriers within 
Commerce include the ability to aggressively work across the 
organization on shared initiatives given the diverse mission areas and 
the federated culture. Program/project management teams must ensure 
that they conduct integration activities to ensure that the elements of 
the program are compatible and function together to satisfy business 
needs, while meeting cost and schedule constraints, and optimizing 
effectiveness. Several successful projects implemented across the 
Department include:

  <bullet> BEA Data Flow Improvement Project
    Within the Bureau of Economics and Analysis (BEA), the bureau 
        implemented a project to enable more efficient data flows of 
        the huge amounts of data processed and analyzed. BEA enhanced 
        its centralized IT framework by achieving cross-program 
        consensus on a design, developing, and releasing a BEA data hub 
        which standardizes secure transmission of data across BEA's 
        four major program areas.

  <bullet> NIST PIV Enablement Project

    The National Institute of Standards and Technology (NIST) 
        implemented the PIV Enablement Project which was implemented to 
        meet OMB, Department of Homeland Security, and the Department's 
        policies requiring the use of HSPD-12 credentials (PIV cards) 
        for network access. The project successfully enabled more than 
        90 percent of NIST Information System users to use their 
        assigned PIV cards to authenticate to PIV enabled information 
        systems as the normal mode of authentication with Windows 
        computers. The project improved IT security by providing the 
        capability to require two-factor authentication using the PIV 
        card.

  <bullet> Census Enterprise Systems Development Lifecycle Initiative

    In 2014, the Census Bureau implemented the Enterprise Systems 
        Development Lifecycle (eSDLC) initiative. The eSDLC leveraged 
        best practices and processes from internal stakeholders, 
        Federal agencies, and private industry to develop a full set of 
        processes and templates. Having all IT projects follow the 
        eSDLC has increased the control of schedule, costs, and risks.

    Question 14. In New Mexico, it is often the early stages of a 
project that need the most help getting off the ground. An EDA planning 
grant was recently awarded to InnovateABQ, a technology incubator 
partnership between UNM and local governments to commercialize locally-
developed technology and attract private investment to New Mexico. Does 
EDA have sufficient resources to continue supporting other core 
activities, like incubators?
    Answer. The President's budget proposal for FY 2016 provides 
sufficient resources to support core commercialization activities. The 
largest portion of the budget proposal ($85 million) remains dedicated 
to the Economics and Development Administration's (EDA) Public Works 
program, which thousands of communities across the country have 
accessed to construct business development projects, like incubators. 
This program has supported key infrastructure improvements like those 
at the Sandia Science and Technology Park (SSTP) where EDA invested 
$1.8 million in high-speed fiber optic lines that help local businesses 
leverage advances in technology that have been generated by nearby 
universities and Federal labs.
    The President's budget proposal also provides EDA with the 
flexibility it needs to address the unique needs of every community as 
they build an innovation-driven economy. The proposal increases EDA's 
Economic Adjustment Assistance program which gives EDA the ability to 
provide tailored assistance to help regions leverage the promise of 
regional innovation clusters.
    In addition, the budget proposal provides $25 million to support 
the Regional Innovation Strategies (RIS) program. The RIS program is an 
important complement to EDA's traditional programs: together they give 
EDA a mechanism to provide targeted, strategic investments to 
communities in the way that they most need the assistance. The RIS 
program supports a variety of grant competitions that fund innovation 
capacity-building activities, including the i6 Challenge, a cutting 
edge Federal grant program that supports innovative initiatives to spur 
commercialization, entrepreneurship and job creation at the local 
level. For example, the New Mexico Technology Ventures Corporation, a 
2010 i6 Challenge grantee, is developing an infrastructure for the 
successful maturation of technologies developed under the Small 
Business Innovation Research program into commercially viable 
enterprises. Another New Mexico i6 grantee, the Arrowhead Center in Las 
Cruces, is currently building upon New Mexico State University's 
recently established proof of concept center, to develop the Arrowhead 
Innovation Network.
    EDA's FY 2016 budget reflects our priority of promoting best 
practices for economic development while empowering regions to develop 
their own plans that will transform their communities into globally 
competitive regions and ultimately improve the quality of life for 
their residents. Regional innovation strategies and targeted 
infrastructure investments are the most effective framework to meet the 
needs of and further advance regional economic ecosystems.

    Question 15. Could you expand on your written testimony and 
response to Sen. Peters' question about the importance of the 
Manufacturing Extension Partnership?
    Answer. The Hollings Manufacturing Extension Partnership (MEP) is a 
public-private partnership that helps small and mid-sized manufacturers 
compete, increasing employment and investment across the country and 
generating a high return on public investment. MEP is built on a 
nationwide system of centers located in all 50 states and Puerto Rico. 
Each center is a partnership between the Federal Government and a 
variety of public or private entities, including state, university, and 
nonprofit organizations. This diverse network, with more than 440 
service locations, has over 1,200 field staff serving as trusted 
business advisors and technical experts. And because MEP's foundation 
is its partnerships, centers are a hub for manufacturers, connecting 
them with government agencies, trade associations, universities and 
research laboratories, state and Federal initiatives, and a host of 
other resources to help them realize goals.
    MEP leverages over $100 million of Federal investment into a nearly 
$300 million program by partnering with state and local governments and 
the private sector to provide a wealth of expertise and resources to 
manufacturers. Each year, manufacturers work with their local MEP 
Center to solve problems, increase productivity, improve their economic 
competitiveness, and enhance their technological capabilities. As a 
result, MEP clients increase their sales, save time and money, invest 
in physical and human capital, and create and retain thousands of jobs.
    Every dollar of Federal investment in the MEP translates into $19 
dollars of new sales for small manufacturers, or almost $2.5 billion 
annually across the 30,000 small manufacturers that MEP serves. Since 
it was founded in 1988, MEP has worked with nearly 80,000 
manufacturers, leading to $88 billion in sales and $14 billion in cost 
savings, and helping small manufacturers create more than 729,000 new 
jobs.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. Anthony R. Foxx
Oversight & Investigation
    Question 1. The President's budget requests an additional 59 
employees at offices within the National Highway Traffic Safety 
Administration (NHTSA). In 2011, the Department of Transportation 
Office of Inspector General (OIG) stated that a comprehensive workforce 
assessment would enable the agency to determine the number of staff and 
specialized skills needed to complete its mission and ensure 
manufacturers recall vehicles in a timely manner. At the time of the 
OIG's report, NHTSA agreed to conduct this assessment by April 2103; 
however, to date, it has not been completed. How did the agency 
determine its specific request for additional employees without 
completing the ongoing workforce assessment, as the OIG first 
recommended in 2011?
    Answer. NHTSA's workforce assessment is almost complete. The 
information gathered during the drafting process allowed the agency to 
identify the Office of Defects Investigation's most immediate needs. 
These urgent needs are reflected in the request for 57 new positions 
and the creation of the new Trend Analysis and the Field Investigation 
and Testing divisions. The full workforce assessment will address these 
and additional needs.

    Question 2. When will the recommended workforce assessment be 
completed?
    Answer. The draft assessment is currently undergoing review, and we 
expect to deliver it to the OIG soon.

    Question 3. For Fiscal Year (FY) 2014, you reported to the 
President two material weaknesses in the Department's financial 
management, including weaknesses in its information security program 
and inappropriate access with respect to the Federal Transit 
Administration's grant management systems. What specific actions have 
you taken to ensure that the Department addresses these material 
weaknesses properly and swiftly?
    Answer. The specific major finding of the financial auditors was 
that FTA's grants system (TEAM) does not provide for controlled access 
rights by the handful of DOT employees and contractors who serve as 
system administrators. Under certain circumstances system 
administrators could, in theory, access broader functions in the 
system. Because TEAM is built on an older technology, the system cannot 
distinguish between certain functions allowed for certain system 
administrators. This issue only applies to trusted system 
administrators with extensive background checks and no level of access 
to TEAM can result in improper payments because it is not FTA's payment 
system. In response to the audit finding, FTA has developed a tracking 
system to monitor and log all system administrator activities in real 
time. Additionally, because it is at the end of its life-cycle, FTA has 
been developing a complete replacement of the TEAM system. The new 
system, TrAMS, is built on modern technologies using a state of the art 
IT architecture, and will not have this problem. FTA plans to 
officially convert to the new system in FY 2016.

    Question 4. The OIG has identified longstanding cyber security 
weaknesses and challenges with integrating and coordinating shared 
security controls. Will you commit to working with the OIG and this 
Committee to address these outstanding deficiencies?
    Answer. DOT is committed to addressing the issue of shared security 
controls across the Department. The Department will prioritize 
weaknesses and build upon DOT investment oversight and security 
responsibilities to identify and leverage opportunities for 
consolidation and cost-effective delivery of shared services

    Question 5. With such a large requested increase in the 
Department's budget, what should give Congress confidence that the 
Department will exercise the highest level of stewardship over 
appropriated taxpayer funds?
    Answer. The Department of Transportation (DOT) invests more than 
$70 billion each year on programs to ensure the safe management and 
economic viability of U.S. transportation systems. Transportation is a 
critical engine of the Nation's economy. DOT investments in our 
transportation network over the country's history have been 
instrumental in developing our Nation into the world's largest economy 
and most mobile society. Fixing our existing infrastructure must be a 
top priority in order to keep America economically competitive. Recent 
reports on the condition of key facilities--highways, bridges, transit 
systems, passenger rail, and airport runways--reveal that many fall 
short of a state of good repair and thus compromise the safety, 
capacity, and efficiency of the U.S. transportation system. DOT 
programs will continue to emphasize improving the condition of our 
infrastructure to ensure that transportation facilities are safe and 
reliable.
    Over time, however, our level of investment as a percentage of the 
gross domestic product has dropped significantly, as it fails to keep 
pace with our growing economy and population. Increasingly, we are 
seeing State and local officials abandon planning on the more ambitious 
and expensive projects that will move our economy forward. A critical 
part of DOT's efforts to ensure the safety and continued improvement of 
transportation programs is effectively securing and channeling 
investments to finance them. This will require the Department to work 
with stakeholders to stabilize the Highway Trust Fund and strengthen 
credit programs that can leverage private investment for transportation 
projects. The President's $94.7 billion Fiscal Year (FY) 2016 Budget 
Request for our transportation programs is critical for our Nation, our 
economy and job creation. It is also critically important that we work 
together to enact the priorities reflected in this budget that make 
much-needed investments in our Nation's infrastructure, provide long-
term funding certainty to states and local governments, and implement 
policies that modernize Federal programs to meet our current 
challenges. With regard to the Department's stewardship over 
appropriated taxpayer funds:

  <bullet> The Department of Transportation has a long-standing record 
        of providing excellent stewardship over taxpayer funds.

  <bullet> The Department's Inspector General's annual review of the 
        internal controls, financial procedures, and financial records 
        has resulted in 3 ``clean audit'' opinions for the last 14 
        years.

  <bullet> The President's FY 2016 budget request for the Department of 
        Transportation was developed through a comprehensive review of 
        its programs, requirements, and missions.

  <bullet> This request reflects the Administration's views on the 
        Nation's transportation infrastructure needs, the resources 
        needed to address emerging issues that affect the 
        transportation system, and the predictability and reliability 
        of funds to support transportation programs.

    Question 6. How do you intend to prevent cost overruns and fix 
management weaknesses in acquisition practices?
    Answer. The Department views very seriously any area where cost 
overruns may occur. We are actively managing processes across the 
Department (including FAA) to prevent cost overruns and address 
opportunities to strengthen acquisition practices.
    The FAA has a set of structured processes and governance structures 
to identify issues and risks to reduce or eliminate the likelihood of 
cost overruns on programs. In 2011, the FAA established the Air Traffic 
Organization (ATO) Program Management Organization (PMO) to improve the 
consistency of program execution, institutionalization of acquisition 
of best practices, review of lessons learned, and to capitalize on 
efficiencies between programs. The PMO effectively manages the program 
lifecycle creating a bridge between conceptual use and operational use 
through the identification and management of risks associated with the 
design, development, and deployment of systems. The FAA has a tiered 
structure for managing and reporting program performance. Each program 
is responsible for reporting cost, schedule and technical performance 
on a monthly basis that is reviewed within each business unit on a 
monthly basis. Additionally, the PMO sponsors a bi-weekly forum known 
as the PMO Program Management Review (PMR) which focuses on a periodic 
review of the programs and portfolios within the PMO, and on critical 
programs from other FAA lines of business. The purpose of the PMO PMR 
is to review the current program status, review and discuss risks and 
challenges, as well as capitalize on opportunities to help ensure that 
cost, schedule, and technical issues are mitigated and resolved before 
they have the effect of a cost overrun on a baselined program. The 
final level of review is by the Joint Resource Council (JRC), which is 
the Investment Decision Authority for the FAA. Every 3 months the JRC 
holds an Acquisition Quarterly Program Review (AQPR) where every 
baselined investment program in the FAA is reviewed for cost, schedule, 
and technical performance. Major issues and challenges that have not 
been resolved or mitigated at other reviews are discussed for action at 
the AQPR.
    The FAA continues to make progress in resolving identified 
weaknesses in the area of acquisition practices. Since 2005, the FAA 
has taken steps to put a certification structure in place for those 
critical acquisition positions in the FAA. Currently all Program 
Managers (PMs) must be certified (at the required level for the size 
and scope of the program) before taking on the responsibility of 
managing a program. All Contracting Officers (COs) and Contracting 
Officers Representatives (CORs) must be certified to perform those 
activities consistent with current applicable law and the FAA 
Acquisition Management System (AMS). Both the PM certification and the 
CO and COR certifications are required to have periodic re-
certification and continuing education requirements.
    Additionally there are required reviews of acquisitions through the 
various boards that look at the specifics of each acquisition. The CFO 
is responsible for ensuring that all acquisitions greater than $10M are 
reviewed for completeness and necessity. The Acquisition Strategy 
Review Board is responsible for ensuring that all contracting 
activities greater than $5M are reviewed for potential redundancy with 
other efforts, and that the approach for the acquisition is in the best 
interest of the government. In 2007, the FAA established The 
Acquisition Executive Board (AEB). The AEB is responsible for the 
identification of improvements to the AMS through suggested Policy, 
Guidance, and Governance to the JRC and the FAA Federal Acquisition 
Executive. The FAA continually reassesses our acquisition practices for 
areas of potential improvement.
    The FAA also implemented the National Acquisition Evaluation 
Program (NAEP) in 2007 to independently monitor the performance and 
implementation of the AMS and associated processes. Through acquisition 
metrics, and random and focused evaluations of program and contract 
data and documentation, NAEP identifies best practices or pinpoints 
potential weaknesses in requirement and policy implementation. Findings 
are then used to improve existing programs and contracts were 
practicable, and reengineer AMS and associated processes where feasible 
to institutionalize better compliance and efficiency for future 
requirements. NAEP also serves as the audit liaison to GAO and OIG for 
acquisition-related audits to ensure findings are properly addressed 
and integrated into agency processes where needed.
    In addition to the program implemented by the FAA, the Department 
has also created a number of structural and procedural protocols which 
seek to reduce the likelihood of cost overruns across the Department. 
Specifically, the Department established an Acquisition Strategy Review 
Board to provide strengthened management oversight over certain 
acquisition activities. The Acquisition Strategy Review Board is led by 
the Department's Senior Procurement Executive, who serves with the 
Deputy Chief Information Officer and Deputy Chief Financial Officer. 
The Acquisition Strategy Review Board reviews acquisition plans to 
ensure the application of sound business strategies and the application 
of appropriate Federal and Departmental information technology 
standards and policies, and also seeks to identify and ensure both 
technical and financial risks are appropriately identified and 
mitigated early in the acquisition planning process. Working within the 
DOT Integrated Program Planning & Management process, the ASRB reviews 
the Department's high risk acquisition plans, including cost 
reimbursable contracts over $10M and all other proposed contracts in 
excess of $20M, to include management support service contracts.
    Additionally, the Department has made significant process in 
strengthening its acquisition workforce. To strengthen the consistency 
and reliability of acquisition workforce data, the Department has fully 
implemented the Federal Acquisition Certification and Training System 
(FAITAS). The full deployment of this new capability has provided a 
reliable and consistent methodology for tracking the Department's 
acquisition workforce certification programs for compliance with 
certification standards and future requirements for continuous 
learning. The Department has completed a data validation effort to 
identify training gaps and now tracks progress toward meeting 
established metrics to ensure all members of the Department's 
acquisition workforce are properly recorded in FAITAS. Additionally, 
the Department continues to invest in its acquisition workforce, and 
has provided targeted training to support improved focus on improving 
communication with industry and market research strategies during 
acquisition planning. The Department also continues to work with both 
internal and external stakeholders to leverage training resources to 
maximize learning opportunities across the entire acquisition 
workforce.
    Finally, the Department has initiated a systematic approach to 
conducting procurement management reviews across the Department's 
operating administrations. These reviews seek to evaluate individual 
procuring activities to ensure compliance with both Federal and 
Departmental requirements and the adoption of best practices, as they 
relate to the entire acquisition life cycle. This structured approach 
will allow for improved compliance and strengthened management 
oversight, and more importantly will allow for the emergence of best 
practices which can be shared across the entire organization. The 
reviews will also serve to identify opportunities for improved 
policies, practices, and procedures.

    Question 7. What specific steps are you taking to identify and root 
out contract and grant fraud, which represented 46 percent of the OIG's 
investigative caseload in FY 2013?
    Answer. The Department of Transportation is committed to carrying 
out a robust suspension and debarment program that protects our 
acquisition, grant-making, and comparable programs from fraudulent 
behavior, favoritism, and other threats to effective stewardship of 
taxpayer funds. The Department administers many grant-making programs, 
such as the Federal-aid Highway Program, the Federal Transit Program, 
and the Airport Improvement Program, and maintaining the integrity of 
these programs, and of our acquisition actions, is one of our most 
important responsibilities. In calendar year 2013, the Department 
issued 64 suspensions and 53 debarments. Also, we continue to work with 
the Office of Inspector General (OIG) to strengthen and improve our 
suspension and debarment program. In response to a recent OIG report, 
we updated the Department's Order on suspension and debarment actions 
to better clarify Departmental and operating administration 
expectations and succinctly describe roles and responsibilities in the 
process. The Department will continue to work with the OIG by referring 
any instances of suspected fraud to the OIG for investigation, promptly 
taking appropriate action on matters the OIG refers to the Department 
for suspension and debarment, and implementing all recommendations for 
improving our suspension and debarment program.

    Question 8. The President's budget requests $339 million for the 
motor carrier safety grants program. What procedures does the 
Department have in place to scrutinize these grants carefully in order 
to prevent waste of taxpayer funds?
    Answer. In 2013, the FMCSA created a Grants Management Office. In 
strengthening the Agency's internal controls, the Grants Management 
Office has: standardized policies and procedures that are consistent 
with Federal law; implemented and integrated automated grant systems; 
provided greater transparency in the discretionary grant program; 
ensured that all agency grants include the proper documentation; and 
developed comprehensive grants management training.
    Based on the Agency's strategic goals and policies, the Agency 
develops annual Notices of Grant Funding Availability for its 
discretionary grant programs. The Grants Management Office reviews each 
application to ensure that it includes all the necessary information. 
The Agency convenes a technical evaluation panel to review every grant 
application to ensure that it meets the agency's priorities and Federal 
law. The Agency bases its funding recommendations on the technical 
evaluation panel's review. The Office of Chief Counsel, Grants 
Management Office and Program office review the funding 
recommendations. Prior to its award, each grant is reviewed by the 
Program Office, the Grants Management Office, the Office of Chief 
Counsel, the Field, and the Budget Office.

    Question 9. Amtrak has repeatedly shown a lack of accountability 
with respect to the Federal taxpayer funds it receives via the 
Department of Transportation. What are you doing to ensure greater 
accountability and avoid waste and mismanagement of these funds?
    Answer. The Federal Railroad Administration (FRA) has substantially 
enhanced its oversight of Amtrak grants in recent years, building a 
monitoring program that aligns to the rigorous standards applied to 
FRA's traditional grant portfolio, and provides a stronger assurance 
that Amtrak is spending its taxpayer funds transparently and delivering 
public benefits.
    As part of this enhanced oversight strategy, FRA is requiring 
frequent grant-level and project-by-project reporting, increasing the 
agency's on-site monitoring of Amtrak capital projects, and conducting 
comprehensive quarterly working group sessions with Amtrak staff. The 
monitoring and oversight program instituted by FRA promotes better 
awareness of Amtrak project activities; allows FRA to verify reporting 
data by more frequently communicating with Amtrak project managers, 
engineers, and other key personnel; assists FRA in tailoring targeted 
technical assistance to Amtrak; and ultimately enables FRA and Amtrak 
to proactively identify and address project development and delivery 
risks.
    In addition to improved grant program and capital project 
monitoring, FRA is working with Amtrak leadership to collaboratively 
assess corporate-level activities and study cross-cutting 
organizational programs to gain understanding, improve communication, 
and work towards improvements. Specific operational areas of focus 
include information management and technology, capital planning and 
Amtrak's budget development process, fleet management, and business 
line performance. As an example of recent programmatic shifts in FRA's 
oversight approach, FRA now dedicates specific staff to monitor the 
performance of each of Amtrak's three primary business lines--the 
Northeast Corridor (NEC), State-Supported routes, and Long-Distance 
routes. Additionally, FRA is requiring Amtrak to develop five-year 
planning documents for both its general capital and Americans with 
Disabilities Act programs, which is intended to spur Amtrak to consider 
a longer horizon and more methodical approach to planning for its 
investments.
    Finally, many of the provisions the Senate Committee on Commerce, 
Science, and Transportation authored in the Passenger Rail Investment 
and Improvement Act of 2008 (PRIIA) are helping to drive Amtrak 
performance improvements, transparency, and accountability. Sections 
209 and 212 of PRIIA are leading to standardized and transparent 
methodologies for allocating costs among Amtrak and its state and 
commuter partners on the state-supported and NEC business lines. Under 
Section 210, Amtrak is working to implement performance improvements 
for its Long-Distance routes. Additionally, Section 203 led Amtrak to 
develop and implement an improved financial accounting and reporting 
system.

    Question 10. Since 2009, Congress has appropriated over $10 billion 
for the Federal Railroad Administration's (FRA) high speed intercity 
passenger rail (HSIPR) grant program. The OIG has previously reported 
that the ``FRA's lack of an effective grants administration framework 
may be putting Federal funds at risk.'' The President's FY 2016 budget 
requests $2.3 billion to establish a Rail Service Improvement System, 
building off HSIPR funding. What controls are in place to ensure 
taxpayer funds are not at risk?
    Answer. The Federal Railroad Administration (FRA) has successfully 
managed $10 billion in funding and approximately 150 projects through 
the HSIPR Program. Forty percent of these projects are complete or 
substantially complete with significant public benefits already 
realized.
    Since 2009, FRA's HSIPR program has undergone five external 
oversight reviews. The five external oversight reviews on HSIPR program 
management/oversight processes is composed of three OIG reviews and two 
GAO reviews. None of these reviews has identified any project-related 
concerns or major oversight issues as FRA has implemented this program. 
Most recently, the OIG issued a report on April 1, 2015 stating that 
``FRA improved its guidance on high-speed rail grant agreements, but 
policies and procedures for amending and monitoring grants remain 
incomplete.'' The OIG report contained five recommendations, four of 
which the OIG considered resolved and closed by the report's 
publication date and the fifth was resolved pending completion of 
planned actions. The four closed recommendations sought amendments or 
clarifications to existing FRA policies and procedures.
    FRA has established a dynamic and robust oversight program to 
reduce implementation risk to the HSIPR Program. FRA's program 
management model comprises three major components, including: grant 
compliance reviews, project implementation oversight, and technical 
assistance delivery.

  <bullet> Grant compliance: FRA grant agreements clearly outline each 
        award recipient's grant administration responsibilities, in 
        compliance with Federal grant oversight regulations and FRA 
        policies. FRA requires grantees to submit detailed and accurate 
        quarterly financial and project progress reports. FRA closely 
        reviews reports for accuracy and has developed a compliance 
        assessment tool to evaluate grantee adherence to administrative 
        requirements on a monthly basis. Further, grant compliance is a 
        component of FRA's monitoring program discussed below.

  <bullet> Project implementation: Before awarding funds, FRA requires 
        each grant recipient to submit a detailed, thorough, and 
        feasible statement of work (SOW), including a clear scope, 
        schedule, budget, and deliverables that grantees must submit 
        throughout the grant period of performance. FRA uses these 
        grantee-generated deliverables and other resources to assess 
        grantees' adherence to the SOW and general project quality.

    FRA also manages an intensive grant and project monitoring program 
        that includes a combination of detailed reviews of grantee and 
        project documentation, as well as grantee and project site 
        visits. Utilizing these tools to evaluate grantee performance 
        and identify project delivery issues, the FRA grant oversight 
        team may require grantees to submit and implement corrective 
        action plans, if necessary.

  <bullet> Technical assistance: FRA's monitoring and oversight team is 
        in constant communication with grantees and is often able to 
        assist grantees in identifying project risk or addressing 
        realized challenges in technical areas such as engineering or 
        environmental compliance. FRA has provided an appropriate level 
        of support to grantees throughout the HSIPR Program to 
        safeguard Federal investments and maximize public benefits.

    The GROW AMERICA Act and FY16 Budget request build on the framework 
established under the HSIPR program and provide dedicated funding to 
conduct necessary oversight, training and technical assistance, and 
project evaluations and assessments for all financial assistance 
provided under the new National High-Performance Rail System.

    Question 11. Since 2003, when legislation initiated the Next 
Generation Air Transportation System (NextGen), the OIG has reported on 
``longstanding management challenges and barriers that have limited 
FAA's progress in delivering NextGen capabilities, such as the Agency's 
inability to set realistic plans, budgets, and expectations, and 
clearly identify benefits for stakeholders.'' What steps are you taking 
in order to get the NextGen implementation back on track, on time, and 
on budget?
    Answer. The FAA is implementing an executable plan for NextGen with 
the leadership of the FAA's Deputy Administrator, who is also the Chief 
NextGen Officer, and the Assistant Administrator of NextGen, who, 
within the FAA, is responsible for the day-to-day implementation and 
execution of NextGen activities. Since NextGen implementation relies on 
the coordination of multiple stakeholders, both of these individuals 
are constantly engaged in discussions with relevant parties in clearly 
identifying benefits for stakeholders. The FAA, in collaboration with 
the aviation industry through the NextGen Advisory Committee, has 
developed the NextGen Priorities Joint Implementation Plan. This Joint 
Implementation Plan, which was delivered to Congress on October 17, 
2014, summarizes the high-level commitments the FAA will accomplish 
over the next three years, the industry commitments necessary for those 
activities to be successful, and a timeline of milestones and locations 
to deliver the benefits for our stakeholders. The FAA is also working 
with the stakeholders to resolve barriers and address potential 
challenges to meet the mandate for equipping thousands of aircraft with 
ADS-B Out avionics. Under the Equip 2020 initiatives, we have 
established workgroups to coordinate and monitor equipage for part 121, 
135 and General Aviation aircraft, and educated the community on ADS-B 
Out and addressed issues with installation and approval.

    Question 12. Is the Department open to looking at new models of 
governance structure to improve the delivery of NextGen benefits?
    Answer. There has been an on-going conversation regarding 
alternative models for FAA governance among some aviation community 
stakeholders and in Congress. The Secretary and the Administrator have 
expressed openness to taking part in these conversations. However, any 
alternative model should provide not only for the improved delivery of 
NextGen benefits but also ensure that any governance changes solve the 
challenges FAA faces. Any movement away from the present model needs to 
ensure continued direct accountability to users of the National 
Airspace System (NAS) and be mindful of the linkage and integration of 
safety, NextGen, airport infrastructure, and other functions. Proposed 
solutions will need to make certain that we make improvements in all 
aspects of FAA's mission and that any change does not set us back in 
the progress that we have made.
Federal Records Act
    The Federal Records Act (FRA) requires Federal employees to 
preserve all records, including e-mails, documenting official 
government business. The National Archives and Records Administration 
(NARA) further clarified this requirement in 1995 by adopting 
regulations specifically requiring the preservation of official e-mails 
created on non-official accounts. The cornerstone of transparency, this 
clear and unambiguous requirement ensures that complete and accurate 
documentation of the business of Federal departments and agencies is 
available for congressional inquiries, Freedom of Information Act 
(FOIA) requests, litigation, and historical research. Given reports 
about deficiencies in FRA compliance at several departments and 
agencies, please answer the following questions:

    Question 13. Do you use an official government e-mail account for 
official business?
    Answer. Yes.

    Question 14. Do you or any other senior Department officials use an 
alternate, alias, or other official account (apart from your primary 
official account) for official business?
    Answer. Yes.

    Question 15. If so, is the Department's Chief FOIA Officer aware of 
this practice?
    Answer. Select officials within the Department use e-mail accounts 
that do not follow the standard e-mail naming convention of 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9fff0ebeaed97f5f8eaedf9fdf6ed97fef6ef">[email&#160;protected]</a>, however all such accounts are maintained on 
authorized DOT e-mail systems. For example, I have two official 
accounts <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2968475d41464750076f465151694d465d074e465f">[email&#160;protected]</a> and a separate e-mail account, also 
maintained on the DOT e-mail servers. In addition, program offices may 
also use a program specific e-mail address; the FOIA Office uses 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d690999f9796b2b9a2f8b1b9a0">[email&#160;protected]</a>; the use of such addresses supports operational 
effectiveness and efficiency. The Department searches all such 
accounts, including a second DOT account for a select official or a 
program office DOT account whenever they may include records responsive 
to a FOIA request.

    Question 16. Have you ever used a non-official e-mail account for 
official business? If yes, please explain your purpose and 
justification for this practice.
    Answer. No.

    Question 17. Are you aware of any other Department or 
Administration officials who use or have used non-official e-mail 
accounts for official business?
    Answer. No.

    Question 18. What steps have you taken to ensure the preservation 
of all Federal records, including e-mails, at the Department in 
accordance with the FRA?
    Answer. In 2012, the Departmental Records Management Office (DRMO) 
initiated a Department wide records management inventory, requiring all 
Operating Administrations (OAs) to identify their Federal records and 
associated records schedules. The OAs have completed their inventories 
and the DRMO is working with OA records offices and NARA to schedule 
permanent and temporary unscheduled records. The Department uses a mix 
of technologies to assist in the management of permanent records. 
Depending on the business needs and electronic information system(s) 
supporting a given program, records are managed in place, stored in an 
Electronic Records Management System (ERMS), or printed and filed.
    DOT permanent electronic records are generally housed in their 
individual electronic management systems and are maintained according 
to their disposition schedule until transferred to NARA. The DRMO is 
also in the process of creating a unified guided approach for all OAs 
to meet the OMB Directive goal requiring all Federal agencies to manage 
all permanent electronic records in an electronic format by December 
31, 2019. Under the DRMO's leadership, a DOT-wide strategic approach 
for managing implementation of the Directive has been established. This 
approach allows each OA to make electronic records management plans 
based on business needs, resource availability, and best practices. 
Each OA is required to develop its strategic and tactical approaches in 
accordance with the DRMO's established minimum specifications and 
provide the plans to the DRMO for on-going oversight and compliance. 
The DRMO will identify and work to resolve common issues through 
evaluation and research of best practices and lessons learned through 
participating in inter-agency collaboration groups including the 
Federal Records Officers Network (FRON), the Bi-monthly Records and 
Information Discussion Group (BRIDG), Capstone working group meetings, 
and Senior Agency Official meetings.

    Question 19. Has the Department adopted the Capstone approach to 
managing e-mail, outlined in the September 14, 2014 memorandum to the 
heads of Federal departments and agencies from the Office of Management 
and Budget and NARA?
    Answer. The Department has adopted in principle the Capstone 
approach and is working to address the technical and operational 
requirements necessary to support its implementation. The DRMO, with 
the support of the Associate CIO for IT Shared Services, OA records 
management staff, the OGC, and other stakeholders is working to 
finalize the policy framework for the DOT's implementation of the NARA-
approved Capstone approach for persona-based e-mail retention that 
meets the Department's business needs and records management 
requirements. The DOT continues to evaluate cloud-based e-mail 
solutions and fully anticipates that all DOT e-mail systems will meet 
the Directive goal of managing both permanent and temporary e-mail 
records in an accessible electronic format by December 31, 2016.

    Question 20. Have any Department employees using non-official e-
mail accounts to conduct official business forwarded the e-mails to 
their official accounts within 20 days as required by law?
    Answer. The Department is not aware of any employee using non-
official e-mail accounts to conduct official business. The Department's 
Records Management 101 (RM 101) training currently includes language 
reminding employees to not use a personal e-mail account for work. In 
FY 2015, the RM101 training will be updated to reflect the new changes 
in the Federal Records Act requiring any individual who must, for 
unforeseen circumstances, use a non-DOT e-mail for official purposes to 
copy their official e-mail so that the record may be appropriately 
preserved.

    Question 21. What policies and procedures does the Department have 
in place to ensure that all employees comply with their FRA 
obligations?
    Answer. The Departmental CIO has issued CIO Policy (CIOP) DOT Order 
1351.28 Records Management which establishes the policy, and roles and 
responsibilities for records management review within the Department. 
The policy is currently under formal review and an updated version will 
be issued by the end of the Fiscal Year. The designated Records Officer 
for each OA has either been certified or granted a certification 
exception based on records management experience by NARA. These OA 
Records Officers are supported by a community of Records Liaisons who 
work directly with records custodians to ensure that all FRA 
obligations are addressed.

    Question 22. When was the most recent FRA training session offered 
to Department employees, including Senate-confirmed individuals?
    Answer. Effective November 11, 2013, the SAO RM required that all 
DOT employees complete the OCIO developed RM 101 course. The training 
aims to educate all staff about records and their records management 
responsibilities. All Federal staff were required to complete the 
training within 90 days of the requirement being established and every 
two years afterwards. Staff that had previously completed RM 101 were 
not required to retake the training until two years after they last 
completed RM 101. To date, 97 percent of non-FAA DOT employees and 94 
percent of FAA employees have completed the RM101 course. As noted 
above, the DRMO plans to evaluate and update RM 101 as appropriate 
during FY15 as well as develop additional role based training for 
specialized communities such as political appointees, records 
custodians, and project managers.

    Question 23. Is any senior Department employee aware of any 
unlawful or accidental removal, alteration, or destruction of 
electronic Federal records in the Department's custody or control, 
including e-mails? If so, has the Department reported these incidents 
to NARA? Please provide details of any such incidents, including the 
dates, number and type of records, and custodians involved, as well as 
any reports, including dates, made to NARA.
    Answer. No.

    Question 24. Are you or any Department official aware of any 
Department employee's use of a private or independent e-mail server to 
conduct official business?
    Answer. No.

    Question 25. If yes, who approved its use?
    Answer. N/A

    Question 26. What was the rationale or justification for its use?
    Answer. N/A

    Question 27. Has the Department received any inquiries from 
employees about the permissibility of using a private or independent e-
mail server to conduct official business? If yes, who made the inquiry 
and what was the response?
    Answer. No.
Vehicle Safety
    Question 28. Vehicle safety has been a long-standing priority of 
mine and, as you know, alcohol impaired driving kills many thousands of 
individuals on the road each year. While some success has been seen 
with implementing the use of breath alcohol ignition interlock devices 
(BAIID), there is some evidence that many of those individuals required 
to install a BAIID in their vehicle do not install them. Do you believe 
the compliance rates for installing BAIIDs have been well established?
    Answer. Alcohol ignition interlock use has grown substantially over 
the past nine years resulting in a significant increase from about 
100,000 in 2006 to over 300,000 in 2014. However, it is difficult to 
establish compliance rates, which vary widely among states. NHTSA is 
working with states to improve tracking and recording of compliance 
with installation orders by offenders. We believe that once State 
ignition interlock programs mature the compliance rate for installing 
BAIIDs can be established.

    Question 29. In your view, are the compliance rates for installing 
BAIIDs acceptable and indicative of success?
    Answer. There is strong evidence that, while installed, interlocks 
reduce recidivism among both first-time and repeat offenders 50 to 90 
percent. Offender compliance with orders to install a BAIID is critical 
to the success of State programs. Compliance rates for installing 
BAIIDs are increasing in some states, and we expect other states to 
increase compliance rates as their programs mature. Through increased 
support for State ignition interlock programs at the State and Federal 
level, it is expected that compliance rates for installing BAIIDs will 
continue to increase.

    Question 30. Relatedly, have the performance measures and 
benchmarks for BAIID been met?
    Answer. There are no performance measures and benchmarks for 
BAIIDs.

    Question 31. The 24/7 Sobriety Program is a drug and alcohol 
monitoring program that was created in my home state of South Dakota 
and has since been adopted in some form by North Dakota, Montana, 
Idaho, Washington, Alaska, Wyoming, Florida, Nebraska, and Iowa. NHTSA-
funded studies based on the South Dakota 24/7 program data have 
indicated that participants who have been on the 24/7 Sobriety Program 
have substantially reduced recidivism rates for one, two, three, and 
four years from arrest. Congress has made clear that 24/7 is a program 
worthy of Federal support, and my state of South Dakota is pleased with 
the results of our 
24/7 program. What changes could be made to Federal statutes to further 
encourage the use of this promising approach to addressing drunk 
driving and alcohol abuse?
    Answer. NHTSA is aware of evaluations of intensive supervision 
programs, such as the 24/7 Sobriety Program, that show such programs to 
be effective in reducing DWI recidivism. In the GROW AMERICA Act, the 
Administration proposes to increase State flexibility with regard to 
eligibility for an alcohol-ignition interlock law grant by allowing the 
substitution of 24/7 intensive supervision programs for ignition 
interlock use under certain circumstances. Under the proposal, a State 
would be eligible for an ignition interlock grant even if its all-
offender interlock law contained an exemption for employer-owned 
vehicles, provided that the state required such offenders to 
participate in a 24/7 intensive supervision program. Similarly, a State 
would also be eligible for an ignition interlock grant even if its all-
offender interlock law contained an exemption for rural residents, 
provided that such offenders live more than one hundred miles from an 
interlock service provider and they participate in a 24/7 intensive 
supervision program. These changes would provide states with additional 
tools to help combat drunk driving.

    Question 32. Drugged driving is a growing problem in our country. 
How is NHTSA working to understand this problem and should Federal 
grants and penalties for drugged driving be treated similarly to those 
for driving under the influence of alcohol?
    Answer. NHTSA has conducted two important roadside surveys to 
provide information on the presence of drugs in the driving population. 
These surveys, which are anonymous and voluntary, are the only source 
of statistically reliable information on the extent of drugged driving 
in the United States. The 2007 National Roadside Survey (NRS) indicated 
that 16.3 percent of weekend nighttime drivers had drugs in their 
systems. The 2013-14 NRS indicated this figure has increased to 20 
percent. These surveys provide important data about the presence of 
drugs in the driving population, but do not measure impairment levels. 
These roadside surveys are the only source of this critical safety 
information. Unfortunately, NHTSA is currently prohibited from 
conducting future roadside surveys under the ``Consolidated and Further 
Continuing Appropriations Act, 2015.''
    NHTSA considers driving under the influence of drugs (DUID) as part 
of the larger impaired driving threat facing this country. State data 
on fatalities indicate that one third of total fatalities (10,076 in 
2013) were the result of alcohol impairment. Less is known concerning 
the level of involvement of drugs in impaired driving, and more 
research is required to understand the issues and preventive 
strategies. That is why the President's Fiscal Year 2016 budget 
requests an additional $10 million to study the magnitude of drug 
impaired driving.
    States may currently use Section 402 and most of Section 405(d) 
Impaired Driving grants for both alcohol and drug impaired driving 
countermeasures. The Administration's GROW AMERICA Act would continue 
to allow states this flexibility.
Surface Transportation & Merchant Marine Infrastructure, Safety, and 
        Security
    Question 33. The freight map developed by the Department of 
Transportation (DOT) has limited connectivity in rural states like 
South Dakota. With just one mile of the ``DOT freight network,'' but 
hundreds of miles of multimodal freight routes, I am concerned that 
DOT's map fails to account for the realities of how goods move in rural 
areas. Can you provide additional information about DOTs freight 
planning, and how rural freight corridors should be addressed?
    Answer. The Moving Ahead for Progress in the 21st Century Act (MAP-
21) directed the Secretary to establish a National Freight Network 
(NFN) to assist states in strategically directing resources toward 
improved system performance for efficient movement of freight on 
highways. By statute, the NFN is comprised of three network components: 
the primary freight network (PFN), the portions of the Interstate 
System not designated as part of the PFN, and Critical Rural Freight 
Corridors.
    The freight map you describe is the initial draft designation of 
the highway PFN portion of the NFN. Under MAP-21, this draft highway 
PFN would eventually be supplemented by the Critical Rural Freight 
Corridors designated by states, and cover important rural freight 
routes. A final initial designation of the highway PFN will be released 
this year. However, consistent with public comments, the Department 
recognizes that MAP-21's mileage-constrained, highway-only PFN is an 
incomplete representation of the system that is required to move 
freight in the United States. The Department is supportive of a more 
comprehensive approach to freight under the NFN.
    The Department, as part of the GROW AMERICA surface transportation 
authorization proposal, has proposed the establishment of a multimodal 
national freight network. This network would not have a mileage cap and 
could include connectors, corridors, and facilities in all freight 
transportation modes as most critical to the current and future 
movement of freight within the national freight system. The input of 
local and State transportation planners will be necessary to fill in 
data gaps and improve the accurate representation of goods movement in 
the Nation.
    Additionally, to support national and regional planning, the 
Department will be releasing the National Freight Strategic Plan, and 
continues to encourage states to develop freight plans. The Department 
believes that freight planning is best accomplished at the local and 
State level, including at a multistate regional level, in freight 
advisory committees, with the active participation of the suppliers, 
shippers, and receivers, as well as all stakeholders impacted by 
freight movement. Rural and urban goods movement is best understood by 
those parties and can inform State freight plans to prioritize 
investment and help advance local, State, and national freight goals.

    Question 34. On February 11, Senator Inhofe, the Chairman of the 
Committee on Environment and Public Works, and I wrote a letter 
requesting an update on the timeline for the Comprehensive Truck Size 
and Weight Study that was mandated for delivery in November of 2014. We 
have not yet received a response to our letter, and the report has not 
yet been issued. Congress passed MAP-21, which required this study, 
more than 32 months ago. I look forward to your response to our letter, 
and the release of the report. Please provide an updated timeline for 
the completion and release of the report for the record.
    Answer. The Department is analyzing carefully the results and 
making sure that the information contained in the study is factual and 
clearly communicated. The Department recognizes the importance of this 
study, and we are working diligently to complete our review. As soon as 
our review is completed, we will prepare the draft technical reports 
for release to the independent peer review panel and the public.
    The Department is also making revisions to the study's desk scans, 
as recommended by the initial report from the Transportation Research 
Board Peer Review Panel. Once we release the technical reports, we will 
launch the second phase of the Peer Review. At that time, we will also 
schedule the final Public Input Session. When these steps are 
completed, we will deliver to you the final Report to Congress.

    Question 35. In late 2013 or early 2014, the DOT undertook testing 
of braking distance of 5 and 6 axle trucks at various weights. I 
understand that the testing has been finished for some time. Please 
provide the Committee with the results of this testing, and indicate 
whether the results will be included in the Comprehensive Truck Size 
and Weight Study.
    Answer. The testing on the 5-axle tractor-semitrailer combination 
was performed in 2012. A final report for that testing has been 
completed, ``Heavy and Overweight Vehicle Brake Testing: Combination 
Five-Axle Tractor-Flatbed Final Report'' http://www-cta.ornl.gov/cta/
CMVRTC/past-research/HOVBT.html. A copy of the Final Report can also be 
accessed via the link.
    The testing on the 6-axle tractor-semitrailer combination was 
performed in 2013 and 2014. The final report for that testing is 
currently undergoing final review, but has not been published yet. My 
hope is that we are able to get it done soon, but I don't have a more 
specific timeline.
    The Federal Highway Administration is the lead for the MAP-21 
Comprehensive Truck Size and Weight Study. The brake testing results 
will be provided in that study. The following link provides the Project 
Milestones and schedule: http://ops.fhwa.dot.gov/freight/sw/
map21tswstudy/milestones_schedule.htm.

    Question 36. I understand the Maritime Administration (MARAD) 
commissioned a report last fall to study the use of liquefied natural 
gas (LNG) as a fuel in the maritime sector, specifically looking at 
existing LNG bunkering infrastructure, safety, regulations, and 
training. The report also included recommendations to accelerate the 
adoption of LNG fuel. Can you please provide a status update on the 
agency's progress on implementing these recommendations?
    Answer. The study referenced was performed by DNV GL, a 
classification society that has many years of experience with design 
and application of LNG vessels. The study was not designed to provide 
MARAD with implementing recommendations but was developed to address 
several issues related to the use of LNG as a propulsion fuel. The 
report makes a number of recommendations geared towards industry that 
wants to use LNG as a fuel and regulatory agencies considering the 
development of standards. For example, the report details bunkering 
methods and port facility locations, provides best management 
practices, and identifies regulatory gaps. Since the report was 
completed in September 2014, additional guidance has been issued by the 
U.S. Coast Guard regarding safety and training for bunkering 
operations.
    MARAD continues to work with both industry and the regulatory 
agencies to address continued challenges regarding LNG infrastructure 
and financing. In late 2014, MARAD initiated follow-up research aimed 
at identifying locations along the Great Lakes and Inland Waterway 
System where LNG infrastructure could serve multi-modal and multi-use 
operations in an effort to determine volume requirements and 
infrastructure barriers.

    Question 37. In October 2014, MARAD awarded a ship recycling sales 
contract to one of its pre-qualified companies that bid $420,000 less 
than another pre-qualified company. The winning company, however, is 
reportedly shut down currently, with at least four MARAD ships in 
various stages of dismantlement in its yard. What is the current status 
of these vessels?
    Answer. The company in question currently has two former MARAD 
vessels under dismantlement. Unfortunately, this long-standing recycler 
declared bankruptcy on March 7, 2015 and, for the present, has stopped 
work. We are working with the Department of Justice and the U.S. Navy 
to ensure the Federal Government's interests are protected during the 
bankruptcy court proceedings and will continue monitoring the situation 
to assess whether there will be any impact to the completion schedule 
for these two vessels.

    Question 38. Was MARAD aware that the company that was awarded the 
contract was in financial distress at the time?
    Answer. No. The buyer provided payment in full of more than $3.5 
million for both vessels and provided a performance bond before the 
title to the vessels was transferred to them. This company is one the 
largest domestic recycling facilities dismantling Federal Government 
vessels and has successfully recycled 69 obsolete MARAD vessels, the 
most in the program's history. The company has also successfully 
recycled numerous vessels for the U.S. Navy.

    Question 39. Please explain how MARAD determines best value to the 
Federal Government.
    Answer. Current law, set forth in Section 3502 of P.L. 106-398, 
requires MARAD to award vessel dismantlement and recycling contracts 
based on a ``best value'' determination consistent with the Federal 
Acquisition Regulation (FAR). Best value as described in Section 3502 
(b) includes consideration of the least cost to the Government, the 
timeliness of performance, worker safety and the environment. The best 
value process used by MARAD is in compliance with the FAR. In 2009, the 
Government Accountability Office (GAO) reviewed and upheld MARAD's best 
value process and confirmed, in a 2014 review, that MARAD's best value 
process is consistent with the FAR. The February 2014 GAO report on the 
Ship Disposal Program may be found at: http://www.gao.gov/assets/670/
660899.pdf
    When determining best value, MARAD considers price and non-price 
factors of performance schedule, facility capacity and past performance 
in addition to price when awarding contracts. For example, the benefit 
of removing and recycling a vessel in a timely manner may outweigh the 
benefit of a higher sales offer, if the facility making the higher 
offer cannot dispose of the vessel as quickly. An expedited disposal 
lessens the risk of possible harm to the environment and the 
corresponding costs of cleanup. To ensure transparency in the process, 
MARAD revised its ship recycling solicitation in 2013 to better explain 
the ``best value'' process and has held industry outreach sessions to 
explain the solicitation, including the process of review. In addition, 
MARAD posts all awarded contracts, which includes the awarded price and 
schedule of performance, on its website. All offerors can compare their 
offers to the awarded offer. MARAD also offers individual debriefings 
to any offeror who requests it to discuss their offer and the best 
value decision.
    In order to ensure a level playing field, and transparent and open 
competition, the best value process requires that every offer comply 
with the published terms of the solicitation.
    With respect to the sales contract in question for the ex-
YELLOWSTONE, MARAD could not consider the $420,000 higher sales offer. 
The higher offer was eliminated from consideration because it was a 
contingent offer and, therefore, not eligible for award. The 
solicitation required the awardee to remove the vessel from the MARAD 
fleet within 30 days and the higher offer was contingent on an 
additional 90-day delay in removing the vessel. If MARAD had awarded a 
contract based upon a contingent offer that did not comply with the 
requirements of the solicitation, the integrity of the vessel sales 
process would have been compromised. The 30-day removal provision is a 
long-standing term of MARAD's solicitations. The ability to begin 
performance in a timely manner is consistent with the published best 
value award guidelines and consistent with statutory language directing 
expeditious dismantling of vessels.

    Question 40. When does MARAD anticipate completing the national 
maritime strategy required by the Howard Coble Coast Guard and Maritime 
Transportation Act of 2014? Will it include ship recycling?
    Answer. Following an extensive, deliberate and transparent public 
engagement effort to gain input, we plan to have the national maritime 
strategy open for public comment this summer. We look forward to 
Congress' input and recommendations as we then begin work on an 
implementation plan for the strategy. The strategy will focus on 
actions needed to ensure our Nation's critical maritime industries 
remain relevant and viable in meeting our economic and national 
security requirements long into the future.

    Question 41. As you know, DOT has issued a proposed rule calling 
for a new tank car design and operational requirements for any train 
carrying 20 or more cars of ethanol, crude oil, or other flammable 
materials. DOT has estimated that the rule would cost as much as $5.2 
billion, with nearly all of the costs incurred by industry in the first 
five years.
    DOT must take a thoughtful approach to improving the safety of 
crude oil transportation by rail. DOT should promulgate the necessary 
and appropriate standards to increase the puncture resistance and 
thermal protection of legacy DOT-111 tank cars in crude oil service, 
but it must avoid regulatory overreach that introduces unintended 
consequences, network delays, and new safety risks. In that light, 
please reply to the following:
    Retrofit Deadline: In the proposed tank car rule, DOT did not 
examine retrofit shop capacity; it only looked at new tank car 
manufacturing capacity and did not account for existing new car orders 
for flammable liquids and other commodities. The result was a deadline 
for retrofits and replacements that appears unattainable. For the final 
rule, what steps is DOT taking to examine tank car retrofit shop 
capacity and to set a more attainable deadline that avoids disrupting 
our rail network and creating congestion?
    Answer. The Department received over 3,200 comments representing 
over 182,000 signatories in response to the August 1, 2014 proposed 
rule, ``Enhanced Tank Car Standards and Operational Controls for High-
Hazard Flammable Trains.'' We have carefully considered these comments 
in the development of our final rulemaking action. On February 5, 2015, 
PHMSA submitted the draft final rule to the Office of Management and 
Budget for interagency review under EO 12866 and EO 13563, which is the 
final stage of review before publication.
    I can't comment on the specifics of the final rule, but the 
Department received substantial feedback on the retrofit timeline in 
response to the proposed rule, and I assure you we have taken that 
feedback seriously in the development of the final rule.

    Question 42. ECP brakes: Former PHMSA Administrator Quarterman said 
that Electronically-controlled pneumatic, or ECP, brakes ``in the long 
run . . . will more than pay for themselves,'' but most ECP brake pilot 
programs have been shut down due to insufficient safety and business 
benefits. The DOT proposed rule relies on an outdated study (from 2006) 
to assess ECP brakes, and since that time industry has increasingly 
used other technologies like dynamic braking and distributed power, 
capturing additional safety and business benefits. To what extent does 
the insufficient benefit seen in ECP brake pilot programs, and the 
increased use of other braking technologies, affect the assessment 
about whether ECP brakes pay for themselves?
    Answer. The Department received a great deal of feedback on ECP 
brakes following the proposed rule, including the claims made here 
regarding increased use of dynamic braking. We are considering all 
information in development of the final rule.

    Question 43. Scope: DOT treated a carload of ethanol as having the 
same risk as a carload of crude oil, despite the fact that other DOT 
regulations classify ethanol as having a lower flammability and 
volatility risk than most types of crude oil that travel by rail. 
Ethanol and crude oil carloads also differ in route distance and clean-
up costs. In your view, to what extent does a typical carload of 
ethanol have the same risk as a typical carload of crude oil?
    Answer. Ethanol is a flammable liquid, and we have seen many 
destructive derailments involving ethanol fires, such as at Dubuque, 
Iowa, on February 4, 2015. Again, while I cannot speak to the 
particular provisions of the final rule, I assure you the Department 
takes very seriously the risks involved with rail transport of ethanol. 
Exploring and monetizing these risks is a component of the deliberative 
regulatory process.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                          Hon. Anthony R. Foxx
Federal I.T. Reform
    Question 1. Describe the role of your Department of 
Transportation's Chief Information Officer (CIO) in the development and 
oversight of the IT budget for your department/agency. How is the CIO 
involved in the decision to make an IT investment, determine its scope, 
oversee its contract, and oversee continued operation and maintenance?
    Answer. The DOT Office of the CIO currently participates on three 
boards involving IT investments. First, the DOT CIO co-chairs the 
Department's Investment Review Board (IRB) with the Deputy Secretary. 
This board is responsible for the approval of the DOT $3.2 billion IT 
Portfolio. The Deputy Chief Information Officer is also a voting member 
of the Investment Working Group to support enterprise investment 
management. In addition, the Deputy Chief Information Officer chairs 
the Acquisition Strategy Review Board (ASRB) with the Senior 
Procurement Executive and the Deputy Chief Financial Officer to ensure 
Departmental review of significant procurements.
    Over the past three months, the DOT CIO has been working closely 
with the Chief Financial Officer (CFO) and the Departmental Budget 
Officer to ready our Federal Information Technology Acquisition Reform 
Act (FITARA) implementation plan. The budget authority in FITARA will 
strengthen the DOT budget process relating to IT.

    Question 2. Describe the existing authorities, organizational 
structure, and reporting relationship of the Chief Information Officer. 
Note and explain any variance from that prescribed in the newly-enacted 
Federal Information Technology and Acquisition Reform Act of 2014 
(FITARA, PL 113-291) for the above.
    Answer. The DOT CIO reports to the Secretary of Transportation and 
is the principle advisor to the Secretary on all matters relating to 
IT. The DOT CIO sits on the Secretary's cabinet and is involved in all 
business decisions. The DOT CIO coordinates Departmental IT through the 
Investment Review Board (IRB) and the DOT CIO Council. The DOT CIO also 
manages enterprise IT shared services via the Common Operating 
Environment (COE).
    With regards to FITARA, the DOT CIO will take a more operational 
role in the execution of Operating Administration IT budgets and 
acquisition through the implementation of these authorities. DOT will 
implement CIO authorities throughout DOT, and in close coordination 
with the Office of General Counsel, FITARA will be implemented at FAA 
consistent with the restrictions and authorities contained in 49 U.S.C. 
106, 40110, 40121.

    Question 3. What formal or informal mechanisms exist in your 
department to ensure coordination and alignment within the CXO 
community (i.e., the Chief Information Officer, the Chief Acquisition 
Officer, the Chief Finance Officer, the Chief Human Capital Officer, 
and so on)?
    Answer. In addition to consistent informal coordination and 
collaboration across the DOT CXO community, DOT has formed the 
following formal bodies:

  <bullet> The DOT Investment Review Board (IRB) consists of the Deputy 
        Secretary of Transportation, DOT Chief Information Officer 
        (CIO), DOT Chief Financial Officer (CFO), Senior Procurement 
        Executive (SPE), Under Secretary for Policy, and Operating 
        Administrators as voting members. The board ensures data-
        driven, enterprise-focused IT governance across the Department 
        by providing strategic direction and leadership for budget and 
        acquisition alignment.

  <bullet> The CIO Council ensures that the Department realizes optimal 
        value from its IT investments, by taking advantage of 
        enterprise IT systems and infrastructure opportunities and 
        delivering capabilities at an affordable cost and acceptable 
        level of risk. CIOs from across the Department participate on 
        this council.

  <bullet> The Investment Working Group provides overarching strategic 
        and tactical leadership and direction in support of the DOT 
        investment management and capital planning process. The DOT 
        Deputy Assistant Secretary for Budget and Programs, DOT Deputy 
        CIO, DOT SPE and the Director of the Departmental Office of HR 
        Management are voting members.

  <bullet> The Acquisition Strategy Review Board (ASRB) is chaired by 
        the DOT SPE, DOT Deputy CFO, and the Deputy CIO and ensures 
        coordination across the Department on strategic acquisition 
        decisions.

    DOT believes, and it has been the experience to-date, that 
implementing FITARA will to strengthen the already close relationship 
between the CIO, CFO, CAO, and CHCO. This strengthening will greatly 
benefit the Department as DOT moves through IT challenges and issues.

    Question 4. According to the Office of Personnel Management, 46 
percent of the more than 80,000 Federal IT workers are 50 years of age 
or older, and more than 10 percent are 60 or older. Just four percent 
of the Federal IT workforce is under 30 years of age. Does your 
department have such demographic imbalances? How is it addressing them?
    Answer. DOT's IT force is comparably imbalanced with a slightly 
larger percentage, 55.5 percent, of IT employees over age 50.
    To promote efficiency and effectiveness of the Information 
Technology (IT) Workforce, the DOT Chief Information Officer (CIO) is 
leading an effort to analyze and evaluate the current alignment of 
resources supporting the Department's IT efforts. Based on this review, 
the Office of the DOT CIO proposed a multi-year IT workforce initiative 
to reduce reliance on contractors and concomitantly increase the number 
of Federal positions. The realignment will provide two main benefits. 
First, DOT will realize cost savings and efficiencies due to higher 
contractor costs as compared to the full-cost of Federal employees. 
Second, DOT will realign Federal and contractor roles to improve 
efficiency, develop succession capability, and improve demographic 
imbalances. Many IT functions currently performed by contractors should 
be performed by government employees.

    Question 5. How much of the department's budget goes to 
Demonstration, Modernization, and Enhancement of IT systems as opposed 
to supporting existing and ongoing programs and infrastructure? How has 
this changed in the last five years?
    Answer. In 2015, the Department's IT portfolio will total $3.3 
billion. Of this amount, $1.61 billion is expected to be committed to 
Development, Modernization and Enhancement efforts (DME), which equates 
to approximately 50 percent of the DOT IT budget. Over the past five 
years, the DME spend has shown a modest decline from approximately 56 
percent to the current 50 percent of the DOT IT budget primarily due to 
major investments, for example, ERAM and Delphi transitioning to the 
operations and sustainment lifecycle phase.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 6. GAO recently reported that 65 percent of DOT's IT 
investments are not taking an ``agile'' or incremental development 
approach and delivering functionality within 12 months. Clearly this is 
a best practice and required by OMB. What are the 10 highest priority 
IT investment projects that are under development in your department? 
Of these, which ones are being developed using an ``agile'' or 
incremental approach, such as delivering working functionality in 
smaller increments and completing initial deployment to end-users in 
short, six-month time frames?
    Answer. DOT recognizes the importance of moving to an agile 
development methodology where it is appropriate. FAA investments 
accounted for 87 percent of the DOT IT portfolio, and the requirements 
for developing and maintaining 24/7 operational mission essential and 
safety critical systems are very stringent and not necessarily 
candidates for agile development. GAO 14-361 (3112890) GAO also 
concurred on this assessment. Examples of these safety critical 
investments, which require reliability, availability and 
maintainability standards at or above 99.9999 percent, include:

  i.  En Route Automation Modernization (ERAM)

  ii.  Telecommunications Infrastructure (FTI)

  iii.  Data Communications (DataComm)

  iv.  Terminal Automation Modernization and Replacement (TAMR) phase 1

  v.  Terminal Automation Modernization and Replacement (TAMR) phase 3

    While these systems may not follow strict ``agile development'' 
guidelines, they do follow waterfall national deployment schedules that 
are built around minimizing deployment risks.
    As part of the GAO report analysis, DOT and other surveyed agencies 
identified ``three types of investments for which it may not always be 
practical or necessary to expect functionality to be delivered in 6-
month cycles: (1) investments in life-cycle phases other than 
acquisition (2) investments intended to develop IT infrastructure; and 
(3) research and development investments.'' \1\ As part of the final 
report, GAO did acknowledge the merit of these concerns.
---------------------------------------------------------------------------
    \1\ http://www.gao.gov/assets/670/662922.pdf
---------------------------------------------------------------------------
    When appropriate, DOT has leveraged the agile development 
methodology with success:

  vi.  FHWA is leveraging incremental development where appropriate for 
        the FMIS 5 upgrade. FHWA has employed a modular approach for 
        development and delivery to the FHWA Division Offices and State 
        DOTs into the User Acceptance Testing environment, with the 
        first set of modules delivered in April 2014 and the last 
        modules being delivered through March 2015. FHWA determined 
        that it would be too cost prohibitive and time intensive to 
        roll out the FMIS 5 upgrade incrementally in the Production 
        environment due to impacts to the three FHWA systems that are 
        being modernized, as well as the external systems that FMIS 5 
        interfaces with, including DOT Delphi accounting system and the 
        State DOTs' systems. This approach was discussed with OMB 
        during a project review in July 2014.

  vii.  FRA supports the DOT safety mission through management of the 
        Railroad Safety Information System (RSIS) to provide government 
        agencies, railroad labor and management, and the general public 
        with information on railroad safety. The system captures data 
        on railroad accidents, injuries, highway-rail crossing 
        collisions, railroad operation data, FRA-conducted railroad 
        inspections, and maintenance of the highway-rail crossing site 
        inventory. FRA's current contract to manage RSIS is nearing 
        completion and is expected to be re-competed. System 
        requirements are in development and it is anticipated that 
        development work within that contract will be required to use 
        the agile methodology. Agile is one of the recommendations 
        expected out of FRA's current IT and Data Modernization 
        initiative.

  viii.  Web and mobile development across the Department has moved to 
        the agile methodology. For example, FRA used the agile 
        methodology to develop data visualization suite, Corporate 
        Express, which was transitioned to the Department in 2014. In 
        addition, the Departmental DOT.gov platform was deployed 
        utilizing agile development, as are improvements to the 
        platform.

   ix.  The NHTSA306 Crash Data Acquisition Network (CDAN) is a new 
        system that supports NHTSA's Data Modernization Program. Agile 
        stories are categorized, prioritized and packaged for sprint 
        releases. NHTSA has developed the ``PowerCenter'' tool to 
        support the agile methodology.

   x.  NHTSA's Corporate Average Fuel Economy (CAFE) Management Suite 
        is an IT solution to support NHTSA's rulemaking and enforcement 
        for this program. CAFE is utilizing the agile methodology for 
        development and implementation. A sprint release has been 
        developed and is tracked for CAFE Public Information Center 
        deployment.

    Implementing a DOT Digital Services Team will result in more 
effective and reliable service through the development of forward 
thinking agile applications.

    Question 7. To ensure that steady state investments continue to 
meet agency needs, OMB has a longstanding policy for agencies to 
annually review, evaluate, and report on their legacy IT infrastructure 
through Operational Assessments. What Operational Assessments have you 
conducted and what were the results?
    Answer. The Common Operating Environment (COE) provides shared 
services for many DOT users, consisting of end user support, 
telecommunication, network, server and cyber security operations. The 
COE recently completed an Operational Assessment to examine, measure, 
and track the current operational status against an established set of 
cost, schedule, and performance parameters. The Operational Assessment 
concluded that the COE is providing a valuable service to its 
customers. As part of the FITARA implementation, the DOT CIO will work 
with Operating Administrations to fold commodity IT that is currently 
managed at the component level into the COE to reduce duplication and 
gain efficiency through an expanded enterprise shared services model.
    FAA also has an approved shared services model that leverages 
access to centralized expertise and infrastructure and enables the 
economies-of-scale within each IT function.

    Question 8. What are the 10 oldest IT systems or infrastructures in 
your department? How old are they? Would it be cost-effective to 
replace them with newer IT investments?
    Answer.
   i.  The National Transportation Atlas (NTA) is a web mapping 
        application that presents transportation networks, features and 
        statistics about our Nation's transportation system. The NTA 
        has not been widely advertised, because it is running on 10 
        year old hardware with an operating system and application that 
        is nearing end-of-support-life. The NTA is moving to a cloud 
        platform that will support expanded data storage and computing 
        capacity, and additional functionality including web feature 
        services, and scaling.

   ii.  The Bureau of Transportation Statistics established TranStats 
        in 2001 as an intermodal transportation database. This database 
        was created in response to a Congressional mandate. TranStats 
        comprises the collection, processing and dissemination of 
        airline data such as finances, performance and traffic for 
        transportation statistical analysis and reporting functions. 
        Initially TranStats focused on delivery of data from the 
        Airline Reporting Data Information System and but functionality 
        was extended in 2010 to include online data collection from all 
        airlines. The system is undergoing a thorough planning and 
        alternative analysis for modernization and consolidation of its 
        architecture. The modernization is expected to be complete by 
        the end of Fiscal Year 2017.

   iii.  As part of the Common Operating Environment (COE), the DOT 
        CIO's office currently provides a telecommunication system for 
        DOT employees. The existing system was purchased in FY 2007 
        when DOT relocated into the Navy Yard headquarters building. 
        The legacy system does not provide modern features and is not 
        scalable based on the changing telecommunications needs of the 
        DOT workforce. A COE Communications Workgroup, consisting of 
        representatives from across the Department, has been formed to 
        examine current requirements and conduct market research as 
        part of a recommended approach to modernize the legacy 
        telephone system.

   iv.  The Saint Lawrence Seaway Development Corporation (SLSDC) is 
        decommissioning its 30-year-old in-house financial management 
        system as of 2014 and migrating to the Department of Interior's 
        Federal Shared Service Provider (FSSP) solution. It is expected 
        that the new system will be operational in late FY 2015.

   v.  While FHWA has operated systems for up to 25 years, 
        infrastructure is replaced and upgraded as needed. FHWA 
        regularly evaluates IT investments via the Application 
        Portfolio Rationalization (APR) process, with the most recent 
        report approved in February 2015.

   vi.  The Hazardous Materials Information System (HMIS) has been an 
        integral tool used PHMSA's Office of Hazmat Safety for daily 
        activities since the 1970s. Over the years, it has been 
        modified and updated as business needs and technologies have 
        evolved. Currently, the technology and processes used by HMIS 
        have become outdated and costly to maintain. PHMSA is in the 
        process of modernizing the functions performed by HMIS under 
        its IT modernization effort. The old system is expected to 
        sunset in 2018. These modernized functions will provide process 
        improvement efficiencies, as well as cost savings.

  vii.  The NHTSA Grants Tracking System (GTS) was initiated in 2000 
        and is slated to be replaced with the Grants Management 
        Solution (GMSS) in 2025. GMSS is a modernization initiative 
        that will automate the full grants management life cycle and 
        enhance financial tracking.

  viii.  The NHTSA Artemis system was in initiated in 2002 and consists 
        of complaints from vehicle owners, early warning reporting data 
        submitted by manufacturers, and recall and investigation 
        information. Modernization of this system is necessary to 
        adjust a high volume analysis of data. It is slated to end in 
        2024.

   ix.  The Transit Electronic Award Management System (TEAM) is FTA's 
        primary grants management tool. TEAM runs on an older 
        infrastructure that is at the end of its technical and 
        functional life. As a result, FTA is replacing TEAM using a 
        modern architectural solution which will modernize IT 
        capabilities across the component, with a focus on grant 
        management support. The modernization will leverage a Business 
        Process Management (BPM) software platform, delivered as a 
        commercial Cloud service. TEAM is expected to be decommissioned 
        in 2016.

    x.  The FAA operates over 20 investments that are 10 years or 
        older. All investments are monitored and assessed annually for 
        technology refresh or replacement. Legacy systems in the 
        process of replacement include the Automated Radar Terminal 
        System (ARTS) and the Instrument Landing System (ILS).

    Creating a Digital Services Team will allow DOT to review existing 
applications and solutions and begin a holistic modernization to ensure 
systems are functioning properly. The Digital Services Team will 
provide the experts needed to fundamentally shift the approach of IT in 
the Department to forward looking and agile solutions.

    Question 9. How does your department's IT governance process allow 
for your department to terminate or ``off ramp'' IT investments that 
are critically over budget, over schedule, or failing to meet 
performance goals? Similarly, how does your department's IT governance 
process allow for your department/agency to replace or ``on-ramp'' new 
solutions after terminating a failing IT investment?
    Answer. Under the DOT IT governance model, investments are tracked 
by Operating Administrations (OA) as well as the DOT OCIO Investment 
Analysis Team (IAT). The IAT works with the OA Capital Planning and 
Investment Control (CPIC) coordinators and other OA representatives to 
conduct analytical reviews of IT investments. The IAT uses cost and 
schedule baseline data, as well as performance metrics and risk 
assessments provided by the OAs, to generate investment analysis. As 
our process grows more robust, preliminary findings will be shared with 
applicable OAs via Issue Papers to help resolve or clarify perceived 
discrepancies prior to submission to the Investment Review Board (IRB) 
supporting boards. As the DOT IT governance process continues to 
mature, any unresolved issues will be presented to the IRB and 
applicable supporting boards. With the implementation of FITARA, the 
DOT CIO will continue to strengthen these reviews and recommendations.
    In FY 2013, FAA began a cost-beneficial migration from their legacy 
Lotus Notes e-mail system to Microsoft 365 in the cloud. As part of the 
procurement, DOT initially anticipated a move from the on premise 
Microsoft Exchange environment managed by the Common Operating 
Environment (COE) to the Microsoft 365 cloud. DOT worked closely with 
the FAA team throughout the FAA migration, and subsequently completed 
an analysis to understand the potential benefits of the move. This 
project was discontinued by the DOT CIO when it became clear that the 
cost benefit analysis did not support the migration for the other DOT 
modes. This decision was unanimously supported by the DOT CIO Council.
    In accordance with the FAA Acquisition Management System (AMS), the 
Joint Resources Council (JRC) is the FAA's investment decision making 
body charged with the responsibility of approving and overseeing the 
management of investments regardless of the type of funding 
appropriation, allocating resources and establishing program offices 
chartered with the responsibility of managing approved investments. The 
JRC manages investments by conducting Acquisition Quarterly Program 
Reviews and reviewing the results of Post Implementation Reviews. Based 
on the data presented to the JRC during the aforementioned reviews, the 
JRC may require changes to the investment strategy or the approved 
program baseline.

    Question 10. What IT projects has your department decommissioned in 
the last year? What are your department's plans to decommission IT 
projects this year?
    Answer. Operating Administrations at DOT have had success 
decommissioning legacy infrastructure in adoption of the Common 
Operating Environment (COE) shared services solution. For example, the 
Railroad Safety Information System (RSIS) was migrated from aging 
servers hosted at a commercial data center into the DOT COE in a 
modern, virtualized environment beginning in October, 2013. The 
previous commercial hosting environment was decommissioned in January, 
2014. Additionally, FTA is planning to decommission two older systems 
after their replacements are deployed to the modernized FTA IT 
platform. Both the National Transit Database (NTD) and Transit 
Electronic Award Management System (TEAM) are scheduled to be 
decommissioned beginning in Q1 FY 2016.
    DOT has also seen success in the migration from duplicative 
platforms into enterprise solutions. For example, the creation of a 
Departmental web platform resulted in the migration and decommissioning 
of legacy hardware for several modal websites. Modes have also had 
success leveraging the Departmental SharePoint collaboration 
environment. DOT is in the process of finalizing the decommissioning of 
the 2007 internal SharePoint site. The 2010 internal SharePoint site 
has replaced the legacy 2007 environment.
    The Department of Transportation's Departmental Procurement 
Platform (DP2) modernization initiative consolidates eight (8) 
disparate Performance and Registration Information Systems Management 
(PRISM) procurement systems onto a common platform that is integrated 
with the Department's financial system, Delphi. In November 2014, NHTSA 
and FRA migrated from their legacy PRISM systems to the integrated DP2 
solution as part of Phase 1. Consolidation of the remaining PRISM 
instances will be completed in Phase 2 and Phase 3 of the DP2 program. 
PHMSA has also demonstrated success reviewing existing requirements to 
determine what investments should be decommissioned. For example, prior 
to FY 2013, PHMSA managed over 90 physical mission system servers and 
had the third largest data center foot print in DOT. In FY 2013, PHMSA 
reduced the physical server footprint by 62 percent. DOT believes the 
increased investment review authority under FITARA will give the 
Department greater visibility into all IT projects. Decommissioning 
based on consolidation into enterprise shared services will be a major 
focus in the review of IT spending.

    Question 11. The newly-enacted Federal Information Technology and 
Acquisition Reform Act of 2014 (FITARA, PL 113-291) directs CIOs to 
conduct annual reviews of their department's IT portfolio. Please 
describe your department's efforts to identify and reduce wasteful, 
low-value or duplicative information technology (IT) investments as 
part of these portfolio reviews.
    Answer. In 2013, DOT fundamentally revamped and reinvigorated the 
Departmental Investment Review Board (IRB) based on a portfolio review 
process. The IRB is the DOT's senior executive body charged with 
ensuring that the Department's IT investments align with DOT's 
strategic priorities, objectives, and OA operational missions. The DOT 
CIO recently implemented Interim Investment Guidance to further develop 
the investment process. The guidance centers on a data-driven, 
portfolio-based approach that will allow for an expansive and thorough 
look across the enterprise of DOT IT portfolios. This will allow the 
Department to make evidence-based decisions on pre-selection, 
selection, control, and evaluation of new and ongoing IT investments. 
It will also enable the elimination of legacy systems that are no 
longer required, enhance interoperability, eradicate redundancy, and 
leverage enterprise opportunities.

    Question 12. In 2011, the Office of Management and Budget (OMB) 
issued a ``Cloud First'' policy that required agency Chief Information 
Officers to implement a cloud-based service whenever there was a 
secure, reliable, and cost-effective option. How many of the 
department's IT investments are cloud-based services (Infrastructure as 
a Service, Platform as a Service, Software as a Service, etc.)? What 
percentage of the department's overall IT investments are cloud-based 
services? How has this changed since 2011?
    Answer. OCIO is developing a Cloud Strategy for the Department that 
will include an integrated framework to promote an iterative and 
incremental approach for moving to the cloud, an integrated governance 
structure for acquisition and risk management, and cloud-specific, 
well-aligned information security practices. The FAA is also working to 
finalize an enterprise-wide contract vehicle for a commercially 
outsourced cloud solution. This solution will be available to all of 
DOT.
    DOT has successfully leveraged the cloud to manage enterprise 
systems. For example, the Department's Enterprise Notification System 
(ENS) provides an enterprise-wide capability for notification in 
emergency situations for DOT at headquarters and in modal field sites. 
It has the capability for mass notification to alert groups of 
employees, or locales, simultaneously. The ENS has the capability to 
send a message via e-mail, cell phone, and landline phone. The platform 
also allows users to respond to questions or inquiries from the system 
to account for personnel during emergencies.
    In addition, DOT has deployed an enterprise Content Management 
System in the cloud to support web development across the Department. 
The DOT.gov website was completely redesigned during the migration to 
the cloud service and was deployed as the first cabinet-level website 
built in responsive design, a feature that supports mobile users. DOT 
has successfully migrated several legacy modal websites to the 
enterprise cloud service in an effort to reduce the duplication of web 
platforms.

    Question 13. Provide short summaries of three recent IT program 
successes--projects that were delivered on time, within budget, and 
delivered the promised functionality and benefits to the end user. How 
does your department/agency define ``success'' in IT program 
management? What ``best practices'' have emerged and been adopted from 
these recent IT program successes? What have proven to be the most 
significant barriers encountered to more common or frequent IT program 
successes?
    Answer.
  i.  The Department of Transportation's Departmental Procurement 
        Platform (DP2) modernization initiative supports the 
        Organizational Excellence strategic goal by standardizing and 
        integrating procurement and financial processes and systems to 
        better meet the dynamic mission of the Department. DP2 recently 
        achieved the first major deployment milestone on time and 
        within budget. In November 2014, NHTSA and FRA migrated from 
        their legacy PRISM systems to the integrated DP2 solution. The 
        DP2 deployment schedule is divided into three distinct waves to 
        reduce program risk and allow for analysis of lessons learned. 
        Lessons learned from first Wave were analyzed to benefit the 
        Wave 2 (FY16) and Wave 3 (FY17) deployments.

  ii.  The Electronic National Environmental Policy Act System (eNEPA) 
        tool expedites the National Environmental Policy Act (NEPA) 
        development process by facilitating concurrent Agency reviews, 
        allowing for quick, clear, and transparent issue resolution, 
        and promoting trust and consensus among project partners. The 
        results are efficient environmental reviews, improved results, 
        and reduced project development time and cost. FHWA delivered 
        this project in March 2014, ahead of schedule and under budget.

  iii.  The FAA Shared Services model is aligned with OMB's Shared 
        Services Concept, mapping the initial FAA IT Portfolio of 
        Services and supporting IT functions to the AOA Strategic 
        Initiatives. In FY 2013, the FAA IT Shared Services Office 
        (ITSSO) achieved an aggressive $36 million cost reduction in IT 
        spending. The FAA Office of Information & Technology (AIT) is 
        on course to achieve significant improvements in the 
        effectiveness and efficiency of service delivery, cost savings, 
        and rapid deployment of new services.

    Question 14. The Department of Transportation (DOT) has an 
estimated IT budget of $3.3 billion for FY 2015. FAA makes up almost 70 
percent of DOT or $2.3 billion of this amount. Unfortunately, DOT has 
gaps in its policies and processes for managing its software licenses. 
According to industry averages, agencies that do not proactively 
implement software license management and optimization best practices 
are likely overspending on software by as much as 25 percent. The GAO 
offered six recommendations to improve effective management of software 
licenses. Has the Department of Transportation adopted any of these 
recommendations? Please describe what efforts the Department of 
Treasury has made to improve the software license management practices.
    Answer. DOT regularly tracks and maintains a comprehensive 
inventory of software licenses. In response to the GAO audit on 
software licenses, DOT committed to develop an Information Technology 
Shared Services (ITSS) Software License Management Plan. This plan will 
describe software related roles, responsibilities and methodologies for 
managing software licenses within the DOT. In addition, DOT identified 
existing capabilities for software license management, including 
automated tools.

    Question 15. Every two years, the GAO releases its High Risk List 
to call attention to agencies and program areas that are high risk due 
to their vulnerabilities to fraud, waste, abuse, and mismanagement, or 
are most in need of transformation. In February, GAO released its 
latest high risk report and added IT acquisitions as an area that needs 
better tracking and oversight. In this year's report, GAO specifically 
identified the Department of Transportation Next Generation Air 
Transportation System (NextGen) as a high risk project. The GAO 
recommended NextGen receive significant management attention given its 
complexity, delays, and cost of $15-22 billion. To improve cost 
estimates and schedules for NextGen and other major air traffic control 
acquisition programs, GAO recommended that FAA, among other things, 
require cost and schedule risk analysis, independent cost estimates, 
and integrated master schedules, which the agency is working to 
implement. What improvements are being made to address GAO's concerns?
    Answer. (A) One lesson learned in the early deployment of our 
enroute automation modernization program was that testing of such a 
complex system cannot be done strictly in a lab. Workforce engagement 
is critical to success of any complex IT system. A system designed to 
enhance the capability of safety personnel must be scrutinized and 
wrung out during actual operations under carefully controlled 
conditions.
    To ensure such lessons and other best acquisition practices are 
followed on all major programs, the FAA established the program 
management organization. Further, the PMO resides in the air traffic 
organization to ensure operational management ownership of any problems 
that arise. The PMO tracks the programmatic risks each program carries 
and the mitigation tactics associated with each one. As a result, the 
FAA has established a robust process to elevate risk to ensure problems 
and concerns associated with any NextGen program get the highest levels 
of visibility so they can be properly managed.
    By engaging collaboratively with labor, and reorganizing program 
management to emphasize the professional discipline of cost, schedule 
and technical risk management, the FAA has been able to maintain cost 
and schedule variances of its ERAM program within acceptable limits 
since its rebaselining in 2011. We are applying this lesson learned to 
our current and future programs. From 2004-2014, the FAA's baselined 
programs have had a combined net cost growth of only 1.6 percent and 
schedule delay of 4.0 percent. In 2014 there was no net schedule delay 
for these programs, and only a 1.2 percent cost growth.
    (B) The FAA develops cost estimates for its programs through a 3 
stage process. First, preliminary costs are developed by the NextGen 
sponsoring office during its concept and requirements definition 
process. Second, for programs that successfully move beyond this stage, 
the program office then provides refined cost estimates during initial 
investment analysis. These estimates are independently reviewed by the 
finance organization's investment planning and analysis function. 
Finally, once approved by the Joint Resource Council, the program 
office engages industry through its competitive acquisition management 
process. This process calls for program office development of a 
detailed government cost estimate, which is again independently 
reviewed by the finance organization. This stage completes with 
evaluation of competitive bids for cost realism and reasonableness 
against the approved and vetted requirements of the program. The 
selected winning vendor bid is then used to update the system cost 
estimates that are then used to baseline the investment. So, while the 
FAA does not build an entirely separate set of independent cost 
estimates, a very expensive process due to need to maintain an entire 
organization dedicated to cost estimating, it does provide multiple 
reviews of its program office cost estimates prior to a final 
investment decision by its JRC.
    (C) The NextGen Integrated Master Schedule (IMS) is a tool designed 
to capture and track the progress of key NextGen portfolio-level 
activities and milestones, including NextGen dependencies on the six 
transformational programs and the impacts to the overall NextGen 
implementation timeline. The IMS is updated monthly for near-term 
milestones and quarterly for milestones more than a year away. The IMS 
captures program activities associated with NextGen implementation to 
2020.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Hon. Anthony R. Foxx
    Question 1. Mr. Secretary, as you know from your recent visit to 
Jacksonville, one of the major challenges facing Jacksonville is 
getting the port ready for the bigger cargo ships that will be coming 
through the Panama Canal. How can you work across agencies, such as 
with the Army Corps, to help our ports prepare for the Panama Canal's 
expansion?
    Answer. Through the Maritime Administration's StrongPorts Program, 
we work with a wide range of state and local agencies in an effort to 
improve infrastructure in ports throughout the United States and to 
ensure they are capable of meeting our future freight transportation 
needs. The StrongPorts' PortTalk Initiative facilitates meetings with 
public and private stakeholders, and may include other Federal agencies 
such as the U.S. Army Corps of Engineers, where appropriate. PortTalk 
engages these partners at the regional level to encourage improved 
collaboration and ensure port infrastructure is considered in the 
development of local, regional and statewide plans and other planning 
efforts. This initiative can increase communication and thereby support 
port needs, by helping local officials better understand program 
requirements, and by assisting them in the development of investment 
quality \1\ plans that can support operational and capital financing 
and project management. Additionally, the Federal agencies that have a 
role in supporting marine transportation have been developing tools to 
inform port infrastructure decisions, including research into better 
performance measures; improving maritime transportation data 
coordination; creating tools and guidance for infrastructure 
investment; and mechanisms for improving navigation safety in the 
ports.
---------------------------------------------------------------------------
    \1\ In order for a project to be investment quality, it must be 
supported by existing or projected market demand, be the most cost-
effective option to meet capacity/modernization needs, and have minimal 
external risk factors that impose uncertainty such as pending dredging, 
in-progress environmental reviews or permitting, required intermodal 
connectors, etc.

    Question 2. How would the GROW AMERICA Act help ports like 
Jacksonville make investments needed to accommodate bigger ships?
    Answer. The GROW AMERICA Act will help improve the movement of 
freight through our transportation system by making critical 
investments that will accommodate future growth by providing $18 
billion over six years to establish a new multimodal freight grant 
program. This program will fund innovative rail, highway, and port 
projects that will improve the efficient movement of goods across the 
country.
    The GROW AMERICA Act proposal will provide $7.5 billion over six 
years--an increase of more than 100 percent over current levels--for 
the highly successfully Transportation Investment Generating Economic 
Recovery (TIGER) competitive grant program, which can fund landside 
port investments. The bill also has a $6 billion competitive grant 
program called Fixing and Accelerating Surface Transportation (or 
``FAST''). FAST will provide grants to states, Tribes, and Municipal 
Planning Organizations (MPOs) that adopt bold, innovative strategies 
and best practices in transportation that have a positive long-term 
impact.

    Question 3. SunRail, Orlando's new commuter rail began operating 
this past spring, and has provided many benefits to the region. The 
President's FY 2015 budget recommended funding to expand SunRail, but 
an agreement for funding the project has not yet been reached. Mr. 
Secretary, your Department has already helped SunRail a great deal, but 
we must do more to capitalize on our investment. Will you commit to 
helping ensure this funding is released soon?
    Answer. The Department has been working closely with the Florida 
Department of Transportation (FDOT) on SunRail for more than ten years. 
That work has come to partial completion with the initial segment of 
the system rounding out its first year of operation. We have been 
supportive of the Phase 2 South extension, as demonstrated by its 
inclusion in the President's Fiscal Year 2015 budget proposal. Since 
that time, two things have occurred that impact how soon funding can be 
provided to the extension. First, Congress appropriated less funding in 
FY 2015 than was requested for the category of projects in which the 
SunRail extension was included, and directed us to give priority for 
the funding to projects seeking a less than 40 percent share of funds 
from the New Starts program. The SunRail Phase 2 South extension is 
seeking a 50 percent share. This impacts the speed with which we can 
distribute the funds. Second, FDOT made changes to the capital and 
operating cost projections for the SunRail Phase 2 South extension, and 
the law requires us to re-evaluate the new details of the project to 
ensure it meets all statutory requirements before we can distribute the 
funds. DOT is committed to analyzing the project fairly and thoroughly 
in accordance with the law, and we continue to meet regularly and work 
with the project sponsors and the Florida Delegation to achieve the 
best result for Florida's citizens and the American taxpayer.

    Question 4. China is quickly outpacing the United States and the 
rest of the world, when it comes to the development of high-speed rail. 
It is my understanding that China went from zero miles of high-speed 
rail in 2000 to roughly 11,000 miles today, with plans to reach about 
16,000 miles by 2020. What happens if we continue to fall further and 
further behind our global competitors in modern, efficient rail 
systems?
    Answer. The importance of transportation infrastructure to global 
economic competitiveness is indisputable. The World Economic Forum 
(WEF) notes, ``Extensive and efficient infrastructure is critical for 
ensuring the effective functioning of the economy. . . Well-developed 
infrastructure reduces the effect of distance between regions, 
integrating the national market and connecting it at low cost to 
markets in other countries and regions.''
    It is imperative that the United States continue to invest in the 
infrastructure that will enable the country to maintain and strengthen 
its position as a global economic leader in the 21st century and 
beyond. The WEF currently ranks the U.S. 16th in quality of overall 
infrastructure, down from 7th in 1999 and below several western 
European, Asian, and Middle Eastern countries. In the transportation 
sector, infrastructure investment has not kept pace with passenger and 
freight usage and needs, which has left our transportation 
infrastructure in an increasingly deteriorated state.
    With the U.S. population expected to grow by 70 million people in 
the next 30 years, rail will play an important role complementing our 
highway, transit, and aviation networks in meeting the passenger and 
freight mobility needs of this growing population. Rail continues to 
demonstrate strong public benefits, both domestically and abroad, and 
continued investment is critical to balance the Nation's transportation 
network and close the infrastructure deficit.

    Question 5. Two weeks ago, the FAA released its proposed rule for 
small unmanned aircraft systems, just days after the latest reported 
incident of an unmanned aircraft nearly colliding with an airplane. 
This particular incident was near Los Angeles International Airport, 
and the unmanned aircraft was seen at 4,000ft, well above the allowed 
altitude. This is just the latest incident of an unmanned aircraft 
flying dangerously and recklessly close to an aircraft with passengers 
onboard. Between now and the time the small unmanned aircraft rule is 
finalized, what is the department doing to protect the public, both in 
the air and on the ground, from irresponsible operators of unmanned 
aircraft?
    Answer. The FAA's approach for addressing unauthorized or unsafe 
hobby or recreational UAS operations is twofold: (1) to focus on public 
education and encourage operators to follow safety guidelines and (2) 
when warranted, to take enforcement action against anyone who operates 
carelessly or recklessly. The FAA has partnered with several industry 
associations to promote Know Before You Fly (KBYF), an outreach 
campaign designed to educate the public about using unmanned aircraft 
safely and responsibly. In addition, we produced two YouTube videos 
which reinforce our safety messaging and have been widely viewed, 
including one that reminded UAS/model aircraft operators that flights 
over the Super Bowl were prohibited, and that the Super Bowl stadium 
was a ``No Drone Zone.''
    While education is our preferred approach in light of evolving UAS 
regulatory structure and technological developments, the FAA retains 
the authority to and will take enforcement action against anyone who 
either (1) carelessly or recklessly operates hobby or recreational UAS 
or (2) commercially operates UAS in violation of currently applicable 
regulations. We are working with local law enforcement agencies to 
equip them to respond appropriately to such occurrences. Guidance from 
the FAA has been distributed directly to law enforcement partners and 
is publicly available on the FAA website.

    Question 6. Does the department, through the FAA, have the 
authority to develop stronger protections around recreational operation 
of unmanned aircraft?
    Answer. Section 336 of the FAA Modernization and Reform Act of 2012 
restricts the FAA Administrator from promulgating any new rules or 
regulations for model aircraft, or an aircraft being developed as a 
model aircraft.

    Question 7. Are you considering any technology to promote safer 
operation, whether through geo-fencing to keep unmanned aircraft within 
permitted airspace and away from areas where they might do harm, such 
as airports, or other technology to remotely identify reckless unmanned 
aircraft operators?
    Answer. On February 15, 2015, the FAA announced the Notice of 
Proposed Rulemaking (NPRM) for Operation and Certification of Small 
Unmanned Aircraft Systems and it has been available for comment as of 
February 23, 2015. We expect that public comments on the NPRM will 
include suggestions for technological solutions such as ``geo-fencing'' 
and identification requirements that address risk and safety. After the 
incident at the White House, one model UAS manufacturer began the 
process of voluntarily updating its flight software to include ``geo-
fencing'' restrictions; however, we cannot require manufacturers to 
include these technical enhancements outside the rulemaking process. We 
will evaluate the viability and applicability of any technological 
solutions that address risk and safety suggested via the NPRM comment 
period for possible inclusion in the final rule.

    Question 8. This Committee has held hearings on GM's faulty 
ignition switches and on Takata's exploding airbags. A consistent theme 
from these hearings has been that NHTSA is in dire need of more 
resources, particularly the agency's Office of Defects Investigations. 
While NHTSA and its dedicated employees do a very good job with limited 
resources, we are often asking NHTSA to find needles in haystacks. The 
Office of Defects Investigations currently only has 12 employees to 
sift through, digest, and analyze overwhelming amounts of consumer 
complaints and data. And it has fewer than 20 defect investigators. The 
American driving public would be better served if NHTSA had more 
resources to quickly identify and investigate defects, implement 
remedies, and raise public awareness of safety issues.
    Secretary Foxx, the President's budget calls for a 9 percent 
increase in NHTSA's budget, including more than doubling the staff at 
the Office of Defects Investigations. I applaud this proposal. It's 
long overdue. Can you explain to the Committee why this proposed 
infusion of resources is so important to the safety of the American 
driving public?
    Answer. The President is requesting $908 million for NHTSA to 
invest in initiatives that save lives on America's roads. These funds 
will be used to reduce traffic crashes and the more than 30,000 deaths 
that result each year. The President's Budget request proposes this 
increased level to address emerging traffic and vehicle safety issues, 
promote new technologies, and address safety defects that present a 
risk to the driving public. The budget reflects a particular emphasis 
on strengthening the resources available to the Office of Defects 
Investigation (ODI).
    The President's Budget would approximately triple defects 
investigation program funding, from $10 million in FY 2015 enacted to 
$31 million in FY 2016. Currently ODI is staffed with 51 people, 
including 16 investigators to examine every potential safety defect in 
nearly 270 million vehicles registered in 2013. The President's request 
provides for an additional 57 positions which more than doubles the 
personnel available to attend to this important work.
    The request includes two new offices:

  <bullet> The Trend Analysis Division will focus on efforts to review 
        safety data and identify near term and potential future risks 
        associated with emerging technologies--4 new positions.

  <bullet> The Field Investigation and Testing Division will provide 
        NHTSA with staff to conduct investigations of specific vehicles 
        involved in a fire, crash or other situation involving an 
        alleged defect--8 new positions.

    The requested resources will enable ODI to improve its 
effectiveness and meet growing challenges to identify safety defects 
quickly, and ensure remedies are implemented promptly, and the public 
is informed of critical information in an effective manner.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Hon. Anthony R. Foxx
    Question 1. Secretary Foxx, I know you view the rewrite of the Part 
23 rules for small airplanes as vital to safety and innovation. Can you 
assure this committee that the notice of proposed rulemaking to 
implement the bill I worked on with Senator Murkowski, the Small 
Airplane Revitalization Act, will be published in the Federal Register 
this summer?
    Answer. The Department of Transportation intends to submit the 
notice of proposed rulemaking (NPRM) to the Office of Management and 
Budget (OMB) this summer and anticipates publication of the NPRM in the 
Federal Register in December 2015. The Department of Transportation is 
committed to fulfilling the statutory obligations under the Small 
Airplane Revitalization Act (SARA), while also complying with our 
rulemaking obligations under the Administrative Procedure Act and 
applicable Executive Orders. The part 23 rewrite is working to 
incorporate the Part 23 Reorganization Aviation Rulemaking Committee 
recommendations and to accomplish the intent of SARA. The new rule will 
touch many different aspects of aviation, including the operational 
flight rules, and we must ensure all aspects of the rule can be applied 
and enforced, and do not have an adverse effect on aviation safety or 
aircraft airworthiness.

    Question 2. Secretary Foxx, I hear concerns from local governments 
about the amount of time it takes to get Federal permitting approval 
for simple highway and bridge projects. What is the U.S. Department of 
Transportation (DOT) doing to ensure simple projects, those under $5 
million, can be delivered as quickly as possible without unnecessary 
delays?
    Answer. On January 13, 2014, the Federal Highway Administration 
(FHWA) issued a final rule on MAP-21 Section 1317, which established a 
new categorical exclusion (CE) for federally-funded projects that 
receive less than $5,000,000 of Federal funds. This new CE simplifies 
the review and National Environmental Policy Act (NEPA) approval of 
projects that do not exceed this funding threshold, and may be applied 
to local government-sponsored projects.
    The Department also is finding other ways to deliver projects more 
quickly. For example, the FHWA's Every Day Counts (EDC) initiative is a 
State-based model to identify and rapidly deploy proven but 
underutilized innovations to shorten the project delivery process and 
enhance roadway safety. One example of an EDC innovation is the 
expanded use of programmatic agreements to articulate the roles, 
responsibilities, and actions for handling routine environmental 
requirements for commonly encountered projects. With more than 500 
programmatic agreements in place across the country, transportation 
departments and partner agencies have experienced a wide-range of 
benefits including cost savings and accelerated project delivery.
    The Department has also proposed additional ways to streamline 
project delivery, while protecting environmental and historic resources 
in the GROW AMERICA Act.

    Question 3. Would DOT support a pilot program that would allow a 
small group of locally-administered projects across the country 
receiving $5 million or less in Federal funds to demonstrate whether 
waiving or reducing certain Federal permitting requirements for those 
projects could reduce costs and expedite project delivery?
    Answer. The Department actively promotes new ways to reduce project 
costs and expedite project delivery while enhancing safety and 
protecting the environment. From our experience in developing the new 
CE for actions that use less than $5 million of Federal funds, we know 
that these actions may have environmental impacts, but those impacts 
rarely rise to the level of significance. Environmental permitting is 
triggered by project impacts; therefore, waiving permitting 
requirements would not provide an opportunity for the appropriate 
consideration or analysis of those impacts. There are, however, current 
best practices and programmatic approaches available to local 
governments that serve to make permitting requirements more efficient, 
thereby reducing delay and costs.
    FHWA's ``Federal-aid Essentials'' training developed by, and 
available from, the FHWA Resource Center, is a valuable transportation 
resource designed to help local agency professionals navigate the 
Federal-aid Highway Program. Federal-aid Essentials provides locals 
with easy-to-understand, just-in-time guidance on how to move a 
Federal-aid project through the process in a timely manner.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Hon. Anthony R. Foxx
    Question 1. The DOT and FAA have made progress in recent months 
toward integrating unmanned aerial vehicles, or UAVs, into our National 
Airspace System by releasing the small UAS proposed rule. However, this 
proposal was delayed by over a year, and we remain far behind other 
countries like the UK, Canada, and Japan. One industry group estimates 
that the U.S. is losing $27 million each day that integration is 
delayed. How will the Department allocate its resources to ensure the 
expedited release of the final rule?
    Answer. We recognize the very high priority the rule has with the 
entire aviation community. The FAA has and will continue to devote the 
necessary resources to ensure it can complete a final rule that 
provides an effective regulatory framework for this new aviation 
sector. The Office of the Secretary is equally committed to completing 
review of this project.

    Question 2. In the absence of the final rule, companies can only 
operate commercially if they receive permission through a long 
exemption process. Companies can't even conduct R&D on their own 
property without permission. What are the DOT and FAA doing to expedite 
this process so that companies like Amazon, which requested permission 
to test in Washington state back in August but still has not received 
an exemption, are not forced to move vital R&D work abroad?
    Answer. The FAA granted Amazon's Experimental Certificate on March 
19, 2015. The entire process took approximately four months to 
complete. Our previous experience with exemption requests involved 
commercial operations with a fixed aircraft configuration. Amazon's 
request for regulatory relief to perform research and development in 
support of their Amazon Prime Air program is the first of its kind and 
involves experimental aircraft with frequent prototype modifications to 
conduct research, which required additional assessment.
    The FAA typically issues experimental certificates to manufacturers 
and technology developers to operate a UAS that does not have a type 
certificate. Experimental certificates generally provide these 
companies with the best means and flexibility for conducting research 
and development with prototype aircraft.
    The FAA published a Notice of Proposed Rulemaking for small UAS 
operations on March 23, 2015. Until a final rule is issued, commercial 
operations are authorized by a combination of an airworthiness 
exemption issued under the provisions of Sec 333 of the FAA 
Modernization and Reform Act of 2012, and a Certificate of 
Authorization or Waiver (COA), which designates the approved airspace 
and operator parameters for a specific UAS operation.
Unmanned Aircraft Systems (UAS)
    Question 3. Secretary Foxx, two weeks ago, the FAA released its 
proposed rule for small unmanned aircraft systems, just days after the 
latest reported incident of an unmanned aircraft nearly colliding with 
an airplane. This particular incident was near Los Angeles 
International Airport, and the unmanned aircraft was seen at 4,000ft, 
well above the allowed altitude. This is just the latest incident of an 
unmanned aircraft flying dangerously and recklessly close to an 
aircraft with passengers onboard.
    Between now and the time the small unmanned aircraft rule is 
finalized, what is the department doing to protect the public, both in 
the air and on the ground, from irresponsible operators of unmanned 
aircraft?
    Answer. The FAA's approach for addressing unauthorized or unsafe 
hobby or recreational UAS operations is twofold: (1) to focus on public 
education and to encourage operators to follow safety guidelines and 
(2) when warranted, to take enforcement action against anyone who 
operates carelessly or recklessly. The FAA has partnered with several 
industry associations to promote Know Before You Fly (KBYF), an 
outreach campaign designed to educate the public about using unmanned 
aircraft safely and responsibly. In addition, we produced two YouTube 
videos which reinforce our safety messaging and have been widely 
viewed, including one that reminded UAS/model aircraft operators that 
flights over the Super Bowl were prohibited and that the Super Bowl 
stadium was a ``No Drone Zone.'' While education is our preferred 
approach in light of evolving UAS regulatory structure and 
technological developments, the FAA retains the authority to and will 
take enforcement action against anyone who either (1) carelessly or 
recklessly operates hobby or recreational UAS or (2) commercially 
operates UAS in violation of currently applicable regulations. We are 
working with local law enforcement agencies to equip them to respond 
appropriately to such occurrences. Guidance from the FAA has been 
distributed directly to law enforcement partners and is publicly 
available on the FAA website.

    Question 4. Does the department, through the FAA, have the 
authority to develop stronger protections around recreational operation 
of unmanned aircraft? And are you considering any technology to promote 
safer operation, whether through geo-fencing to keep unmanned aircraft 
within permitted airspace and away from areas where they might do harm, 
such as airports, or other technology to remotely identify reckless 
unmanned aircraft operators?
    Answer. On February 15, 2015, the FAA announced the Notice of 
Proposed Rulemaking (NPRM) for Operation and Certification of Small 
Unmanned Aircraft. We expect that public comments on the NPRM will 
include suggestions for technological solutions such as ``geo-fencing'' 
and identification requirements that address risk and safety. After the 
incident at the White House, one model UAS manufacturer began the 
process of voluntarily updating their flight software to include ``geo-
fencing'' restrictions; however we cannot require manufacturers to 
include these technical enhancements outside the rulemaking process. We 
will evaluate the viability and applicability of any technological 
solutions that address risk and safety suggested via the NPRM comment 
period for possible inclusion in the final rule.
Haneda/Open Skies
    Question 5. Secretary Foxx, U.S. carriers currently have only four 
flights each day into Tokyo's Haneda airport, despite significant 
demand for that market. According to a recent study by the Japanese 
government, additional slot capacity is available at that airport. What 
is the department of transportation doing to help open up this market 
and enable our carriers to take better advantage of our open skies 
agreement with Japan?
    Answer. The United States continues to be interested in meaningful 
access to Tokyo's Haneda Airport. During consultations in September 
2014, the Japanese delegation indicated that, despite the findings of 
the report, the Government of Japan did not have the flexibility to 
offer such expanded access to Haneda in the near term. Our governments 
continue to engage on this matter.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                          Hon. Anthony R. Foxx
Funding for Passenger Rail/Gateway
    Question 1. Mr. Secretary, Passenger rail is absolutely critical to 
my state, and in New Jersey and throughout the entire Northeast 
Corridor region, we face a staggering need to rebuild rail 
infrastructure that hundreds of thousands of passengers rely on every 
single day. In New Jersey, we know the harsh consequences of aging 
infrastructure. During Super Storm Sandy, corrosive salt water filled 
the ancient 100-year old tunnels that New Jersey Transit and Amtrak use 
to access Penn Station. Because of that corrosion, these tunnels will 
need to be shut down sometime in the not too distant future, which 
means we need to get serious about building their replacements. How 
challenging will it be to try to tackle a project like this without the 
sort of robust and reliable funding stream you've proposed for 
passenger rail?
    Answer. Congress has for decades funded highway, transit, and 
aviation programs through multi-year authorizations that provide 
predictable, dedicated sources of funding. Rail is unique in that it 
lacks a long-term, committed source of Federal revenue. As a result, 
passenger rail capital investments have generally failed to keep up 
with the needs of existing fleet and infrastructure, leading to a 
backlog of state of good repair and other basic infrastructure needs. 
The aging Hudson River rail tunnels are a prime example of critical 
infrastructure in need of rebuilding, modernization, and redundancy. 
These tunnels provide for the sole means of rail access into New York 
Penn Station for thousands of daily commuters from New Jersey and rail 
passengers from throughout the southern portion of the Northeast 
Corridor (NEC). A sudden loss of the tunnels would cripple NEC 
operations throughout the entire Washington, D.C. to Boston corridor, 
with potential economic damage to the Nation estimated at nearly $100 
million per day in transportation-related impacts and productivity 
losses.
    Addressing major, multi-year infrastructure investments such the 
Hudson River tunnels and other NEC assets is extremely challenging 
without predictable, dedicated funding. Funding certainty enables 
states, local governments, railroads, and other stakeholders to better 
plan for and to make large-scale infrastructure investments. Across the 
transportation industry, we are increasingly seeing state and local 
officials abandon planning on more ambitious projects due to the 
uncertainty affecting the Highway Trust Fund. This uncertainty is only 
amplified in the intercity passenger rail sector, where there is no 
dedicated source of funding to begin with. Further complicating 
matters, project costs and potential delays increase as projects 
languish to be initiated--environmental reviews and engineering designs 
typically have to be reevaluated if not acted upon in a timely manner. 
The Department urges Congress to enact a comprehensive, long-term 
funding bill to provide funding certainty to our surface transportation 
programs, including rail.
Infrastructure Investment
    Question 2. I am concerned that much of the conversation within 
Congress seems to focus on filling the gap in the Highway Trust Fund. 
If all we do is fill the gap, we essentially freeze investment at 
current levels. As you know, those levels are totally inadequate to 
respond to the challenges we face. Do you agree with me that we will 
have failed as a Congress if all we do is fill the gap in the Highway 
Trust Fund?
    Answer. I agree that we need to more than just fill the gap in the 
Highway Trust Fund. The country's infrastructure deficit is such that 
additional investment is needed just to maintain the current system, 
not to mention addressing growing volumes of passenger and freight 
movement. Congress has always found a way to respond to the need to 
fund infrastructure. As you may recall, Congress originally established 
the Highway Trust Fund in 1956 to eliminate the uncertainty of annual 
appropriations which funded road construction from the General Fund. I 
am confident that this Congress will act to support transportation in a 
long-term and sustainable manner.

    Question 3. Even more frustrating than our lack of investment is 
that we continue to use general funds to bolster the highway trust 
fund--we've transferred more than $65 billion since 2008. This is 
basically robbing Peter to pay Paul, because this is money that could 
have been used to support important passenger rail, transit, and 
freight projects. Assuming that we once again have to take more general 
funds to bail out the highway trust fund, don't you think a portion of 
those funds should be more flexible so states can invest in other 
projects like rail and freight?
    Answer. I agree that the need for infrastructure investment extends 
beyond our roads. Much like the Highway Trust Fund today, which 
contains separate accounts for highways and transit, the Transportation 
Trust Fund proposed in the GROW AMERICA Act would have accounts that 
provide funding for highways, transit, and rail, as well as a new 
multimodal account for freight projects. State and local governments 
have made it clear that the budgetary certainty provided by long-term 
trust fund authorization is an absolutely critical element to being 
able to plan and make the transformational investments necessary to 
grow our economy. We plan to take an active role in helping Congress 
commit to a longer term agreement on surface transportation funding on 
a bipartisan basis.
Truck Length
    Question 4. In response to a May 2013 incident in which a truck 
carrying an oversize load crashed into an interstate bridge in 
Washington state, Congress required GAO to review the role of Federal 
and state agencies in overseeing oversize vehicles. GAO recently 
released a report entitled, ``Transportation Safety: Federal Highway 
Administration Should Conduct Research to Determine Best Practices in 
Permitting Oversize Vehicles.'' While GAO collected information from 
all 50 states and the District of Columbia, the report does not provide 
specific information on which states currently allow double 33 foot 
trailers to operate. Would you please provide the Committee with a list 
of states that currently allow or prohibit double 33 foot tractor 
trailers on their roads? For these states please also include 
information about any special permitting that is required to allow the 
trucks on any roads.
    Answer. With the exception of the Intermodal Surface Transportation 
Efficiency Act of 1991 (ISTEA) longer combination vehicle (LCV) freeze, 
Federal truck length limits are permissive (e.g., Federal laws 
prescribe the minimum dimensions states must allow on the National 
Network). This means that states have the authority to allow twin 33 
foot trailers on parts of the highway system that are not the 
Interstate System or National Network. Whether a State requires the 
issuance of a permit for twin 33 foot trailers to operate is governed 
by State laws and regulations.
    ISTEA imposed two separate freezes: (1) on the maximum weight of 
LCVs, which consist of any combination of a truck tractor and two or 
more trailers or semitrailers which operate on the Interstate System at 
a gross weight over 80,000 pounds; and (2) on the overall length of the 
cargo carrying units of combination vehicles with two or more such 
units where one or both exceed 28.5 feet in length on the National 
Network. The maximum weight of longer combination vehicles and the 
maximum length of the cargo carrying units of combination vehicles is 
the weight or length in actual and legal operation in a State on June 
1, 1991, as documented in Appendix C to 23 CFR 658. Also frozen were 
the routes and conditions in effect on June 1, 1991, for vehicle 
combinations subject to the freeze, as shown in Appendix C to 23 CFR 
658.
    The Department is not aware of the operation of twin 33-foot 
tractor trailers in the U.S. other than a recent effort by a carrier in 
Florida to try this configuration on a limited basis. Based on the LCV 
freeze information contained in Appendix C to 23 CFR 658, the following 
table lists the states that could allow a tractor and two trailing 
units at a cargo-carrying length that exceeds 66 feet (e.g., two 33 
foot trailers). States not included in the table below would follow the 
Federal standard of allowing the length established under the Surface 
Transportation Act of 1982 (known as the ``STAA double''--28-foot or 
28.5-foot trailers) on the National Network. Laws affecting State 
routes not subject to Federal law are not tracked by the Department, 
and therefore, are not noted in this table. The table also indicates 
whether a permit is required. It should be noted that, in many cases, 
LCVs are limited to specific routes on the National Network or 
Interstate System.

------------------------------------------------------------------------
            Maximum
           Length of
  State       Two         Permit          Notes for Selected States
            Trailing     Required
          Units (ft.)
------------------------------------------------------------------------
AK        95           No
------------------------------------------------------------------------
AR        95           Yes
------------------------------------------------------------------------
CO        111          Yes
------------------------------------------------------------------------
FL        106          Yes          Tandem-trailer units may operate on
                                     the turnpike system under a Tandem
                                     Trailer Permit issued by the
                                     Florida Turnpike Authority
------------------------------------------------------------------------
ID        95           Yes
------------------------------------------------------------------------
IN        106          Yes          Permits for loads which exceed
                                     90,000 pounds
------------------------------------------------------------------------
IA        100          No
------------------------------------------------------------------------
KS        109          Varies       Permits are not required for
                                     operation on the Kansas Turnpike
------------------------------------------------------------------------
MA        104          Yes
------------------------------------------------------------------------
MO        110          Yes          Annual blanket over-dimension
                                     permits are issued to allow a truck
                                     tractor and two trailing units
                                     legally operating in Kansas,
                                     Nebraska, or Oklahoma to move to
                                     and from terminals in Missouri
                                     which are located within a 20-mile
                                     band of the State Line for these
                                     three states.
------------------------------------------------------------------------
MT        103          No           Special permit required for double
                                     trailer combinations if either
                                     trailer exceeds 28.5 feet.
------------------------------------------------------------------------
NV        95           Yes
------------------------------------------------------------------------
NY        102          Yes
------------------------------------------------------------------------
ND        103          No
------------------------------------------------------------------------
OH        102          Yes          Tractor-semitrailer-semitrailer
                                     combinations require a permit if
                                     over 75 feet in length, excluding
                                     an allowed 3-foot front overhang
                                     and a 4-foot rear overhang.
------------------------------------------------------------------------
OK        110          Yes          Doubles with at least one trailer or
                                     semitrailer over 29 feet in length
                                     are limited to the Interstate and
                                     other multi-lane divided highways
------------------------------------------------------------------------
OR        68           Yes
------------------------------------------------------------------------
SD        100          Yes
------------------------------------------------------------------------
UT        95           Yes
------------------------------------------------------------------------
WA        68           Yes          Combinations with a cargo-carrying
                                     length over 60 feet in length but
                                     not exceeding 68 feet must obtain
                                     an annual overlength permit to
                                     operate.
------------------------------------------------------------------------
WY        81           No
------------------------------------------------------------------------

Portal Bridge
    Question 5. Despite our interest in a long-term transportation 
funding solution, it's a distinct possibility that we may have to pass 
another short-term solution this summer to keep our highway and transit 
programs going. It that's the case, and assuming it will require 
another infusion of general funds, as it has in the past, do you 
support dedicating a portion of this funding to advance critical 
passenger rail projects that are ready to go, like Portal Bridge?
    In the absence of a dedicated funding for rail in a new 
transportation trust fund, would you support providing states and 
localities the flexibility to use Highway Trust Fund dollars for 
intercity passenger rail projects? Given the amount of general funds 
used to create Highway Trust Fund dollars, what rationale can there be 
for denying states the discretion to use these dollars to invest in 
passenger rail projects like Portal Bridge than can help enhance 
mobility, spur economic development and relieve highway congestion?
    Answer. DOT supports funding for the Portal Bridge replacement 
project. Portal Bridge is a major asset located in the heart of the 
busiest section of the Northeast Corridor (NEC), carrying thousands of 
daily passengers on approximately 450 daily Amtrak and NJ Transit 
trains. A replacement of today's 105-year-old, two-track moveable 
bridge with a new, fixed span is necessary to achieve increased 
reliability and quality of service on the NEC and to advance the 
corridor toward a state of good repair.
    Recognizing the critical importance of a Portal Bridge replacement, 
DOT has collaborated with both Amtrak and the State of New Jersey to 
complete environmental reviews and final design of the new fixed span, 
including a $38.5 million-dollar Federal grant from the Federal 
Railroad Administration's (FRA) High-Speed Intercity Passenger Rail 
(HSIPR) Program. Portal Bridge is ready to enter into construction. 
Failure to provide further funding to Portal Bridge and other similar 
shovel-ready projects means additional delays and added costs, as 
planning, environmental and design work often must be revised to 
reflect future conditions if construction does not begin soon.
    It's clear that current funding levels are inadequate and the time 
is right for further investment in projects such as Portal Bridge. 
While DOT believes that current programs such as the Railroad 
Rehabilitation and Improvement Financing (RRIF) program, TIGER Program, 
and FTA formula funds are among the funding options available, DOT also 
urges Congress to consider the predictable, dedicated funding for the 
high-performance rail system identified in the GROW AMERICA Act as 
essential to the solution. The President's FY16 Budget requests $550 
million help bring NEC infrastructure into a state of good repair and 
focuses Amtrak's profits from the NEC back into infrastructure needs 
along the corridor. These additional funds would allow critical 
projects such as Portal Bridge to advance and help to reduce the 
infrastructure deficit facing our Nation.
    The urgency to invest in these projects means we wait to advance 
critical rail infrastructure needs. Thus, DOT would support Congress 
dedicating a portion of Trust Fund dollars to advance shovel-ready 
passenger rail projects, such as Portal Bridge. DOT also supports 
providing flexibility to states and local governments to use a portion 
of Trust Fund dollars to advance those projects of greatest need in 
their communities, which may include intercity passenger rail projects.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Hon. Anthony R. Foxx
Issue: The need for a rule governing transportation of crude by rail
    Question 1. The transportation of crude oil by rail has raised many 
serious concerns over the past few years as the amount of crude being 
shipped by rail has increased dramatically. The dangers have been 
evidenced recently with horrific crude rail accidents in West Virginia 
and Illinois. These come after other horrendous accidents, most notably 
the 2013 disaster in Canada in which 47 people were killed.
    The FRA introduced a proposed rule on some aspects of crude 
transportation in July 2014. The proposed rule would require stronger 
tank car standards as well as improvements in operations, such as speed 
restrictions and enhanced braking technology. Congress called on DOT to 
finalize a rule on this issue two months ago. I understand the rule is 
now before the Office of Management and Budget, and the earliest time 
for release is May 2015.
    I sought to address this issue in my rail safety bill as well, and 
will keep pushing until we can rest assured these mile-long traveling 
pipelines no longer pose a threat to the communities through which they 
travel. Meanwhile, the National Transportation Safety Board has put 
improved tank car standards on its top priorities list.
    How concerned should we be that the administration has still not 
issued the new rule, and that we're now waiting several months more--
meanwhile these trains, like mile-long missiles of crude, continue to 
roll through our communities?
    Answer. As you note, the Department has drafted a final rule that 
addresses tank car standards and operational improvements that is 
currently under interagency review at OMB. We are very concerned about 
the recent accidents and have taken a number of steps, including 
several emergency orders and a Call-to-Action that resulted in many 
important safety actions taken voluntarily by the rail carrier and oil 
industries. A summary of the more than two dozen actions that the 
Department has taken is available on PHMSA's website (http://
www.phmsa.dot.gov/hazmat/osd/chronology).
Issue: The need for a valid, credible study of truck size and weights
    Question 2. In the latest surface transportation bill, MAP-21, 
Congress required DOT to study the implications of increasing the 
permissible size and weight of commercial trucks on our roads and 
highways. The study will contemplate increasing the weight limit to 
97,000 pounds, whereas the average weight of most cars is only about 
3,000 to 4,000 pounds.
    Congress mandated that DOT conduct a comprehensive evaluation of 
the effects on safety, our infrastructure's condition, our environment 
and our freight network of allowing larger, heavier trucks than those 
permitted today. The last time DOT conducted a comprehensive study was 
fifteen years ago, so a new, updated analysis of this issue is critical 
to helping Congress craft long-term policies ensuring the safety and 
sufficiency of our country's transportation network. The study, 
however, appears to include conflicts of interest, flawed data and poor 
methodology.
    The study must be credible so that we can have a thorough, accurate 
assessment of the impact to roads and bridges of bigger trucks. I have 
heard from many officials from across Connecticut and elsewhere and 
they are in overwhelming consensus that larger trucks would pose a 
grave danger to the traveling public, our infrastructure, our 
environment and economy. What is the status of the study?
    Answer. The Department is currently analyzing the results and 
making sure that the information contained in the study is factual and 
clearly communicated. The Department recognizes the importance of this 
study, and we are working diligently to complete our review. As soon as 
our review is completed, we will prepare the draft technical reports 
for release to the independent peer review panel and the public.
    The Department is also making revisions to the study's desk scans, 
as recommended by the initial report from the Transportation Research 
Board Peer Review Panel. Once we release the technical reports, we will 
launch the second phase of the Peer Review. At that time, we will also 
schedule the final Public Input Session. When these steps are 
completed, we will deliver to you the final Report to Congress.

    Question 3. What efforts have you taken to address the flaws that 
many safety experts, labor leaders, law enforcement officials and 
others have raised?
    Answer. The Department has focused on producing a study that is 
transparent, accurate, objective, and data-driven. The Department 
implemented numerous actions to insulate the study results and final 
report from any potential conflicts of interest. The researchers who 
worked on the study were vetted for conflicts, potential bias, and 
bound by an agreement to do no other related work during the study 
period. Subject matter experts at the Department are writing the final 
written materials, including the technical reports, summary report, and 
eventual Report to Congress.
    The data and methodologies were analyzed by an independent third-
party panel of research experts. The Department contracted with the 
gold standard of Federal peer review, the National Academies of Science 
(NAS Committee), to obtain an external review on our process in both 
the desk scan and research phases of the study. The concerns outlined 
in the initial report of the Peer Review Panel were directed at the 
weaknesses of all of the available methods and the impediments to 
predict with accuracy the outcome of potential changes in truck size 
and weight laws. These flaws are not unique to this study or the 
Department's management of the study work; they are weaknesses inherent 
in the data sets and methodologies available to anyone wishing to 
conduct this analysis. The lack of data availability, data quality, and 
models limits the level of analysis in some areas of study. Even with 
robust data, actual market responses, safety impacts, and costs are 
difficult to predict, and the limitations in existing data sets and 
models will impact the ability of the study to support national-level 
conclusions.
    The Peer Review Panel did recommend a consistent organization of 
elements within each of five desk scans, a clear linkage between 
material in each desk scan and its corresponding project plan, and a 
synthesis of methods and results from prior studies to the results of 
this study. The Department agrees with these recommendations, and we 
are incorporating these changes in the final desk scans and related 
documents. The Department will provide a full accounting of the 
assumptions and limitations for each study area in the final report.
    Finally, I have met with and listened to the issues and concerns 
expressed by groups on all sides of the truck size and weight issue, 
including those groups you noted. The concerns and viewpoints we have 
heard have been fully considered in the preparation of the study.

    Question 4. As a former mayor of a major city, would you be 
concerned with even heavier trucks rolling through your community?
    Answer. Elected officials face ongoing challenges to advance the 
economic prosperity of their communities while protecting the health 
and safety of the people and the integrity of the infrastructure. In 
making decisions on the size and weight of vehicles allowed on the 
Nation's Interstate System, Congress must carefully weight a variety of 
factors. The work performed and the findings produced in this study 
will help inform Congress' decisions on these matters, but will not 
suggest any particular course of action.
Issue: NHTSA Penalty Authority
    Question 5. In testimony before the Consumer Protection 
Subcommittee last September, NHTSA's Acting Administrator David 
Friedman testified in response to a question about General Motor's 
conduct, that NHTSA, ``found very clearly that General Motors had 
information that they failed to share with us that hindered our 
investigation.'' He further responded that, ``to hold [GM] accountable, 
we got them to pay the maximum possible fine of $35 million.'' Does the 
Department of Transportation believe $35 million in penalties is a 
severe enough fine to serve as an effective deterrent to the automobile 
industry?
    Answer. No, we believe the current maximum is too low, particularly 
for large companies, which is why our GROW AMERICA Act contains a 
provision to raise the maximum penalty to $300 million.

    Question 6. Should the law cap NHTSA's civil penalty authority at 
all?
    Answer. We are interested in any tool which will help NHTSA be 
effective. Our GROW AMERICA Act provision sets the maximum penalty at 
$300 million.

    Question 7. Has the Department found any evidence of automakers 
factoring in penalty amounts when deciding how much to invest in the 
safety of new models?
    Answer. No, the Department has not found such evidence.

    Question 8. Does the Department have a position on whether Congress 
should consider criminal penalties for knowing and willing violations 
of the Motor Vehicle Safety Act?
    Answer. The Motor Vehicle Safety Act already includes a provision 
for criminal penalties. Section 30170 creates criminal liability for 
companies that falsify or withhold information from NHTSA with respect 
to defects that have caused death or serious bodily injury. The 
Department supports all efforts to help protect consumers from motor 
vehicle safety defects.
Issue: NHTSA Child Car Seat Rulemaking
    Question 9. In January 2014 NHTSA announced it was proposing a new 
rule that requires child car seats to withstand side-impact collisions 
of up to 30 miles an hour. The test is designed to determine how well a 
particular car seat protects a child from a vehicle's door crushing, as 
well as the overall impact of the crash. Congress gave DOT a deadline 
of October 2014 to finalize this rule, but it hasn't been completed. 
Can you please provide the Committee with a written update on that 
proceeding?
    Answer. Under the January 2014 notice, child restraints would be 
tested with a newly-developed dummy representing a 3-year-old child, 
called the ``Q3s'' dummy, and with a well-established 12-month-old 
child test dummy. In June, NHTSA extended the public comment period for 
the proposal after confirming the Q3s dummy was generally unavailable 
from the dummy manufacturer. NHTSA continues to work with the dummy 
manufacturer to ensure adequate availability of the dummy for testing 
and evaluation. At the same time, we are allowing sufficient time for 
the public to obtain and test with the dummy and comment on the 
proposal, and for NHTSA to address those comments in developing a final 
rule. In accordance with MAP-21 Section 31505, the Department notified 
the chairs and ranking members of the House Committee on Energy and 
Commerce and of the Senate Committee on Commerce, Science, and 
Transportation on March 12, 2015 that we expect to publish the final 
rule improving the protection of children in child restraint systems 
during side impact crashes by August 2016.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Hon. Anthony R. Foxx
    Question 1. Describe the role of your department's Chief 
Information Officer (CIO) in the development and oversight of the IT 
budget for your department. How is the CIO involved in the decision to 
make an IT investment, determine its scope, oversee its contract, and 
oversee continued operation and maintenance?
    Answer. The DOT Office of the CIO currently participates on three 
boards involving IT investments. First, the DOT CIO co-chairs the 
Department's Investment Review Board (IRB) with the Deputy Secretary. 
This board is responsible for the approval of the DOT $3.2 billion IT 
Portfolio. The Deputy Chief Information Officer is also a voting member 
of the Investment Working Group to support enterprise investment 
management. In addition, the Deputy Chief Information Officer chairs 
with Acquisition Strategy Review Board (ASRB) with the Senior 
Procurement Executive and the Deputy Chief Financial Officer to ensure 
Departmental review of significant procurements.
    Over the past three months, the DOT CIO has been working closely 
with the Chief Financial Officer (CFO) and the Departmental Budget 
Officer to ready our Federal Information Technology Acquisition Reform 
Act (FITARA) implementation plan. The budget authority in FITARA will 
strengthen the DOT budget process relating to IT.

    Question 2. Describe the existing authorities, organizational 
structure, and reporting relationship of the Chief Information Officer. 
Note and explain any variance from that prescribed in the newly-enacted 
Federal Information Technology and Acquisition Reform Act of 2014 
(FITARA, PL 113-291) for the above.
    Answer. The DOT CIO reports to the Secretary of Transportation and 
is the principle advisor to the Secretary on all matters relating to 
IT. The DOT CIO sits on the Secretary's cabinet and is involved in all 
business decisions. The DOT CIO coordinates Departmental IT through the 
Investment Review Board (IRB) and the DOT CIO Council. The DOT CIO also 
manages enterprise IT shared services via the Common Operating 
Environment (COE).
    With regards to FITARA, the DOT CIO will take a more operational 
role in the execution of Operating Administration IT budgets and 
acquisition through the implementation of these authorities. DOT will 
implement CIO authorities throughout DOT, and in close coordination 
with the Office of General Counsel, FITARA will be implemented at FAA 
consistent with the restrictions and authorities contained in 49 U.S.C. 
106, 40110, 40121.

    Question 3. What formal or informal mechanisms exist in your 
department to ensure coordination and alignment within the CXO 
community (i.e., the Chief Information Officer, the Chief Acquisition 
Officer, the Chief Finance Officer, the Chief Human Capital Officer, 
and so on)?
    Answer. In addition to consistent informal coordination and 
collaboration across the DOT CXO community, DOT has formed the 
following formal bodies:

  <bullet> The DOT Investment Review Board (IRB) consists of the Deputy 
        Secretary of Transportation, DOT Chief Information Officer 
        (CIO), DOT Chief Financial Officer (CFO), Senior Procurement 
        Executive (SPE), Under Secretary for Policy, and Operating 
        Administrators as voting members. The board ensures data-
        driven, enterprise-focused IT governance across the Department 
        by providing strategic direction and leadership for budget and 
        acquisition alignment.

  <bullet> The CIO Council ensures that the Department realizes optimal 
        value from its IT investments, by taking advantage of 
        enterprise IT systems and infrastructure opportunities and 
        delivering capabilities at an affordable cost and acceptable 
        level of risk. CIOs from across the Department participate on 
        this council.

  <bullet> The Investment Working Group provides overarching strategic 
        and tactical leadership and direction in support of the DOT 
        investment management and capital planning process. The DOT 
        Deputy Assistant Secretary for Budget and Programs, DOT Deputy 
        CIO, DOT SPE and the Director of the Departmental Office of HR 
        Management are voting members.

  <bullet> The Acquisition Strategy Review Board (ASRB) is chaired by 
        the DOT SPE, DOT Deputy CFO, and the Deputy CIO and ensures 
        coordination across the Department on strategic acquisition 
        decisions.

    DOT believes, and it has been the experience to-date, that 
implementing FITARA will strengthen the already close relationship 
between the CIO, CFO, CAO, and CHCO. This strengthening will greatly 
benefit the Department as DOT moves through IT challenges and issues.

    Question 4. According to the Office of Personnel Management, 46 
percent of the more than 80,000 Federal IT workers are 50 years of age 
or older, and more than 10 percent are 60 or older. Just four percent 
of the Federal IT workforce is under 30 years of age. Does your 
department have such demographic imbalances? How is it addressing them?
    Answer. DOT's IT force is comparably imbalanced with a slightly 
larger percentage, 55.5 percent, of IT employees over age 50.
    To promote efficiency and effectiveness of the Information 
Technology (IT) Workforce, the DOT Chief Information Officer (CIO) is 
leading an effort to analyze and evaluate the current alignment of 
resources supporting the Department's IT efforts. Based on this review, 
the Office of the DOT CIO proposed a multi-year IT workforce initiative 
to reduce reliance on contractors and concomitantly increase the number 
of Federal positions. The realignment will provide two main benefits. 
First, DOT will realize cost savings and efficiencies due to higher 
contractor costs as compared to the full-cost of Federal employees. 
Second, DOT will realign Federal and contractor roles to improve 
efficiency, develop succession capability, and improve demographic 
imbalances. Many IT functions currently performed by contractors should 
be performed by government employees.

    Question 5. How much of the department's budget goes to 
Demonstration, Modernization, and Enhancement of IT systems as opposed 
to supporting existing and ongoing programs and infrastructure? How has 
this changed in the last five years?
    Answer. In 2015, the Department's IT portfolio will total $3.3 
billion. Of this amount, $1.61 billion is expected to be committed to 
Development, Modernization and Enhancement efforts (DME), which equates 
to approximately 50 percent of the DOT IT budget. Over the past five 
years, the DME spend has shown a modest decline from approximately 56 
percent to the current 50 percent of the DOT IT budget.

    Question 6. What are the 10 highest priority IT investment projects 
that are under development in your department? Of these, which ones are 
being developed using an ``agile'' or incremental approach, such as 
delivering working functionality in smaller increments and completing 
initial deployment to end-users in short, six-month time frames?
    Answer. DOT recognizes the importance of moving to an agile 
development methodology where it is appropriate. FAA investments 
accounted for 87 percent of the DOT IT portfolio, and the requirements 
for developing and maintaining 24/7 operational mission essential and 
safety critical systems are very stringent and not necessarily 
candidates for agile development. GAO also concurred on this 
assessment. GAO 14-361 (3112890) As noted in the GAO Report, there are 
high priority DOT investments that do not lend themselves to agile 
development. Examples of safety critical investments, which require 
reliability, availability and maintainability standards at or above 
99.9999 percent, these high priority investments include:

  i.  En Route Automation Modernization (ERAM)

  ii.  Telecommunications Infrastructure (FTI)

  iii.  Data Communications (DataComm)

  iv.  Terminal Automation Modernization and Replacement (TAMR) phase 1

  v.  Terminal Automation Modernization and Replacement (TAMR) phase 3

    While these systems may not follow strict ``agile development'' 
guidelines, they do follow waterfall national deployment schedules that 
are built around minimizing deployment risks.
    As part of the GAO report analysis, DOT and other surveyed agencies 
identified ``three types of investments for which it may not always be 
practical or necessary to expect functionality to be delivered in 6-
month cycles: (1) investments in life-cycle phases other than 
acquisition (2) investments intended to develop IT infrastructure; and 
(3) research and development investments.'' As part of the final 
report, GAO did acknowledge the merit of these concerns.
    When appropriate, DOT has leveraged the agile development 
methodology with success:

   vi.  FHWA is leveraging incremental development where appropriate 
        for the FMIS 5 upgrade. FHWA has employed a modular approach 
        for development and delivery to the FHWA Division Offices and 
        State DOTs into the User Acceptance Testing environment, with 
        the first set of modules delivered in April 2014 and the last 
        modules being delivered through March 2015. FHWA determined 
        that it would be too cost prohibitive and time intensive to 
        roll out the FMIS 5 upgrade incrementally in the Production 
        environment due to impacts to the three FHWA systems that are 
        being modernized, as well as the external systems that FMIS 5 
        interfaces with, including DOT Delphi accounting system and the 
        State DOTs' systems. This approach was discussed with OMB 
        during a project review in July 2014.

  vii.  FRA supports the DOT safety mission through management of the 
        Railroad Safety Information System (RSIS) to provide government 
        agencies, railroad labor and management, and the general public 
        with information on railroad safety. The system captures data 
        on railroad accidents, injuries, highway-rail crossing 
        collisions, railroad operation data, FRA-conducted railroad 
        inspections, and maintenance of the highway-rail crossing site 
        inventory. FRA's current contract to manage RSIS is nearing 
        completion and is expected to be re-competed. System 
        requirements are in development and it is anticipated that 
        development work within that contract will be required to use 
        the agile methodology. Agile is one of the recommendations 
        expected out of FRA's current IT and

  viii.  Web and mobile development across the Department has moved to 
        the agile methodology. For example, FRA used the agile 
        methodology to develop data visualization suite, Corporate 
        Express, which was transitioned to the Department in 2014. In 
        addition, the Departmental DOT.gov platform was deployed 
        utilizing agile development, as are improvements to the 
        platform.

  ix.  The NHTSA306 Crash Data Acquisition Network (CDAN) is a new 
        system that supports NHTSA's Data Modernization Program. Agile 
        stories are categorized, prioritized and packaged for sprint 
        releases. NHTSA has developed the ``PowerCenter'' tool to 
        support the agile methodology.

  x.  NHTSA's Corporate Average Fuel Economy (CAFE) Management Suite is 
        an IT solution to support NHTSA's rulemaking and enforcement 
        for this program. CAFE is utilizing the agile methodology for 
        development and implementation. A sprint release has been 
        developed and is tracked for CAFE Public Information Center 
        deployment.

    Question 7. To ensure that steady state investments continue to 
meet agency needs, OMB has a longstanding policy for agencies to 
annually review, evaluate, and report on their legacy IT infrastructure 
through Operational Assessments. What Operational Assessments have you 
conducted and what were the results?
    Answer. The Common Operating Environment (COE) provides shared 
services for many DOT users, consisting of end user support, 
telecommunication, network, server and cyber security operations. The 
COE recently completed an Operational Assessment to examine, measure, 
and track the current operational status against an established set of 
cost, schedule, and performance parameters. The Operational Assessment 
concluded that the COE is providing a valuable service to its 
customers. As part of the FITARA implementation, the DOT CIO will work 
with Operating Administrations to fold commodity IT that is currently 
managed at the component level into the COE to reduce duplication and 
gain efficiency through an expanded enterprise shared services model. 
FAA also has an approved shared services model that leverages access to 
centralized expertise and infrastructure and enables the economies-of-
scale within each IT function.

    Question 8. What are the 10 oldest IT systems or infrastructures in 
your department? How old are they? Would it be cost-effective to 
replace them with newer IT investments?
    Answer.

  i.  The National Transportation Atlas (NTA) is a web mapping 
        application that presents transportation networks, features and 
        statistics about our Nation's transportation system. The NTA 
        has not been widely advertised, because it is running on 10 
        year old hardware with an operating system and application that 
        is nearing end-of-support-life. The NTA is moving to a cloud 
        platform that will support expanded data storage and computing 
        capacity, and additional functionality including web feature 
        services, and scaling.

  ii.  The Bureau of Transportation Statistics established TranStats in 
        2001 as an intermodal transportation database. This database 
        was created in response to a Congressional mandate. TranStats 
        comprises the collection, processing and dissemination of 
        airline data such as finances, performance and traffic for 
        transportation statistical analysis and reporting functions. 
        Initially TranStats focused on delivery of data from the 
        Airline Reporting Data Information System and but functionality 
        was extended in 2010 to include online data collection from all 
        airlines. The system is undergoing a thorough planning and 
        alternative analysis for modernization and consolidation of its 
        architecture. The modernization is expected to be complete by 
        the end of Fiscal Year 2017.

  iii.  As part of the Common Operating Environment (COE), the DOT 
        CIO's office currently provides a telecommunication system for 
        DOT employees. The existing system was purchased in FY 2007 
        when DOT relocated into the Navy Yard headquarters building. 
        The legacy system does not provide modern features and is not 
        scalable based on the changing telecommunications needs of the 
        DOT workforce. A COE Communications Workgroup, consisting of 
        representatives from across the Department, has been formed to 
        examine current requirements and conduct market research as 
        part of a recommended approach to modernize the legacy 
        telephone system.

  iv.  The Saint Lawrence Seaway Development Corporation (SLSDC) is 
        decommissioning its 30-year-old in-house financial management 
        system as of 2014 and migrating to the Department of Interior's 
        Federal Shared Service Provider (FSSP) solution. It is expected 
        that the new system will be operational in late FY 2015.

  v.  While FHWA has operated systems for up to 25 years, 
        infrastructure is replaced and upgraded as needed. FHWA 
        regularly evaluates IT investments via the Application 
        Portfolio Rationalization (APR) process, with the most recent 
        report approved in February 2015.

  vi.  The Hazardous Materials Information System (HMIS) has been an 
        integral tool used PHMSA's Office of Hazmat Safety for daily 
        activities since the 1970s. Over the years, it has been 
        modified and updated as business needs and technologies have 
        evolved. Currently, the technology and processes used by HMIS 
        have become outdated and costly to maintain. PHMSA is in the 
        process of modernizing the functions performed by HMIS under 
        its IT modernization effort. The old system is expected to 
        sunset in 2018. These modernized functions will provide process 
        improvement efficiencies, as well as cost savings.

  vii.  The NHTSA Grants Tracking System (GTS) was initiated in 2000 
        and is slated to be replaced with the Grants Management 
        Solution (GMSS) in 2025. GMSS is a modernization initiative 
        that will automate the full grants management life cycle and 
        enhance financial tracking.

  viii.  The NHTSA Artemis system was in initiated in 2002 and consists 
        of complaints from vehicle owners, early warning reporting data 
        submitted by manufacturers, and recall and investigation 
        information. Modernization of this system is necessary to 
        adjust a high volume analysis of data. It is slated to end in 
        2024.

  ix.  The Transit Electronic Award Management System (TEAM) is FTA's 
        primary grants management tool. TEAM runs on an older 
        infrastructure that is at the end of its technical and 
        functional life. As a result, FTA is replacing TEAM using a 
        modern architectural solution which will modernize IT 
        capabilities across the component, with a focus on grant 
        management support. The modernization will leverage a Business 
        Process Management (BPM) software platform, delivered as a 
        commercial Cloud service. TEAM is expected to be decommissioned 
        in 2016.

  x.  The FAA operates over 20 investments that are 10 years or older. 
        All investments are monitored and assessed annually for 
        technology refresh or replacement. Legacy systems in the 
        process of replacement include the Automated Radar Terminal 
        System (ARTS) and the Instrument Landing System (ILS).

    Question 9. How does your department's IT governance process allow 
for your department to terminate or ``off ramp'' IT investments that 
are critically over budget, over schedule, or failing to meet 
performance goals? Similarly, how does your department's IT governance 
process allow for your department to replace or ``on-ramp'' new 
solutions after terminating a failing IT investment?
    Answer. Under the DOT IT governance model, investments are tracked 
by Operating Administrations (OA) as well as the DOT OCIO Investment 
Analysis Team (IAT). The IAT works with the OA Capital Planning and 
Investment Control (CPIC) coordinators and other OA representatives to 
conduct analytical reviews of IT investments. The IAT uses cost and 
schedule baseline data, as well as performance metrics and risk 
assessments provided by the OAs, to generate investment analysis. As 
our process grows more robust, preliminary findings will be shared with 
applicable OAs via Issue Papers to help resolve or clarify perceived 
discrepancies prior to submission to the Investment Review Board (IRB) 
supporting boards. As the DOT IT governance process continues to 
mature, any unresolved issues will be presented to the IRB and 
applicable supporting boards. With the implementation of FITARA, the 
DOT CIO will continue to strengthen these reviews and recommendations.
    In FY 2013, FAA began a migration from their legacy Lotus Notes e-
mail system to Microsoft 365 in the cloud. As part of the procurement, 
DOT initially anticipated a move from the on premise Microsoft Exchange 
environment managed by the Common Operating Environment (COE) to the 
Microsoft 365 cloud. DOT worked closely with the FAA team throughout 
the FAA migration, and subsequently completed an analysis to understand 
the potential benefits of the move. This project was discontinued by 
the DOT CIO when it became clear that the cost benefit analysis did not 
support the migration.
    This decision was unanimously supported by the DOT CIO Council. In 
accordance with the FAA Acquisition Management System (AMS), the Joint 
Resources Council (JRC) is the FAA's investment decision making body 
charged with the responsibility of approving and overseeing the 
management of investments regardless of the type of funding 
appropriation, allocating resources and establishing program offices 
chartered with the responsibility of managing approved investments. The 
JRC manages investments by conducting Acquisition Quarterly Program 
Reviews and reviewing the results of Post Implementation Reviews. Based 
on the data presented to the JRC during the aforementioned reviews, the 
JRC may require changes to the investment strategy or the approved 
program baseline.

    Question 10. What IT projects has your department decommissioned in 
the last year? What are your department's plans to decommission IT 
projects this year?
    Answer. Operating Administrations at DOT have had success 
decommissioning legacy infrastructure in adoption of the Common 
Operating Environment (COE) shared services solution. For example, the 
Railroad Safety Information System (RSIS) was migrated from aging 
servers hosted at a commercial data center into the DOT COE in a 
modern, virtualized environment beginning in October, 2013. The 
previous commercial hosting environment was decommissioned in January, 
2014. Additionally, FTA is planning to decommission two older systems 
after their replacements are deployed to the modernized FTA IT 
platform. Both the National Transit Database (NTD) and Transit 
Electronic Award Management System (TEAM) are scheduled to be 
decommissioned beginning in Q1 FY 2016.
    DOT has also seen success in the migration from duplicative 
platforms into enterprise solutions. For example, the creation of a 
Departmental web platform resulted in the migration and decommissioning 
of legacy hardware for several modal websites. Modes have also had 
success leveraging the Departmental SharePoint collaboration 
environment. DOT is in the process of finalizing the decommissioning of 
the 2007 internal SharePoint site. The 2010 internal SharePoint site 
has replaced the legacy 2007 environment.
    The Department of Transportation's Departmental Procurement 
Platform (DP2) modernization initiative consolidates eight (8) 
disparate Performance and Registration Information Systems Management 
(PRISM) procurement systems onto a common platform that is integrated 
with the Department's financial system, Delphi. In November 2014, NHTSA 
and FRA migrated from their legacy PRISM systems to the integrated DP2 
solution as part of Phase 1. Consolidation of the remaining PRISM 
instances will be completed in Phase 2 and Phase 3 of the DP2 program.
    PHMSA has also demonstrated success reviewing existing requirements 
to determine what investments should be decommissioned. For example, 
prior to FY 2013, PHMSA managed over 90 physical mission system servers 
and had the third largest data center foot print in DOT. In FY 2013, 
PHMSA reduced the physical server footprint by 62 percent.DOT believes 
the increased investment review authority under FITARA will give the 
Department greater visibility into all IT projects. Decommissioning 
based on consolidation into enterprise shared services will be a major 
focus in the review of IT spending.

    Question 11. The newly-enacted Federal Information Technology and 
Acquisition Reform Act of 2014 (FITARA, PL 113-291) directs CIOs to 
conduct annual reviews of their agency/department's IT portfolio. 
Please describe your department's efforts to identify and reduce 
wasteful, low-value or duplicative information technology (IT) 
investments as part of these portfolio reviews.
    Answer. In 2013, DOT fundamentally revamped and reinvigorated the 
Departmental Investment Review Board (IRB) based on a portfolio review 
process. The IRB is the DOT's senior executive body charged with 
ensuring that the Department's IT investments align with DOT's 
strategic priorities, objectives, and OA operational missions. The DOT 
CIO recently implemented Interim Investment Guidance to further develop 
the investment process. The guidance centers on a data-driven, 
portfolio-based approach that will allow for an expansive and thorough 
look across the enterprise of DOT IT portfolios. This will allow the 
Department to make evidence-based decisions on pre-selection, 
selection, control, and evaluation of new and ongoing IT investments. 
It will also enable the elimination of legacy systems that are no 
longer required, enhance interoperability, eradicate redundancy, and 
leverage enterprise opportunities.

    Question 12. In 2011, the Office of Management and Budget (OMB) 
issued a ``Cloud First'' policy that required agency Chief Information 
Officers to implement a cloud-based service whenever there was a 
secure, reliable, and cost-effective option. How many of the 
department's IT investments are cloud-based services (Infrastructure as 
a Service, Platform as a Service, Software as a Service, etc.)? What 
percentage of the department's overall IT investments are cloud-based 
services? How has this changed since 2011?
    Answer. OCIO is developing a Cloud Strategy for the Department that 
will include an integrated framework to promote an iterative and 
incremental approach for moving to the cloud, an integrated governance 
structure for acquisition and risk management, and cloud-specific, 
well-aligned information security practices. The FAA is also working to 
finalize an enterprise-wide contract vehicle for a commercially 
outsourced cloud solution. This solution will be available to all of 
DOT.
    DOT has successfully leveraged the cloud to manage enterprise 
systems. For example, the Department's Enterprise Notification System 
(ENS) provides an enterprise-wide capability for notification in 
emergency situations for DOT at headquarters and in modal field sites. 
It has the capability for mass notification to alert groups of 
employees, or locales, simultaneously. The ENS has the capability to 
send a message via e-mail, cell phone, and landline phone. The platform 
also allows users to respond to questions or inquiries from the system 
to account for personnel during emergencies.
    In addition, DOT has deployed an enterprise Content Management 
System in the cloud to support web development across the Department. 
The DOT.gov website was completely redesigned during the migration to 
the cloud service and was deployed as the first cabinet-level website 
built in responsive design, a feature that supports mobile users. DOT 
has successfully migrated several legacy modal websites to the 
enterprise cloud service in an effort to reduce the duplication of web 
platforms.
    Question 13. Provide short summaries of three recent IT program 
successes--projects that were delivered on time, within budget, and 
delivered the promised functionality and benefits to the end user. How 
does your department define ``success'' in IT program management? What 
``best practices'' have emerged and been adopted from these recent IT 
program successes? What have proven to be the most significant barriers 
encountered to more common or frequent IT program successes?
    Answer.

  i.  The Department of Transportation's Departmental Procurement 
        Platform (DP2) modernization initiative supports the 
        Organizational Excellence strategic goal by standardizing and 
        integrating procurement and financial processes and systems to 
        better meet the dynamic mission of the Department. DP2 recently 
        achieved the first major deployment milestone on time and 
        within budget. In November 2014, NHTSA and FRA migrated from 
        their legacy PRISM systems to the integrated DP2 solution. The 
        DP2 deployment schedule is divided into three distinct waves to 
        reduce program risk and allow for analysis of lessons learned. 
        Lessons learned from first Wave were analyzed to benefit the 
        Wave 2 (FY16) and Wave 3 (FY17) deployments.

  ii.  The Electronic National Environmental Policy Act System (eNEPA) 
        tool expedites the National Environmental Policy Act (NEPA) 
        development process by facilitating concurrent Agency reviews, 
        allowing for quick, clear, and transparent issue resolution, 
        and promoting trust and consensus among project partners. The 
        results are efficient environmental reviews, improved results, 
        and reduced project development time and cost. FHWA delivered 
        this project in March 2014, ahead of schedule and under budget.

  iii.  The FAA Shared Services model is aligned with OMB's Shared 
        Services Concept, mapping the initial FAA IT Portfolio of 
        Services and supporting IT functions to the AOA Strategic 
        Initiatives. In FY 2013, the FAA IT Shared Services Office 
        (ITSSO) achieved an aggressive $36 million cost reduction in IT 
        spending. The FAA Office of Information & Technology (AIT) is 
        on course to achieve significant improvements in the 
        effectiveness and efficiency of service delivery, cost savings, 
        and rapid deployment of new services.

    Question 14. Drunk driving is an issue I have fought to end since I 
was New Mexico's Attorney General. I want to thank the department for 
its ongoing support of the DADSS study. As you know, FY16 is the last 
year for which the program is authorized under the ROADS SAFE act. This 
public-private partnership has developed some great technology. But we 
still have more work left to do to get this project to the finish line. 
So I hope I can count on your support. Of course, DADSS is only one 
part of the safety issues that surround drunk driving prevention 
efforts. I am pleased to see the President's ongoing commitment to 
high-visibility enforcement programs, such as the annual Drive Sober or 
Get Pulled Over initiative. Do you foresee changes to NHTSA's research 
operations, in particular to its DADSS work or drunk driving data 
collection?
    Answer. Given the more than 10,000 highway deaths involving alcohol 
impairment that occur each year, NHTSA remains committed to research 
operations to reduce drunk driving and the resulting deaths. NHTSA 
expects to continue the Driver Alcohol Detection System for Safety 
(DADSS) cooperative research program to develop technology that could 
passively detect a driver's blood alcohol content and prevent impaired 
driving through at least 2017. The current DADSS research program, 
which built upon previous cooperative research, started in 2013. It is 
a 5-year Cooperative Agreement between NHTSA and the Automotive 
Coalition for Traffic Safety (ACTS), which includes 17 automakers. 
Funding for the DADSS program has been authorized and appropriated to 
the program for the first 3 years of the new Cooperative Agreement, and 
if funding is authorized and appropriated for the remaining two years 
of the agreement, the research program is expected to continue making 
significant progress toward integrating and testing the technology in 
real vehicles by 2016.

    Question 15. Do you believe NHTSA has sufficient resources to 
continue providing at least the same level of support to drunk driving 
prevention efforts with the growth of distracted driver prevention 
efforts?
    Answer. NHTSA has had a comprehensive program to combat impaired 
driving for many decades, including research, demonstration projects, 
public information, grants to states, and technical assistance. We 
began our focus on distracted driving more recently, and our efforts, 
with those of our safety partners, have been instrumental in the 
enactment of State distracted driving laws. We believe we have the 
appropriate balance between the two program areas, given the relative 
magnitude of the problems. These safety problems have persisted, so the 
GROW AMERICA Act requests additional funding and flexibility for states 
to address both impaired and distracted driving. GROW AMERICA would 
provide additional pathways for states to be eligible for both grant 
programs, while at the same time continuing to incentivize them to 
adopt and implement effective laws. The Administration has also 
requested additional funding for both grant programs. These changes 
would provide the Agency with additional resources and tools necessary 
to provide adequate support for both our drunk and distracted driving 
programs and activities.

    Question 16. How is the agency managing the need to address both of 
these critical issues?
    Answer. NHTSA has been applying its existing resources as provided 
by Congress to address these issues. These are both critical safety 
areas, with impaired driving responsible for more than ten thousand 
deaths annually. Through our approach in relying on data-based problem 
identification, implementation and evaluation, NHTSA is committed to 
addressing impaired driving from whatever sources available. NHTSA will 
also continue the Agency's successful strategy in partnering with 
states and key national organizations to leverage resources and 
maximize safety impacts.

    Question 17. While there are many provisions in the GROW America 
proposal that I think are helpful and support, I have concerns about 
the proposed changes to the 4(f) historic preservation protections. I 
recently wrote you on the subject and am still awaiting a reply. In my 
letter, I outline the potential problems that these changes would make, 
including further complicating the project review process by adding an 
additional layer of bureaucracy and new regulatory requirements. Has 
the department considered the concerns raised by state and tribal 
historic preservation officers to the proposed changes?
    Answer. Yes, the Department considered many concerns and comments 
in the development of the GROW AMERICA bill. The process envisioned by 
Section 1005 is intended to be applied in a limited number of cases 
where the parties are in agreement that no alternative exists to avoid 
the protected historic resource, and the agreement prepared under 
Section 106 of the National Historic Preservation Act satisfies the 
conditions to minimize harm to the resource. The intent is to reduce 
the need for unnecessary avoidance analysis in those limited cases in 
which there is clearly no alternative to the preferred solution, such 
as improving an existing historic rail alignment. Further, we believe 
it will improve the Section 106 review process if we have ensured that 
necessary protections and mitigation are agreed upon before signing the 
Memorandum of Understanding.

    Question 18. If so, where would the resources to provide the 
necessary additional support to these professionals come from in the 
budget?
    Answer. We already have the ability to participate with the State 
DOTs in funding liaison positions at State Historic Preservation 
Offices (SHPO) in order to expedite our projects through the review 
process. About half of the states at any given time have DOT liaisons 
in their SHPO. Other parties in the process could also benefit from the 
online interactive training in Section 4(f) currently available. We a 
re committed to working with State and tribal historic preservation 
officers who are engaged in the Section 106 process to ensure that they 
are provided an opportunity for comment, without adding substantial 
burden.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                          Hon. Anthony R. Foxx
    Question 1. The Michigan Department of Transportation and the 
University of Michigan, in partnership with industry, are working to 
develop an entire system of connected and automated transportation on 
the streets of southeastern Michigan through 2021. They are also 
looking to expand the successful V2V Safety Pilot in Ann Arbor for an 
additional three years, with a greater emphasis on V2I. If we continue 
to focus on advancing intelligent transportation systems in vehicles 
and in smarter infrastructure--we can spur innovation, create jobs, 
discover new business models and opportunities not previously possible, 
and we can save thousands of lives.
    Secretary Foxx--How does the DOT, as part of the GROW AMERICA Act, 
plan to advance intelligent transportation systems?
    Answer. In his FY 2016 Budget Request, reflected in the revised 
GROW AMERICA Act proposal, the President recognized the value of 
connected vehicles and infrastructure, saving lives while improving 
mobility and reducing environmental impacts. President Obama's visit to 
the Federal Highway Administration's research center last July 
celebrated the advances we are making through research in this exciting 
field.
    The President's budget request for FY16 proposes $158M for ITS 
research--that is a $64 million increase over the FY15 enacted budget 
of $94 million; an increase of 68 percent. This is a huge vote of 
confidence in what the ITS Program is accomplishing, and in the promise 
for the future of surface transportation, as we move ITS research along 
the continuum from connected cars to more fully automated vehicles. 
Research that ties connected vehicles to connected infrastructure will 
advance safety and mobility goals even further.
    The significant budget increase proposed by the President enables 
us not only to more swiftly realize the safety and other benefits of 
vehicle-to-vehicle and vehicle-to-infrastructure communications, but 
also to accelerate testing and research on the safe introduction of 
automated vehicles in America's transportation systems. GROW AMERICA 
would add an automated vehicle emphasis to the ITS Program goals and 
authorities, in support of Departmental goals of enabling and 
accelerating the development and deployment of automated vehicles, 
evaluating the transformational potential of automated vehicles in a 
real-world environment while reducing deployment risks for industry and 
society.
    More recently, the Department just closed the competition 
announcement for our first round of Connected Vehicle (CV) Pilots 
Deployment Projects. We've been partnering with industry and academia 
for over a decade in connected vehicle research to leverage the 
potentially transformative capabilities of Dedicated Short Range 
Communications (DSRC) and other wireless technology to make surface 
transportation safer, smarter, and greener. Following on to our 
successful Safety Pilot in Ann Arbor, MI, the CV Pilots Deployment 
Project seeks to spur initial implementations of connected vehicle 
technology deployments in real world settings to deliver near-term 
safety, mobility, and environmental benefits to the public. Pilot 
deployments offer an opportunity for stakeholders and multiple partners 
to develop operational ITS systems that exist well beyond the life of 
the program.

    Question 2. How can the Administration's action help accelerate the 
development and deployment of this technology by academia and industry?
    Answer. The Department has completed and will continue to pursue 
several actions to help accelerate the development and deployment of 
Vehicle-to-Vehicle (V2V) communications and applications. As previously 
mentioned, the Department expects to announce awards for the CV Pilots 
Deployment Project in the Fall of 2015. In addition, USDOT has been 
successfully working with a broad range of stakeholders including 
vehicle manufacturers, academia, industry associations, public 
agencies, and equipment suppliers, to develop, test, and evaluate the 
Dedicated Short Range Communications (DSRC) communications technology 
for safety. This work led to a decision by USDOT to require the DSRC 
technology in all new vehicles in a future year. This positive decision 
was followed up by an Advance Notice of Proposed Rulemaking (ANPRM) in 
August 2014. Currently, USDOT is completing additional research and 
analysis needed to support the development of a Notice of Proposed 
Rulemaking planned for 2016.
    Specifically, the Connected Vehicle research program:

  <bullet> Developed and demonstrated key safety applications, such as 
        those related to intersection crash safety.

  <bullet> Provides technical resources and services that facilitate 
        the adoption of current ITS technologies while supporting early 
        adopters of evolving and new technologies including test beds 
        and certification configurations.

  <bullet> Helps industry develop open architecture and common 
        standards to accelerate commercialization of ITS research, 
        including the demonstrated compatibility of radio systems from 
        multiple vendors, verified interoperability among different 
        vehicle types from different vehicle manufacturers (cars, 
        trucks, buses), and developed and demonstrated aftermarket and 
        retrofit devices that can bring the technology to the existing 
        vehicle fleet faster.

  <bullet> Developed a secure communications approach utilizing 
        existing public key infrastructure (PKI) technology, adapting 
        PKI for a mobile environment and successfully demonstrated 
        fundamental operations of secure and trusted communications via 
        PKI in a real-world setting.

  <bullet> Showcased the feasibility of the technology in a variety of 
        real world environments via performance testing in multiple 
        urban and rural settings, including a 3,000 vehicle model 
        deployment Safety Pilot in Ann Arbor, Michigan.

  <bullet> Has solicited applications for the Connected Vehicle (CV) 
        Pilots Deployment Project, which seeks operational applications 
        that capture and utilize new forms of connected vehicle and 
        mobile device data to improve system performance and enable 
        stronger performance-based systems management. [The proposal 
        due date for the CV Pilots Broad Agency Announcement was March 
        27, 2015.]

  <bullet> Integrates outreach and professional capacity building into 
        the technology, testing, and evaluation lifecycle to involve 
        users in the early resolution of problems to speed market 
        adoption.

    Question 3. Besides the incredible life-saving safety benefits of 
these technologies--what do you see as some of the other benefits of 
V2V and V2I?
    Answer. Safety is USDOT's top priority, and connected vehicle 
technologies could address over 80 percent of crashes involving 
unimpaired drivers. After focusing USDOT's research and deployment 
efforts on safety applications, a wide range of downstream applications 
such as improved mobility and environmental sustainability are coming 
into focus. Wireless connectivity in our vehicles and infrastructure 
will help generate new data about how, when, and where vehicles 
travel--information which transportation managers can analyze to help 
make roads less congested, and build in safeguards to protect privacy.
    In addition, connected vehicle technologies will generate real-time 
data that drivers and transportation managers can use to make more 
efficient ``green'' transportation choices. Indeed, a variety of ITS 
applications have been deployed that provide mobility and environmental 
benefits, including advanced traffic signal systems, ramp meters, smart 
parking applications, transit signal priority, dynamic routing 
applications for fleet operators, and active traffic demand management 
(ATDM) strategies.
    Also, following on the heels of the successful Safety Pilot Model 
Deployment in Ann Arbor, the USDOT is seeking to expand field testing 
beyond safety applications and has solicited applications for the 
Connected Vehicle (CV) Pilots Deployment Project, which seeks 
operational applications that capture and utilize new forms of 
connected vehicle and mobile device data to improve system performance 
and enable stronger performance-based systems management.

    Question 4. The focus on intelligent transportation systems has 
been on keeping drivers and passengers safe--but I'm curious about how 
the DOT plans to account for the protection of pedestrians, 
motorcyclists, and bicyclists as part of the connected and automated 
vehicles ecosystem?
    Answer. With fatalities involving pedestrians, motorcyclists, and 
bicycles representing approximately 30 percent of all traffic related 
deaths, USDOT understands the special safety needs and challenges 
associated with these vulnerable groups. The protection of pedestrians, 
motorcyclists, and bicyclists, are all part of the Department's ongoing 
efforts in the areas of connected and automated vehicle research.
    The USDOT is already engaged in a study to identify vehicle to 
pedestrian applications that would warn the driver, pedestrian or both 
of an impending collision using DSRC technology, and we are estimating 
the potential benefits of such warnings. In FY14, USDOT reviewed and 
assessed operational and prototype pedestrian detection and warning 
systems, held two focus group meetings on technology acceptance/
usability, and began analyzing the role of DSRC and other 
communications methods. In FY15-16, the Department plans to test 
vehicle-to-pedestrian (V2P) technologies at the Turner Fairbank Highway 
Research Center (TFHRC) intersection test bed for market readiness and 
real world implementation. Both intersection and non-intersection 
(i.e., mid-block) crashes will be tested.
    In terms of automated technologies, the department has been 
researching systems that can automatically brake a vehicle to avoid 
striking a pedestrian, referred to as pedestrian crash avoidance and 
mitigation (PCAM) systems. The goal of this research is to complete 
performance requirements, test procedures which can be used by the 
Department, and specifically, the National Highway Traffic safety 
Administration (NHTSA) to make key next steps decisions. NHTSA 
estimates that these systems could potentially address up to 46 percent 
of pedestrian crashes.
    Motorcycles equipped with Vehicle Awareness Devices (VADs) were 
already part of the Safety Pilot Model Deployment conducted in 
Michigan, and with our industry research partners (CAMP) have completed 
a preliminary assessment of the performance requirements for applying 
DSRC technology to motorcycles. USDOT is currently developing plans for 
the next phase of research related to applying connected vehicle 
technology to address pedestrian and motorcycle crashes, and we 
anticipate projects involving laboratory, simulations, and 
demonstration testing to be initiated in the coming year.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
